-





                           •



     Required Ily Public
Department of Defense
�                 Department of Defense
Inspector General
�                           Inspector General
400 Army Navy Drive
�                      400 Army Navy Drive
Arlington, VA 22202-4704
�            Arlington, VA 22202-4704

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
                              	
                              	        	


                                                                                                                                                                     iannual Report
                                                                                                                               sp ec  tor General Sem
                                                                                                        t of D  ef en se   In                                           are dedicated
                                                                   es  en  t  the Departmen                                  pt  em   be   r 30, 2010. We                                 d
                                       I am please    d   to  pr                                          1 thro   ug h   Se                                          , and abuse; an
                                                       r  th  e  re  po   rt  in  g period April                  ay er s  to   id en  ti fy fraud, waste                      ms.
                                  to Congress fo                                     arfighters and
                                                                                                            taxp                                    ions and progra
                                          orki  ng  on   behalf of the w                            s  of  th e D  ep artment’s operat                             entified the need
                                                                                                                                                                                            to
                                  to   w
                                                     effi  ci en  cy    an   d   effectiven      es
                                                                                                                  D ef en  se   R ob  ert M. Gates id                           -e ss en ti al
                                   improve the                                              , Secretary of                                                                 sion
                                                                 t-wide priority                                                                r to sustain mis
                                        As a Departmen                                          es  in  D  oD   op  erations in orde                       iq  ue    po  sition to directly
                                                                            d    efficienci                                             IG     in a un
                                    improve effec       tiv en   es  s an                                   rtise  pl ac  es  D   oD                                      IG will continue
                                                                         y   au   thority and expe                                of  th  e Secretary, DoD
                                    activities. Our
                                                          st at  ut  or                                    iven   th e fo  cu  s                                           and efficiency
                                                            ev  em    en   t  of   that priority. G                      ot  e ec  on  om      y, effectiveness,
                                     impact the ac       hi                                                         om
                                                                                           t functions to pr
                                                ze ou r  ex  tensive oversigh                                                                                           ons, the Guam
                                     to  ut ili
                                                                      ar tm     ent.                                         s  C  on  ti ngency Operati                                  ost
                                      throughout       th  e  D  ep                                       d to O   ve rs  ea                                           some of our m
                                                        rt  hi gh    lig ht   s  our work relate                    R ei nv  es  tm  en   t Act as well as
                                           This repo                                          Recovery and
                                                                d the American                                                                                            art agencies
                                       Realignment, an                      st ig  ations, and insp
                                                                                                             ections.
                                                                                                                                       w    ith our counterp
                                       significant au      di ts ,  in ve                                     we w   or k   jo in tly                                       it Agency, the
                                                                 h   ou   r  im    po  rtant mission,                       Se  rv  ic e,   th  e Air Force Aud                         the Air
                                            To accom       pl is
                                                                                      A ge nc   y, th  e Naval A    ud   it
                                                                                                                                                In  ve st ig at  ive Service, and
                                                                rmy Aud           it                                         Crim     in   al                                            esses the
                                        including the A                          at  io n  C om    m  and, the Naval                       ht   se  ct io n   of   this report addr
                                                                 Investig                                                          rs ig
                                        Army Criminal                                                        e Services Ove
                                                                     ec  ia  l In   vestigations. Th                                                                                      ples of
                                         Force Office      of   Sp
                                                                               es   e ag  en  ci es .                                        , ou   r eff or   ts  save lives. Exam
                                                                 ts of th                                                              tly
                                         accomplishmen                                                       t more importan
                                                                   ve   bi   lli on   s of dollars, bu                                                                                  sfy existing
                                             Our effor     ts  sa
                                                                                   e  D ep  ar  tm  en  t include:                       at    co  ul d  be    re  directed to sati
The	Honorable	Gordon	                                               s for th                                DoD inventory
                                                                                                                                     th
                                          identified saving                         illion in excess
Heddell	swears	in	before	a	                                     g   $7  0.  1   m                                                                                                       ents relating
                                          •	 Identi      fy  in
                                                                                                                                        lt   of   cr im  in  al   and civil judgm
                                                 requirements.                                                                   resu
congressional	hearing.                                                                                    vernment as a
                                                                   $3   03    m   illion to the go                                                                                        ers include:
                                           •	 Retur       ni ng
                                                                                                                                                    d w  el  fa re   of our warfight
                                                  to investigations
                                                                               .                                                , safe   ty  , an                                           r analysis
                                                                                      d ri sk s  re la ted to the health                       bo    dy  ar  m   or   DoD collects fo
                                                                        enti     fie                                                      of
                                                Examples of id                                                ease the amount
                                                                      di  ng     effi ciencies to incr                            n of new threat
                                                                                                                                                              s.
                                                                                                                                                                                           ngers to our
                                            •	 Recom          m  en
                                                                                   ec  tiv en  es s  an d aid in detectio                 ,  w  hi  ch  id  en   ti fied potential da
                                                                              eff                                in Afghanistan
                                                   to increase the
                                                                      on    el  ec  tr ical safety issues                                                                                   commend
                                             •	 Repor        ti ng
                                                                                                                                          of   al  l D  oD     IG    employees; and
                                                                                                                                                                                                 r
                                                    warfighters.                                               r the hard work                                               munity on thei
                                                            to   ex   pr es   s  m   y  appreciation fo                   em    be rs  of     th  e oversight com                   fo r  bo  th their
                                                  I want                                          ag  en cies, and     m                                     sp   ir e  our wor  k
                                                                         ices,      D  ef en se                                   embe       rs   w  ho  in                                 epartment
                                              the military serv                    e  w  an t  to  th  an k the service m                   or   t of  th  e  C  on   gress and the D
                                                                                                                                                                                                  d
                                                                        ts. W                                  e continued su
                                                                                                                                      pp                                    oD programs an
                                              accomplishmen                       . W   e appreciate th                                         provement of D
                                                              d  sa   cr ifi  ce                                         nt  in  uo  us   im
                                               service an                                              bility and co
                                                                           omote accounta
                                               as we work to pr
                                                operations.
                                                                                                                             dell
                                                                                                               Gordon S. Hed
                                                                                                                             er al
                                                                                                               Inspector Gen
STATISTICAL HIGHLIGHTS


SUMMARY OF AUDIT ACTIVITIES

Reports Issued                                                              66
Monetary Benefits
         Recommendations Made on Funds Put to Better Use        $144.6 million
         Achieved Monetary Benefits (Funds Put to Better Use)      $4.1 billion

SUMMARY OF INVESTIGATIVE ACTIVITIES

Total Returned to the U.S. Government                             $303 million
Seizures and Recoveries                                         $194 thousand
Civil Judgments                                                   $213 million

Criminal Judgments                                                $41.8 million

Administrative Judgments                                          $47.9 million
Investigative Cases
         Indictments                                                       160
         Convictions                                                       125
         Suspensions                                                        23
         Debarments                                                         65

Administrative Investigations
Cases Received                                                             688
Cases Closed                                                               643
    Senior Official Investigations                                         274
    Reprisal Cases                                                         369

SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES

Existing and Proposed Regulations Reviewed                                 186
Evaluation Reports Issued                                                    2
Inspector General Subpoenas Issued                                         391


SUMMARY OF INTELLIGENCE ACTIVITIES

Intelligence Reports Issued                                                 11

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES

Assessment Reports Issued                                                     6

SUMMARY OF DEFENSE HOTLINE ACTIVITIES

Contacts                                                                 9,016
    Cases Opened                                                         1,265
    Cases Closed                                                         1,446




  ii SEMIANNUAL REPORT TO THE CONGRESS
CONTENTS


           1. OVERVIEW
�
                   MISSION & ORGANIZATION................................................................................................................................................ 2
�
                   EXECUTIVE SUMMARY ................................................................................................................................................... 4
�
                   IG HIGHLIGHTS................................................................................................................................................................... 10 

                             OVERSEAS CONTINGENCY OPERATIONS................................................................................................ 10
�
                             GUAM REALIGNMENT................................................................................................................................... 12
�
                             RECOVERY ACT................................................................................................................................................ 14
�
           2. OVERSIGHT
�
                   AUDITS ................................................................................................................................................................................. 18 

                             ACQUISITION PROCESSES AND CONTRACT MANAGEMENT .......................................................... 18
�
                             FINANCIAL MANAGEMENT ....................................................................................................................... 26
�
                             HEALTH CARE ................................................................................................................................................. 29 

                             INFORMATION ASSURANCE, SECURITY, & PRIVACY............................................................................ 30
�
                             JOINT WARFIGHTING & READINESS.................................................................................................... 32
�
                   INVESTIGATIONS ............................................................................................................................................................. 35
�
                             PUBLIC CORRUPTION .............................................................................................................................. 35
�
                             PROCUREMENT FRAUD .............................................................................................................................. 36
�
                             HEALTH CARE FRAUD ............................................................................................................................... 38
�
                             PRODUCT SUBSTITUTION ....................................................................................................................... 39
�
                             TECHNOLOGY PROTECTION .................................................................................................................. 40
�
                             COMPUTER CRIMES ...................................................................................................................................... 41
�
                   INSPECTIONS ................................................................................................................................................................... 42
�
                             HEALTH CARE .............................................................................................................................................. 42
�
                             LOGISTICS ..................................................................................................................................................... 43
�
                             COMPLIANCE .............................................................................................................................................. 43
�
           3. OUTREACH
�
                   HOTLINE............................................................................................................................................................................... 48 

                   WHISTLEBLOWER PROTECTION................................................................................................................................... 50
�
                   SENIOR OFFICIALS ............................................................................................................................................................ 52
�
                   CONGRESSIONAL TESTIMONY .................................................................................................................................... 53 

                   POLICY OVERSIGHT .......................................................................................................................................................... 54 

                   ACTIVITIES ............................................................................................................................................................................55
�

           4. SERVICES
�
                    ARMY .................................................................................................................................................................................... 58
�
                                ARMY AUDIT AGENCY ................................................................................................................................. 58
�
                                ARMY CRIMINAL INVESTIGATION COMMAND ................................................................................ 65
�
                    NAVY ..................................................................................................................................................................................... 69
�
                                NAVAL AUDIT SERVICE ............................................................................................................................. 69
�
                                NAVAL CRIMINAL INVESTIGATIVE SERVICE ........................................................................................ 74
�
                    AIR FORCE ......................................................................................................................................................................... 76
�
                                AIR FORCE AUDIT AGENCY ...................................................................................................................... 76
�
                                AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS ...................................................................... 84
�

           5. APPENDICES
                   A. AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED .................................................................. 88
�
                   B. REPORTS CONTAINING POTENTIAL MONETARY BENEFITS ..................................................................... 100
�
                   C. FOLLOW-UP ACTIVITIES ...................................................................................................................................... 101
�
                   D. CONTRACT AUDIT REPORTS ISSUED ............................................................................................................. 103
�
                   E. STATUS OF ACTION ON POST-AWARD CONTRACTS ................................................................................... 104
�
                   F. STATUS OF REPORTS WITH ACTION PENDING .............................................................................................. 105
�
                   G. CONTRACT AUDITS WITH SIGNIFICANT FINDINGS ..................................................................................... 111
�
                   H. RESULTS OF PEER REVIEWS .................................................................................................................................. 114
�
                   I. ACRONYMS ................................................................................................................................................................ 115
�
           	                	


                                                                                                                                               APRIL 1, 2010 TO SEPTEMBER 30, 2010 iii
REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended, states that each inspector general shall no later than April 30 and October 31 of each
year prepare semiannual reports summarizing the activities of the office during the immediately preceding six-month periods ending
March 31 and September 30. The IG Act specifies reporting requirements for semiannual reports. The requirements are listed below and
indexed to the applicable pages.

REFERENCES          REQUIREMENTS                                                                                                      PAGE
Section 4(a)(2)     “review existing and proposed legislation and regulations...make recommendations...”                              N/A

Section 5(a)(1)     “description of significant problems, abuses, and deficiencies...”                                                17-46

Section 5(a)(2)     “description of recommendations for corrective action...with respect to significant problems, abuses, and         17-46
                    deficiencies...”

Section 5(a)(3)     “identification of each significant recommendation described in previous semiannual reports on which cor-         N/A
                    rective action has not been completed...”
Section 5(a)(4)     “a summary of matters referred to prosecutive authorities and the prosecution and convictions which have          17-46
                    resulted.”
Section 5(a)(5)     “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances where infor-     N/A
                    mation requested was refused or not provided”
Section 5(a)(6)     “a listing, subdivided according to subject matter, of each audit report, inspection report, and evaluation re-   88-100
                    port issued.” showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)     “a summary of each particularly significant report...”                                                            17-46

Section 5(a)(8)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     101
                    the total dollar value of questioned costs...”
Section 5(a)(9)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     101
                    the dollar value of recommendations that funds be put to better use by management...”
Section 5(a)(10)    “a summary of each audit report, inspection report, and evaluation report issued before the commencement          101
                    of the reporting period for which no management decision has been made by the end of reporting period...”
Section 5(a)(11)    “a description and explanation of the reasons for any significant revised management decision...”                 N/A

Section 5(a)(12)    “information concerning any significant management decision with which the Inspector General is in                N/A
                    disagreement...”
Section 5(a)(13)    “information described under Section 05(b) of the Federal Financial Management Improvement Act of 1996...” N/A
                    (instances and reasons when an agency has not met target dates established in a remediation plan)
Section 5(a)(14)    “An Appendix containing the results of any peer review conducted by another Office of Inspector General           114
                    during the reporting period...”
Section 5(a)(15)    “A list of any outstanding recommendations from any peer review conducted by another Office of Inspector          N/A
                    General that have not been fully implemented, including a statement describing the status of the implemen-
                    tation and why implementation is not complete...”
Section 5(a)(16)    “Any peer reviews conducted by DoD IG of another IG Office during the reporting period, including a list of       114
                    any outstanding recommendations made from any previous peer review . . . that remain outstanding or have
                    not been fully implemented...”
Section 5(b)(2)     “statistical tables showing the total number of audit reports, inspection reports, and evaluation reports and     102
                    the dollar value of disallowed costs...”
Section 5(b)(3)     “statistical tables showing the total number of audit, inspection, and evaluation reports and the dollar value    102
                    of recommendations that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)     “a statement with respect to audit reports on which management decisions have been made but final action          105-110
                    has not been taken, other than audit reports on which a management decision was made within the preced-
                    ing year...”
Section 8(f )(1)    “information concerning the number and types of contract audits...”                                               103
5 USC app. 5 note “an annex on final completed contract audit reports...containing significant audit findings.”                       111-113

  iv SEMIANNUAL REPORT TO THE CONGRESS
             1


Overview
	
Mission



                                  Serving the Congress
                                  and the Department
                                  Department of Defense Inspector General is an
                                  independent, objective agency within the U.S.
                                  Department of Defense that was created by the
                                  Inspector General Act of 1978, as amended. DoD
                                  IG is dedicated to serving the warfighter and the
                                  taxpayer by conducting audits, investigations,
                                  inspections, and assessments that result in
                                  improvements to the Department. DoD IG
                                  provides guidance and recommendations to the
                                  Department of Defense and the Congress.

                                  Mission
                                  Promote integrity, accountability, and improve-
                                  ment of Department of Defense personnel, pro-
                                  grams, and operations to support the Depart-
                                  ment’s mission and serve the public interest.

                                  Vision
                                  One professional team strengthening the
                                  integrity, efficiency, and effectiveness of the
                                  Department of Defense.

                                  Core Values
                                  Accountability • Integrity • Efficiency

                                  Goal 1
                                  Improve the economy, efficiency, and
                                  effectiveness of Department of Defense
                                  personnel, programs, and operations.

                                  Goal 2
                                  Eliminate fraud, waste, and abuse in the
                                  programs and operations of the Department of
                                  Defense.

                                  Goal 3
                                  Ensure the efficiency and effectiveness of DoD
                                  IG products, processes, and operations.




2 SEMIANNUAL REPORT TO THE CONGRESS
Organization



                                                           Secretary of Defense



                                                             Inspector General




                                                      Administrative                                                          Special Plans &
       Auditing             Investigations                                    Intelligence        Policy & Oversight
                                                      Investigations                                                            Operations




Auditing                                                Intelligence
The Office of the Deputy Inspector General for          The Office of the Deputy Inspector General for
Auditing conducts audits on all facets of DoD           Intelligence provides oversight (audits, evalua-
operations. The work results in recommenda-             tions, and inspections) across the full spectrum
tions for reducing costs; eliminating fraud, waste,     of programs, policies, procedures, and functions
and abuse of authority; improving performance;          of the Intelligence Community, Special Access
strengthening internal controls; and achieving          Programs, Nuclear Enterprise, and related secu-
compliance with laws, regulations, and policy.          rity issues within DoD.

Investigations                                          Policy and Oversight
The Office of the Deputy Inspector General for          The Office of Deputy Inspector General for Policy
Investigations is the criminal investigative arm        and Oversight provides oversight and policy for
of DoD IG. The Defense Criminal Investigative           audit, investigative, and hotline activities within
Service protects America’s warfighters by               DoD; and provides technical advice and support
conducting criminal investigations in support of        to DoD IG projects.
crucial national defense priorities.
                                                        Special Plans and Operations
Administrative Investigations                           The Office of the Deputy Inspector General
The Office of the Deputy Inspector General for          for Special Plans and Operations facilitates in-
Administrative Investigations investigates and          formed decision-making by senior civilian and
oversees investigations of allegations regarding:       military leaders of the Department of Defense
the misconduct of senior DoD officials, both            and U.S. Congress in order to accomplish prior-
civilian and military; whistleblower reprisal           ity national security objectives.
against service members, defense contractor
employees, and DoD civilian employees
(appropriated and nonappropriated fund);
and improper command referrals of service
members for mental health evaluations.



                                                                                                              APRIL 1, 2010 TO SEPTEMBER 30, 2010 3
Executive Summary



                                          Overview                                              Intelligence issued 11 reports that addressed
                                                                                                management challenges of the intelligence en-
                                          The Inspector General Act of 1978, as amended,        terprise as it supports joint warfighting and
                                          states that the Inspector General is responsible      readiness, acquisition processes and contract
                                          for conducting audits, investigations, and in-        management, and the nuclear enterprise.
                                          spections, and for recommending policies and
                                          procedures to promote economic, efficient, and        Policy and Oversight issued 14 oversight reports
                                          effective use of agency resources and programs        primarily addressing its oversight of the Defense
 DoD IG is focused on areas of greatest
                                          that prevent fraud, waste, abuse, and misman-         Contract Audit Agency. P&O reviewed DCAA
 risk to the Department of Defense.       agement. The IG Act also requires the Inspector       audit quality coupled with reviews to determine
                                          General to keep the Department and Congress           the effectiveness of DCAA’s new and improved
                                          fully and currently informed about problems           Quality Assurance Program. Additionally, ho-
                                          and deficiencies in the Department’s operations       tline submissions related to DCAA have qua-
                                          and the need for corrective action.                   drupled over the past two years from an average
                                                                                                of five per year to 20 per year; as such, P&O has
                                          During this reporting period, DoD IG contin-          aggressively stepped up its oversight of DCAA.
                                          ued directing its resources toward those areas of     P&O also issued three Department-wide poli-
                                          greatest risk to the Department of Defense. We        cies, managed the coordination of 186 draft DoD
                                          are dedicated to serving the warfighter and the       policies, and issued 391 IG subpoenas.
                                          taxpayer by conducting audits, investigations,
                                          and inspections that result in improvements to        Special Plans and Operations issued six assess-
                                          the Department. DoD IG provides guidance and          ment reports with 24 recommendations that
                                          recommendations to the Department and Con-            addressed a wide range of issues, from the De-
                                          gress. The work of each component is summa-           partment’s response to the potential exposure of
                                          rized below as of September 30, 2010:                 military and civilian personnel to industrial haz-
“As a Department-wide
                                                                                                ards while working to restore a water treatment
priority, Secretary of                    Auditing issued 66 reports with 286 recommen-         plant in Qarmat Ali, Iraq, to an evaluation of the
Defense Robert M.                         dations for improving DoD operations. Thirty-         way the Department records accident-related in-
Gates has identified the                  five percent of the reports addressed the Ameri-      juries.
need to improve effec-                    can Reinvestment and Recovery Act, 29 percent
                                          addressed acquisition processes and contracting       As of September 30, 2010, the DoD IG work-
tiveness and efficien-                    issues, 15 percent addressed financial manage-        force totaled 1,634 employees. The FY 2010 bud-
cies in business opera-                   ment issues, 11 percent addressed joint war-          get was $288.1 million.
tions...”                                 fighting and readiness issues, and 11 percent
                                          addressed information assurance, security, and
                                          privacy issues.1                                      Priorities
                                                                                                As a Department-wide priority, Secretary of De-
                                          Investigations opened 307 cases, closed 324, and      fense Robert M. Gates has identified the need to
                                          has 1,859 ongoing investigations. These cases ad-     improve effectiveness and efficiencies in business
                                          dressed criminal and civil investigations of com-     operations in order to sustain mission-essential
                                          puter crimes, public corruption, procurement          activities. Given the Secretary’s focus, DoD IG
                                          fraud, product substitution, health care fraud,       will utilize its extensive oversight capabilities to
                                          and the illegal transfer of technology.               promote economy, effectiveness, and efficiency
                                                                                                throughout the Department. DoD IG performs
                                          Administrative Investigations reported that the       audits, investigations, and inspections to sup-
                                          Department received 688 cases, closed 643, and        port the Department’s goals established in the
                                          has 574 ongoing cases involving whistleblower         Quadrennial Defense Review to:
                                          reprisal and senior official misconduct. Twenty       •	 Prevail in today’s wars.
                                          percent of reprisal cases and 14 percent of senior    •	 Prevent and deter conflict.
                                          official misconduct cases were substantiated.         •	 Prepare to defeat adversaries and succeed in
                                                                                                     a wide range of contingencies.
                                          1 Total does not equal 100 percent due to rounding.


  4 SEMIANNUAL REPORT TO THE CONGRESS
•	 Preserve and enhance the All-Volunteer           National Security Forces. During this reporting
    Force.                                          period, DoD IG issued 29 audit reports relating
                                                    to challenges identified in Overseas Contin-
We performed audits, inspections, and assess-       gency Operations including identifying $100.7
ments of key programs and operations. Our           million of either potential monetary benefits or
investigations resulted in criminal or adminis-     questioned use of taxpayer funds.
trative actions. We also consulted on a variety
of Department initiatives and issues in order to    In addition to continuing oversight on Over-
make improvements. DoD IG is focusing work          seas Contingency Operations contract admin-                 DoD IG is overseeing the drawdown,
efforts on preventing and detecting fraud, waste,   istration and oversight, other primary areas                base closures, and contractor support.

and abuse; and improving efficiency and effec-      of emphasis during FY 2011 are: in Iraq, asset
tiveness in critical areas for the Department,      accountability, managing drawdown in Iraq in-
such as:                                            cluding base closure and contractor support; and
•	 Acquisition processes & contract                 in Afghanistan, the management and execution
     management                                     of the approximate additional $14.2 billion des-
•	 Health care                                      ignated for the Afghan Security Forces Funds,
•	 Financial management                             military construction projects, training Afghans
•	 Joint Warfighting and readiness                  to maintain infrastructure projects, and financial
•	 Logistics                                        management issues such as the Commander’s
•	 Information assurance, security, & privacy       Emergency Response Program and vendor pay-
•	 Compliance                                       ments.

Defense Criminal Investigative Service is focus-    As a result of the magnitude and scope of alleged
ing on the following investigative priorities im-   criminal activity relating to OCO, DCIS has
pacting the Department:                             made criminal investigations of contract fraud
•	 Public corruption                                and corruption related to U.S. operations and
•	 Product substitution                             reconstruction efforts in Iraq and Afghanistan
•	 Procurement fraud                                an agency priority. As of September 30, 2010,
•	 Health care fraud                                DCIS had a total of 241 open investigations re-
•	 Technology protection                            lated to Overseas Contingency Operations and
•	 Computer crimes                                  the agents in Southwest Asia were actively work-
                                                    ing 43 investigative cases or proactive projects in
The categories highlighted in blue are discussed    theater. DCIS will continue to focus on protect-
further under Challenge Areas. Our report high-     ing the warfighter by investigating significant
lights three overarching areas of work: Overseas    fraud and corruption impacting crucial DoD
Contingency Operations, the Guam realign-           operations throughout Southwest Asia, with
ment, and the American Recovery and Reinvest-       particular emphasis upon schemes that poten-
ment Act.                                           tially affect the health, safety, welfare, and mis-
                                                    sion-readiness of U.S. troops assigned to theater.
Overseas Contingency
Operations                                          Guam Realignment
                                                    The Guam realignment will be one of the larg-
As of September 30, 2010, DoD IG was operating      est movements of military assets in decades and
at its highest level in Southwest Asia, with more   will help to maintain a robust military presence
                                                                                                                DoD IG is focused on asset
                                                                                                                accountability related to OCO.
than 50 personnel deployed in Iraq, Afghanistan,    in the Asia-Pacific region. Inspector General
Kuwait, and Qatar on six to 12 month rotations.     Gordon S. Heddell is the Chairman of the Inter-
In Iraq, DoD IG is primarily concentrating its      agency Coordination Group of Inspectors Gen-
oversight on drawdown of forces including asset     eral for Guam Realignment. On June 4, 2010,
accountability, contracting, and financial man-     DoD IG released the “FY 2010 Comprehensive
agement; while in Afghanistan, we are focusing      Oversight Plan for Guam Realignment,” on be-
on efforts to train, equip, and mentor the Afghan

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 5
Executive Summary



                                     half of the participating members. The oversight      at $865 million. During this reporting period,
                                     plan identifies and incorporates the planned and      DoD IG analyzed, responded to, and closed 16
                                     ongoing Guam realignment initiatives of the in-       referrals received from the Recovery Act Trans-
                                     spectors general of the Department of Defense,        parency Board.
                                     Department of the Interior, and Department of
                                     Homeland Security; and the auditor general of         In the next phase of this initiative, DoD IG will
                                     the Naval Audit Service for FY 2010.                  expand the audience base for its outreach efforts
                                                                                           to include industry groups and DoD contractors
 Special Plans and Operations team   In the coming months, DoD IG will assess the          that have received Recovery Act funds. The con-
 members are transported by HMMWV.   development of program and contract infra-            tinuing pressure to commence activities and ex-
                                     structure requirements, including cost estimates      pend Recovery Act funds as quickly as possible,
                                     and budgets for harbor, roads, power production       consistent with prudent management, will add
                                     and transmission, drinking water, water and sol-      pressure to the Department’s understaffed con-
                                     id waste, and communications. DoD IG plans to         tracting professionals to award and administer
                                     highlight critical infrastructure areas which the     contracts in an expedited manner. Additionally,
                                     Department needs to improve in order to facili-       without adequate and continuous management
                                     tate a successful realignment that translates into    attention to Recovery Act implementation, espe-
                                     a sustained quality of life for the warfighter.       cially contractor oversight and recipient report-
                                                                                           ing, DoD will have a recurring challenge to ef-
                                     At the request of the deputy commanding gener-        fectively meet the intent of the Recovery Act and
                                     al, Marine Corps Bases Japan, DoD IG assessed         maintain adequate transparency, accountability,
                                     the living conditions of military families cur-       and stewardship of taxpayer funds.
                                     rently residing in Okinawa, Japan, to determine

                                                                                           Impact
                                     whether living conditions were adequate for mil-
“During the reporting                itary personnel and their families and whether
period, DoD IG and the               estimates were adequate regarding the number          During the reporting period of April 1, 2010 to
                                     of housing units needed for military person-          September 30, 2010, our auditors, investigators,
service audit organiza-              nel and their families in the future. These issues    and inspectors worked to promote economy,
tions issued a total of              were addressed in audit report D-2010-084, is-        efficiency, and effectiveness at the Department
45 audit reports cover-              sued on September 16, 2010.                           while detecting and preventing fraud, waste, and
ing 225 Recovery Act-                                                                      abuse.
Funded projects valued               American Recovery and                                 In total, we issued 85 reports identifying more
at $865 million.”
                                     Reinvestment Act                                      than $5 billion in recoveries, fines and penalties;
                                                                                           achieved monetary savings; and funds which
                                     DCIS and the military criminal investigative or-
                                     ganizations continue to vigorously investigate        could be put to better use. In addition, DCIS in-
                                     allegations of fraud and corruption involving         vestigations resulted in 160 indictments and 125
                                     the expenditures of Recovery Act funds by the         convictions.
                                     Department. As part of our Recovery Act Train-
                                     ing and Outreach initiative, DoD IG trained law       DoD IG audits, investigates, and inspects the
                                     enforcement personnel, contracting employees,         programs and operations of the Department,
                                     attorneys, and others. To date, DoD IG has also       and recommends policies and process improve-
                                     initiated 11 Recovery Act investigations involv-      ments that promote economy, efficiency, effec-
                                     ing allegations of procurement fraud, conflict        tiveness, and integrity in DoD programs and op-
                                     of interest, and program management irregu-           erations. Below are highlights of projects from
                                     larities. Of these cases, two were closed as the      this reporting period:
                                     allegations were unsubstantiated. During the re-
                                     porting period, DoD IG and the service audit or-
                                     ganizations issued a total of 45 audit reports cov-
                                                                                           Audits
                                                                                           •	 We issued an audit report, “Contingency
                                     ering 225 Recovery Act funded projects valued             Contracting: A Framework for Reform,”

  6 SEMIANNUAL REPORT TO THE CONGRESS
     that identified 10 significant systemic issues        Kong. After a five-week trial, a jury found           “We conducted an
     from our coverage of contingency contract-            the two Chinese nationals guilty of illegally         evaluation of efforts
     ing, but also provided a “roadmap” of essen-          conspiring to export controlled military
     tial contracting and oversight actions that           electronic equipment from the U.S. to Chi-
                                                                                                                 to identify, contact,
     should be taken on future contracts to avoid          na. The U.S. District Court judge also en-            and provide access to
     past problems and contract more efficiently           tered a contempt order against the company            care for DoD person-
     and effectively.                                      used by the subjects, Chitron-Shenzhen, for           nel exposed to sodium
•	   We identified efficiencies that increase the          a previous refusal to appear for trial and            dichromate at Qarmat
     amount of body armor DoD collects from                fined the company $1.9 million.
     service members wounded or killed in ac-
                                                                                                                 Ali, Iraq in 2003...”
     tion in order to increase assurance of body
     armor effectiveness and aid in the detection     Inspections
     of new threats to service members on the         •	 We conducted an evaluation of efforts to
     battlefield.                                          identify, contact, and provide access to care
•	   We identified over 100 national electri-              for DoD personnel exposed to sodium di-
     cal code violations at Kandahar Airfield,             chromate at Qarmat Ali, Iraq in 2003 and
     Afghanistan, which posed immediate life,              recommended that the U.S. Army Corps
     health, and safety risks to U.S. Forces. Unit-        of Engineers notify all current and former
     ed States Forces-Afghanistan took immedi-             military personnel who were exposed of
     ate action to correct the violations.                 their eligibility for the Veterans Administra-
                                                           tion’s Gulf War Registry and associated so-
                                                           dium dichromate exposure-related medical
Investigations                                             evaluation.
•	 An investigation disclosed that Northrop           •	   We conducted an evaluation on the effec-
     Grumman Corporation, Navigation Sys-                  tiveness of the military services’ voting as-
     tems Division, submitted false claims to the          sistance programs during the preceding
     U.S. government seeking payment for elec-             calendar year, and their level of compliance
     tronic components that were knowingly not             with the voting assistance programs as re-
     tested as required by contract specifications.        ported by each of the service inspectors
     A Civil Settlement Agreement was reached,             general. The service inspectors general re-
     in which the division agreed to pay $12.5             ported that their voting assistance programs
     million to settle allegations of fraud.               were effective and in compliance with DoD
•	   A DoD contractor working in Kuwait de-                regulations and public law, with a few minor
     veloped corrupt relationships with certain            exceptions they were addressing.
     Army contracting officials and a senior

                                                      Challenge Areas
     procurement non-commissioned officer
     at Camp Arifjan. By bribing these Army
     contracting officials in 2005 and 2006, the      DoD IG identifies areas considered to be the                DCIS special agents conduct firearms
                                                                                                                  training exercises.
     contractor ultimately received a total of        most serious management and performance
     more than $1.7 million in connection with        challenges facing the Department. The follow-
     contracts to provide various goods and ser-      ing categories are examples of areas where we
     vices to the U.S. military. The former con-      have focused our resources during this reporting
     tract employee pled guilty to conspiracy to      period and highlight information contained in
     bribe U.S. Army contracting officials and to     this report. The first two categories from the list
     money laundering conspiracy, and agreed          under priorities are discussed in further detail
     to forfeit $650,000 to the U.S. government.      below.
•	   Two Chinese nationals illegally exported
     military electronic parts used in military       Acquisition Processes and
     phased array radar, electronic warfare, mili-
     tary guidance systems, and military satellite    Contract Management
     communications to China through Hong             The DoD acquisition and contracting commu-


                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 7
Executive Summary



“We continue our re-                      nity is tasked daily to manage an increasing De-          cials did not perform adequate contractor
views of DoD programs                     fense budget while relying on a less experienced          surveillance for the 18 contracts and task
                                          and inadequately trained workforce that has not           orders because of inadequate organization
for the care, manage-
                                          kept pace. While DoD has made progress to in-             and planning by the Army officials respon-
ment and transition                       crease the acquisition workforce, we continue to          sible for contractor oversight. DoD IG iden-
of recovering service                     identify deficiencies in contract administration          tified potential monetary benefits for the
members wounded                           and oversight.                                            government of $3.6 million.
during deployment...”                     •	 We identified over $70 million of inventory
                                               in Defense Logistics Agency warehouses           Health Care
                                               that would not be effectively utilized be-       One of the top mission priorities of DoD IG is
                                               cause the Air Force was planning on pro-         preventing and detecting fraud, waste, and abuse
                                               curing the same items under a performance        and improving efficiency and effectiveness in the
                                               based logistics contract with the original       critical area of health care for service members
                                               equipment manufacturer. Informing DLA,           and civilian personnel. As part of that mission,
                                               the Air Force, and the director of Defense       we investigate falsified claims submitted to TRI-
                                               Procurement resulted in the Air Force re-        CARE, the health insurance company for active
                                               quiring its PBL contractor through contract      or retired military and their dependents. In one
                                               terms to draw down the DLA inventory             year, we recovered over $1.3 billion attributed to
                                               over a 10-year period.                           TRICARE fraud.
                                          •	 The Air Force Center for Engineering and
                                               the Environment had no assurance that the        Another aspect of that mission includes re-
                                               contractors were working efficiently and ef-     sponding to congressional concerns regarding
                                               fectively and AFCEE paid for $24.3 million       the medical care provided our service mem-
                                               in labor costs that were not part of contracts   bers. In response to an inquiry from the Senate
                                               reviewed by DoD IG. AFCEE contract-              Armed Services Committee, DoD IG evaluated
                                               ing and program officials did not perform        the adequacy of the Department’s efforts to iden-
                                               adequate contract oversight for work per-        tify and contact DoD soldiers and civilians who
                                               formed on the six task orders we reviewed        were exposed, or who potentially were exposed,
 DoD IG is reviewing programs for the          valued at $120.8 million. Officials did not      to industrial hazards while working to restore a
 care and recovery of wounded soldiers.        adequately monitor the title II (quality as-     water treatment plant at Qarmat Ali, Iraq, after
                                               surance and oversight services) contractors      the end of hostilities in 2003.
                                               working in Southwest Asia and did not ad-
                                               equately review invoices because the title II    We continue our reviews of DoD programs for
                                               contracting officer’s representatives did not    the care, management, and transition of recov-
                                               conduct site visits to Southwest Asia and,       ering service members wounded during deploy-
                                               according to the contracting officer, there      ment in Operations Iraqi and Enduring Free-
                                               were not enough personnel to review in-          dom to ensure they are managed effectively and
                                               voices.                                          efficiently.
                                          •	 Army contracting and DoD program offi-
                                               cials did not properly award and adminis-
                                               ter the 18 time and material contracts and       Public Corruption
                                               task orders for work performed in South-         DoD IG is committed to investigating, detect-
                                               west Asia. Contracting and program offi-         ing, and eliminating public corruption impact-
                                               cials awarded contracts and task orders with     ing DoD’s programs worldwide. During this
                                               invalid sole-source justifications or unfair     reporting period, there were 354 active public
                                               competition, did not negotiate reasonable        corruption investigations conducted. These in-
                                               prices, and did not justify their use of the     vestigations have resulted in several convictions
                                               T&M contract type. These conditions oc-          of DoD personnel and contractors engaged in il-
                                               curred because contracting and program           legal activity for personal gain at the expense of
                                               officials ignored acquisition regulations.       our taxpayers.
                                               In addition, contracting and program offi-

  8 SEMIANNUAL REPORT TO THE CONGRESS
Included in this report, DCIS conducted an              spectrum of enforcement, prosecution and ad-
investigation involving a U.S. Army civilian            ministrative sanctions to ensure violators are
contracting official who solicited bribes from          held accountable and their products are elimi-
an Egyptian businessman in exchange for sub-            nated from the supply chain. DoD IG continues
mitting an inflated off-post apartment lease for        to see an increase in the number of suspensions
approval. The contracting official pled guilty to       and debarments resulting from its investigations
bribery and unlawful salary supplementation             and will continue to emphasize comprehensive
in connection with two schemes to solicit more          solutions to the problems faced by illegal prod-
than $17 thousand in bribes.                            uct substitution.


                                                        Outreach & Programs
DoD IG continues to partner with the Depart-
ment of Justice and other investigative agencies
to bring corrupt individuals to justice criminally,
civilly, and administratively to send out a unified
message that this illegal activity will be punished     Defense Hotline
to the fullest extent of the law. These joint efforts   The Defense Hotline received 9,016 contacts
have increased the DoD IG’s ability to success-         from the general public and members of the
fully investigate matters involving public cor-         DoD community: 10 percent via U.S. mail, 33
ruption.                                                percent via email, five percent via the internet,
                                                        1.5 percent via the Government Accountabil-
                                                        ity Office, 50 percent via the telephone, and .5
Product Substitution                                    percent from congressional inquiries. Based on             17973-Hotline.indd 1                     10/20/06 5:37:57 PM




When nonconforming and substandard prod-                these contacts, the Hotline initiated 1,265 cases.
ucts are delivered to DoD, military and civilian        The Defense Hotline closed 1,446 cases this re-
personnel, as well as the public, are placed at risk    porting period. Investigations initiated exclu-
because the performance and safety of the prod-         sively by the Hotline resulted in $8.5 million dol-
ucts are unknown. Key to the mission of DoD IG          lars returned to the federal government for this
is a commitment to placing the highest priority         reporting period.
on allegations where product substitution is sus-
pected and a safety risk is present. During this
reporting period, DoD IG conducted 282 active           Congressional
product substitution investigations.
                                                        Testimony & Briefings
DCIS, in partnership with the military criminal         During the reporting period, DoD IG testified
investigative organizations and other federal,          before members of Congress and the Com-
state and international law enforcement agen-           mission on Wartime Contracting during three
cies, conducted several criminal investigations         hearings. We had 48 meetings with members
that focused on combating the substitution of           of Congress and their staff. Topics of discus-
critical products and services in order to protect      sion during those meetings included review of
                                                                                                                       Inspector General Heddell testifies on
DoD personnel and its allied partners. Included         the DoD senior mentor program, review of the                   Afghan National Police training.

in this report, DCIS investigated untested Black-       PAO program, the drawdown in Iraq, and the
hawk helicopter cockpit armor sold to the U.S.          Ft. Hood shooting incident. DoD IG received
Army; the purchase of expired foods from man-           210 new congressional inquiries and closed 126
ufacturers at discounted prices, which was then         cases. New inquiries involved issues such as re-
provided to U.S. troops; and the submission of          quests for reprisal investigations; reviews related
false claims to DoD for payments for electronic         to American Recovery and Reinvestment Act
components that were not tested as required by          funding; requests concerning open recommen-
contract specifications.                                dations; concerns about the Wounded Warrior
                                                        Program; and requests related to reviews of se-
Mission failure can result when the DoD receives        nior DoD officials.
a product that is noncompliant with the specifi-
cations of DoD contracts. DoD IG uses the full

                                                                                                              APRIL 1, 2010 TO SEPTEMBER 30, 2010 9
IG Highlights



                                           Background                                                Iraqi and Afghan Security Forces are effec-
Overseas                                   On August 31, 2010, Operation Iraqi Freedom
                                                                                                •	
                                                                                                     tive and efficient.
                                                                                                     Controls are in place and functioning with-
Contingency                                came to an end and Operation New Dawn
                                           started with the number of U.S. troops in Iraq
                                                                                                     in the processes and procedures used to
                                                                                                     manage the funds expended.
Operations                                 at 50,000. As the Department reduced its foot-
                                           print in Iraq, it built its combat force to about
                                                                                                •	   Logistics operations are optimized to
                                                                                                     achieve effective results.
                                           98,000 troops in Afghanistan. According to DoD
                                                                                                •	   Personnel and property are properly ac-
                                           reports, there are about 3,500 civilians and more
                                                                                                     counted for, and there is visibility over
                                           than 200,000 contractors in theater supporting
                                                                                                     where the equipment and supplies are lo-
                                           our military forces.
                                                                                                     cated.
                                                                                                •	   Information operations are being conduct-
                                           As the United States draws to the end of its ninth
                                                                                                     ed in accordance with applicable laws and
                                           year of war in Afghanistan and continues its
                                                                                                     regulations while achieving the expected
                                           drawdown of troops while transitioning remain-
                                                                                                     outcomes.
                                           ing operations to the Department of State in
                                           Iraq, Department leadership, field commanders,
                                           and Congress continue their call for oversight.      Recent Activities
                                           The U.S. Army in FY 2010 spent over $47 billion      As of September 30, 2010, DoD IG was operating
                                           operating and sustaining the force ($10 billion      at its highest level having more than 50 person-
                                           in Iraq and $37 billion in Afghanistan). Further,    nel deployed in Iraq, Afghanistan, Kuwait, and
DoD IG is operating at its highest level   while the Department continues to conduct op-        Qatar on six to 12-month rotations. In addition,
with more than 50 personnel in SWA.
                                           erations and the training and equipping of the       there are also teams of auditors, agents, inspec-
                                           Iraq and Afghan National Security Forces, it also    tors, and engineers constantly entering and exit-
                                           continues to build the civilian capacity of these    ing the region on temporary duty assignments.
                                           two governments with other U.S. agencies, Co-        DoD IG currently has approximately 30 auditors
                                           alition, and NATO partners.                          and evaluators and 20 special agents deployed
                                                                                                to Southwest Asia in support of Overseas Con-
                                           During FY 2010, DoD IG oversight efforts con-        tingency Operations audit, investigative, and in-
                                           centrated on work to ensure that U.S.-funded as-     spection efforts.
                                           sets were properly accounted for and that there
                                           was an effective process for the proper transfer,    Paralleling the Department’s shift in operational
                                           reset, or disposal of these assets from military     emphasis in Southwest Asia, DoD IG is shifting
                                           units, support staff, and contractors as the draw-   its primary oversight focus to support operations
                                           down and buildup were being executed.                in Afghanistan while maintaining necessary
                                                                                                oversight in Iraq and its remaining operations.
                                           Consistent with our oversight responsibilities in    DoD IG is primarily concentrating its oversight
                                           reviewing policies, plans, and processes related     on drawdown of forces in Iraq including asset
                                           to Overseas Contingency Operations, DoD IG           accountability, contracting, and financial man-
                                           conducts audits, investigations, assessments, and    agement. During this reporting period, DoD
                                           inspections to ensure:                               IG issued 29 audit reports relating to challenges
                                           •	 Safety and force protection needs of mili-        identified in Overseas Contingency Operations
                                                tary personnel, civilians, and contractors      including identifying $100.7 million of either
                                                are met.                                        potential monetary benefits or questioned use of
DoD IG is overseeing the training of       •	 Fraud, waste, abuse, and corruption are           taxpayer funds. DoD IG identified weaknesses
Iraq and Afghan Security Forces.                identified.                                     in contracting administration and oversight as
                                           •	 Contractors are providing quality products        well as improvements required in financial man-
                                                and services and U.S. government activities     agement supporting overseas contingency op-
                                                have proper oversight over the contractors      erations. In addition, we found the DoD relied
                                                supporting them.                                on the contractor to monitor themselves for over
                                           •	 Programs related to equipping and training        $815 million in support to the MRAP program.

10 SEMIANNUAL REPORT TO THE CONGRESS
Also, DoD IG issued a framework for reform for        As of September 30, 2010, the agents in South-
contingency contracting, which identified areas       west Asia were actively working 43 investigative
in which DoD experienced the most significant         cases or proactive projects in theater. A great
challenges and control weaknesses in contin-          amount of investigative attention has been di-
gency contracting efforts. This framework serves      rected towards the Commander’s Emergency
as a tool for deployed contracting personnel to       Relief Program and other civil works project
identify and address common challenges.               contracts awarded to Afghan companies. CERP
                                                      funds are intended to swiftly provide payment
One of the key elements of our nation’s success in    to local contractors for civil work projects. The             DCIS has focused on the Commander’s
Southwest Asia is the development of capacity of      CERP bolsters the “Afghan First” program,                     Emergency Relief Program.

the security forces of both Iraq and Afghanistan.     which promotes hiring Afghan companies and
DoD IG is focused on the training, mentoring,         Afghan personnel to construct needed roads
and equipping of the Iraq Security Forces and         and facilities to support the development and
the transition of the management of this mission      expansion of the Afghan government and or-
to the Department of State. During 2010, the          ganizations but have proven problematic. For
Department of Defense was given a larger role         example, the use of U.S. currency and vouchers
in the mission of training the Afghan National        versus electronic funds transfers and a payment
Security Forces. In order to execute this mission,    process with critical internal controls makes
the Combined Security Transition Command              this program vulnerable in an environment and
– Afghanistan has received about $6.5 billion         culture where fraud and corruption is habitual.
funding in FY 2010, has requested another $2.6        Although DCIS aggressively investigates crimi-
billion in the FY 2010 supplemental request, and      nal allegations relating to the CERP, extensive
another $11.6 billion in the FY 2011 Overseas         man-hours are dedicated to providing awareness
Contingencies Operations request. DoD IG is           briefings to new personnel assigned to adminis-
conducting several projects to ensure the effi-       ter this program.
ciency of the train and equip program.
                                                      In addition, DCIS is a member of the Major
As a result of the magnitude and scope of alleged     Crimes Task Force located at Camp Falcon. The
criminal activity relating to OCO, DCIS has           mission of the task force is part of a capacity               USD(C) Hale meets with SWA Special
                                                                                                                    Deputy IG in Kuwait.
made criminal investigations of contract fraud        building effort in which U.S. government special
and corruption related to U.S. operations and         agents and attorneys advise and mentor govern-
reconstruction efforts in Iraq and Afghanistan        ment of Afghanistan police and judicial organi-
an agency priority. DCIS currently deploys spe-       zations. The task force works closely together on
cial agents to Kuwait, Iraq, and Afghanistan to       investigative activities relating to highly sensitive
investigate matters involving bribery, theft, pro-    public corruption, contract fraud, bribery and
curement fraud, illegal receipt of gratuities, bid-   kickback, kidnapping, murder, and terrorism
rigging, defective and substituted products, and      investigations.
conflicts of interest. DCIS’ presence in the region
has identified corrupt business practices, loss of    As of September 30, 2010, DCIS had a total of
U.S. funds through contract fraud, and theft of       241 open investigations related to Overseas
critical military equipment destined for coali-       Contingency Operations. Sixty-eight percent of
tion forces in Southwest Asia. For example, a         those investigations are related to bribery and
DCIS investigation during this reporting period       financial crimes. Eleven percent of the investiga-
resulted in a former U.S. Army sergeant plead-        tions are related to theft, eight percent are kick-
ing guilty to bribery in connection with a fuel       back investigations, and seven percent are prod-
theft scheme to solicit more than $400 thousand       uct substitution investigations. The remaining
in bribes from a government contractor in Af-         six percent of the OCO investigations relate to
                                                                                                                    DoD IG and AAA leadership with
ghanistan. The former Army sergeant was subse-        general crimes, technology transfer, and terror-              ARCENT G8 in Kuwait.
quently charged with one count of conspiracy to       ism investigations.
commit theft of government property. He faces a
maximum penalty of 15 years in prison.

                                                                                                              APRIL 1, 2010 TO SEPTEMBER 30, 2010 11
IG Highlights



                                          Moving Forward                                        cifically crisis response, counter-terrorism, and
                                                                                                contingencies in the Western Pacific. Guam is a
                                          Over the next year, DoD IG will continue to
                                                                                                U.S. territory considered strategically significant
                                          conduct audits and assessments in Afghanistan
                                                                                                to U.S. forward deployments in the Western Pa-
                                          in support of the United States’ intensive efforts
                                                                                                cific. The island, three times the size of Wash-
                                          to stand up, train, equip, and mentor the Af-
                                                                                                ington, D.C., is home to about 173,000 residents.
                                          ghan National Security Forces. Developing the
                                          Afghan National Police and Army to the point
                                                                                                Section 2835 of the National Defense Authori-
                                          where they can assume a lead security opera-
DCIS special agents will continue iden-                                                         zation Act for FY 2010 designates the inspector
tifying corruption in Afghanistan.        tions role is critical to enable U.S. combat forces
                                                                                                general of DoD as the Chairman of the Inter-
                                          to start a conditions-based drawdown beginning
                                                                                                agency Coordination Group of Inspectors Gen-
                                          the summer of 2011.
                                                                                                eral for Guam Realignment. The members of
                                                                                                this group are the IG of the Department of the
                                          DCIS will continue to focus on protecting the
                                                                                                Interior and any other IGs as appropriate. The
                                          warfighter by investigating significant fraud and
                                                                                                group provides objective supervision of audits
                                          corruption impacting crucial DoD operations
                                                                                                and investigations, to include inspections, evalu-
                                          throughout Southwest Asia, with particular em-
                                                                                                ations, and reviews relating to the programs and
                                          phasis upon schemes that potentially affect the
                                                                                                operations funded with amounts appropriated
                                          health, safety, welfare, and mission-readiness of
                                                                                                or otherwise made available for military con-
                                          U.S. troops assigned to theater.
                                                                                                struction on Guam. This oversight consists of
                                                                                                the programs, operations, and contracts carried
                                          In addition to continuing oversight on Overseas
                                                                                                out using these funds, including:
                                          Contingency Operation contract administration
                                                                                                •	 Oversight and accounting of obligations
                                          and oversight, other primary areas of emphasis
                                                                                                     and expenditures.
                                          during FY 2011 are: in Iraq, asset accountabil-
                                                                                                •	 Monitoring and review of construction ac-
                                          ity, managing drawdown in Iraq including base
                                                                                                     tivities.
                                          closure and contractor support; and in Afghani-
                                                                                                •	 Monitoring and review of contracts.
                                          stan, the management and execution of the ap-
                                                                                                •	 Monitoring and review of funds transferred
                                          proximate additional $14.2 billion designated
                                                                                                     among departments, agencies, and entities
                                          for the Afghan Security Forces Funds; military
                                                                                                     of the United States and private and non-
                                          construction projects; training Afghans to main-
                                                                                                     governmental entities.
                                          tain infrastructure projects; and financial man-
                                                                                                •	 Maintenance of records to facilitate future
                                          agement issues such as the Commander’s Emer-
                                                                                                     audits and investigations.
                                          gency Response Program and vendor payments.
                                                                                                •	 Monitoring and review of the implementa-
                                                                                                     tion of the DPRI relating to the realignment

Guam                                      Background                                                 of military installations and the relocation
                                          The Defense Posture Review Initiative, initiated           of military personnel to Guam.

Realignment                               by the Secretary of State and Secretary of De-
                                          fense with their Japanese counterparts, serves as     To assist with this oversight, the chairman estab-
                                          the framework for the future of U.S. force struc-     lished the Guam Interagency Planning Group.
                                          ture in Japan and the U.S. Marine Corps realign-      This group shares information about the status
                                          ment to Guam. The Guam realignment will be            of Guam construction and discusses planned
                                          one of the largest movements of military assets       and ongoing oversight efforts. The group is made
                                          in decades and will help to maintain a robust         up of representatives from the audit and inves-
                                          military presence in the Asia-Pacific region. Un-     tigative community, as well as representatives
                                          der the command of the Joint Region Marianas,         from DoD and other federal departments and
                                          the two largest military bases on Guam are Naval      agencies. The information exchange provides the
                                          Base Guam and Andersen Air Force Base. Since          basis for determining future initiatives needed to
DoD IG inspected Guam’s Harmon            2000, the U.S. Pacific Command has increased          effectively oversee activities related to the Guam
Substation, 115 KV Transformer Bank.
                                          air and naval forces on Guam to strengthen U.S.       realignment. DoD IG established the Guam joint
                                          deterrence and power projection in Asia; spe-         planning group to facilitate coordination and

12 SEMIANNUAL REPORT TO THE CONGRESS
collaboration among the oversight organizations      At the request of the deputy commanding gen-
involved in the Guam realignment. Within DoD,        eral, Marine Corps Bases Japan, DoD IG as-
it is the working-level group to share information   sessed the living conditions of military families
about the status of planned and ongoing Guam         in Okinawa, Japan, to determine whether living
oversight efforts in the Department. The group is    conditions were adequate for military personnel
made up of representatives from DoD audit and        and their families currently residing in Okinawa,
investigative communities. The information ex-       Japan, and whether estimates were adequate re-
change serves to de-conflict and coordinate the      garding the number of housing units needed for
efforts within DoD. The group will make recom-       military personnel and their families in the fu-          DoD IG team inspecting the new solid
mendations to the group for oversight actions to     ture. These issues were addressed in audit report         waste facility in Guam.

be included in the annual oversight plan for the     D-2010-084, issued on September 16, 2010. The
Guam realignment.                                    information contained in the report is For Of-
                                                     ficial Use Only.
Recent Activities
On June 4, 2010, DoD IG released the “FY 2010        Moving Forward
Comprehensive Oversight Plan for Guam Re-            The Interagency Coordination Group will con-
alignment,” on behalf of the participating mem-      tinue its efforts to coordinate oversight plans
bers. The plan, required by the FY 2010 National     through existing interagency working groups
Defense Authorization Act, is an annual over-        and councils in order to provide transparency
sight plan which details planned audits and re-      and accountability to the American people and
views relating to the Guam realignment.              to the U.S. forces affected by this realignment.
                                                     The annual report will be published in the sec-
The Guam Realignment Comprehensive Over-             ond quarter of FY 2011.
sight Plan identifies and incorporates the FY
2010 planned and ongoing Guam realignment            DoD IG will perform oversight projects that di-
initiatives of the inspectors general of the De-     rectly impact realignment efforts in Guam, as
partments of Defense, Interior, and Homeland         well as in Okinawa, Japan, specifically including
Security; and the auditor general of the Naval       the following six functional areas: 1) Oversight
Audit Service. Based on a visit to U.S. Pacific      and Accounting of Obligations and Expendi-
Command and U.S. Forces Japan, including mil-        tures; 2) Monitoring and Review of Construc-
itary installations in Okinawa and Guam, DoD         tion Activities; 3) Monitoring and Review of
IG has recognized the following concerns:            Contracts; 4) Monitoring and Review of Japan
•	 Substantial Guam infrastructure shortcom-         Funds; 5) Maintenance of Records on Use of
     ings fall outside of DoD funding author-        Funds; and 6) Monitoring and Review of the
     ity and could adversely impact the realign-     Implementation of the Defense Posture Review
     ment. These concerns need to be addressed       Initiative.                                                DoD IG is assessing critical
     with additional non-DoD funding and in-                                                                    infrastructure areas.

     teragency planning and execution.               DoD IG will assess the development of program
•	 Housing requirements of military families         and contract infrastructure requirements, in-
     in Okinawa should be resolved at this time      cluding cost estimates and budgets for the har-
     and not be held in abeyance while negotia-      bor, roads, power production and transmission,
     tions with Japan continue. Based on avail-      drinking water, water and solid waste, and com-
     able data, 45 percent of 6,986 family units     munications. This assessment is important as
     need attention and 1,129 units are consid-      8,000 Marines and 9,000 of their dependents will
     ered inadequate because of mildew, mold,        be moving from Okinawa, Japan, to Guam. Such
     and failing infrastructure.                     a massive military buildup makes it crucial that
•	 Competing priorities and the number of            DoD and other executive departments ensure
     contractors available could adversely im-       that the new military organization is properly set
     pact the realignment.                           up – that the military can get through the port
                                                     and across roads, and that adequate electricity

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 13
IG Highlights



                                         exists to run command systems and other func-              recipient reporting requirements.
                                         tions.                                                •	 Four projects did not verify contractor reg-
                                                                                                    istration in the government Central Con-
                                         DoD IG plans to highlight critical infrastructure          tractor Representations or the Online Rep-
                                         areas where DoD needs to improve in order to               resentations and Certifications Application
                                         facilitate a successful realignment that translates        Web sites prior to contract award.
                                         into a sustained quality of life for the warfight-    •	   Eight projects did not accurately prepare
                                         er. Other agencies actively participating in this          project cost estimates per DoD or military
Inspector General Heddell toured the     project include the following: inspectors general,         service guidance.
Pacific area including Japan and Guam.   Department of Agriculture; Department of En-
                                         ergy; Department of Homeland Security; De-            During this reporting period, DoD IG analyzed,
                                         partment of the Interior; Department of Trans-        responded to, and closed 16 referrals received
                                         portation; Environmental Protection Agency;           from the Recovery Act Transparency Board.
                                         Federal Communications Commission; and the            These referrals generally covered potential gov-
                                         governor of Guam.                                     ernment or contractor noncompliance with
                                                                                               OMB and FAR requirements for Recovery Act
                                                                                               procurements identified through RATB analysis
Recovery Act
	                           Background                                            of public records.
                                         DoD IG continues to vigorously investigate al-
                                         legations of fraud and corruption involving           To date, DoD IG has also initiated 11 Recovery
                                         the expenditures of Recovery Act funds by the         Act investigations involving allegations of pro-
                                         Department. A majority of these investigations        curement fraud, conflict of interest, and pro-
                                         are being conducted in conjunction with one or        gram management irregularities. Of these cases,
                                         more military criminal investigative organiza-        two were closed as the allegations were unsub-
                                         tions: U.S. Army Criminal Investigation Com-          stantiated.
                                         mand, Naval Criminal Investigative Service, and
                                         the Air Force Office of Special Investigations. As
                                         part of our Recovery Act Training and Outreach        Current Activities
                                         initiative, DoD IG trained law enforcement per-       The Defense Hotline and the RATB are cur-
                                         sonnel, contracting employees, attorneys, and         rently the primary sources of fraud referrals. In
                                         others. The training sessions provided the at-        an effort to better detect fraud and minimize the
                                         tendees an overview of the Recovery Act and the       Department’s exposure, DoD IG will proactively
                                         oversight role of DoD IG.                             data mine and analyze contract data and related
                                                                                               records for potential fraudulent activities and
                                         During the reporting period, DoD IG and the           abnormalities. DoD IG will conduct further re-
                                         service audit organizations issued a total of 45      views of the results to determine if the matters
                                         reports covering 225 Recovery Act-funded proj-        warrant the initiation of an investigation.
                                         ects valued at $865 million. Significant internal
                                         control deficiencies for the 225 projects includ-     We have focused audit oversight of DoD Re-
                                         ed:                                                   covery Act funds by using a predictive analytics
                                         •	 At least one contract action in each of the        modeling approach to select DoD projects. Fac-
                                              42 projects did not contain all applicable       tors that may be correlated with different levels
DoD IG is assessing Recovery Act-             contract clauses required by the Federal Ac-     of risk, such as type of project, place of perfor-
funded projects.                              quisition Regulation and Office of Manage-       mance, dollar value, and number of projects in
                                              ment and Budget Recovery Act guidance.           a district or location, were identified. Using the
                                         •	 Contracts for four projects did not post           factor weights, projects were ranked as to the
                                              required pre-solicitation, award notice, or      likelihood of improper performance.
                                              contract modifications to the Federal Busi-
                                              ness Opportunities Web site.                     This analysis technique was applied to select
                                         •	 Thirty-two projects lacked procedures to           military construction and large dollar value op-
                                              ensure compliance with OMB Recovery Act          erations and maintenance projects for review.

14 SEMIANNUAL REPORT TO THE CONGRESS
Predictive analytics was also used to select Unit-
ed States Army Corps of Engineers Civil Works
                                                     Moving Forward                                            “DoD IG and the
                                                     In the next phase of this initiative, DoD IG will         service audit organiza-
projects, as well as Army National Guard and
Air National Guard projects focusing on specific
                                                     expand the audience base to include industry              tions issued a total of
                                                     groups and DoD contractors that have received             45 reports covering
districts and states.
                                                     Recovery Act funds. The continuing pressure to            225 Recovery Act-
                                                     commence activities and expend Recovery Act
The primary responsibility for ensuring that                                                                   funded projects valued
                                                     funds as quickly as possible, consistent with pru-
DoD properly expends Recovery Act funds rests                                                                  at $865 million.”
                                                     dent management, will add pressure to the De-
with the Department. We are focusing our audit
                                                     partment’s understaffed contracting profession-
efforts on overall DoD Recovery Act manage-
                                                     als’ ability to award and administer contracts in
ment oversight processes and challenges. Specif-
                                                     an expedited manner.
ic DoD processes reviewed for effectiveness in-
clude those for providing oversight of Recovery
                                                     Additionally, without adequate and continuous
Act contracts to ensure they are meeting the key
                                                     management attention to Recovery Act imple-
OMB accountability objectives, including DoD
                                                     mentation, especially contractor oversight and
oversight on whether projects were:
                                                     recipient reporting, DoD will have a recurring
•	 Properly planned to ensure the appropriate
                                                     challenge to effectively meet the intent of the
     use of funds.
                                                     Recovery Act and maintain adequate transpar-
•	 Properly funded to ensure funds are distrib-
                                                     ency, accountability, and stewardship of taxpayer
     uted in a prompt, fair, and reasonable man-
                                                     funds.
     ner.
•	 Properly executed to ensure project trans-
                                                     We noted in our last Semiannual Report, DoD
     parency, competition, and inclusion of spe-
                                                     execution of the $12 billion of American Recov-
     cific FAR clauses.
                                                     ery and Reinvestment Act of 2009 (P.L. 111-5)
•	 Properly tracked and reported to ensure re-
                                                     (Recovery Act) funds was not moving as quickly
     cipients’ use of Recovery Act funds is trans-
                                                     as the Department had planned, and much of
     parent to the public.
                                                     the spending and actual work on the projects
•	 Avoiding unnecessary delays and cost over-
                                                     would not occur until FY 2010. DoD Recov-
     runs.
                                                     ery Act funds for facility repair and research and
•	 Ensuring recipient reporting was timely and
                                                     development projects valued at $4.26 billion will          DoD is using Recovery Act-funds for
     data accurate.                                                                                             this solar panel efficiency project.
                                                     expire for obligation at the end of FY 2010.
We are executing a joint oversight approach with
                                                     DoD continues to press forward to obligate these
the service audit agencies to ensure maximum
                                                     funds by the end of the fiscal year. As of Septem-
and efficient coverage of Recovery Act plans and
                                                     ber 30, 2010, DoD had obligated 99.9 percent of
implementation. Consistent with the audit ap-
                                                     these expiring funds. DoD has also met a goal
proach used by DoD IG, the service auditors are
                                                     of expending at least 45 percent of the funds
focusing on the planning, funding, project ex-
                                                     for these repair projects by the end of the fiscal
ecution, and tracking and reporting of Recovery
                                                     year. Funds for new construction are available
Act projects.
                                                     for obligation until FY 2014. As of September
                                                     30, 2010, DoD had obligated 86 percent of these
                                                     funds.




                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 15
Overview



Summary of Performance                                                     DoD IG Profile
During this reporting period, DoD IG continued directing its resources
towards those areas of greatest risk within the Department and addressed
                                                                           Staffing and Budget
a variety of issues by conducting audits of programs, investigating        As of September 30, 2010, DoD IG workforce totaled
criminal activity, and assessing key operations.                           1,634 employees. The FY 2010 budget was $288.1 million.
Audit reports focused on:
•	 Acquisition Processes & Contract Management
•	 Financial Management
•	 Health Care                                                             Office Locations
•	 Information Assurance, Security, & Privacy
•	 Joint Warfighting & Readiness                                           DoD IG is headquartered in Arlington, Va. Field audit
Investigations focused on:                                                 and investigation offices are located across the United
•	 Public Corruption                                                       States including California, Missouri, Georgia, Texas,
•	 Procurement Fraud                                                       Ohio, Pennsylvania, and Florida. In addition, DoD IG has
•	 Health Care Fraud                                                       offices across the world including Germany, South Korea,
•	 Product Substitution                                                    Afghanistan, Iraq, Qatar, and Kuwait.
•	 Technology Protection
•	 Computer Crimes
Inspections focused on:
•	 Logistics                                                               About DoD IG Employees
•	 Health Care
                                                                           DoD IG is a knowledge-driven organization, and its
•	 Compliance
                                                                           employees are experts in fields such as auditing, criminal
In addition, DoD IG assessed key operations in a variety of areas by
                                                                           investigations, computer security, intelligence, hotline
conducting assessments and intelligence reviews. DoD IG investigated
                                                                           complaints, military reprisals, and many others.
senior officials and reprisal complaints; conducted policy and peer
reviews; and managed programs, such as contractor disclosure and the
Defense Hotline.



Results Attained

AUDIT
Reports Issued                                                        66
Potential funds put to better use                        $144.6 million
Achieved monetary benefits                                  $4.1 billion



INVESTIGATIONS 

Indictments                                                        160
Convictions                                                        125
Suspensions                                                          23
Debarments                                                           65
Total Recoveries                                           $303 million



 16 SEMIANNUAL REPORT TO THE CONGRESS
              2


Oversight
	
Oversight



                                    The following audits are highlights of work com-     •	   Contract pricing

Audits
	                            pleted during the reporting period. DoD IG au-
                                    dits are listed under the following categories:
                                                                                         •	
                                                                                         •	
                                                                                              Oversight and surveillance
                                                                                              Property accountability
                                    •	 Acquisition Processes & Contract                  •	   Financial management
                                         Management                                      Result: This report was widely disseminated to
                                    •	 Financial Management                              contingency operation commanders and should
                                    •	 Health Care                                       significantly improve contracting and oversight
                                    •	 Information Assurance, Security, & Privacy        as DoD continues to surge into Afghanistan, if
                                    •	 Joint Warfighting & Readiness                     the following oversight actions are taken on fu-
                                                                                         ture contracts:
                                                                                         •	 Complete and detailed documentation is es-
                                    Acquisition Processes &                                   sential to all phases of the contracting pro-
                                    Contract Management                                       cess.
                                                                                         •	 Program personnel must ensure that clear,
                                    The Department faces serious acquisition and
                                    contracting challenges in the coming year as the          complete, well-defined requirements exist
                                    nation faces difficult economic and fiscal situa-         for the entire contract.
                                    tions. There is increased emphasis on doing more     •	 Contracting officers must prepare an acqui-
                                    with less. As transition and downsizing contin-           sition strategy that considers the contract
 DoD IG issued a “roadmap” to       ues in Iraq, a surge and buildup in Afghanistan           type, a source selection strategy, a pricing
 contingency contracting reform.
                                    is underway, and the Department needs to learn            strategy, and funding.
                                    lessons from Iraq to effect better management in     •	 When determining whether the contract
                                    Afghanistan. In August 2010, Secretary of De-             should be fixed-price or a cost-type, the
                                    fense Robert M. Gates announced the need for              contracting officer should consider the pro-
                                    the Department to operate more efficiently. He            curement history and, if applicable, evalu-
                                    assigned the military services the task of finding        ate prior work to support the contract type
                                    more than $100 billion in savings over the next           decision.
                                    five years and announced a series of actions to      •	 The contracting officer must have well-de-
                                    eliminate duplication, reduce overhead, and save          fined and measurable source selection cri-
“This report was                    money. Much like these initiatives, DoD IG au-            teria and make well-documented selection
widely disseminated                 dit challenges are similar: develop lessons from          decisions that appropriately discuss price
to contingency opera-               work in Iraq; find inefficiencies and duplications        and technical tradeoffs for competitive pro-
                                    in programs, operations, and functions; and               curements.
tion commanders and
                                    identify monetary benefits.                          •	 The contracting officer should have robust
should significantly                                                                          pre-award pricing support.
improve contracting                 During the past six months, DoD IG issued 14         •	 All aspects of the negotiation, specifically
and oversight as DoD                audit reports on contingency operations con-              the price negotiation memorandum, should
continues to surge into             tracting and 23 audit reports on American Re-             be documented in detail to allow an inde-
                                    covery and Reinvestment Act contracting.                  pendent party to understand the conclu-
Afghanistan...”
                                                                                              sions negotiated.
                                    Contingency Contracting:                             •	 Both program and contracting personnel
                                    A Framework for Reform                                    must ensure a well-documented surveil-
                                    Overview: This summary project not only iden-             lance approach is in place.
                                    tified 10 significant systemic issues from recent    •	 The contracting officer should ensure that
                                    coverage of contingency contracting, but also             the government is accepting the supplies
                                    provided a “roadmap” of essential contracting             and services being provided by the contrac-
                                    and oversight actions that should be taken on             tor, and that acceptance and inspection are
                                    future contracts to avoid past problems and con-          adequately documented.
                                    tract more efficiently and effectively.              Report No. D-2010-059
                                    Findings: Key systemic issues identified with
                                    contingency contracting included:
                                    •	 Requirements
 18 SEMIANNUAL REPORT TO THE CONGRESS
Kuwait Contractors Working in Sensitive               •	 Verify that the human resources listings in-
Positions Without Security Clearances or CACs             clude all employees in sensitive positions.
Overview: DoD IG reviewed the Combat Ser-             •	 Coordinate with the Kuwait bases’ Provost
vices Support Contract - Kuwait to identify po-          Marshall Offices to conduct a review to ver-
tential weaknesses related to the management of          ify all contractor employees have a CAC.
the contractor’s security program and security        Report No. D-2010-085
clearances for contractor employees. Contrac-
tor employees in sensitive positions who lack         Implementation of the Predator/Sky Warrior
security clearances are unacceptable, and pose a      Acquisition Decision Memorandum
security risk for military and civilian personnel     Overview: DoD IG evaluated whether the Air
and contractors in Kuwait. The CSSC-K contract        Force and the Army complied with the direc-
was awarded in 1999 and had a value of more           tion in the May 19, 2008, Acquisition Decision
than $3.3 billion. Unless extended for a third        Memorandum to combine the Air Force Preda-
time, the contract is scheduled to end September      tor and Army Sky Warrior programs into a
30, 2010, but the corrective actions identified in    single acquisition program to achieve common
this report must be established and implemented       development, procurement, sustainment, and
in follow-on contracts.                               training activities.
Findings: CSSC-K contractor employees worked          Findings: The Predator, Sky Warrior, and Reap-
in sensitive positions without the required se-       er are Predator-class Unmanned Aerial Systems
curity clearance. The CSSC-K contractor had           and are manufactured by the same contractor.
employees in sensitive positions with no record       Despite using the same primary contractor, the
of security clearances or no valid clearances, an     Air Force and the Army have not complied with
incorrectly identified sensitive position, and in-    the September 13, 2007, Deputy Secretary of De-
complete security files. The contractor officials     fense memorandum or the May 19, 2008, ADM
also allowed contractor employees to remain in        to combine the Predator and Sky Warrior pro-
sensitive positions without a security clearance      grams into a single acquisition program. Further,
even after they were informed they were in vio-       the Air Force and Army had not implemented
lation of the contract. Lastly, the Army did not      adequate management controls to comply with
ensure all contractors had the common access          P.L. 110-417, “Duncan Hunter National Defense
cards required for base access. This occurred be-     Authorization Act for Fiscal Year 2009,” Section
cause the contractor officials did not identify and   144, October 14, 2008. This occurred because
track all positions or obtain the required clear-     the Air Force was not committed to a single ac-
                                                                                                                  DoD IG conducted an audit on the
ance for all employees. Additionally, the Defense     quisition program as demonstrated by actions                Predator/Sky Warrior acquisition.
Contract Management Agency did not provide            that were inconsistent with the May 19, 2008,
oversight of the contractor’s security program in     ADM guidance. These actions included the Air
accordance with the contract or DCMA’s Theater        Force zeroing out procurement funding for the
Quality Plan.                                         Predator in FY 2010 and planning to transition
Result: The commander, DCMA-Kuwait, and               to an all Reaper fleet. In addition, the Under Sec-
the procurement contracting officer should:           retary of Defense for Acquisition, Technology,
•	 Require quality assurance representatives to       and Logistics did not create a single acquisition
     review security files and issue corrective ac-   program office responsible for a combined Pred-
     tion reports.                                    ator/Sky Warrior program. The Air Force and
•	 Remove contractors working in sensitive            the Army will not achieve a potential savings of
     positions without security clearances or         $400 million that the USD (AT&L) estimated
     CACs.                                            would result from combining the Predator and
•	 Implement contractual remedies to recoup           the Sky Warrior programs. Additionally, the Air
     any money paid for services not provided.        Force plan to buy five Air Force unique MQ-1C
•	 Require the contractor to conduct quarterly        aircraft, valued at $60 million, was canceled.
     reviews to validate the Security Clearance       Result: The USD (AT&L) should do the follow-
     Access Roster.                                   ing:
•	 Consider debarment of the contractor.              •	 Determine whether the combination pro-

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 19
Oversight



                                      gram is still valid; if so, establish a single            tracting officers develop plans for sufficient
                                      acquisition category program designation                  contract oversight of T&M contracts in
                                      with joint requirements; develop an analy-                Southwest Asia. Contract oversight officials
                                      sis of alternatives and acquisition strategy;             should be located at the place of contractor
                                      and determine the optimum mix of aircraft                 performance to ensure effective surveil-
                                      to procure.                                               lance.
                                   •	 Require the Air Force and Army to provide           The director of contracting of White Sands
                                      cost, schedule, and performance milestones          Missile Range and the executive director of the
                                      for the development of the ground system            Army Communications and Electronics Com-
                                      architecture and conduct quarterly reviews.         mand Acquisition Center should review the
                                   Report No. D-2010-082                                  contracts and request refunds, where appropri-
                                                                                          ate, from the contractors.
                                   Army Use of Time-and-Materials Contracts in            Report No. D-2010-081
                                   Southwest Asia
                                   Overview: DoD IG reviewed Army time-and-               Air Force Use of Time-and-Materials Contracts
                                   materials contracts and task orders for South-         in Southwest Asia
                                   west Asia to determine if they were awarded and        Overview: DoD IG determined whether DoD
                                   administered in accordance with acquisition            officials awarded and administered six time-
                                   regulations. DoD IG reviewed 18 contracts and          and-materials contracts valued at $120.8 million
                                   task orders with a total value of $605 million.        for work in Southwest Asia in accordance with
                                   Findings: Army contracting and DoD program             the Federal Acquisition Regulation.
                                   officials did not properly award and administer        Findings: Officials at the Air Force Center for
                                   the 18 T&M contracts and task orders for work          Engineering and the Environment:
                                   performed in Southwest Asia. Contracting and           •	 Did not adequately monitor the title II con-
                                   program officials:                                          tractors working in Southwest Asia and did
                                   •	 Awarded contracts and task orders with                   not adequately review invoices, because the
                                        invalid sole-source justifications or unfair           title II contracting officer’s representatives
                                        competition (10 of 18).                                did not conduct site visits to Southwest Asia
                                   •	 Did not negotiate reasonable prices (17 of               and, according to the contracting officer,
                                        18).                                                   there were not enough personnel to review
                                   •	 Did not justify their use of the T&M con-                invoices. As a result, AFCEE has no assur-
                                        tract type (12 of 18).                                 ance that the contractors were working ef-
                                   These conditions occurred because contracting               ficiently and effectively, and AFCEE paid
                                   and program officials ignored acquisition regu-             for $24.3 million in labor costs that were not
                                   lations. In addition, contracting and program               part of the contract.
                                   officials did not perform adequate contractor          •	 Did not fully support award decisions for
                                   surveillance for the 18 contracts and task orders           the task orders because officials did not
                                   because of inadequate organization and plan-                comply with the FAR. As a result, officials
                                   ning by the Army officials responsible for con-             put AFCEE at risk for overcharges and labor
                                   tractor oversight. DoD IG identified potential              inefficiencies by the contractor and could
                                   monetary benefits for the government of $3.69               not be sure that the labor prices were fair
                                   million.                                                    and reasonable.
                                   Result: The executive director of the Army Con-        Result: The director, AFCEE should:
                                   tracting Command should:                               •	 Direct officials to conduct appropriate sur-
                                   •	 Conduct a review and initiate appropriate                veillance of contractors.
                                        administrative action on the contracting          •	 Develop a written plan for reviewing invoic-
                                        officers responsible for awarding contracts            es and request that the Defense Contract
                                        and task orders without adequate competi-              Audit Agency analyze contractor invoices
                                        tion, sole-source justifications, or price rea-        and their supporting documentation to de-
                                        sonableness determinations.                            termine whether the invoices include only
                                   •	 Take corrective action to ensure that con-               allowable, reasonable, and allocable costs.

20 SEMIANNUAL REPORT TO THE CONGRESS
•	 Hold officials accountable by developing in-          termination of profit.
   ternal controls for adequately documenting        •	 They issued UCAs unnecessarily because of
   and describing their decisions during the              poor acquisition planning.
   award process.                                    As a result, the Air Force assumed increased risk
Report No. D-2010-078                                in the award and negotiation process and may
                                                     have paid excess profit.
Air Force Electronic Systems Center’s Use of         Result: Air Force officials should develop pro-
Undefinitized/Contractual Actions                    cedures to ensure that UCA requests include the
Overview: P.L. 99-591, section 908(b), requires      impact on agency requirements if contracting
DoD IG to periodically audit Undefinitized           personnel do not issue a UCA, require better
Contractual Actions and submit a report to           coordination with customers to identify changes
Congress. This is the first in a series of reports   in government requirements, and require con-
discussing DoD compliance with section 2326,         tracting personnel to adequately document the
title 10, United States Code. DoD IG reviewed 41     profit determination for UCAs. Air Force offi-
UCAs with a total not-to-exceed value of about       cials should develop procedures to avoid issuing
$2.8 billion awarded by the Air Force Electronic     UCAs to extend consecutive periods of perfor-
Systems Center from FY 2004 through August           mance on the same contract and to avoid issuing
14, 2009, to determine whether ESC person-           UCAs for known or recurring requirements.
nel complied with the restrictions of the Unit-      Report No. D-2010-080
ed States Code and appropriately justified and
definitized UCAs at reasonable prices.               Security Provisions in a U.S. Army Intelligence
Findings: ESC personnel did not consistently         and Security Command Contract for Linguist
comply with statutory requirements for 34 of the     Support
41 UCAs. ESC personnel did not:                      Overview: DoD IG initiated this audit in re-
•	 Adequately document the authorization to          sponse to a January 2010 shooting incident in            “DoD IG initiated this
      issue one UCA.                                 Afghanistan involving a contractor linguist and          audit in response to a
•	 Properly prepare requests for authorization       U.S. forces. DoD IG reviewed the statement of            January 2010 shooting
      to issue 16 UCAs.                              work and 40 task orders included in a U.S. Army          incident in Afghanistan
•	 Definitize 12 UCAs within the 180-day time        Intelligence and Security Command Contract
      frame.                                         for Linguist Support to determine whether the
                                                                                                              involving a contrac-
•	 Support whether the contactor’s reduced           contract contained appropriate security provi-           tor linguist and U.S.
      risk during the undefinitized period was       sions.                                                   forces.”
      reflected in negotiated profit for 25 UCAs.    Findings: The contract referenced an out-of-
•	 Obligate funds within allowable limits for        date Army policy for screening contract lin-
      two UCAs.                                      guists, even though the provisions in the con-
In addition, ESC contracting personnel inappro-      tract and task orders contained the up-to-date
priately issued UCAs for late customer defined       standards.
requirements and additional UCAs for known           Result: In response to the audit recommenda-
or recurring acquisition requirements. ESC per-      tions, U.S. Army Intelligence and Security Com-
sonnel did not consistently comply with UCA          mand agreed to modify the contract and ongo-
restrictions because:                                ing task orders to reference the correct Army
•	 They did not provide a signed UCA approv-         policy memorandum. A subsequent audit will
      al document.                                   assess whether the contract security provisions
•	 They did not follow statutory and DoD             were effectively implemented during the con-
      regulations for preparing requests to issue    tract linguist screening and vetting process.
      UCAs.                                          Report No. D-2010-079
•	 The government changed requirements af-
      ter the UCAs were issued.                      Defense Contract Management Agency
•	 The contractor submitted inadequate pro-          Acquisition Workforce for Southwest Asia
      posals.                                        Overview: DoD IG determined whether DCMA
•	 They did not adequately document the de-          identified its requirements to support Southwest

                                                                                                         APRIL 1, 2010 TO SEPTEMBER 30, 2010 21
Oversight



                                       Asia contracting operations and also evaluated      Government Oversight of Field Service
                                       whether a sample of the DCMA acquisition            Representative and Instructor Services in
                                       workforce for Southwest Asia was adequately         Support of the Mine Resistant Ambush
                                       trained and certified. As of December 31, 2008,     Protected Vehicle Program
                                       DCMA provided contract oversight and con-           Overview: The MRAP vehicles are multi-mis-
                                       tract administration for contract actions valued    sion platforms capable of mitigating the effects
                                       at $1.3 trillion.                                   of improvised explosive devices, mines, and
                                       Findings: DCMA could not determine its re-          small arms fire. For this report, DoD IG limited
                                       source requirements for contractor oversight        the scope to the oversight of Field Service Rep-
                                       and contract administration in Southwest Asia       resentative and New Equipment Training In-
                                       because:                                            structor services procured from the five original
                                       •	 DCMA is reactive rather than proactive           MRAP manufacturers.
                                            in assuming its role to provide contractor     Findings: Marine Corps Systems Command
                                            oversight and contract administration.         contracting officials did not provide adequate
                                       •	 DCMA did not define its acquisition work-        government oversight of FSRs and New Equip-
                                            force requirements to support contracting      ment Training Instructors as required by gov-
                                            operations in Southwest Asia.                  ernment regulations. This occurred because
                                       •	 The Under Secretary of Defense for Acqui-        contracting officials used the MRAP vehicle
                                            sition, Technology, and Logistics does not     production contracts, which did not contain
DoD IG conducted an audit of support        require Defense agencies to document ac-       the necessary controls for providing govern-
to the MRAP vehicle program.                quisition workforce requirements.              ment oversight when acquiring these services.
                                       •	 DCMA must be delegated contractor over-          As a result, Joint Program Office MRAP officials
                                            sight and contract administration responsi-    ordered $815.4 million in FSR and New Equip-
                                            bility for work in Southwest Asia.             ment Training Instructor services without a
                                       DCMA Southwest Asia personnel did not have          written quality assurance process to ensure that
                                       the proper training and certification for contin-   the services provided were performed in accor-
                                       gency contracting positions in Southwest Asia.      dance with contract requirements. Instead, the
                                       Specifically, of the 221 DCMA personnel train-      JPO MRAP officials relied on the contractors to
                                       ing records reviewed from a universe of 1,170       monitor themselves.
                                       from FY 2004 through FY 2009, 103 DCMA per-         Result: Marine Corps Systems Command con-
                                       sonnel were not fully qualified for the positions   tracting officials will develop and implement a
                                       occupied, and 57 quality assurance representa-      systematic, government-controlled quality as-
                                       tives did not have or could not produce proof of    surance program for services procured from the
                                       Defense Acquisition Workforce Improvement           five MRAP contracts to ensure adequate gov-
                                       Act certification.                                  ernment oversight of FSRs and New Equipment
                                       Result: The Under Secretary of Defense for Ac-      Training Instructors. The Program Manager,
                                       quisition, Technology, and Logistics will review    JPO MRAP, Marine Corps Systems Command,
                                       quarterly DCMA Southwest Asia acquisition           will develop and provide a Quality Assurance
                                       workforce requirements and reduce the grace         Surveillance Plan to the contracting officer, spe-
                                       period to obtain required certifications to six     cifically for ongoing and planned contract ac-
                                       months for contingency operations. In addi-         tions for services supporting MRAP vehicles to
                                       tion, the director, DCMA, will define acquisition   ensure the quality and cost-effectiveness of ser-
                                       workforce requirements for Southwest Asia, and      vices.
                                       review and update personnel training records to     Report No. D-2010-068
                                       ensure candidates possess required training and
                                       certification before deployment on contingency      Analysis of Air Force Secondary Power
                                       operations.                                         Logistics Solution Contract
                                       Report No. D-2010-051                               Overview: The objective was to evaluate the
                                                                                           data used in the business case to support the best
                                                                                           value decision to award the Secondary Power
                                                                                           Logistics Solution contract. DoD IG also evalu-

22 SEMIANNUAL REPORT TO THE CONGRESS
ated a congressional inquiry on the consolida-      Specifically, MICC-EU contracting officers:
tion of SPLS requirements.                          •	 Did not adhere to competition requirements
Findings: The Air Force did not adequately               for all 15 contracts because they relied on an
address Defense Logistics Agency consumable              incorrect legal opinion from Naval Regional
item inventory. The Air Force did not comply             Contracting Command Naples, Detach-
with legal requirements relating to prime ven-           ment Bahrain; as a result, they may not have
dor contracts for depot level maintenance and            obtained the best price for approximately
repair because there is no DoD implementing              $51.8 million in contracting actions.
guidance, and the SPLS contract is not consis-      •	 Did not ensure price reasonableness deter-
tent with Base Realignment and Closure recom-            minations were performed because they did
mendations to transfer procurement manage-               not follow the Federal Acquisition Regula-
ment and distribution functions to DLA. DoD              tion; as a result, they may not have obtained
availability for C-130 and F-15 Depot-level Re-          the lowest price for more than $29.9 million
pairables has been unsatisfactory, and the SPLS          in sole-source contracting actions.
contract requires significantly improved avail-     Result: The assistant secretary of the Army (Fi-
ability starting in contract year three. However,   nancial Management and Comptroller) should
the goal of reducing customer wait time was not     initiate a preliminary review of the potential An-
achieved, and contract metrics were not consis-     tideficiency Act violation to determine whether
tent with DoD standards. Also, the contract did     a violation occurred, and provide the results to
not obtain significant reliability improvements,    the Office of Inspector General. DoD IG recom-
and the Air Force continues to fund improve-        mended that the director, MICC-EU:
ments outside of the contract, which is contrary    •	 Require contracting officers to provide full
to the performance-based logistics concept.              and open competition, as well as justify and           DoD IG conducted an audit of Army
Result: After informing the Air Force and DLA,           document all contract awards without ad-               vessel maintenance contracts in SWA.

they agreed to drawdown $51.1 million of inven-          equate competition.
tory for the F-15 secondary power system and        •	 Require contracting officers to stop us-
are addressing $19 million of consumables in-            ing the June 8, 2004, NRCC Legal Counsel
ventory for the C-130.                                   memorandum.
Report No. D-2010-063                               •	 Require the contracting officers to request
                                                         other than cost and pricing data, document
Army Vessels Maintenance Contracts in                    fair and reasonable price determinations,
Southwest Asia                                           and establish employee performance stan-
Overview: The overall objective was to deter-            dards for contracting officers.
mine whether contracts providing ship repairs       •	 Correct funding for contract W912SU-
and maintenance to the Army operations in Ku-            06-G-0003-0008 with the appropriate fiscal
wait and Navy operations in Bahrain and United           year funds (if available) to address the bona
Arab Emirates were properly managed and ad-              fide needs rule violation.
ministered. For this report, DoD IG reviewed        Finally, DoD IG recommended that the legal
competition, price reasonableness determina-        counsel, Fleet and Industrial Supply Center,
tions, and quality assurance controls in 15 con-    Sigonella, Detachment Bahrain, withdraw the
tracts valued at $51.8 million for Army vessels     NRCC memorandum, dated June 8, 2004.
maintenance in Kuwait. The findings on the two      Report No. D-2010-064
Navy locations will be included in follow-on re-
ports.                                              Efforts to Prevent Sexual Assault/Harassment
Findings: The Mission and Installation Con-         Involving DoD Contractors During
tracting Command-Fort Eustis adhered to the         Contingency Operations
surveillance and acceptance requirements for        Overview: At the request of five members of
contracts reviewed. However, MICC-EU con-           Congress, DoD IG reviewed contracts that sup-
tracts did not have adequate contract competi-      port Operations Enduring Freedom and Iraqi
tion, price reasonableness determinations, and      Freedom for language in clauses that address
funding.                                            the prevention of sexual assault or harassment

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 23
Oversight



                                    of or by contractor personnel. DoD IG also de-       ments, including sexual assault prevention and
                                    termined whether DoD and/or DoD contractors          response training requirements, are met prior to
                                    provided sexual assault/harassment prevention        approving DoD contractors’ deployment opera-
                                    and response training to contractor employees        tions and review the adequacy of contractor de-
                                    prior to deployment.                                 ployment training for sexual assault prevention
                                    Findings: Of the 10 DoD contractors reviewed,        and response.
                                    eight did not have policies or training require-     Report No. D-2010-052
                                    ments for sexual assault prevention and re-
                                    sponse. This condition occurred because con-         U.S. Army Corps of Engineers’ Use of Award
                                    tractual requirements were not established to        Fees on Contracts in Iraq and Afghanistan
                                    ensure that contractors were aware of DoD’s          Overview: The overall objective was to deter-
                                    definition of sexual assault or that contractors     mine whether award fees paid by the U.S. Army
                                    should report sexual assault complaints to mili-     Corps of Engineers Transatlantic Programs
                                    tary law enforcement during contingency opera-       Center to contractors in support of operations in
                                    tions. In addition, sexual assault prevention and    Iraq and Afghanistan were justified. Specifically,
                                    response policy was not applied to contractors,      DoD IG evaluated procedures used by TAC for
“Of the 10 DoD
                                    and contractors were not required to complete        determining and awarding fees on 15 task orders
contractors reviewed,               such training as part of theater-specific indi-      worth about $116.4 million.
eight did not have                  vidual requirements training. The Army deputy        Findings: U.S. Army Corps of Engineers Trans-
policies or training                chief of staff, G-3/5/7, and Air Force contract-     atlantic Programs Center contracting and award
requirements for sexual             ing officers did not provide adequate oversight      fee officials did not properly manage and oversee
                                    of contractor deployment training for sexual         the award fee process for the 15 cost plus award
assault prevention and
                                    assault prevention and response. This condition      fee task orders reviewed, valued at $116.4 mil-
response.”                          occurred because the Kellogg, Brown, and Root        lion. Specifically, officials did not:
                                    Services, Inc. Continental United States Replace-    •	 Develop adequate award fee plans for in-
                                    ment Center and Fluor Corporation CRC opera-               centivizing and evaluating contractor per-
                                    tions were inappropriately approved, despite the           formance.
                                    contractors’ sexual assault awareness and report-    •	 Adequately conduct oversight and evalua-
                                    ing training not meeting the minimum training              tion responsibilities.
                                    requirements. Further, contractor employees          •	 Adequately document and support award
                                    were processed through pre-deployment sites                fee ratings.
                                    without ensuring that sexual assault prevention      This occurred because USACE did not have
                                    and response training was completed.                 policies and procedures for administering award
                                    Result: DoD IG recommended that the Under            fees consistently and in accordance with Federal
                                    Secretary of Defense for Acquisition, Technol-       Acquisition Regulation requirements. In addi-
                                    ogy, and Logistics develop contractual require-      tion, USACE did not adopt Army best practices
                                    ments to ensure that DoD contractors are aware       documented in the Army Contracting Agency
                                    of the DoD definition of sexual assault and re-      Award Fee Contracts Handbook. As a result,
                                    quire contractors to report sexual assaults to       TAC contracting officers and award fee person-
                                    military law enforcement; and the Under Secre-       nel awarded fees, totaling approximately $20.6
                                    tary of Defense for Personnel and Readiness ex-      million, without sufficient support, justification,
                                    pand the sexual assault prevention and response      or assurance that contractors were paid award
                                    policy to establish prevention, awareness, and re-   fees commensurate with their level of perfor-
                                    porting requirements and procedures specifical-      mance.
                                    ly for DoD contractors. In addition, USD(P&R)        Result: DoD IG recommended that the director,
                                    should develop guidance ensuring that combat-        National Contracting Organization, headquar-
                                    ant commanders establish mandatory sexual as-        ters, U.S. Army Corps of Engineers, in coordina-
                                    sault prevention and response training for DoD       tion with the Principal Assistant Responsible for
                                    contractors who operate in contingency opera-        Contracting–Winchester, establish standard op-
                                    tions; and the chief of staff of the Army ensure     erating policies and procedures for administer-
                                    that the minimum deployment training require-        ing an effective award fee process in accordance

 24 SEMIANNUAL REPORT TO THE CONGRESS
with the Federal Acquisition Regulation or adopt      Inspection Guidelines for DoD Security,
the procedures suggested in the Army Contract-        Intelligence, and Counterintelligence Support
ing Agency Award Fee Contracts Handbook.              to Research, Development, and Acquisition
Report No. D-2010-049                                 Protection for 2010
                                                      Overview: DoD IG has primary responsibility
FY 2009 Summary Report of Inspections                 for overseeing matters relating to inspections of
on Security, Technology Protection, and               counterintelligence, security, and research devel-
Counterintelligence Practices at DoD Research,        opment; and acquisition protection practices at
Development, Test and Evaluation Facilities           research, development, test, and evaluation facil-
Overview: DoD IG receives annual summaries            ities. DoD Instruction 5200.39 “Critical Program
of inspection results from the service inspectors     Information Protection Within the Department
general. The inspections ensure compliance with       of Defense,” July 16, 2008, is the basis for DoD-
directives concerning security, technology pro-       wide consistency in inspections of security, in-
tection, and counterintelligence practices. DoD       telligence, and counterintelligence practices at            DoD IG assessed the construction proj-
IG publishes the summaries to share the results       research, development, test, and evaluation fa-             ects at the NSA Cryptologic Centers.

and best practices throughout the community.          cilities, as well as the acquisition processes that
Results: The service inspectors general identi-       impact the identification and protection of criti-
fied and made suggestions for improvements            cal program information.
in information assurance and physical security,       Results: The guidelines ensure a consistent ap-
as well as other areas. Where deficiencies were       proach by service inspectors general in review-
found, command leadership was engaged to take         ing protection of research, development, and ac-
corrective steps. As a consequence, inspection        quisition activities or programs and determining
findings resulted in significant programmatic         the effectiveness of security requirements that
improvements across the board.                        are implemented, and the intelligence and coun-
Report No. 10-INTEL-06 (FOUO)                         terintelligence support provided. The guidelines
                                                      have evolved as the DoD guidance has evolved,
DoD Efforts to Protect Critical Program               resulting in a focus on eight key elements criti-
Information: The Army’s Warfighter                    cal to determining the effectiveness of protecting
Information Network – Tactical                        critical program information. Refer to the Clas-
Overview: DoD IG assessed existing DoD and            sified Annex of this Semiannual Report for more
Army policies to protect critical program in-         details.
formation to determine if there was a need for        Report No. 10-INTEL-08 (FOUO)
improvement. DoD program protection efforts
were also reviewed for standardization of protec-     Report of the National Security Agency Georgia
tion processes and their application, oversight of    Cryptologic Center Construction Project
protection processes, and responsibility for pro-     Overview: DoD IG assessed whether the con-
tection efforts.                                      struction projects at the National Security Agen-
Results: Better integration and synchronization       cy Cryptologic Centers are being effectively
are required for optimizing and providing uni-        monitored and managed.
form research and technology protection efforts.      Results: Contract management and quality as-
Cognizant OSD and Army principals agreed              surance conformed to Federal Acquisition Regu-
with recommendations to enhance or develop            lation 36 “Construction and Architect-Engineer
comprehensive policies to better address coun-        Contracts” and Federal Acquisition Regulation
terintelligence, intelligence, and security support   46 “Quality Assurance.” Refer to the Classified
to research, development, and acquisition pro-        Annex of this Semiannual Report for more de-
tection activities. Refer to the Classified Annex     tails.
of this Semiannual Report for more details.           Report No. 10-INTEL-10 (FOUO)
Report No. 10-INTEL-07 (FOUO)
                                                      Audit of the Long Range Advanced Scout
                                                      Surveillance System
                                                      Overview: DoD IG assessed whether the U.S.

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 25
Oversight



                                        Army performed adequate program acquisi-               statements. For the FY 2009 financial state-
                                        tion management of the Long Range Advanced             ments, the Defense Commissary Agency, De-
                                        Scout Surveillance System.                             fense Contract Audit Agency, Defense Finance
                                        Results: DoD IG found that the program was             and Accounting Service, Military Retirement
                                        managed well; but identified the need to closely       Fund, National Reconnaissance Office, U.S.
                                        monitor and correct an issue related to con-           Army Corps of Engineers, and DoD IG all re-
                                        tractor storage of equipment and observed an           ceived unqualified opinions, while the Medi-
                                        opportunity to improve training. Refer to the          care-Eligible Health Care Fund and Contract
                                        Classified Annex of this Semiannual Report for         Resource Management received qualified audit
                                        more details.                                          opinions.
                                        Report No. 10-INTEL-11 (FOUO)
                                                                                               DoD IG financial-related audits focused on pro-
                                        Inspection of an Office of the Under Secretary         viding insight and valuable recommendations
                                        of Defense Program – No. 3                             to managers as they prepare for audit readiness.
                                        Results: Several deficiencies were noted. Refer        Areas that were covered during the reporting
                                        to the Classified Annex of this Semiannual Re-         period included unliquidated obligations, man-
                                        port for more details.                                 agement of funds appropriated for Afghanistan
                                        Report No. 10-INTEL-14 (Classified)                    and Iraq processed through the Foreign Military
                                                                                               Sales Network, pay for military members sup-
                                                                                               porting OCO, and the DoD mass transportation
                                        Financial Management                                   benefit program.
                                        The Department continues to face financial
                                        management challenges that adversely affect            Controls Over Unliquidated Obligations for
                                        DoD’s ability to provide reliable, timely, and         Department of the Army Contracts
                                        useful financial and managerial data needed to         Overview: DoD IG determined whether the
                                        support operating, budgeting, and policy deci-         Department of the Army properly accounted
                                        sions. Since the 1990s, DoD IG has identified          for and deobligated unliquidated obligations on
                                        financial management as a management chal-             contracts supporting overseas contingency op-
                                        lenge. DoD’s financial management problems             erations in a timely manner. The line of account-
                                        are so significant; they constitute the single larg-   ing used for identifying the Army’s use of con-
                                        est and most challenging impediment to the U.S.        tingency operations funds was not reliable, and
“DoD’s financial man-                   government’s ability to obtain an opinion on its       DoD IG could not identify specific contracts
agement problems are                    consolidated financial statements.                     as supporting the effort. Therefore, DoD IG
so significant; they con-                                                                      evaluated the triannual review process at Army
                                        In the FY 2009 audit opinion on DoD’s consoli-         Materiel Command and Aviation and Missile
stitute the single largest              dated financial statements, DoD IG reported the        Command Life Cycle Management Command,
and most challenging                    same 13 material internal control weaknesses as        which may include the review of some unliqui-
impediment to the U.S.                  in the previous year. These pervasive and long-        dated obligation balances on contracts support-
government’s ability to                 standing financial management issues directly          ing overseas contingency operations.
                                        affect the Department’s ability to obtain an un-       Findings: Eight Army fund holders did not ad-
obtain an opinion on its
                                        qualified opinion on its financial statements.         equately validate and maintain sufficient docu-
consolidated financial                  These weaknesses affect the safeguarding of            mentation supporting their review for 92 of 94
statements.”                            assets, proper use of funds, and impair the pre-       Army unliquidated obligations for the FY 2009
                                        vention and identification of fraud, waste, and        phase I and II triannual review periods. Army
                                        abuse.                                                 triannual review guidance did not provide clear
                                                                                               criteria for reviewing and validating unliquidat-
                                        Although DoD is far from reaching an unquali-          ed obligations. Also, Army fund holders did not
                                        fied opinion, the Department has demonstrated          follow DoD guidance on maintaining support-
                                        improvement. One significant measure of the            ing documentation. As a result, the Army had
                                        ongoing progress in the area of financial man-         no assurance that unliquidated obligations val-
                                        agement would be the Department’s ability to           ued at approximately $125.8 million represented
                                        obtain an unqualified opinion on its financial

 26 SEMIANNUAL REPORT TO THE CONGRESS
valid Army needs at the time of the reviews. The    appropriated funds using the FMS Trust Fund
Army should also deobligate approximately $4.4      was not (1) in the best interest of the govern-
million related to invalid unliquidated obliga-     ment, (2) the most economical use of the funds,
tions and review approximately $11 million for      and (3) managed in accordance with the re-
obligations for which validity is unknown. Ad-      quirements in the DoD Financial Management
ditionally, the Army may have lost the use of       Regulation.
$11.2 million in Operations and Maintenance         Findings: The Defense Security Cooperation
funds that were canceled. Accurate and timely       Agency ensured that funds appropriated for as-
reviews of unliquidated obligations may identify    sistance to Afghanistan and Iraq placed under
available funds for other needed requirements.      its oversight were used for their intended pur-
Further, Army Material Command and its ma-          pose and were properly reported in the DoD
jor subordinate command, Aviation and Missile       Cost of War Report. However, testing identified
Command, erroneously reported and certified         accounting issues that indicate improvements
unliquidated obligations for Operation and          are necessary to ensure effective management of
Maintenance funds on the FY 2009 phase I and        these appropriated funds. Specifically,
II triannual review confirmation statements.        •	 $6 million were not returned to DoD or
In addition, AMCOM erroneously deobligated               the Military Departments before the funds’
unliquidated obligation balances for Operation           cancellation date and were not properly ac-
and Maintenance funds. This occurred because             counted for.
AMC and AMCOM had not established inter-            •	 Funds totaling $31.6 million could have
nal controls over the triannual review process.          been better managed because funds iden-
The Army is at an increased risk of losing funds         tified as not needed were not returned to
that were not adequately reviewed in a timely            Multi-National Security Transition Com-
manner.                                                  mand-Iraq before they expired.
Result: Guidance will be established for all        •	 DSCA needs to fully review and determine
Army fund holders to perform adequate reviews            the proper disposition of at least an addi-
of unliquidated obligations; deobligate approxi-         tional $25.7 million of expired unobligated
mately $4.4 million in funds, approximately $11          funds held in the FMS Trust Fund.                      DoD IG reviewed military assistance
million related to obligations for which validity   These management exceptions occurred be-                    processed through the FMS Trust Fund.
is unknown will be reviewed; and a preliminary      cause DSCA did not have existing procedures
review of a potential Antideficiency Act viola-     on managing canceled funds and did not com-
tion will be conducted. In addition, guidance       ply with existing procedures on monitoring and
on the triannual review that conflicts with DoD     notifying funds holders of excess amounts on
guidance will be rescinded, and unliquidated        a timely basis. As a result, some appropriated
obligations reported will be verified that they     funds were not available for other use.
match the amount reviewed.                          Result: DSCA needs to improve procedures
Report No. D-2010-073                               and controls to ensure that it properly accounts
                                                    for and reports appropriated funds under its
Controls Over Funds Appropriated for                oversight processed through the FMS network
Assistance to Afghanistan and Iraq Processed        and expiring in various fiscal years. Specifically,
Through the Foreign Military Sales Network          DSCA should establish procedures to timely
Overview: This report provides results on the       return advances of appropriated funds before
second phase of a two-phase audit of certain        cancelation, comply with its existing standard
funds appropriated for the security, reconstruc-    procedures for financial reviews to identify
tion, and military assistance to Afghanistan and    over-collected appropriated funds and return
Iraq processed through the FMS Trust Fund.          such balances to the funds holder, and perform
Report D-2009-063, “Funds Appropriated for          a review of appropriated funds that have expired
Afghanistan and Iraq Processed Through the          and that are in excess of future required expen-
Foreign Military Sales Trust Fund,” (March 24,      ditures and properly return such funds to the
2009) discusses the results of the first phase of   funds holder.
the audit. DoD IG reported that executing these     Report No. D-2010-062


                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 27
Oversight



                                        Air Force Military Personnel Entitlement Pay         Foreign Allowances and Differentials Paid to
                                        in Support of Contingency Operations                 DoD Civilian Employees Supporting Overseas
                                        Overview: DoD IG determined whether Air              Contingency Operations
                                        Force military personnel entitlement pay dis-        Overview: DoD IG determined whether civil-
                                        bursed in support of contingency operations was      ian pay for overseas contingency operations
                                        paid in accordance with established laws and         was disbursed in accordance with established
                                        regulations. Specifically, it determined whether     laws and regulations. Specifically, it determined
                                        entitlement pay disbursed for Air Force military     whether eligible DoD civilian employees were
                                        personnel on active duty status and processed at     properly paid foreign allowances and differen-
                                        the Air Force Financial Service Center was paid      tials.
                                        accurately and timely.                               Findings: DoD component Human Resources
                                        Findings: Air Force Financial Service Center         Offices authorized inaccurate foreign allowanc-
                                        did not always have complete documentation           es and differentials to a projected 8,686 of 11,691
                                        to support amounts paid for Air Force military       DoD civilian employees supporting overseas
                                        personnel entitlement pay in support of contin-      contingency operations. This occurred because
                                        gency operations. Specifically, the AFFSC could      the Office of the Deputy Under Secretary of De-
                                        not adequately support contingency operation         fense for Civilian Personnel Policy did not pro-
                                        entitlements for 34 of the 70 Air Force military     vide uniform guidance to the DoD components’
                                        personnel reviewed. The 34 Air Force military        HROs to accurately and consistently authorize
                                        personnel entitlements account for $57,595 of        foreign allowances and differentials. In addition,
DoD IG conducted an audit of Air        the $161,278 contingency operation entitlement       the ODUSD did not monitor DoD components’
Force pay related to contingency ops.
                                        payments reviewed. AFFSC also did not stop           HROs to ensure proper implementation and ef-
                                        payments timely and did not always pay Air           fectiveness of the DoD foreign allowances and
                                        Force military personnel accurately. Continuing      differentials program. As a result, the Defense
                                        the contingency operation entitlement pay re-        Finance and Accounting Service potentially
                                        sulted in collection actions to correct erroneous    made improper foreign allowances and differen-
                                        payments of eight of the 70 Air Force military       tials payments totaling a projected $57.7 million
                                        personnel reviewed. In addition, AFFSC under-        to DoD civilian employees supporting overseas
                                        paid 25 of the 70 Air Force military personnel       contingency operations.
                                        reviewed and overpaid five of the 70 Air Force       Result: The DUSD should:
                                        personnel reviewed by nominal amounts. These         •	 Finalize and issue uniform DoD-wide poli-
                                        conditions occurred because the AFFSC did not              cies and procedures to accurately and con-
                                        establish a Managers Internal Control program              sistently authorize foreign allowances and
                                        and an adequate Quality Control Examination                differentials.
                                        Program to ensure documents were available to        •	 Direct the DoD components’ HROs to re-
                                        support contingency operation entitlement pay-             view all foreign allowances and differentials
                                        ments. As a result, AFFSC made improper pay-               paid since FY 2007, to identify inaccuracies
                                        ments. The lack of supporting documentation                and provide corrected authorizations to the
                                        limited the Air Force’s ability to detect overpay-         Defense Finance and Accounting Service
                                        ments and underpayments, stop payments time-               for pay adjustments, as appropriate.
                                        ly, and discover improper payments and fraud.        •	 Conduct periodic quality assurance reviews
                                        Result: The director of AFFSC agreed to estab-             to ensure that the DoD component HROs
                                        lish an MIC program at AFFSC; develop an ad-               are accurately and consistently authorizing
                                        equate Quality Control Examination Program;                foreign allowances and differentials.
                                        obtain all required documentation for the con-       Report No. D-2010-075
                                        tingency operation entitlement payments; make
                                        payments to Air Force military personnel for         Demographic Data Supporting the DoD Mass
                                        the amounts underpaid; and collect overpay-          Transportation Benefit Program Within the
                                        ments from Air Force military personnel for the      National Capital Region
                                        amounts overpaid.                                    Overview: The goal of the DoD Mass Transpor-
                                        Report No. D-2010-077                                tation Benefit Program within the National Cap-

28 SEMIANNUAL REPORT TO THE CONGRESS
ital Region is to reduce federal employees’ con-       Result: The Office of the Under Secretary of
tribution to traffic congestion and air pollution      Defense for Personnel and Readiness and Wash-
and to expand their commuting alternatives.            ington Headquarters Services took actions dur-
The overall objective of this audit was to assess      ing this audit that adequately address the inter-
the reliability and completeness of the data used      nal control weaknesses identified in this report
to determine eligibility of program participants       and by the Audit of Internal Controls over the
within the National Capital Region.                    Department of Defense Transit Subsidy Pro-
Findings: MTBP data used by Washington                 gram within the National Capital Region, audit
Headquarters Services to verify participant eli-       report D-2008-025, dated November 23, 2007.
gibility and distribute mass transportation ben-       Report No. D-2010-053
efits to DoD participants was incomplete and
unreliable. Specifically, an estimated 32,565 of
41,279 participants in the MTBP had inaccurate         Health Care                                                “The DoD Military
or incomplete critical data, were possibly ineli-      The DoD Military Health System has been mov-               Health System has been
gible to collect benefits, or improperly obtained      ing forward on improving health care while at-             moving forward on
subsidized parking benefits. As a result, an esti-     tempting to control costs. The MHS implement-              improving health care
mated:                                                 ed the Quadruple Aim Concept, building upon
                                                                                                                  while attempting to
•	 4,953 participants in the Mass Transporta-          the Institute for Healthcare Improvement’s Tri-
                                                       ple Aim concept describing the results that can            control costs.”
     tion Benefit Program overstated their bene-
     fit cost calculations by a total of an estimat-   be achieved when all elements of a health care
     ed $1.5 million. Of the 4,953 participants,       system work together. The MHS uses Quadruple
     an estimated 4,128 collected $587,100 in          Aim to shape its vision, identifying readiness,
     excess benefits in FY 2007.                       population health, experience of care, and per
•	 12,934 participants with unverifiable ben-          capita cost as the four aims that set the strategic
     efit cost calculations collected $8.4 million     direction to improve mission outcomes.
     in mass transportation benefits in FY 2007.
     An unknown number of these individuals            The MHS leadership accepted a value dashboard
     may have overstated their benefit cost esti-      to monitor implementation of strategic impera-
     mates and collected excessive benefits.           tives and serve as good indicators of mission
•	 826 participants’ eligibility to collect bene-      success. The MHS is focusing on many areas to
     fits could not be verified. These participants    manage per capita costs. Three new TRICARE
     collected $613,700 in mass transportation         contracts were awarded in July 2009; however,
     benefits in FY 2007.                              award protests resulted in staggered implemen-
•	 642 participants obtained subsidized park-          tation of the contracts.
     ing benefits improperly and collected
     $312,400 in mass transportation benefits in       The contracts provide incentives for customer
     FY 2007.                                          satisfaction and include the managed care sup-
DoD IG identified participants that potentially        port contractors as partners in support of medi-
were ineligible to participate in the MTBP, ob-        cal readiness. An internal Assistant Secretary of
tained excessive mass transportation benefits,         Defense (Health Affairs) review identified areas
or obtained dual benefits (both mass transpor-         that assist in managing costs, to include U.S.
tation benefits and subsidized parking) during         Family Health Plan, fraud management, and
FY 2007. DoD IG referred these cases to the De-        pharmaceuticals. Additionally, the Quadruple
fense Criminal Investigative Service for possible      Aim approach to cost control will simultane-
investigation. In addition, DoD IG requested           ously improve quality and reduce cost by focus-
Washington Headquarter Services to coordinate          ing on the elimination of unnecessary care, tests,
with participating agencies to recoup other erro-      and procedures; and by focusing on delivering
neous mass transportation benefits distributed         health care in the most appropriate setting.
to participants.



                                                                                                             APRIL 1, 2010 TO SEPTEMBER 30, 2010 29
Oversight



                                        Medical/Surgical Prime Vendor Contract              collecting body armor from the battlefield may
                                        Supporting Coalition Forces in Iraq and             be difficult, DoD’s analysis of returned body
                                        Afghanistan                                         armor is essential for determining whether the
                                        Overview: DoD IG determined whether terms           body armor configuration is protecting against
                                        and conditions for the Medical/Surgical Prime       the threats it was designed to defeat. DoD IG re-
                                        Vendor contract were adequately developed and       quested that Army officials clarify body armor
                                        the administration of the contract and delivery     guidance, ensure Service members are aware of
                                        orders was effective. The primary ordering fa-      the importance of collecting and returning body
                                        cility for medical/surgical supplies used in Iraq   armor for analysis, and associate returned body
                                        and Afghanistan ordered about $90 million in        armor to the Service member in order to poten-
“...identifying over 100                supplies from the prime vendor in FY 2008. The      tially increase assurance of body armor effec-
national electrical code                contract terms and conditions reviewed in this      tiveness and aid in the detection of new threats
violations at Kandahar                  report include the methodology used to com-         to Service members on the battlefield.
Airfield, Afghanistan,                  pute rates that recoup the cost of the MSPV pro-
which posed immediate                   gram and the distribution process used to ship      Maintenance of Electrical Wiring at Kandahar
                                        the supplies.                                       Airfield, Afghanistan
life, health, and safety                Findings: Terms and conditions for the MSPV         DoD IG issued a memorandum on April 13,
risks to U.S. Forces.”                  contract were adequately developed to meet us-      2010, identifying over 100 national electrical
                                        ers’ needs. Controls over monitoring the perfor-    code violations at Kandahar Airfield, Afghani-
                                        mance of the prime vendor contractor for the        stan, which posed immediate life, health, and
                                        Global North Region were generally adequate.        safety risks to U.S. Forces. The project reflected
                                        However, procedures to monitor credits to en-       a combined multi-functional effort by inves-
                                        sure DoD obtains the benefit of credits need        tigators assigned to the International Contract
                                        improvement. The prime vendor did not apply         Corruption Task Force and DoD IG electrical
                                        FY 2008 overcharge credits resulting from price     engineers and auditors. United States Forces-
                                        verification analyses performed by Defense Sup-     Afghanistan took immediate action to correct
                                        ply Center Philadelphia. As a result, the primary   the violations.
                                        ordering facility for medical/surgical supplies
                                        used in Iraq and Afghanistan did not obtain the
                                        benefit of an estimated $65,000 of overcharge       Information Assurance,
                                        credits for FY 2008. In addition, other order-
                                        ing organizations in the Global North Region
                                                                                            Security, & Privacy
                                                                                            One of the most daunting challenges that DoD
                                        and the other regions may not be obtaining due      faces is defending its information and informa-
                                        overcharge credits.                                 tion systems against today’s mounting cyber
                                        Result: The Commander, Defense Supply Cen-          threats. On a daily basis, DoD’s information
                                        ter Philadelphia, should determine the status of    technology infrastructures are attacked by those
                                        FY 2008 and FY 2009 overcharge credits and          wanting to not only steal DoD information but
 DoD IG identified efficiencies in      ensure the overcharge credits are applied to cus-   also do harm to DoD programs, operations, and
 collecting body armor.
                                        tomers’ accounts, develop procedures to ensure      personnel. Cybersecurity is one of the most seri-
                                        the prime vendor notifies customers of credits      ous economic and national security challenges
                                        and that the credits are applied to customers’      we face as a nation. DoD’s major challenge will
                                        accounts, and provide estimated milestones for      be in centralizing its resources to develop a com-
                                        completion of recommendations.                      prehensive strategy for marshalling its cyberse-
                                        Report No. D-2010-055                               curity defenses and implementing policies and
                                                                                            procedures to overcome, on an instantaneous
                                        Return of Body Armor for Analysis                   basis, any cyber threat. In addition, a continu-
                                        DoD IG issued a memorandum on May 20,               ing challenge is ensuring the protection of DoD
                                        2010, identifying efficiencies that may increase    information in the hands of contractors. DoD
                                        the amount of body armor DoD collects from          must ensure that the diligence and resources
                                        service members wounded or killed in action.        that it has placed on its internal information and
                                        While the memorandum acknowledged that

 30 SEMIANNUAL REPORT TO THE CONGRESS
information systems is mirrored by those con-       In addition, data made available by DTRA to
tractors either running DoD systems or main-        DoD and Congress were inaccurate and in-
taining DoD information on their systems.           complete. DTRA did not disable 17 accounts
                                                    within nine information systems and networks
In May 2010, DoD took a significant step to ad-     after personnel left the agency. Additionally, of
dress this challenge of defending its information   87 disabled accounts that DoD IG reviewed,
and information systems. DoD announced the          84 accounts remained active five days after the
establishment of the U.S. Cyber Command, a          personnel left the agency, and 66 accounts re-
sub-unified command subordinate to the U.S.         mained active after 30 days.                                DoD IG conducted an audit of controls
Strategic Command. The U.S. Cyber Command                     This occurred because internal con-               for information assurance at DTRA.

should improve DoD’s capabilities to ensure         trols were not in place to notify information
resilient, reliable information and communica-      system representatives when personnel left the
tion networks; counter cyberspace threats; and      agency and to ensure that system administra-
ensure access to cyberspace. Service elements,      tors reviewed inactive accounts in accordance
such as the Army Forces Cyber Command will          with DTRA guidance. As a result, unauthorized
support the U.S. Cyber Command’s mission.           individuals could have accessed sensitive infor-
While DoD has taken a significant step, chal-       mation within agency information systems and
lenges remain in centralizing cyberspace opera-     networks.
tions, developing workable strategies, protecting   Result: DoD 8570.01-M should be modified
DoD information networks, and obtaining cy-         to require all DoD information assurance per-
ber expertise.                                      sonnel to authorize release of their certification
                                                    qualifications in the Defense Workforce Certi-
Selected Controls for Information Assurance at      fication Application. In addition, the director,
Defense Threat Reduction Agency                     DTRA should:
Overview: The objectives of this audit were to      •	 Develop and implement an adequate pro-
determine whether personnel responsible for              cess to identify information assurance per-
information assurance were certified in accor-           sonnel and monitor their certification sta-
dance with regulations and whether information           tus.
system accounts were disabled when employees        •	 Notify system representatives when person-
left the agency. DoD IG reviewed designations            nel leave the agency.
of information assurance personnel and their        •	 Review active accounts at least monthly and
corresponding certification status. DoD IG also          suspend inactive accounts in accordance
reviewed whether information system accounts             with DTRA guidance.
were disabled in a timely manner.                   Report No. D-2010-058
Findings: As of August 2009, the date of the
DTRA response to DoD for the 2009 Federal           Standard Procurement System Synchronization
Information Security Management Act report,         Utility
DTRA needed 80 additional information assur-        Overview: DoD IG determined whether the de-
ance personnel to be certified to meet Decem-       ployment of the Standard Procurement System
ber 2009 certification milestones. DTRA also        throughout the Regional Contracting Centers in
did not follow regulations for identification and   the Joint Contracting Command-Iraq/Afghani-
certification of information assurance person-      stan was properly planned and executed.
nel. These conditions occurred because DTRA         Findings: DoD IG identified a system vulner-
did not have adequate internal controls in place    ability that could potentially affect the safety of
and did not adequately oversee its information      Iraqi contractors doing business with the United
assurance workforce. As a result, DTRA’s infor-     States. Specifically, although SPS data is “sensi-
mation assurance workforce may not have had         tive but unclassified,” the nature of the data and
an adequate understanding of the concepts,          the vendors involved in transactions in-theater
principles, and applications of information as-     are of great interest to insurgents. A data breach
surance to enhance the protection and availabil-    could possibly result in harm to individuals
ity of information systems and networks.            and companies doing business with the United

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 31
Oversight



                                        States. Prior to the release of the report, DoD         pate in the drawdown to ensure accountability
                                        IG issued a quick reaction memo to prompt               and visibility of all equipment, that serviceable
                                        immediate action to ensure the confidentiality,         material is reused to maximum potential, and
                                        integrity, and authenticity of contractor data          that personnel in the field and at receiving ac-
                                        transferred in theater. DoD IG addressed inter-         tivities are safe. This will ensure that the equip-
                                        nal controls associated with developing, imple-         ment disposition supports either DoD or the co-
                                        menting, and managing Information Technol-              alition forces. Similarly, the increase of forces in
                                        ogy Security Plans of Action and Milestones;            Afghanistan must be monitored to ensure forces
                                        resolving security vulnerabilities identified dur-      receive the support required. This includes en-
                                        ing the testing process before deploying new            suring that the warfighter and the civilians and
                                        Service Releases; and obtaining approval from           contractors supporting them have the appropri-
                                        the chief information officer, USCENTCOM                ate protective equipment and that this equip-
                                        prior to implementing future enhancements to            ment is properly returned for reset and reuse.
                                        SPS in the USCENTCOM area of responsibility.            As requested by U. S. Central Command, DoD
                                        Report No. D-2010-050 (Classified)                      IG is conducting a series of asset accountability
                                                                                                audits to ensure U. S.-funded assets are properly
                                                                                                accounted for and that there is a process for the
                                        Joint Warfighting &                                     proper transfer, reset, or disposal of these assets
                                        Readiness                                               in conjunction with the Iraq drawdown. During
                                                                                                this reporting period, DoD IG issued reports ad-
                                        The Department strives to provide the right
                                        force, the right personnel, and the right equip-        dressing management of government furnished
                                        ment and supplies in the right place, at the right      property, operation clean sweep, theater retro-
                                        time, and in the right quantity, across the full        grade operations, and central issue facilities.
                                        range of military operations. The associated lo-
                                        gistical challenges facing the Department will          Controls Over the Accountability and Reset
DoD IG is conducting audits involving
asset accountability and logistics.     increase, in both the near-and long-term, as the        of Government Furnished Property in Iraq-
                                        Department continues the scheduled withdraw-            LOGCAP Contract
                                        al of forces from Iraq and the redeployment of          Overview: The report addresses the account-
                                        forces to Afghanistan. In the near-term, the De-        ability and disposition of LOGCAP government
                                        partment’s execution of the withdrawal in Iraq          furnished property in Iraq.
                                        and redeployment and the resetting of equip-            Findings: As of September 30, 2009, there were
                                        ment either for use in Afghanistan or for stand-        572,928 GFP items in the LOGCAP property
                                        ing inventory requires management’s continued           book in Iraq, worth about $2.9 billion. DoD IG
                                        attention. In the long-term, the Department             estimated that the LOGCAP contractor could
                                        faces the challenge of resetting the Services; re-      generally account for the GFP items in its prop-
                                        training skills that have not been required for the     erty book; however, at some of the locations
                                        current operations; and reengaging with other           DoD IG visited, DoD IG identified account-
                                        nations’ militaries. This encompasses the need          ability issues that needed management’s atten-
                                        to ensure basic services continue uninterrupted         tion. To address those issues, DoD IG issued
                                        for the members of the armed forces and their           nine memorandums during the audit request-
                                        families. The Department’s available resources          ing management action. Unresolved requests
                                        and capabilities are finite and require constant        for management action were reissued as recom-
                                        monitoring to enable it to operate successfully in      mendations in this report. DoD IG also iden-
                                        accord with shifting global dynamics.                   tified that the Defense Contract Management
                                                                                                Agency did not ensure the LOGCAP contrac-
                                        The withdrawal from Iraq is underway and                tor was consistently managing and disposing
                                        must be monitored to ensure all equipment and           of GFP items located in its Fair, Wear, and Tear
                                        personnel are properly accounted for and only           yards, to include export-controlled items.
                                        items approved for transfer are transferred. As         Result: Management action taken in response
                                        DoD draws down assets and equipment from                to the recommendations will improve the man-
                                        Iraq, it must ensure that all units actively partici-   agement of the Fair, Wear, and Tear yards and

32 SEMIANNUAL REPORT TO THE CONGRESS
ensure that the LOGCAP contractor complies            focus oversight on U.S.-funded assets to ensure
with federal and DoD export-control standards,        that they were properly accounted for and there
both of which are key to an effective drawdown        was a process for their proper transfer, reset, or
and disposition of LOGCAP property from Iraq.         disposal. DoD IG reviewed operations at the
Report No. D-2010-088                                 Theater Retrograde, which is responsible for re-
                                                      ceiving and processing containers of equipment
Drawdown and Reset of Equipment in Iraq-              from Iraq and ensuring the equipment’s proper
Operation Clean Sweep                                 disposition.
Overview: This was one in a series of audits          Findings: Army and Defense Contract Man-
addressing the withdrawal of U.S. Forces and          agement Agency officials did not ensure that
equipment from Iraq. Operation Clean Sweep            contractor personnel complied with contract
is a U.S. Forces – Iraq effort for expediting the     requirements and applicable regulations when
identification, accountability, and turn-in of ex-    processing materiel at the Theater Retrograde,
cess U.S. equipment in support of the Iraq draw-      which limited the effectiveness of operations
down.                                                 and increased the risk of injury to personnel.
Findings: DoD had adequately planned for Op-          DoD IG also reported that Army and Defense
eration Clean Sweep and as of April 10, 2010,         Contract Management Agency officials did not
had processed and re-established accountabil-         ensure the contractor had sufficient staffing
ity for about $768 million of excess equipment.       at the Theater Redistribution Center to meet
However, the effectiveness of Operation Clean         container processing requirements. As a result,
Sweep was limited because not all units were          DoD may be receiving a reduced value for the
participating in the operation or effectively         services performed, paying undue award fees,
working with the teams responsible for assisting      and wasting resources by purchasing the same
units with the identification, classification, and    materiel in the unprocessed containers for use
disposition of the excess equipment. When units       in other overseas contingency operations.
did not participate in Operation Clean Sweep,         Result: Army and Defense Contract Manage-
the risk of injury to personnel was increased,        ment Agency officials should determine the
and visibility of equipment in the supply sys-        staffing required at the Theater Redistribution
tem was delayed. Throughout the audit, DoD            Center to process the current number of con-
IG conducted briefings with U.S. Forces - Iraq        tainers and the increase expected in conjunction
so that when possible, corrective action could be     with the withdrawal of U.S. Forces and equip-
taken in response to identified concerns.             ment from Iraq. Army officials should develop
Result: As a result of the briefings, U.S. Forces –   applicable, auditable, and measurable perfor-
Iraq issued two Fragmentary Orders during the         mance requirements for processing materiel;
audit. Those orders addressed concerns over the       clearly define the requirements and limitations
lack of command emphasis with respect to unit         for officials providing contract administration
                                                                                                                 DoD IG conducted an audit of the
support and understanding of the MRT mission.         and oversight; and require that personnel at the           drawdown of equipment in Iraq.
Participation in Operation Clean Sweep should         Theater Retrograde comply with hazardous ma-
be mandatory and units should work with the           terial and security regulations.
Clean Sweep teams to identify, segregate, ac-         Report No. D-2010-091
count, and turn in non-mission essential equip-
ment. Mandatory participation will ensure the         Public-Private Partnerships at Air Force
success of Operation Clean Sweep, which is vital      Maintenance Depots Overview
to an effective Iraq drawdown.                        Overview: DoD IG evaluated the Air Force
Report No. D-2010-060                                 management of the public-private partnership
                                                      arrangements to determine whether the depots
DoD Needs to Improve Management and                   have completed business case analyses and es-
Oversight of Operations at the Theater                tablished baselines and metrics to measure part-
Retrograde-Camp Arifjan, Kuwait                       nership benefits. DoD IG reviewed 40 public-
Overview: This audit was conducted in re-             private partnership agreements, comprised of 61
sponse to a U.S. Central Command request to           implementation agreements, at three Air Logis-

                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 33
Oversight



                                       tics Centers that reported $100.3 million of rev-     ians and contractor employees processed for
                                       enue during the first three quarters of FY 2009.      deployment through that facility. Fort Benning
                                       Findings: The Air Force did not adequately            issued $21.4 million of recoverable clothing and
                                       document its public-private partnership deci-         equipment to 7,338 civilians and contractor em-
                                       sions for enhancing overall product support and       ployees processed for deployment during FYs
                                       the type of partnership arrangement selected;         2006 and 2007.
                                       and did not adequately monitor the partner-           Findings: The Army generally provided DoD
                                       ships once they were established. Specifically:       civilians and contractor employees deploying
                                       •	 35 of the 40 partnerships and 49 of 61 im-         to Iraq and Afghanistan with proper cloth-
                                            plementation agreements reviewed were            ing and equipment. The value of recoverable
                                            not supported by business case analyses.         clothing and equipment that was not returned
                                       •	 51 of 61 implementation agreements re-             by civilians was unavailable. However, DoD IG
                                            viewed had not established baselines, and        determined that, of 940 contractor employees
                                            40 of 61 had not established metrics.            who deployed during FYs 2006 and 2007 and
DoD IG reviewed the Central Issue
Facility and related Army policies.
                                       •	 Air Force Materiel Command did not ad-             returned, 749 (about 80 percent) did not return
                                            equately monitor revenues and expenses on        recoverable clothing and equipment, valued at
                                            partnership work performed, and the pri-         about $2.5 million, issued to them. Items were
                                            vate industry partner owes $3.1 million to       not recovered because the Army lacked ad-
                                            Warner Robins Air Logistics Center.              equate internal controls for recovering clothing
                                       Result: There was insufficient assurance that         and equipment issued to civilians and contrac-
                                       the Air Force’s use of partnerships is obtain-        tors. If adequate controls had been in place, the
                                       ing best value for its maintenance support de-        Army could have put at least $2.5 million to bet-
                                       cisions and recovering all its expenses. This         ter use. Additionally, inadequate controls could
                                       situation stemmed from prior conflicting Air          allow sensitive items such as body armor to end
                                       Force guidance, insufficient Air Force Materiel       up in the wrong hands.
                                       Command oversight, and partnership decisions          Result: DoD IG recommended that the director
                                       made above the Air Logistics Center level for         Defense Procurement and Acquisition Policy:
                                       bringing depot maintenance workload back              •	 Establish a working group to develop pro-
                                       to the depots to satisfy public laws on core ca-           cedures to:
                                       pability and 50/50 compliance. The Air Force               ■		� Identify personnel who returned from
                                       deputy chief of staff for Logistics, Installations,             deployment but did not return recov-
                                       and Mission Support agreed to update guidance                   erable clothing and equipment.
                                       to require that business case analyses show how            ■		� Require personnel leaving the theater
                                       the partnerships contribute to the achievement                  to turn in their recoverable clothing
                                       of objectives; aggressively work toward ensuring                and equipment in theater and transfer
                                       business case analyses are prepared; establish                  chemical-biological equipment to unit
                                       baselines and metrics; and recover the $3.1 mil-                supply.
                                       lion in expenses.                                          ■		� Obtain the clothing and equipment or
                                       Report No. D-2010-067                                           reimbursement from individuals who
                                                                                                       do not or did not return their recover-
                                       Central Issue Facility at Fort Benning and                      able items.
                                       Related Army Policies                                 •	 Implement the procedures developed by
                                       Overview: DoD IG determined whether Army                   the working group.
                                       central issue facilities provided the required        •	 Require central issue facilities to retain de-
                                       clothing and equipment to DoD civilians and                ploying personnel’s contact information.
                                       contractor employees deploying to Iraq and            •	 Require contracts to have proper clauses
                                       Afghanistan and whether these individuals re-              and contract language so that contractors
                                       turned the clothing and equipment when their               can be held liable for their employees’ un-
                                       deployment ended. DoD IG visited the central               returned recoverable clothing and equip-
                                       issue facility at Fort Benning, GA, because, ac-           ment.
                                       cording to the Army, about 95 percent of civil-       Report No. D-2010-069

34 SEMIANNUAL REPORT TO THE CONGRESS
The following cases are highlights of investiga-       sergeant that pled guilty had responsibilities that
tions conducted by DCIS and its federal law en-
forcement partners during the reporting period.
                                                       included supervision of FOB Shank’s fuel redis-
                                                       tribution process.
                                                                                                             Investigations

DoD IG investigations are listed under the fol-                  At sentencing, he faced a maximum
lowing categories:                                     penalty of 15 years in prison and a fine of
•	 Public Corruption                                   $250,000; twice the gross gain or loss from the
•	 Procurement Fraud                                   scheme; or three times the value of the payments
•	 Health Care Fraud                                   solicited or received. The two former sergeants
•	 Product Substitution                                have also been discharged by the Department
•	 Technology Protection                               of Army. This was a joint investigation by DCIS,
•	 Computer Crimes                                     Army CID, FBI, and ICCTF.

                                                       Former Host Nation Affairs Contractor Pleads
Public Corruption                                      Guilty to Bribery
DCIS is in the forefront of DoD corruption in-         Overview: This case arose out of an investiga-
vestigations. DCIS applies complex investigative       tion into corruption at the Kuwait contracting
tools and methods, such as undercover opera-           office at Camp Arifjan, which has led to charges
tions, court-authorized electronic surveillance,       against 14 individuals. Of those 14 defendants,
and informants, to bring corrupt officials to          12 have pled guilty to their crimes, with some
justice. Corruption undermines our country’s           already serving prison sentences and having for-
national security, overall safety, public trust, and   feited millions of dollars in assets.
                                                                                                                  “The Army contract-
confidence in the U.S. government, wasting bil-                  Acting at the direction of a contractor          ing officials arranged
lions of dollars and impacting DoD and the mis-        working in Kuwait, corrupt relationships were              to store hundreds of
sion of the warfighter.                                developed with certain Army contracting of-                thousands of dollars
                                                       ficials and a senior procurement non-commis-               worth of bribe money
Army Sergeant Pleads Guilty to Bribery and             sioned officer at Camp Arifjan. By bribing these
Theft Charges                                          Army contracting officials in 2005 and 2006, a
                                                                                                                  in the safe.”
Overview: Between January and February 2010,           contractor ultimately received almost $2 million
a former U.S. Army sergeant admitted to aid-           in connection with contracts to provide various
ing and abetting a co-conspirator’s solicitation       goods and services to the U.S. military. In ex-
and acceptance of more than $400,000 in bribes         change for his assistance in the bribery scheme,
from a government contractor, all in exchange          generated profits were shared with another
for his co-conspirator’s creation and submis-          crooked contractor and he was allowed to live
sion of fraudulent paperwork permitting that           rent-free in a villa that contained a hidden safe.
contractor to steal fuel from Forward Operat-          The Army contracting officials arranged to store
ing Base Shank. The sergeant also admitted to          hundreds of thousands of dollars worth of bribe
helping his co-conspirator conceal the money in        money in the safe. The contractor later agreed to
various locations in and around FOB Shank. The         transfer this money from Kuwait to Army con-
total value of the fuel stolen during the course of    tracting officials in the United States.
the scheme was at least $1.39 million.                 Result: On August 11, 2010, a former contract
Result: On August 19, 2010, the former U.S.            employee in the Host Nation Affairs office at
Army sergeant pled guilty to bribery in connec-        Camp Arifjan, between approximately 2004 and
tion with a fuel theft scheme to solicit more than     August 2007, pled guilty to conspiracy to bribe
$400,000 in bribes from a government contrac-          U.S. Army contracting officials and to money
tor in Afghanistan. As a result, a second former       laundering conspiracy, and has agreed to for-
U.S. Army sergeant was charged with one count          feit $650,000 to the U.S. government. This was
of conspiracy to commit theft of government            a joint investigation between DCIS, Army CID,
property in a criminal complaint filed in Eastern      FBI, and SIGIR.
District of Virginia on June 24, 2010. The ser-
geants were stationed at FOB Shank, in support
of U.S. military operations in Afghanistan. The

                                                                                                             APRIL 1, 2010 TO SEPTEMBER 30, 2010 35
Oversight



                                       Army Contracting Official Pleads Guilty to           scheme pled guilty and were sentenced. The
                                       Bribery                                              combined sentences for this six month period
                                       Overview: A U.S. Army civilian contracting           amounted to 216 months incarceration, 180
                                       official working in the U.S. Army Area Support       months probation, restitution totaling $432,499,
                                       Group-Kuwait’s off-post housing office admit-        and special assessments totaling $500. Addition-
                                       ted to bribery. His responsibilities as a housing    ally, over $332,072 in property was seized. This
                                       specialist included supervising private contrac-     was a joint investigation by DCIS, NCIS, IRS-
                                       tors and procuring off-post apartment rent-          CID, and FBI.
DCIS special agents conduct training   als. The official admitted that between July and
                                       December 2009, he solicited more than $11,000
                                                                                            Procurement Fraud
exercises.

                                       in bribes from an Egyptian businessman in
                                       exchange for submitting an inflated off-post         The introduction of counterfeit material and
                                       apartment lease for approval. The official also      other forms of unauthorized product substitu-
                                       admitted that between July and December 2009,        tion into the procurement system has histori-
                                       he received almost $6,000 from the Egyptian          cally been, and continues to be, DCIS’s highest
                                       businessman as compensation for his services in      priority for deterrence, investigation, and pros-
                                       connection with a fixed-price U.S. government        ecution. Procurement fraud investigations have
                                       contract awarded to the Egyptian business-           always comprised a major part of the DCIS in-
                                       man’s company. The government contract was           ventory. An area of increased emphasis is readi-
                                       for maintenance services for off-post housing        ness enhancement through vigorous detection
                                       managed by the U.S. Army civilian contracting        and investigation of defective or substituted
                                       official and the ASG-KU off-post housing office.     products that involve either safety of flight issues
                                       Result: As a result, the contracting official pled   or have a critical application.
                                       guilty on April 21, 2010, in the Eastern District
                                       of Virginia to bribery and unlawful salary sup-      Procurement fraud includes, but is not limited
                                       plementation in connection with two schemes          to, cost/labor mischarging, defective pricing,
                                       to solicit more than $17,000 in bribes and other     defective parts, price fixing and bid rigging, and
                                       payments from an Egyptian businessman in Ku-         product substitution.
                                       wait. The contracting official was sentenced to
                                       42 months confinement on July 16, 2010. This         Investigation Disclosed DoD Contractor Failed
                                       was a joint investigation between DCIS, Army         to Perform Duties
                                       CID, FBI, and ICCTF.                                 Overview: A joint DCIS/Army CID investi-
                                                                                            gation disclosed that the contractor failed to
                                       Subjects Sentenced for Conspiring to Defraud         perform duties for which it was paid under the
                                       the Government                                       Central Issue Facility at Fort Benning. This DoD
                                       Overview: A program manager from the Space           program assists small businesses competing for
                                       and Naval Warfare System Command, San Di-            prime contract and subcontract awards by part-
                                       ego, Calif., was receiving bribes from DoD prime     nering them with large companies under indi-
                                       contractors and subcontractors. The program          vidual, project-based agreements. DoD paid the
                                       manager’s spouse, also a SPAWAR employee, ad-        contractor $433,557 to provide mentor services
                                       vanced the scheme by forming a company with          for certain minority-owned companies, which
                                       a friend to seek subcontracts under the prime        the contractor failed to provide in some cases. In
                                       contracts managed by her husband. In return          other cases, the contractor represented that its
                                       for awarding contracts to his wife’s company, the    employees directly provided the services, which
                                       program manager received a portion of the pro-       were provided by other companies.
                                       ceeds from the subcontract as a kickback. The        Result: On August 4, 2010, a DoD contractor
                                       principals in two other companies assisted the       settled with the U.S. Attorney’s Office, Colum-
                                       program manager in his scheme which included         bia, S.C .and agreed to pay the U.S. government
                                       the manipulation of contract awards and the          $1,117,872.
                                       payment of kickbacks.
                                       Result: All seven participants in this bribery

36 SEMIANNUAL REPORT TO THE CONGRESS
DoD Contractor Signs Settlement Agreement            judgment ordered the seizure of specified as-
for Mischarging                                      sets totaling $732,559. In September 2009, the
Overview: A joint DCIS/AFOSI investigation           judgment in the criminal case was amended and
provided enough proof of inaccurate cost or          subject was ordered to pay $3,243,890 in restitu-
pricing data that a DoD contractor agreed to         tion. This was a joint investigation by DCIS, FBI,
settle, despite the case being declined for pros-    and Army CID.
ecution due to the approaching expiration of the
statute of limitations.                              Northrop Grumman Corporation Admits to
Result: On July 16, 2010, the DoD contractor         Submitting False Claims
signed a settlement agreement with the U.S.          Overview: During a joint DCIS and Army CID
government and agreed to pay $670,000 for            investigation, Northrop Grumman Corpora-
overcharging the Air Force for infrared aerial       tion admitted to falsely billing several govern-
flares. The flares were designed for covert target   ment contracts for lodging costs and then using
illumination and rescue missions.                    these funds as a form of incentive pay for their
                                                     employees who were supporting the U.S. Army
DoD Contractor Sentenced for Failing to              drug and counterdrug intelligence mission.
Provide Required OSHA Training                       Result: As a result, on May 10, 2010, NGC
Overview: A company, contracted to provide           signed a Civil Settlement Agreement with the
health and safety training and oversight, to in-     U.S. Department of Justice, agreeing to pay
clude asbestos work, failed to provide OSHA          $700,000 to satisfy allegations that NGC submit-           DCIS investigated a contractor for
                                                                                                                overcharging for infrared aerial flares.
training. The DoD contractor required owner          ted false claims to the U.S. government during
altered resumes and falsified training certifica-    its performance on U.S. Army contracts.
tions in order to obtain several contracts, to in-
clude one for a housing development at the U.S.      DoD Contractor Sentenced For Conspiracy to
Military Academy, West Point, N.Y.                   Defraud the Government
Result: On June 22, 2010, the DoD contractor         Overview: The victim DoD contractor is an
was sentenced to three years incarceration, two      aviation credit card company that supplied a
years probation, payment of $1,117,765 in resti-     fuel card, similar to a credit card, which other
tution (jointly and severally with his company),     companies could use as an easy way to access
and a $500 special assessment. The company           fuel. The victim DoD contractor set up fuel sup-
was also sentenced to five years probation, pay-     pliers and various transportation authorities at
ment of a $500,000 fine, and a $2,000 special as-    airports in other countries to accept the fuel
sessment.                                            card. The subject, a DoD contractor employee,
                                                     advised the president on bid prices for DoD
President of Company Sentenced for Selling           contracts. The subject contractor then sold that
Fraudulent Surety Bonds                              bid information to his co-conspirators, who un-
Overview: AMS Surety Holdings Corporation,           derbid the victim contractor and subsequently
along with other related business entities, sold     won DoD contracts.
fraudulent and counterfeit surety bonds using        Result: As a result, on April 8, 2010, the DoD
names identical, or very similar, to legitimate      contractor employee was sentenced to six
authorized insurance companies. The fraudu-          months in a halfway house, three months home
lent surety bonds were purchased by U.S. gov-        confinement, 36 months probation, a $300
ernment contractors as a form of insurance on        special assessment fee, and an undetermined
construction projects for various entities includ-   amount of restitution to be determined at a later
ing the U.S. Navy, the Federal Aviation Adminis-     date for conspiring to defraud the government
tration, and U.S. Army Corps of Engineers.           by selling proprietary bid information to com-
Result: On June 18, 2009, the President of AMS       peting contractors. Two of his co-conspirators
Surety Holdings Corporation was sentenced to         were previously sentenced in 2008. The first
121 months in prison, three years of supervised      received three years of probation, 500 hours
release, a $200 assessment, and $22.5 million        of community service, and was ordered to pay
personal money judgment. The subsequent civil        restitution of $40, 926 and a $100 special as-

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 37
Oversight



                                       sessment. The second co-conspirator was sen-         $5 million. The company denied deliberately
                                       tenced to three years of probation, 800 hours        overcharging DoD, and the settlement was rep-
                                       of community service, and was ordered to pay         resented as a contract overpayment resolution.
                                       restitution of $40,926, a fine of $20,000, and a
                                       $300 special assessment fee. The co-conspirators     False Claims Settlement by TRICARE-Affiliated
                                       and their company were debarred until 2011.          Hospital Representatives
                                       Additionally, the company was ordered to pay         Overview: A DCIS investigation revealed a
                                       a $12,000 assessment and restitution of $45,000.     TRICARE-affiliated hospital inappropriately
                                       On May 27, 2010, a second company owned by           billed for speech therapy services using time-
                                       one of the co-conspirators agreed to a restitution   based (15 minute increment) codes rather
                                       payment of $670,219.                                 than service codes. These inappropriate claims
                                                                                            caused TRICARE to overpay the hospital for
                                                                                            these services.
                                       Health Care Fraud                                    Result: On June 22, 2010, representatives of the
                                       DCIS conducts significant investigations of          TRICARE-affiliated hospital agreed to a settle-
                                       those who negatively impact the health care of       ment with the District of Colorado to repay
                                       DoD personnel, retirees, and their family mem-       $573,242 ($515,458 + $57,784 in interest) to the
                                       bers. Issues of interest include overcharging for    U.S. government.
                                       medical goods and services, off-label marketing
                                       of drugs, and unauthorized people receiving          TRICARE-Affiliated Doctor Found Guilty of
                                       TRICARE health benefits. However, the prima-         Health Care Fraud
DCIS investigated a DoD contract for   ry focus is health care investigations involving
overbilling pharmaceuticals.                                                                Overview: On November 4, 2008, a TRICARE-
                                       harm to the patient and health care providers        affiliated doctor was found guilty by a jury in the
                                       involved in corruption or kickback schemes.          Northern District of Florida on 43 of 54 counts
                                                                                            for health care fraud and unlawfully dispens-
                                       DoD Contractor Entered into a Civil                  ing controlled substances, including the use
                                       Settlement for Contract Overpayment                  of which resulted in the death of two persons.
                                       Resolution                                           In 2009, the doctor was sentenced to over 292
                                       Overview: A DCIS investigation disclosed a           months of incarceration, three years of proba-
                                       DoD contractor had overbilled DoD for phar-          tion, and was ordered to pay a criminal fine of
                                       maceuticals from 1997 to 2000.                       $1 million and a $4,300 court assessment. The
                                       Result: On June 30, 2010, a DoD contractor and       doctor agreed to forfeit $260,000 in cash and the
                                       member of DoD’s Pharmaceutical Prime Ven-            proceeds of the sale of his clinic.
                                       dor Program entered into a Civil Settlement in       Result: As a result, on June 15, 2010, the United
                                       which they agreed to pay the U.S. government         States Attorney, Northern District of Florida,
                                       $500,000. The settlement was represented as a        forwarded a check to the U.S. Marshals in the
                                       contract overpayment resolution without any          amount of $575,000, representing the proceeds
                                       admission of violation of criminal or civil stat-    of the sale of the doctor’s office. The check rep-
                                       utes.                                                resented the final amount due to the U.S. gov-
                                                                                            ernment under the Forfeiture Settlement Agree-
                                       DoD-Contracted Drug Company Agrees to Pay            ment. This case was investigated jointly with
                                       the Government $5 Million as Overpayment             various federal, state, and local law enforcement
                                       Resolution                                           agencies.
                                       Overview: A DCIS investigation determined
                                       a DoD-contracted drug company overcharged            $3.6 Million Civil Settlement by a DoD
                                       Military Treatment Facilities for pharmaceuti-       Contractor for Submitting False Claims
                                       cals and identified management control issues        Overview: A joint investigation conducted with
                                       related to the verification of those costs.          the FBI, HHS, and OPM disclosed that a DoD
                                       Result: On June 30, 2010, the DoD-contracted         contractor was billing twice for cardiac data
                                       drug company entered into a civil settlement in      analysis provided on TRICARE, Medicare, and
                                       which they agreed to pay the U.S. government         other federal health care program patients.

38 SEMIANNUAL REPORT TO THE CONGRESS
Result: As a result, on May 12, 2010 in a civil        Civil Settlement Agreement with the U.S. gov-
settlement, the DoD contractor providing the           ernment, the DoD subcontractor paid $1.2 mil-
cardiac data analysis services agreed to pay $3.6      lion for its failure to conduct the required bal-
million to resolve the civil aspects of the investi-   listic testing of Blackhawk cockpit armor in the
gation involving fraudulent billing of TRICARE,        same time period.
Medicare, and other federal health care pro-
grams. This included the $307,492 previously           $12.5 Million Settlement by Northrop
paid as criminal restitution. In addition to the       Grumman Corporation for False Claims
civil settlement, the contractor was excluded          Overview: A joint investigation with NCIS,
from all federal health care programs for a pe-        Army CID, and NASA disclosed that Northrop
riod of 13 years.                                      Grumman Corporation, Navigation Systems
                                                       Division submitted false claims to the U.S. gov-
                                                       ernment seeking payment for electronic compo-
Product Substitution                                   nents that were knowingly not tested as required
DoD’s warfighting mission requires very spe-           by contract specifications. The testing was re-
cific, and at times, unique products for its infra-    quired to ensure the components could operate
structure and weapons systems. Nonconforming           in extreme environmental conditions during
products pollute DoD’s supply chain and pose a         military use. The investigation showed that from
risk to military operations and both military and      2002 to 2006, NSD did not perform these tests
civilian personnel. Any products or component          on electronic components used in U.S. military
of a product not manufactured, assembled, test-        avionic systems, navigation and positioning sys-
ed, or inspected in accordance with the terms of       tems, inertial systems, fiber-optic gyro systems,
the contract specifications are considered non-        friend-or-foe transponders, interrogators and
conforming, and are generally divided into the         cockpit displays, and computers used on a wide
following investigative categories: counterfeit,       variety of military and space vehicles, to include
substituted, defective, and substandard.               the MH-60 helicopter, B-2 bomber, F-117A
                                                       fighter, the Global Hawk and Predator drones,
DCIS works side by side with federal law en-           M-1 Abrams tank, Virginia class attack subma-
forcement partners, supply centers, and the de-        rines, and the Trident Missile.
fense industrial base to ensure DoD contractors        Result: As a result, on June 14, 2010 the U.S.
provide the right part or component to meet            Department of Justice entered into a Civil Set-
DoD’s requirements. DCIS actively participates         tlement Agreement with NSD, in which NSD
in the Defense Supply Center Columbus Coun-            agreed to pay $12.5 million to settle allegations
terfeit Material/Unauthorized Product Substitu-        of fraud.
tion Team. In 2010, DCIS partnered with the
Intellectual Property Rights Center, focusing on       Settlement by DoD Top 100 Contractor for
counterfeit parts.                                     False Claims
                                                       Overview: A joint DCIS/AFOSI investigation
$1.2 Million Civil Settlement by DoD Sub-              into overbilling of the Air Force on contracts for
Contractor for Failure to Conduct Required             security barrier fences revealed that a DoD Top
Ballistic Testing of Blackhawk Helicopter              100 contractor made false statements and/or
Overview: In 2009, as the result of a joint DCIS/      overcharged the Air Force for steel beams used
Army CID investigation, a DoD prime contrac-           to construct the barrier-security fences.
tor and the government executed a Settlement           Result: On May 10, 2010, a settlement agree-
Agreement wherein the contractor agreed to             ment between the U.S. Attorney’s Office, West-
pay $2.9 million. The prime contractor provided        ern District of Washington, and the DoD Top
untested Blackhawk cockpit armor to the U.S.           100 contractor was reached. The contractor
Army between 1992 and 2005. At that time, the          expressly denied it engaged in wrongdoing but              DCIS investigated untested Blackhawk
                                                                                                                  helicopter cockpit armor.
subcontractor for the testing of the armor did         agreed to pay the U.S. government $822,000 to
not go to trial.                                       settle the matter.
Result: On June 8, 2010, in accordance with a

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 39
Oversight



                                        DoD Contractor Sentenced for Conspiracy to            tion program continues to work with its federal
                                        Defraud the Government                                partners, and this collaborative process has min-
                                        Overview: A joint DCIS/Army CID/USDA                  imized duplicative investigative efforts, allowing
                                        investigation revealed that a DoD contractor          DoD to better focus intelligence, procurement,
                                        deliberately purchased expired or near expired        and investigative efforts on combating illicit
                                        foods from food manufacturers at discounted           technology transfer and weapons of mass de-
                                        prices and changed the expiration dates on            struction proliferation activities.
                                        the packages before shipping, resulting in $20
                                        to $30 million in gross profits from the sale of      Charges Filed Against Irish Trading Firm for
                                        foods to the DoD. The food was sent to troops in      Exporting USML to Iran
                                        the Middle East, and some of the products were        Overview: A joint DCIS/ICE/DOC-OEE in-
                                        spoiled and caused some military personnel to         vestigation determined that from 2005 to 2008
                                        become ill. The contractor also inflated freight      an Irish Trading company, Mac Aviation Group,
                                        charges by $1.8 to $2 million.                        was acquiring U.S. airplane and helicopter parts
                                        Result: As a result, on April 19, 2010, the for-      for sale to Iran. The sale violated provisions in
                                        mer purchasing agent for a DoD contractor was         the International Emergency Economic Pow-
                                        sentenced to three years probation and ordered        ers Act and the Arms Export Control Act. The
                                        to pay $2 million in restitution and $43,382 in       company and its officers wired money to banks
                                        disgorgement for conspiracy to defraud the gov-       in the U.S. as payment for these parts and con-
                                        ernment.                                              cealed from U.S. sellers the ultimate end-use and
                                                                                              end-users of the purchased parts. The parts were
                                                                                              exported through third-party countries such as
                                        Technology Protection                                 Malaysia and eventually transshipped to Iran.
                                        In response to the increasing national security       Result: On July 7, 2010, a federal grand jury in
                                        threat posed by the illegal export of restricted      Washington, D.C., charged Mac Aviation Group
                                        U.S. military and dual-use technology, DCIS           and its officers in a superseding indictment with
                                        expanded its collaborative investigative efforts      purchasing F-5 fighter aircraft parts, helicopter
                                        with key federal partners. In FY 2010, as a result    engines, and other aircraft components from
                                        of President Barack Obama’s historic call for ex-     U.S. firms and illegally exporting them to Iran.
                                        port reform, DCIS joined Department of State,         If convicted, the defendants face a maximum
DCIS investigated a tech protect case
involving F-5 fighter aircraft parts.   Technology Protection Enforcement Group               sentence of 10-20 years in prison for each of the
                                        partners, and the Intelligence Community to           IEEPA counts, 10 years in prison for the AECA
                                        create a new infrastructure for the sharing and       charge, five to 20 years in prison for each of the
                                        collaboration of export enforcement investiga-        conspiracy counts, and five years in prison for
                                        tions. This center will serve as the presidentially   each of the false statement counts. The defen-
                                        mandated Fusion Center, with full-time partner        dants were previously charged with purchasing
                                        participation. DCIS has been involved with this       17 helicopter engines from Rolls Royce Corpo-
                                        initiative from the beginning and has been iden-      ration in Indiana for $4.27 million on behalf of
                                        tified as a key DoD member of the team. DCIS          an Iranian trading company, and also causing
                                        has also continued to participate with the U.S.       U.S.-origin airplane vanes and bolts to be ex-
                                        Immigration and Customs Enforcement, Na-              ported from the United States to Iran.
                                        tional Export Enforcement Counter-Prolifer-
                                        ation Network, a center that serves as a liaison      RMI Company Pleads Guilty to Exporting
                                        between the Intelligence Community and field          Defense Articles Without a License
                                        personnel conducting counter-proliferation in-        Overview: A successful collaboration between
                                        vestigations. DCIS has maintained a very active       ICE and DCIS determined that Rocky Mountain
                                        commitment and involvement with the TPEG,             Instrument Company sent ITAR restricted pro-
                                        a consortium of enforcement agencies collabo-         prietary optics drawings and schematics from
                                        rating under the guidance of the Department of        other DoD contractors to countries such as Tur-
                                        Justice’s Counter-Espionage Section, National         key, South Korea, China, and Russia without ob-
                                        Security Division. The DCIS technology protec-        taining the required export licenses. These op-

40 SEMIANNUAL REPORT TO THE CONGRESS
tics were used in advanced weapons systems and       gines, and related technology for South Korea.
employed thermal and night vision technologies       These items are classified as defense articles un-
that have provided U.S. forces a mastery of the      der the U.S. Munitions List.
night for years.                                     Result: As a result, on May 24, 2010, the sub-
Result: On June 22, 2010, Rocky Mountain In-         ject pled guilty to attempting to export RD-180
strument Company pled guilty in the District of      rocket propulsion systems and technology to
Colorado to one count of knowingly and willful-      South Korea without a license. The subject was
ly exporting defense articles without a license.     previously convicted of conspiring to export Sa-
The company agreed to an immediate judgment          rin gas in violation of the Arms Export Control
of $1 million forfeiture and five years of super-    Act and was previously sentenced to 39 months
vised probation.                                     in prison. As a result of the guilty plea, the sub-
                                                     ject faces a term of up to 10 years in prison.
Two Chinese Nationals Convicted of Illegally
Exporting Electronics Used in Military Radar
Overview: Evidence provided during a trial           Computer Crimes                                             DCIS investigated the illegal export of
                                                                                                                 optics used in night vision technologies.
proved that between April 2004 and June 2006,        DoD IG continues to emphasize combating
two Chinese nationals illegally exported mili-       cybercrime through several proactive initia-
tary electronic parts promulgated on the United      tives around the country, maintains an on-site
States Munitions List as well as the Commerce        presence within the DoD Joint Task Force for
Control List to China through Hong Kong. The         Global Network Operations, and will continue
jury also convicted one of the Chinese nation-       that presence with the establishment of the U.S.
als of immigration fraud related to false infor-     Cyber Command. The cybercrime program
mation she provided on her application for a         continues to place emphasis on crimes involving
U.S. Permanent Resident Card. The U.S. District      the compromise and theft of sensitive Defense
Court Judge entered a contempt order against         information contained in government and DoD
Chitron-Shenzhen, a company involved, for re-        contractor information systems while still posi-
fusing to appear for trial and fined the company     tioned to respond to traditional computer intru-
$1.9 million.                                        sions against DoD and provide the full range of
Result: On May 17, 2010, after the five-week         digital forensics services in support of investiga-
trial in U.S. District Court, District of Massa-     tions.
chusetts, the jury found the two Chinese na-
tionals guilty of illegally conspiring to export     Theft of Banking Information and Pay of DoD
controlled electronic equipment from the U.S.        Personnel
to China. The jury also convicted Chitron Elec-      Overview: On November 26, 2008, an investi-
tronics, a Waltham, MA, company used by the          gation was initiated from information provided
subjects to procure controlled equipment from        by the Defense Finance and Accounting Service
U.S. suppliers and then export the items though      regarding the diversion of payroll funds for sev-
Hong Kong and into China. The items illegally        eral DoD employees’ DFAS myPay accounts. The
exported by the Chinese nationals were primari-      myPay system is DoD’s online payroll system
ly used in military phased array radar, electronic   that provides an Internet-accessible Web site to
warfare, military guidance systems, and military     DoD personnel to view and change information
satellite communications. This was a joint inves-    relating to their paychecks and other benefits.
tigation by DCIS, ICE, and DOC.                      The victims’ pay was diverted to financial ac-
                                                     counts controlled by unknown individuals.
Defendant Pleads Guilty to Illegal Export of         Result: This investigation disclosed that two
Rocket Technology to South Korea                     subjects installed peer-to-peer file sharing soft-
Overview: Investigation disclosed that the sub-      ware on computers under their control, and
ject attempted to export RD-180 rocket propul-       searched the available P2P file sharing networks
sion systems and technology to South Korea           for account login information and passwords
without a license. The subject attempted to ac-      inadvertently exposed to the file sharing net-
quire RD-180 rocket propulsion systems, en-          work by other users of the P2P software. These

                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 41
Oversight



                                         subjects used the account information and pass-        USACE and the Army command in Iraq were
                                         words obtained by searching the P2P networks           made aware of the exposure in August 2003 and
                                         to access the bank accounts of the victims and         took a series of actions in response.
                                         transfer funds to prepaid credit cards, which
                                         they obtained in their own names. The five             Seven members of the Senate Democratic Policy
                                         victims included active duty military, retired         Committee requested that DoD IG review the
                                         military, and a civilian employee of DoD, and a        conduct of the Army and KBR related to the ex-
                                         business in Florida. All together, these subjects      posure of U.S. soldiers to sodium dichromate in
                                         redirected or attempted to redirect over $20,000       2003, and the Senate Armed Services Commit-
                                         in funds to themselves.                                tee asked the Secretary of Defense to evaluate
                                                   On April 13, 2010, subject one pled          the adequacy and timeliness of the Department’s
                                         guilty to computer fraud, access device fraud,         efforts to identify and contact soldiers who were
                                         and aggravated identity theft. Subject two pled        exposed, or who potentially were exposed, and
                                         guilty to conspiracy to commit computer fraud          ensure they had access to appropriate care. We
                                         and access device fraud. On July 9, 2010, subject      conducted this assessment to address the con-
                                         one was sentenced to 32 months imprisonment,           cerns of both committees. This particular report
                                         and subject two was sentenced to two months            addresses the questions raised by the Senate
                                         imprisonment followed by four months com-              Armed Services Committee.
                                         mitment to a halfway house.                            Observations: The Army conducted adequate
                                                                                                efforts to identify and contact military and DoD
                                         The following are highlights of inspections, as-       civilian personnel in a reasonably timely man-
Inspections
                             sessments, or evaluations conducted by DoD
                                         IG. Inspections are listed under the following
                                                                                                ner, subsequent to a request from Congress in
                                                                                                June 2008. While these efforts were thorough,
                                         categories:                                            not all identified personnel could be found or
                                         •	 Heath Care                                          were willing to respond once located. Moreover,
                                         •	 Logistics                                           in the absence of complete personnel, duty, and
                                         •	 Compliance                                          other relevant records for individuals who had
                                                                                                served near Qarmat Ali in 2003, it was not pos-
                                                                                                sible to determine with precision which exposed
                                         Health Care                                            individuals may not have been identified, con-
                                         In FY 2010, one of the top priorities for DoD          tacted, and offered medical care.
                                         IG is preventing and detecting fraud, waste and
                                         abuse, and improving efficiency and effective-         As of September 2010, representatives from the
                                         ness in the critical area of the health care of ser-   Department of the Army, Army National Guard
                                         vice members and employees.                            headquarters of the four impacted states, and
                                                                                                USACE, identified 972 living DoD military or
                                         Evaluation of Efforts to Identify, Contact, and        civilian personnel who potentially served at Qa-
                                         Provide Access to Care for Personnel Exposed           rmat Ali in 2003, and reported having contacted
                                         to Sodium Dichromate at Qarmat Ali, Iraq in            895 (92 percent) of them. At the time of this
                                         2003                                                   report, the Oregon Army National Guard and
                                         Overview: In 2003, the U.S. Army Corps of En-          USACE were continuing efforts to locate per-
                                         gineers contracted KBR, a contractor, to restore       sonnel who conducted missions at the Qarmat
                                         Iraq’s oil industry following combat operations.       Ali facility.
                                         The Qarmat Ali water treatment plant was one of
DoD IG evaluated the care of personnel   several hundred facilities that required restora-      Identified individuals exposed to sodium di-
exposed to Sodium Dichromate.            tion. While conducting renovation and provid-          chromate at the Qarmat Ali facility in 2003 had
                                         ing site security, Army soldiers, U.S. Army civil-     the opportunity to receive medical care. Howev-
                                         ian employees, KBR workers, and other USACE            er, military and civilian personnel received care
                                         contractors were exposed to industrial hazards,        through different procedures.
                                         including sodium dichromate, which contains
                                         hexavalent chromium, a known carcinogen.

42 SEMIANNUAL REPORT TO THE CONGRESS
Serving and former soldiers of all components          Review of Intra-Theater Transportation
who served in Operation Iraqi Freedom were             Planning, Capabilities, and Execution for the
and still are eligible for inclusion in the Gulf War   Drawdown from Iraq
Registry, and can receive an exposure-specific         Overview: On November 17, 2008, the gov-
medical evaluation offered by the Department           ernments of the United States and Iraq signed
of Veterans Affairs.                                   a Security Agreement stating that all U.S. forces
                                                       shall withdraw from Iraqi territory no later than
Civilian employees of DoD generally received           December 31, 2011. Further, on February 27,
health care from civilian providers. Exposed ci-       2009, in remarks delivered at Camp LeJeune,
vilians were offered the opportunity to talk with      North Carolina, President Obama announced
a trained DoD medical care provider. There was         that the United States’ combat mission in Iraq
no process to ensure DoD civilians who were            would end by August 31, 2010 and pledged to
exposed to sodium dichromate received medi-            remove all combat brigades from Iraq by that
cal examinations similar to those offered to ac-       date. The objective of this assessment was to
tive and former soldiers as part of the VA’s Gulf      determine whether U.S. Central Command and
War Registry.                                          its supporting and subordinate organizations’
Results: USACE should notify all current and           intra-theater logistical and transportation plan-
former military personnel who were identified          ning were sufficient to support and manage the            “This year, the Depart-
as having served at the Qarmat Ali facility in         movement of materiel being drawn down from
2003 of their eligibility for the VA’s Gulf War        Iraq.
                                                                                                                 ment was responsible
Registry and associated sodium dichromate              Observations: U.S. Central Command and                    for drawing down
exposure-related medical evaluation. Further,          its subordinate and supporting organizations’             from Iraq thousands of
the DoD should publicize the eligibility of ac-        intra-theater logistical planning appeared to be          service members while
tive duty personnel who served at the Qarmat           sufficient to effectively manage and support the          maintaining account-
Ali facility in 2003 for the VA’s Gulf War Regis-      movement of materiel being withdrawn from
try; review policy and procedures for active duty      Iraq. Additionally, we observed that the logis-
                                                                                                                 ability and control over
personnel eligible to undergo the VA’s Gulf War        ticians in these organizations were continuing            millions of pieces of
Registry medical evaluation; and develop and           to gain efficiencies in their planning processes,         materiel.”
publicize a means to offer DoD civilians who           which we anticipate will progressively improve
served at Qarmat Ali in 2003 an exam and medi-         and enhance intra-theater transportation capa-
cal surveillance similar to what the VA avails to      bilities.
military personnel and veterans.                       Results: Therefore, we are not making specific
Report No. SPO-2010-006                                recommendations in this report.
                                                       Report No. SPO-2010-002

Logistics
The Department’s logistics enterprise spans the        Compliance
globe and is a critical foundation of the United       It is critical that the Department adheres to es-
States’ ability to project power in the world.         tablished rules, policies, instructions, laws, and
Rightly so, oversight of this vast enterprise          ethical principles in order to maintain order and
and important capability is one of the top pri-        public trust.
orities for FY 2010. This year, the Department
was responsible for drawing down from Iraq             Review of DoD Compliance with Section 847
thousands of service members while maintain-           of the NDAA for FY 2008
ing accountability and control over millions of        Overview: Section 847 of the National Defense
pieces of materiel. At the same time, it executed      Authorization Act for FY 2008, Public Law 110-
an increase in personnel in Afghanistan, a land-       181, requires a selected category of senior DoD
locked country with inferior transportation in-        acquisition officials to seek post-DoD employ-
frastructure. This feat was a logistical challenge     ment ethics opinion letters before accepting
of the highest order.                                  compensation from DoD contractors. DoD
                                                       is required to issue the written opinion letters

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 43
Oversight



                                       within 30 days after receiving the request and      in compliance with DoD regulations and public
                                       to maintain copies of these opinion letters in a    law, with a few minor exceptions they were ad-
                                       centralized database or repository. Further, de-    dressing. The oversight programs of the Federal
                                       fense contractors are required, prior to compen-    Voting Assistance Program Office and services
                                       sating a former DoD official, to determine that     continue to identify opportunities to improve
                                       the former DoD official has sought and received     effectiveness. The services demonstrated in their
                                       (or has not received after 30 days of seeking) a    oversight reports that they have made special ef-
                                       written opinion from the appropriate DoD eth-       forts to ensure deploying and deployed person-
                                       ics counselor.                                      nel were afforded every opportunity to vote.
                                       Observations: DoD Standards of Conduct Of-
                                       fice in the DoD Office of General Counsel has       There were a few reported deficiencies related to
                                       initiated but not completed development and         the assignment and training of voting assistance
                                       implementation of a central DoD repository to       officers. For example, the Army inspector gen-
                                       record requests for written opinions and to store   eral reported that 39 of 74 reserve component
                                       copies of opinion letters issued. In addition,      units did not have a voting assistance officer as-
                                       while the DoD Standards of Conduct Office has       signed; however, the Reserve Component Direct
                                       disseminated information on Section 847 re-         Reporting Unit was correcting this deficiency.
                                       quirements to promote compliance within the
                                       DoD and the defense contracting community,          Another issue, reported by the Navy inspec-
                                       its current procedures for receiving requests and   tor general, was that only four percent of Navy
                                       issuing opinion letters are decentralized.          voting assistance officers documented that they
                                       Result: The Standards of Conduct Office is          completed training in 2009. This was attributed
                                       actively pursuing an Internet-based platform        to staff turnover but also the lack of FVAP Office
                                       to receive requests and store opinions; further,    on-site training, which is only provided during
                                       it is evaluating a new Army repository process      even-numbered years when elections are held
                                       and anticipates using this information to estab-    for federal offices. The Air Force inspector gen-
                                       lish the process for DoD-wide implementation        eral reported minor anomalies with training of
                                       sometime in August 2010.                            voting assistance officers, distribution of materi-
                                       Report No. SPO-2010-003                             als, and command and installation level involve-
                                                                                           ment. The Marine Corps inspector general re-
                                       Evaluation of the DoD Federal Voting                ported compliance shortcomings in only one of
                                       Assistance Program                                  21 of its units inspected.
                                       Overview: United States law requires that the       Results: We found that the FVAP Web site was
                                       inspectors general of the Army, the Navy, the       up-to-date, accessible, and usable by voters, vot-
                                       Air Force, and the Marine Corps conduct an an-      ing assistance officers, and state and local elec-
                                       nual review of the effectiveness of their voting    tion officials. The 2010-2011 Voting Assistance
                                       assistance programs; and an annual review of        Guide has been streamlined to target the voting
                                       the compliance with voting assistance programs      assistance officers at unit and installation levels.
DoD IG evaluated the DoD Federal       of each service. Upon the completion of their       Also, we found that the FVAP Office has imple-
Voting Assistance Program.
                                       annual reviews, each service inspector general is   mented provisions of the MOVE Act regarding
                                       required to submit to the DoD inspector gen-        online database and Global Network informa-
                                       eral a report on the results of each review. The    tion access that apply to the November 2010
                                       statute requires that the DoD inspector general     election.
                                       submit to Congress a report on the effectiveness    Report No. SPO-2010-004
                                       during the preceding calendar year of voting as-
                                       sistance programs, and the level of compliance      Evaluation of DoD Accident Reporting
                                       during the preceding calendar year with voting      Overview: Preventable accidents in DoD re-
                                       assistance programs as reported by each of the      sult in an average of over 800 deaths per year,
                                       service inspectors general.                         degrade capabilities and readiness, and gener-
                                       Observations: The service inspectors general        ate significant costs. Since 2001, average cost of
                                       reported that their programs were effective and     workers’ compensation claims for the civilian

44 SEMIANNUAL REPORT TO THE CONGRESS
workforce was over $600 million annually. For        Review of Joint Task Force Guantanamo’s
military personnel, annual compensation cost is      Inclusion of Mental Health Information in
estimated at approximately $3.2 billion. In addi-    Intelligence Information Reports
tion, estimated overall direct and indirect costs    Overview: DoD IG conducted this review to
(schedule delays, training and retraining of re-     determine whether DoD reporting published
placement workers, increased insurance premi-        by Joint Task Force Guantanamo included in-
ums, and added administrative fees) related to       formation regarding the mental health status of
preventable accidents is $12 to $20 billion per      sources or their history of medication with psy-
year.                                                choactive substances and to determine the pos-
          DoD safety professionals rely on accu-     sible effect on finished intelligence.
rate information to reduce preventable accidents     Results: Recommendations were made to the
and associated costs; however, when the DoD          Joint Staff, the Under Secretary of Defense for
Military Injury Prevention Priorities Working        Intelligence to change applicable policy and
Group analyzed a sample of the 1,874,826 inju-       doctrine to improve the reliability and quality
ries recorded in the CY 2004 medical databases,      of intelligence reporting. All concurred with the
they reported a large disparity among military       recommendations. Refer to the Classified An-
medical records for accident-related injuries        nex of this Semiannual Report for more details.
and Service safety center records for accidents.     Report No. 10-INTEL-04 (Classified)
This report reviews DoD reporting systems to
identify problem areas that prohibit effective re-   Field Verification-Interrogation and Survival,
porting of injuries resulting from accidents.        Evasion, Resistance and Escape Techniques
Observations: Although a significant part of         Recommendation
the large discrepancy between medical data-          Overview: DoD IG verified actions taken in
bases and safety databases could be attributed to    response to a recommendation in “Review of
the differences in recording criteria, non-com-      DoD-Directed Investigation of Detainee Abuse,”             DoD IG reviewed the use of SERE
                                                                                                                techniques used during training.
pliance also contributed. Installation and unit      Report No. 06-INTEL-10 to identify the inap-
safety offices rarely reported accidents below the   propriate use of SERE techniques during SERE
“Class C” level. Database discrepancies for in-      training.
patient cases were an indication that component      Results: Recommendations to clarify the in-
safety offices also may not have captured reports    tended use of SERE techniques were implement-
for all Class C and higher accidents. Further,       ed with issuing a memorandum to all accredited
information sharing concerning injury-causing        DoD SERE training programs and agreement
accidents between safety and medical organiza-       to incorporate language into DoD Instruction
tions was ineffective.                               3002.12. Refer to the Classified Annex of this
Results: The DoD agreed to eliminate confusion       Semiannual Report for more details.
between “reportable” and “recordable” as related     Report No. 10-INTEL-05 (FOUO)
to accidents and direct component safety offices
to obtain accident information from medical or-      Assessment of Security Within the Department
ganizations, worker’s compensation programs,         of Defense – Tracking and Measuring Security
and other relevant sources to supplement in-         Costs
formation reported directly by injured person-       Overview: This was the first in a series of re-
nel. Further, DoD is initiating a review of DoD      ports designed to provide an overall assessment
component execution of injury record-keeping         of security policies and procedures within the
requirements by directly comparing the current       Department. In this report, DoD IG assessed
number of injuries recorded in DoD Compo-            how the DoD programs and tracks its security
nent mishap records to the estimated number          costs and measures the return on investment for
of mishap-related injuries recorded in military      security expenditures. Subsequent reports will
medical treatment records.                           address the classification and grading of secu-
Report No. SPO-2010-007                              rity personnel; the process for security training;
                                                     certification and professionalization; and secu-
                                                     rity policies.

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 45
Oversight



                                         Results: DoD IG assessment revealed a frag-           Review of Matters Related to a Murder/Suicide
                                         mentary security policy construct that impedes        Overview: In response to a request from Repre-
                                         the Department’s ability to accurately track secu-    sentative Kevin Brady in October 2008, DoD IG
                                         rity resources. Because security policy is imple-     evaluated the Army CID criminal investigation
                                         mented at the local level with separate guidance      into a murder/suicide that occurred in August
                                         for different categories of security disciplines,     2007 at Camp Liberty, Baghdad, Iraq.
                                         application of policy guidelines is not consistent.   Findings: While deployed to Camp Liberty,
                                         This hinders efforts to develop and implement         Iraq, a female Army specialist was shot and
  DoD IG evaluated sustaining the WS3    risk-managed security practices, protection           killed by a male Army staff sergeant who subse-
  Security Storage System.               policies, and programs within a cohesive and          quently committed suicide. The specialist’s par-
                                         integrated security framework. DoD IG recom-          ents contended, based on information received
                                         mended the creation of comprehensive and in-          from multiple sources, the specialist had been
                                         tegrated security framework to facilitate track-      harassed and abused, both physically and emo-
                                         ing security costs, thus providing a consistent       tionally, by the SSG before and during their de-
                                         baseline for programming future years security        ployment to Camp Liberty. Moreover, the fam-
                                         requirements. Refer to the Classified Annex of        ily asserted that unit leadership was aware of the
                                         this Semiannual Report for more details.              SSG’s inappropriate actions and failed to take
                                         Report No. 10-INTEL-09 (FOUO)                         steps to protect their daughter.
                                                                                               Result: DoD IG concluded the CID criminal in-
                                         Hotline Allegation of Misconduct at J23,              vestigation complied with the applicable regula-
                                         USSCOM                                                tions regarding criminal investigations. The in-
                                         Overview: DoD IG assessed the validity of al-         vestigation was thorough, timely, and adequately
                                         legations sent to the DoD Hotline regarding ac-       documented the facts and circumstances sur-
                                         tivities at U.S. Special Operations Command.          rounding the murder of the SPC. Additionally,
                                         Results: The U.S. Special Operations Com-             it was determined that the chain of command
                                         mand will implement procedures to ensure ad-          for the specialist was not aware of any alleged
                                         herence to director of National Intelligence and      incidents of harassment or abuse involving the
                                         Intelligence Community directives. Refer to the       specialist and SSG, and found no evidence lead-
                                         Classified Annex of this Semiannual Report for        ers received information alleging the SSG was
                                         more details.                                         mentally or physically abusing or harassing the
                                         Report No. 10-INTEL-12 (Classified)                   Specialist before he killed her.
                                                                                               A letter response was sent to Representative
                                         Sustaining the WS3 Security Storage System
�          Kevin Brady, May 10, 2010.
                                         Overview: DoD IG assessed an aspect of the 

                                         Nuclear Enterprise.
�
                                         Results: Refer to the Classified Annex of this 

                                         Semiannual Report for more details.
�
                                         Report No. 10-INTEL-13 (Classified)




  46 SEMIANNUAL REPORT TO THE CONGRESS
            3


Outreach

Outreach



                                   Overview                                             Figure 3.1

Hotline
                           The Defense Hotline continues its primary mis-
                                   sion of providing a confidential and reliable
                                                                                        Distribution of Method of Hotline Contacts Received



                                   vehicle for military service members, DoD ci-        E-mail, 33%                                                                                                                                                U.S. Mail, 10%
                                   vilians, contractor employees and the public to
                                   report fraud, waste, mismanagement, abuse of                                                                                                                                                                                     Internet, 5%
                                   authority, threats to homeland security and leaks
                                   of classified information.                                                                                                                                                                                                         GAO, 1.5%
                                                                                                                                                                                                                                                                      Congressional
                                                                                                                                                                                                                                                                      Inquiries, 0.5%
                                   The Defense Hotline received 9,016 contacts
                                   from the general public and members of the
                                   DoD community: 10 percent via U.S. mail, 33
                                   percent via e-mail, five percent via the internet,
                                   1.5 percent via the Government Accountability
                                   Office, 50 percent via the telephone, and .5 per-                                         Telephone, 50%
                                   cent from congressional inquiries (see Figure
                                   3.1). Based on these contacts, the Hotline initi-



                                                                                           Telephone



                                                                                                       Email



                                                                                                                                  U.S. Mail



                                                                                                                                                        Internet



                                                                                                                                                                                                GAO



                                                                                                                                                                                                                                Congressional
                                   ated 1,265 cases.                                    Figure 3.2
                                                                                        Distribution of Cases Initiated by Category
                                   Open Cases
                                   The 1,265 cases opened this reporting period are     500
                                   classified in the following categories (see Figure                          426

                                   3.2):                                                400
                                   •	 Internal Misconduct
                                   •	 Reprisal                                          300
                                                                                                                                 295

                                   •	 Finance
                                   •	 Contract Administration
                                                                                        200
                                   •	 Government Property                                                                                     159
                                                                                                                                                            137
                                   •	 Personnel Matters
                                   •	 Programs                                          100                                                                                                 67
                                                                                                                                                                                                                44 38
                                                                                                                                                                                                                      26 22 20 31
                                   •	 Recovery Act
                                   •	 Security                                              0
                                                                                                           Internal Misconduct
                                                                                                                                 Reprisal
                                                                                                                                              Finance
                                                                                                                                                            Contract Administration
                                                                                                                                                                                      Government Property
                                                                                                                                                                                                            Personnel Matters
                                                                                                                                                                                                                                Programs
                                                                                                                                                                                                                                                Recovery Act
                                                                                                                                                                                                                                                               Security
                                                                                                                                                                                                                                                                          Procurement
                                                                                                                                                                                                                                                                                        Other
                                   •	 Procurement
                                   •	 Other

                                   Closed Cases
                                   During this reporting period the Defense Hot-
                                   line closed 2,077 cases.
                                   •	 606 cases referred within DoD IG were
                                        closed.
                                   •	 620 cases referred to the military services
                                        were closed.
                                   •	 215 cases referred to other Defense agencies
                                        were closed.
                                   •	 Five cases referred to non-DoD agencies
                                        were closed.
                                   •	 631 cases were not referred and dismissed
                                        without action.



48 SEMIANNUAL REPORT TO THE CONGRESS
Summary of Hotline                                    Investigations initiated exclusively by the Hot-
                                                      line resulted in $8.5 million dollars returned to

Case Referrals                                        the federal government for this reporting period.

During this reporting period the Defense Hot-         Scheme to Defraud the Government
line initiated 1,265 cases to the following activi-   Overview: An anonymous source reported to
ties:                                                 the Defense Hotline a case of bribery and con-
                                                      spiracy to defraud the government.
                                                      Findings: A joint investigation into the matter
Military Services
                                                      found government employees conspired with a
          AF                                    86
          Army                                 258
                                                      government sales representative to inflate the
          Navy                                  95    price of computer equipment charged to the
          USMC                                  28    government; in exchange, the employees re-
          JS                                    11    ceived cash and merchandise. The individuals
                                                      pled guilty to charges of bribery, mail and wire
DoD IG                                                fraud, and theft of government property. They
         MRI                                   170    were sentenced to 180 months incarceration, 17
         ISO                                   134    months probation, and $180 thousand in resti-
         CRI                                    48
                                                      tution. The contractor, Computer Giants, Inc.,
         Hotline                               192
         Audits                                 33
                                                      was indicted on nine felony counts, to include
         Investigations                         76    conspiracy, bribery, theft, mail and wire fraud,
         Intel                                   4    and forfeiture related to contract awards of ap-
         OPR                                     5    proximately $7.8 million. Computer Giants sub-
         GC                                      1    sequently filed for bankruptcy and ceased doing
                                                      business.
Other Defense Agencies
         AAFES                                   5    Abuse of Government Supply System
         DCMA                                    7
                                                      Overview: The Defense Hotline received a
         DODEA                                   9
         DECA                                    5
                                                      complaint questioning the purchase of 23 divers’
         DFAS                                   41    watches at a cost totaling over $31 thousand. The
         DIA                                     2    complaint provided information which brought
         DISA                                    2    into question the number of items for purchase,
         DLA                                    12    the cost per item, and the location of the request-
         DMA                                     2    or.
         DSS                                     3    Findings: The investigation uncovered evidence
         DTRA                                    1    of impropriety in the supply practices within the
         MDA                                     2
                                                      organization. Unauthorized expenditures in ex-
         NONDOD                                  2
         NGA                                     2
                                                      cess of $90 thousand had been made. Some of
         NSA                                     3    the items purchased were highly pilferable, in-
         OSC                                     1    cluding watches, computers, televisions, chairs,
         ASD(NII)                                1    cameras and computer storage media. The inves-
         ASD(PA)                                 1    tigation resulted in four crew members referred
         USDI                                    2    to non-judicial punishment; six crew members
         PFPA                                    1    issued Letters of Instruction, and two crew mem-
         AT&L                                    2    bers receiving Non-Punitive Letters of Caution.
         HEALTH AFFAIRS                          1
                                                      The former supply officer was processed for ad-
         P&R                                     6
         TRICARE                                 9
                                                      ministrative separation. The former supply chief
         WHS                                     1    was convicted and sentenced at court-martial to
                                                      24 months confinement, reduced rank, total for-
                                                      feiture of all pay and allowances, a $25,000 fine,
                                                      and a bad conduct discharge.

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 49
Outreach



                                    During the reporting period, the Department          blower reprisal and closed 359 cases. Of the 359
Whistleblower                       closed 643 cases involving whistleblower reprisal
                                    and senior official misconduct. The combined
                                                                                         cases, 294 were closed after preliminary analysis
                                                                                         determined further investigation was not war-
Protection                          case substantiation rate for full investigations
                                    of military and civilian reprisal allegations was
                                                                                         ranted, and 65 were closed after investigation.
                                                                                         Of the 65 cases investigated, 11 (17 percent) con-
                                    20 percent and 14 percent for investigations of      tained one or more substantiated allegations of
                                    senior official misconduct. During the period,       whistleblower reprisal.
                                    DoD IG pursued the following initiatives to im-
                                    prove operations:                                    Examples of Substantiated Military
                                    •	 Participated in a DoD-wide working group          Whistleblower Reprisal Cases
                                         to implement the recommendations from a         •	 An Army staff sergeant received an
                                         RAND study regarding the capture and re-           unfavorable Non-Commissioned Officer
                                         porting of adverse/reportable information          Evaluation Report in reprisal for reporting
                                         to the Senate on senior officials being nomi-      to members of her chain of command
                                         nated for promotion or reassignment.               that there was a perception of favoritism
                                    •	 Recertified the DoD IG as one of the few             and a possible inappropriate relationship
“As of September                         DoD agencies to meet all requirements of           between two non-commissioned officers.
30, 2010, DoD had                        Title 5, United States Code, Section 2302(c),      The evaluation report was rescinded. In
                                         to inform employees of their rights and            addition, responsible management officials
293 open cases                           remedies under the Whistleblower Protec-           were counseled.
involving allegations of                 tion Act.                                       •	 An Air Force colonel was denied a position
whistleblower reprisal              •	 Implemented 12 recommendations made by               for which she was eminently qualified by
filed by military service                the Department of Justice Inspector Gener-         a general officer in her chain of command
members, Defense                         al in a July 2009 report entitled “A Review        after she complained to higher ranking
                                         of the Department of Defense Office of In-         officials that her Active Guard Reserve
contractor employees,                    spector General’s Process for Handling Mil-        Review Board was not conducted in
and non-appropriated                     itary Whistleblower Reprisal Allegations.”         accordance with established law and policy.
fund employees.”                         Recommendations called for additional              Corrective action is pending.
                                         staffing, improved policies and procedures,     •	 A Marine Corps sergeant was disenrolled
                                         enhanced communications with complain-             from an education program, received an
                                         ants and service IGs, and establishment of a       unfavorable fitness report, and denied
                                         dedicated training staff.                          a promotion for making protected
                                                                                            communications to an inspector general
                                    Military Reprisal Investigations                        and Equal Employment officer of gender
                                    DoD IG investigates or oversees allegations of          discrimination and sexual harassment. The
                                    military, nonappropriated fund, and Defense             sergeant petitioned the promotion board
                                    contractor whistleblower reprisal. DoD IG ex-           and was subsequently promoted to staff
                                    panded outreach, communication, and training            sergeant. One responsible management
                                    to whistleblower stakeholders and service IG            official received a non-punitive letter of
                                    counterparts, reaching 506 military IGs with a          caution; the second was reassigned.
                                    total of 115 instruction hours. As of September      •	 A Navy commander received an
                                    30, 2010, DoD had 293 open cases involving al-          unfavorable fitness report in reprisal for her
                                    legations of whistleblower reprisal filed by mili-      protected communication to her command
                                    tary service members, Defense contractor em-            about the unauthorized movement of
                                    ployees, and non-appropriated fund employees.           Defense Logistics Agency materials from a
                                    About 73 percent of those cases were processed          Navy ship. Corrective action is pending.
                                    by service IGs prior to being forwarded to DoD
                                    IG for final approval.                               Referrals for Mental Health Evaluations
                                                                                         DoD IG closed 63 cases involving allegations of
                                    During the reporting period, DoD IG and ser-         improper referrals for mental health evaluation
                                    vice IGs received 347 complaints of whistle-         during the reporting period. Twenty (32 per-

 50 SEMIANNUAL REPORT TO THE CONGRESS
cent) of those cases substantiated that command                                  and closed 10 investigations, substantiating four
officials and mental health care providers failed                                (40 percent) cases of reprisal. Twenty-seven
to follow the procedural requirements for refer-                                 percent of open DoD IG civilian reprisal cases
ring service members for mental health evalu-                                    involve intelligence or counterintelligence ac-
ations under DoD Directive 6490.1, “Mental                                       tivities and the remaining cases involve procure-
Health Evaluations of Members of the Armed                                       ment fraud sources.
Forces.”
                                                                                 Examples of Substantiated Civilian
Civilian Reprisal Investigations                                                 Whistleblower Reprisal Cases
During the second half of FY 2010, DoD IG con-                                   •	 A retired electronics mechanic formerly
tinued to select cases involving protected disclo-                                  employed at a naval agency was reprised
sures in five core mission areas: aviation main-                                    against after disclosing improperly sur-
tenance, health and welfare of service members                                      veyed equipment, insufficient repair facility
deployed or returning from Southwest Asia,                                          resources, and failures in quality assurance
chemical weapons safety, supply logistics, and                                      in an aircraft maintenance and repair pro-
intelligence operations. DoD IG investigated re-                                    gram. A remedy was provided through U.S.
prisal allegations involving civilian employees of                                  Office of Special Counsel mediation.
the military departments and the Defense Intel-                                  •	 A lead safety and occupational health spe-
ligence Agency. With respect to the intelligence                                    cialist at an Army Depot was reprised
and counterintelligence communities, DoD IG                                         against after being perceived as a whistle-
conducted two oversight actions on Defense In-                                      blower. Management officials believed the
telligence Agency investigations and completed                                      specialist reported to the Occupational
a full investigation into alleged reprisal within                                   Safety and Health Administration violations
the Department of the Navy. Other activities re-                                    of emergency response planning and train-
viewed included alleged reprisal against sources                                    ing. The report was referred to command
reporting avionics maintenance, emergency re-                                       officials for remedial action.
sponse planning, supply management, and me-                                      •	 The chief of engineering and planning at an
dia access violations.                                                              Army Depot was reprised against after be-
                                                                                    ing perceived as a whistleblower. Manage-
On September 30, 2010, DoD IG had 21 open                                           ment officials believed the chief had report-
cases and one oversight action. During the sec-                                     ed problems regarding the logistics tracking
ond half of FY 2010, DoD IG conducted 48 in-                                        infrastructure. Remedial action was taken
takes, accepted five complaints for investigation,                                  by the commander.


   Figure 3.3
                                                      DoD Whistleblower Complaint Trend
                                       800
      Number of Complaints in DoD




                                       700
                                       600
                                       500
                                       400
                                       300
                                       200
                                       100
                                         0
                                             FY 97 FY 98 FY 99 FY 00 FY 01 FY 02 FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10
                                Received 315       313   400   445   426   461    597   671   552   554   629   625   591   618
                                    Closed   235   356   322   392   406   428    401   716   446   506   572   541   447   633


                                                                                                                                     APRIL 1, 2010 TO SEPTEMBER 30, 2010 51
Outreach



                                   To promote public confidence in the integrity        •	 A senior DoD civilian used or allowed the
Senior                             of DoD leadership, DoD IG conducts or pro-
                                   vides oversight on all investigations into alleged
                                                                                             use of his official government position and/
                                                                                             or organization name to be posted on a

Officials
                         misconduct by senior DoD officials (brigadier
                                   general/rear admiral and above, members of
                                                                                             non-federal entity Web site in connection
                                                                                             with activities performed in his personal
                                   the senior executive service, and senior political        leadership capacity in the NFE, and mis-
                                   appointees). Misconduct allegations are non-              used government resources and official time
                                   criminal in nature and typically involve ethics           by hosting NFE meetings in his government
                                   or regulatory violations. Most senior official in-        office without approval.
                                   vestigations are conducted by specialized units      •	   A senior executive extended official travel
                                   within the military department IGs. DoD IG                for primarily personal reasons by conduct-
                                   investigates allegations against the most senior          ing TDY travel on Friday for business com-
                                   DoD officials and allegations not suitable for as-        mencing on Monday. The senior executive
                                   signment to service IGs.                                  reimbursed the government for additional
                                                                                             costs incurred.
                                   On September 30, 2010, there were 294 ongo-          •	   An agency director engaged in gross mis-
                                   ing investigations into senior official misconduct        management in administering his agency’s
                                   throughout the Department, representing a 15              collection and use of reimbursable fees. The
                                   percent increase from March 31, 2010, when 257            total amount of questionable fees collected
                                   open investigations were reported. Over the past          by the agency was approximately $20 mil-
                                   six months, the Department closed 274 senior              lion over a period of years. Although the
                                   official cases, of which 37 (14 percent) contained        mismanagement began prior to the director
                                   substantiated allegations. Additionally, DoD IG           assuming office, he continued the improper
                                   completed 1,146 requests for records checks to-           practice after being advised of the matter by
                                   taling 9,897 names of officers being considered           a member of his staff.
                                   for promotion, reassignment, or retirement. The      •	   A general officer failed to discharge his
                                   Senate relies on the accuracy of these records            duties as a rating official when he did not
                                   checks when deliberating officer nominations.             timely complete officer evaluations reports
                                                                                             on over 30 officers, some of whom met pro-
                                   Examples of Substantiated Senior Official Cases           motion or other boards without a current
                                   •	 A general officer improperly used govern-              evaluation on top.
                                      ment resources and personnel for other            •	   A senior official accepted sporting event
                                      than official purposes in violation of the             tickets and parking from a prohibited
                                      Joint Ethics Regulation and DoD policy                 source, presented coin awards to contractor
                                      concerning the use of personal staff. The              employees, and used official time and gov-
                                      general allowed subordinates to perform                ernment resources to coordinate and attend
                                      personal services for him that were not re-            the event in violation of the Joint Ethics
                                      lated to his official duties, such as handling         Regulation.
                                      personal social events, decorating his quar-      •	   A general officer misused government re-
                                      ters, and servicing his privately-owned ve-            sources to support his private Christmas
                                      hicles. After being advised of the results of          party in violation of the Joint Ethics Regula-
                                      the investigation, the general compensated             tion.
                                      the individuals who had performed the per-
                                      sonal services.
                                   •	 A general improperly accepted a gift of ser-
                                      vices from a subordinate at the general’s
                                      personal holiday reception; used official
                                      postage for unofficial purposes; and failed
                                      to use the government Travel Charge Card
                                      for official travel as required by law.


52 SEMIANNUAL REPORT TO THE CONGRESS
Section 4(a) of the Inspector General Act re-        steps needed to reduce waste, fraud, and abuse
quires the inspector general “to review existing
and proposed legislation and regulations relating
                                                     related to contracting in the current and future
                                                     contingencies. The report, “Contingency Con-
                                                                                                          Congressional
to the programs and operations of [the Depart-
ment of Defense]” and to make recommenda-
                                                     tracting: A Framework for Reform,” issued May
                                                     14, 2010, which provided DoD field command-
                                                                                                             Testimony
tions “concerning the impact of such legislation     ers and contract managers with information on
or regulations on the economy and efficiency in      systemic contracting issues identified in DoD IG
the administration of programs and operations        products issued from October 1, 2007, through
administered or financed by [the Department]         April 1, 2010, was presented. The testimony
or the prevention and detection of fraud and         identified high-risk areas of contract manage-
abuse in such programs and operations.” DoD          ment and described actions that need to be tak-
IG is given the opportunity to provide informa-      en to correct these issues for future contracting.
tion to Congress by participating in congressio-
nal hearings and briefings.                          On June 29, 2010, the Deputy Inspector General
                                                     for Auditing testified at a hearing titled, “Con-
On April 15, 2010, Inspector General Gordon S.       tracting in Combat Zones: Who Are Our Sub-
Heddell testified before the Senate Committee        contractors?” The hearing was held by the House
on Homeland Security and Governmental Af-            Oversight and Government Reform Committee,                 Inspector General Heddell testifies on
fairs, Subcommittee on Contracting Oversight,        Subcommittee on National Security and Foreign              Afghan National Police training.

at a hearing titled “Contracts for Afghan Na-        Affairs. The testimony highlighted some key de-
tional Police Training.” Mr. Heddell discussed       ficiencies in contingency contracting and dis-
a joint audit by Department of Defense IG and        cussed related ongoing actions to help prevent
Department of State IG of police training in         waste, fraud, and abuse, as discussed in Audit
Afghanistan, and discussed concerns regarding        Report No. D-2010-059.
the management and oversight of the Depart-
ment of State’s Civilian Police Program contract
in support of the Combined Security Transition       Congressional Briefings
Command-Afghanistan, now known as NATO               During the reporting period, Mr. Heddell and
Training Mission – Afghanistan. In addition,         representatives of DoD IG had 48 meetings with
Mr. Heddell discussed challenges created by          members of Congress and their staff. Topics of
joint administration and responsibility of this      discussion during those meetings included is-
contract, and described planned oversight ac-        sues such as: reprisal investigations, review of
tions.                                               the DoD senior mentor program, review of the
                                                     PAO program, wounded warrior transition care,
On May 24, 2010, the Commission on Wartime           the drawdown in Iraq, Recovery Act reviews, the
Contracting held a hearing titled, “How good         Ft. Hood shooting incident, an audit oversight
is our system for curbing contract waste, fraud,     review conducted by Senator Charles Grassley,
and abuse?” The hearing comprised two panels.        Ranking Minority Member of the Senate Com-                 Deputy IG for Investigations James
                                                                                                                Burch testifies before the Commission.
The Deputy Inspector General for Investigations      mittee on Finance, and proposed legislative task-
testified during the first panel, which reviewed     ings to the Office of Inspector General. From
the challenges and issues that confront law-en-      April 1, 2010 through September 30, 2010, DoD
forcement officials as they attempt to discover      IG received 210 new congressional inquiries and
and successfully prosecute fraud in a contin-        closed 126 cases. New inquiries involved issues
gency contracting environment. The testimony         such as requests for reprisal investigations; the
discussed successes and challenges related to in-    reviews related to American Recovery and Rein-
vestigating and prosecuting wartime contracting      vestment Act funding; requests concerning open
fraud. The Deputy Inspector General for Audit-       recommendations; concerns about the wounded
ing testified during the second panel of the hear-   warrior Program; and requests related to reviews
ing, and provided an update on the activities of     of senior DoD officials, including almost 50 re-
DoD IG over the past year; the key issues for the    quests concerning allegations of misconduct in-
coming year; and the extent of, trends in, and       volving the former director of DoDEA.

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 53
Outreach



                                   Policy Issuances                                      DCAA Oversight
Policy                             Developing policy for all DoD activities relating     DoD IG has taken on a three-pronged approach

Oversight

                                   to criminal investigations and law enforcement        for overseeing the Defense Contract Audit
                                   is one of the statutory responsibilities of the       Agency, which issues thousands of reports an-
                                   DoD IG, as provided for in the Inspector Gener-       nually on $368 billion in contracts worked on
                                   al Act of 1978, as amended. During the reporting      by over 3,600 auditors located in 300 field offices
                                   period, DoD IG signed two new issuances estab-        and sub-offices worldwide. DoD IG is monitor-
                                   lishing policies for conducting criminal investi-     ing DCAA audit quality and reviewing the effec-
                                   gations and updated another. The significance of      tiveness of DCAA’s new and improved Quality
                                   those policies is discussed below:                    Assurance Program. DoD IG has:
                                                                                         •	 Taken proactive steps to help DCAA more
                                   New issuance, “DoD Contractor Disclosure Pro-              appropriately structure its hotline and om-
                                   gram,” DoD Instruction 5505.15, June 16, 2010.             budsman functions and ensured that the
                                   This instruction establishes policies and outlines         DCAA Hotline is in compliance with the
                                   procedures for receiving, reporting, and investi-          independence requirements.
                                   gating contractor disclosures in connection with      •	 Completed the review of 50 DCAA audits
                                   the award, performance, or closeout of any DoD             for compliance with government audit-
                                   contract.                                                  ing standards and is issuing memoran-
                                   •	 This issuance is a major change to company              dums with action-based recommendations
                                        self-regulation that was initiated in response        for improvements. To date, the review has
                                        to a legislative change.                              shown a lack of improvement in the quality
                                   •	 Contractors are now required by the FAR to              of audit work performed by DCAA. Among
                                        disclose irregularities they discover in their        the top 10 audit quality issues were lack of
                                        contract performance to DoD IG.                       professional judgment; inadequate audit
                                                                                              planning, execution and documentation;
                                   New issuance, “Deoxyribonucleic Acid Col-                  lack of supervision; and DCAA policy not
                                   lection Requirements for Criminal Investiga-               complying with generally accepted govern-
                                   tions,” DoD Instruction 5505.14, May 27, 2010.             ment auditing standards.
                                   This Instruction establishes policy and outlines      •	 Met with DCAA officials to discuss the gen-
                                   procedures for submitting DNA samples to the               eral status of DCAA efforts to improve its
                                   U.S. Army Criminal Investigation Laboratory                work environment and audit quality, includ-
                                   for processing, and addresses from whom and                ing the multitude of hotline submissions on
                                   under what circumstance a sample must be col-              work environment issues. Issues include the
                                   lected and submitted.                                      existence of an abusive work environment
                                   •	 This issuance is a major change in criminal             and unfair treatment of personnel.
                                        investigations procedure initiated in re-        •	 Met multiple times with Government Ac-
                                        sponse to a legislative change.                       countability Office personnel on DCAA-
                                   •	 DNA is now collected upon arrest and im-                related hotline complaints received by GAO
                                        mediately put into a central database of the          from DCAA current and former staff mem-
                                        FBI, the Combined DNA Index System, for               bers. Additionally, DoD IG and the Chair-
                                        comparison with samples previously col-               man of the DCAA Oversight Committee,
                                        lected and associated with criminal investi-          established by the Under Secretary of De-
                                        gations.                                              fense (Comptroller), have met regularly.
                                   •	 This modified procedure should allow               •	 Sent DCAA Preliminary Results Memoran-
                                        quicker matches that will support the inves-          da and Notices of Concern, respectively, on
                                        tigative process.                                     subjects such as contractor’s Cost Account-
                                                                                              ing Standards Disclosure Statement and
                                                                                              languishing DCAA audit reports that could
                                                                                              result in millions of dollars in savings. One
                                                                                              PRM detailed 13 issues and made 53 recom-
                                                                                              mendations for corrective actions.

54 SEMIANNUAL REPORT TO THE CONGRESS
•	 The Council of Inspectors General on In-               a formal group. This group was formed to
     tegrity and Efficiency was statutorily es-
     tablished as an independent entity within
                                                          improve communications among the vari-
                                                          ous organizations in an environment that is              Activities

     the executive branch by the “The Inspector           in constant motion. On August 27, 2010, the
     General Reform Act of 2008,” to address              group issued a report, “Observations from
     integrity, economy, and effectiveness is-            Oversight Organizations Impacting Opera-
     sues that transcend individual government            tions Iraqi Freedom and Enduring Freedom
     agencies; and increase the professionalism           Beginning FY 2003 Through FY 2009.” Fur-
     and effectiveness of personnel by develop-           ther, another initiative of the group is to pro-
     ing policies, standards, and approaches to           vide their findings and recommendations to
     aid in the establishment of a well-trained           the commanders and civilian leaders in the
     and highly skilled workforce in the offices          theater as early in the oversight process as
     of the inspectors general. DoD IG is an ac-          possible to effect the changes required at its
     tive participant in the CIGIE, serving as a          earliest point. This commitment was made
     member of the CIGIE Executive Council; as            in order to ensure that the oversight find-
                                                                                                                  DoD IG outreach
     chair of the CIGIE Information Technology            ings and recommendations are relevant,
     Committee; and as Editor-in-Chief of the             timely, and actionable.                                 activities include
     CIGIE Journal of Public Inquiry. During         •	   As part of providing effective oversight and            chairing and
     this reporting period, areas of focus for the        outreach to DoD and other inspectors gen-               participating in several
     committee included: the impact of recom-             eral, DoD IG established the Guam Inter-                coordination groups
     mendations on accreditation of federal fo-           agency Planning Group. This group shares
                                                                                                                  and task forces as well
     rensic laboratories on digital evidence units        information about the status of Guam con-
     within the inspectors general community;             struction and discusses planned and ongo-               as providing training.
     the Trusted Internet Connections initiative;         ing oversight efforts. The group is made up
     and OMB reporting guidance for the Fed-              of representatives from the audit and investi-
     eral Information Security Management Act             gative community, as well as representatives
     of 2002.                                             from DoD and other federal departments
•	   The Defense Council on Integrity and Ef-             and agencies. The mission of the Guam IPG
     ficiency is patterned after the Council of           is to facilitate coordination and collabora-
     Inspectors General on Integrity and Effi-            tion among the oversight organizations in-
     ciency. The DCIE is chaired by the DoD IG            volved in the Guam realignment. The group
     and meets on a quarterly basis to discuss is-        coordinates planned audits and inspections
     sues of common interest, share information           as well as shares and disseminates informa-
     and best practices, and build closer working         tion that may be of interest to its members
     relationships among members of the over-             as appropriate. Within DoD, the Guam Joint
     sight community within the Department.               Planning Group is the working level group
     Key presentations and topics of discussion           to share information about the status of
                                                                                                                   DoD IG chairs the Southwest Asia Joint
     during the reporting period included: joint          Guam planned and ongoing oversight ef-                   Planning Group.
     IG training initiatives, Guam realignment            forts in the Department.
     oversight efforts, and an overview of the       •	   DCIS plays a significant role in the Interna-
     Defense Threat Reduction Agency and the              tional Contract Corruption Task Force. The
     office of the DTRA Inspector General.                task force is a multi-disciplinary and multi-
•	   As part of providing effective oversight and         agency coalition coordinating procurement
     outreach to the Department of Defense, the           fraud investigations. The task force was
     DoD IG Special Deputy Inspector General              formed to specifically target fraud and cor-
     for Southwest Asia chairs the Southwest              ruption involving Southwest Asia. The pri-
     Asia Joint Planning Group with over 30 sep-          mary goal of the task force is to combine the
     arate oversight organizations as members.            resources of multiple investigative agencies
     Although the members of the group com-               to effectively and efficiently investigate and
     municate with each other on a regular basis,         prosecute cases of contract fraud and pub-
     once a quarter these organizations meet as           lic corruption related to U.S. government

                                                                                                             APRIL 1, 2010 TO SEPTEMBER 30, 2010 55
Outreach



                                               spending in Iraq, Kuwait, and Afghani-                 ducted two courses during this reporting
                                               stan. Currently, DCIS designates 15 special            period with a total of 41 graduates. The joint
                                               agents deployed in theater to the mission of           IG guides (Concept and System, Assistance,
                                               the task force.                                        Inspections, and Investigations) were com-
                                          •	   On April 26, 2010, the Intellectual Prop-              pleted and serve as the basis for classroom
                                               erty Rights Center, which unites U.S. gov-             instruction. A prototype Case Tracking Sys-
                                               ernment agencies that combat intellectual              tem for deployed joint IGs was developed.
                                               property theft, welcomed three significant             This system, supplemented with various
Students are sworn in at the DoD Joint         new partners to the center: DCIS, NCIS,                joint IG publications, will comprise the de-
Inspector General Course.                      and the U.S. General Services Administra-              ployment package for Joint IGs.
                                               tion, Office of the Inspector General. DCIS       •	   DCIS is a member of the Major Crimes Task
                                               and NCIS are focused on the protection of              Force in Iraq. The MCTF’s mission sup-
                                               the U.S. military from counterfeit and sub-            ports capacity building efforts in which U.S.
                                               standard products, while GSA’s Office of In-           government special agents and attorneys
                                               spector General will focus on protecting the           advise and mentor government of Iraq po-
                                               federal civilian supply chain. DCIS joined             lice and judicial organizations. MCTF and
                                               ICE, Customs and Border Protection, the                Iraqi investigators continue to work closely
                                               FBI, the Department of Commerce, the                   together on investigative activities relating
                                               Food and Drug Administration, the Postal               to highly sensitive public corruption, con-
                                               Inspection Service, and the Government of              tract fraud, bribery and kickback, kidnap-
                                               Mexico Tax Administrative Service in this              ping, murder, and terrorism investigations.
                                               new effort to provide focus in the battle         •	   DCIS is also assigned as a member of Task
                                               against counterfeit products.                          Force 2010 in Afghanistan and continues to
                                          •	   The DCIS Asset Forfeiture Program contin-              work with other mission partners such as
                                               ues to effectively provide forfeiture support          DHS, SIGAR, FBI, and Afghan investiga-
                                               to DCIS investigations. Since the start of the         tors in an effort to develop greater visibility
                                               program in May 2007, DCIS has partici-                 of the flow of contracting funds below the
                                               pated in the seizure of assets totaling $523.6         prime contractor level in order to better
                                               million. During the six-month reporting                employ contracting in support of counter-
                                               period, DCIS participated in investigations            insurgency operations.
                                               which led to court orders of final forfeiture     •	   The DCIS Homeland Security/Terrorism
DCIS and other agencies display federal        in the amount of $3.8 million. As of Septem-           Program continues to participate in the
asset forfeiture sharing checks.
                                               ber 2010, DCIS has participated in investi-            Joint Terrorism Task Forces throughout
                                               gations which led to order of final forfeiture         the country. DCIS currently staffs approxi-
                                               in the amount of $287.9 million, of which              mately 38 JTTFs on a full-time or part-time
                                               $223 million in currency, real property, and           basis. Additionally, a full-time DCIS repre-
                                               vehicles have been seized and forfeited.               sentative is assigned to the National Joint
                                          •	   DoD IG provided IG Subpoena Process                    Terrorism Task Force located at the Na-
                                               Training and covered possible uses in sup-             tional Counterterrorism Center, McLean,
                                               port of ongoing audits and investigations.             Va. The mission of the JTTF is to detect,
                                               This training was provided to 958 investi-             prevent, and respond to domestic and inter-
                                               gative, audit, and evaluator staff members             national terrorist organizations.
                                               from internal components of DoD IG, as            •	   DCIS continues to support the Weapons
                                               well as to 306 special agents through in-              Investigative Cell, which continues to pur-
                                               struction in 18 MCIO courses.                          sue investigative leads concerning weap-
                                          •	   The Joint IG Activities Office serves as the           ons accountability in Iraq. The WIC works
                                               liaison to interface with joint IGs worldwide          with government of Iraq officials to conduct
                                               and other federal agencies as it relates to            weapons and munitions accountability in-
                                               joint IG training, joint IG publications, staff        vestigations.
                                               assistance, and information technology. The
                                               DoD Joint Inspector General Program con-

56 SEMIANNUAL REPORT TO THE CONGRESS
            4


Services

Services



                                   Army Audit Agency                                      institutional training mission. USAAA found

Army
                              To accomplish its mission, U.S. Army Audit
                                   Agency relies on a work force of highly trained
                                                                                          that the equations used to calculate specific
                                                                                          training instructor requirements have not been
                                                                                          updated for approximately 10 years and did
                                   professional auditors, many with advanced              not consider current workload, resulting in
                                   degrees and professional certifications. USAAA’s       understated requirements. Demands on training
                                   staff consists of approximately 600 employees          instructors increased due to additional student
                                   and is organized into 17 functional audit teams        load resulting from Grow the Army, the reduced
                                   that provide audit support to all aspects of Army      staffing of training developers and support
                                   operations.                                            personnel, ongoing contingency requirements,
                                                                                          and delays in receipt of resources for emerging
                                   USAAA also maintains a significant presence in         training requirements. Also, the methodology
                                   the U.S. Central Command area of responsibility        and models used to determine requirements for
                                   assisting Army commanders. At the end of               training developers and support personnel were
                                   September 2010, it had 36 deployed auditors in         not based on accurate workload, and significant
                                   Iraq, Kuwait, and Afghanistan. Overall, USAAA          staffing shortages existed for both functions. As
                                   has deployed over 150 auditors since 2002 and          a result, recommended instructors-to-student
                                   issued more than 100 reports on Operation              ratios were exceeded with less emphasis on
                                   Enduring Freedom/Operation Iraqi Freedom.              leadership training, which impacted training
USAAA conducted an audit of the                                                           quality. USAAA made recommendations
Foreign Military Sales process.    USAAA’s goal is to be a highly sought after and        to improve the requirements determination
                                   integral part of the Army by providing timely          processes for training instructors, developers,
                                   and valued services that improve the Army by           and support personnel that will help the Army
                                   performing the right audits at the right time and      generate more accurate personnel requirements.
                                   achieving desired results. To ensure its audits        Report No. A-2010-0149-FFS
                                   are relevant to the needs of the Army, USAAA
                                   prepared its Strategic Audit Plan to align its audit   Readiness of Modular Units - U.S. Army
                                   resources with the Army’s four imperatives:            Reserve
                                   • 	 Sustain the Army’s soldiers, families, and         USAAA reviewed whether U.S. Army Reserve
                                        civilians.                                        modular units had the skilled personnel and
                                   • 	 Prepare soldiers, units, and equipment to          equipment necessary to fulfill their operational
                                        succeed in complex 21st century security          mission. USAAA found that the units reviewed
                                        environments.                                     had skilled personnel shortages and fill rates
                                   • 	 Reset forces and rebuild readiness for future      below targets. This occurred because units were
                                        deployments and contingencies.                    accelerated through modular transformation
                                   • 	 Transform and meet the needs of combatant          during the current operating tempo. This resulted
                                        commanders.                                       in the units having to cross-level personnel from
                                                                                          other units to mobilize and deploy. USAAA
                                   During the second half of FY 2010, USAAA               made recommendations to improve the skilled
                                   published over 100 reports, made over 300              personnel shortages and ensure unit readiness
                                   recommendations, and identified over $500              prior to deployment.
                                   million of potential monetary benefits. A few of       Report No. A-2010-0157-FFS (FOUO)
                                   USAAA’s significant reports are described in the
                                   following paragraphs:                                  Foreign Military Sales Process for Iraq and
                                                                                          Afghanistan, U.S. Army Security Assistance
                                   Table of Distribution and Allowances                   Command
                                   Workforce - Institutional Training                     USAAA reported that the Foreign Military
                                   USAAA evaluated the Army’s requirements                Sales process was generally adequate to acquire
                                   for and staffing of training instructors, training     equipment and services for Afghanistan security
                                   developers, and training support personnel             forces. However, equipment for Iraqi forces
                                   and whether they were sufficient to meet the           was primarily acquired outside of the FMS

58 SEMIANNUAL REPORT TO THE CONGRESS
process. The peacetime FMS process was not          Army Strategy for Establishing, Sustaining, and            “USAAA reported that
effective, and the Army did not have a formal       Transitioning Non-Traditional Installations                procedures and con-
FMS plan to meet contingency requirements           USAAA reported the Army lacked an overall
                                                                                                               trols were in place to
for supporting Iraq and Afghanistan. The Iraq       strategy to establish, sustain, and transition
Transition Command asked for and received           non-traditional installations, and its soldiers no         ensure only properly
“direct procurement authority” and used the         longer possessed the skills to properly manage             screened personnel
authority to bypass the FMS process. The            base camps in deployed environments. It also               received installation
Army has taken steps to improve the peacetime       reported (1) the Army did not implement the                passes.”
process and estimates that about 95 percent of      strategic goals it established for NTIs and did not
the equipment delivered to Iraq and Afghanistan     have a proponent for NTIs; (2) transformation
was Army managed equipment. The Army has an         and force structure changes resulted in an
opportunity to influence the process by working     engineering capability gap; and (3) doctrine
with the DoD task force and a Presidential Blue     and training did not evolve with the changes
Ribbon interagency task force established to        resulting from Army transformation. These
study and recommend improvements to security        actions reduced expertise available to units
assistance processes.                               and negatively affected operations in deployed
Report No. A-2010-0094-ALA                          environments, and led to an overreliance on
                                                    contractors. The Under Secretary of the Army
Management and Use of Ground Combat                 agreed with the report and appointed proponent
System Training Aids, Devices, Simulators, and      offices to develop a strategy to improve
Simulations                                         management of NTI and reduce environmental,
USAAA reviewed how the Army acquired,               safety, and health incidents and overreliance
fielded, used, and divested Ground Combat           on contractors. The proponent offices will
System TADSS. USAAA determined the Army             synchronize and resource ongoing and future
used best business practices to identify training   initiatives to address issues affecting operations
gaps and prioritized TADSS fieldings to mitigate    and personnel.
those gaps. The Army analyzed the Army              Report No. A-2010-0084-ALE (FOUO)
Campaign Plan, the Grow the Army Initiative,
training plans, and the Mission Essential           Installation Pass Procedures in Europe, U.S.
Requirements process. It then reallocated           Army Installation Management Command,
resources to put existing TADSS at the most         Europe Region
critical sites and supplemented them with new       USAAA reported that procedures and
acquisitions. Installations were pleased with       controls were in place to ensure only properly
the TADSS they received but concluded that          screened personnel received installation
requirements for personnel and facilities were      passes. Installation Access Control Office
understated. This occurred because the Army         generally required sponsoring activities to
did not perform Training Effectiveness Analyses     justify applicants’ need for installation access,
and Post Fielding Training Effectiveness            sign-in privileges, and day and time access.
Analyses, important controls in the acquisition     Some controls, however, could be improved.
process. These analyses would have shown if         Specifically, IACOs did not verify completion
the Army was getting the costs and benefits it      of background checks or retain copies of some
expected. Therefore, the Army did not know          application packets reviewed. Additionally,
if the requirements were accurate. USAAA            IACOs and sponsoring activities did not perform
made recommendations to improve controls            reconciliations to ensure only pass holders with a
over estimating and funding requirements for        continued need were allowed access to garrisons.
personnel and facilities. The Army agreed with      As a result, garrisons accepted a higher security
the recommendations or provided alternatives        risk for individuals entering installations.
that met the intent of the recommendations.         IMCOM Headquarters concurred with the
Report No. A-2010-0180-ALA                          audit conclusions and recommendations, and
                                                    implemented improvements to procedures
                                                    and controls to ensure only properly screened

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 59
Services



                                    personnel received installation passes for           other requirements. The Army agreed with
                                    garrisons in Germany.                                the recommendations and could save about
                                    Report No. A-2010-0139-ALE (FOUO)                    $22 million over six years by taking corrective
                                                                                         actions to reduce excess dormant.
                                    Sustainment of Nonstandard Equipment                 Report No. A-2010-0089-ALR and A-2010-
                                    USAAA evaluated the Army’s method of                 0183-ALR
                                    sustaining its tactical nonstandard equipment
                                    and found that although the Army took some           Follow-up Audit of Inventory Accountability
                                    critical steps to improve sustainment for some       and Stockage Levels, Tobyhanna Army Depot
                                    of its tactical nonstandard equipment, it did not    USAAA performed this follow-up audit to
                                    have the needed processes in place to determine      assess the actions taken in response to eight
                                    sustainment strategies. As a result, planners        recommendations addressed to Tobyhanna
                                    overstated sustainment requirements for one          Army Depot in two prior reports: Inventory
                                    item which resulted in $12.8 million of potential    Accountability and Inventory Stockage Levels.
                                    cost savings. USAAA also determined that Army        The original audits identified problems with
                                    visibility systems did not provide managers          performing inventories and maintaining
                                    reliable information to plan for sustainment and     accurate accountable records for materiel stored
                                    disposition, because the disposition process did     at the depot, and making sure cost-effective
                                    not include all the items with on-hand quantities    procedures were used to purchase and store
                                    in Southwest Asia. Further, the Army had at least    material.
                                    $919 million of tactical NSE outside Southwest
                                    Asia without future disposition plans. Lack of       USAAA concluded that the depot implemented
                                    disposition instructions increased the risk of       five recommendations, and the actions taken
                                    unnecessarily repairing or purchasing additional     corrected the problems the original audit
                                    tactical NSE. USAAA made recommendations             identified. The depot partially implemented
                                    to improve oversight of all Army tactical NSE.       the other three recommendations. USAAA
                                    The Army agreed with the recommendations or          reported that Tobyhanna Army Depot: (1)
                                    provided alternatives that met the intent of the     improved procedures for the inventory process;
                                    recommendations, and began taking corrective         however, not all items were inventoried and
                                    actions during the audit.                            location survey procedures excluded reported
                                    Report No. A-2010-0160-ALM (FOUO)                    empty locations; and (2) improved procedures
                                                                                         for monitoring, reviewing, and turning in some
                                    Dormant Stock                                        excess items, resulting in realized monetary
                                    USAAA performed several audits to evaluate           benefits of $21 million ($19.8 million more than
                                    the Army’s actions to identify, review, and          the $1.2 million identified in the original audit).
                                    reduce dormant stock—defined as on-hand              Report No. A-2010-0146-ALR
                                    items without activity in five years. USAAA
                                    conducted audits at U.S. Army TACOM Life             Cellular Telephone Management, U.S. Army
                                    Cycle Management Command and U.S. Army               Installation Management Command
                                    Aviation and Missile Life Cycle Management           USAAA performed a series of audits on cellular
                                    Command. USAAA reported that the activities          telephone management. It evaluated the
                                    identified about 22,000 line items of dormant        practices used to manage cellular telephones
                                    stock (valued at about $3.6 billion). However, the   and BlackBerry devices by activities at U.S.
                                    activities did not review approximately 14,000       Army Training and Doctrine Command, U.S.
                                    line items (valued at about $3.2 billion) because    Army Forces Command, U.S. Army Installation
                                    they did not have effective supervisory controls     Management Command, and U.S. Army
USAAA evaluated practices used to
manage BlackBerry devices.          in place to make sure command personnel              Accessions Command. USAAA reviewed
                                    complied with the review requirements. USAAA         controls at all levels over procuring, accounting
                                    made recommendations to improve supervisory          for, and using the devices.
                                    controls over reviews of dormant stock and                     In the IMCOM report, USAAA
                                    disposal or use of identified dormant stock for      concluded that command activities adequately

60 SEMIANNUAL REPORT TO THE CONGRESS
accounted for their cellular devices and had         American Recovery and Reinvestment Act
effective controls to prevent users from adding      USAAA continued to perform Phase II audits in
unauthorized services or features such as ring       support of the DoD IG mandated requirement
tones. However, activities did not effectively       to provide oversight of DoD Recovery Act plans
monitor usage and incurred unnecessary costs.        and implementation. Phase II efforts focused on
Overall, about 18 percent of cellular devices        determining whether the Army implemented
reviewed had minimal or no monthly usage for         the American Recovery and Reinvestment Act
two or more consecutive months, making them          of 2009 in accordance with the requirements
candidates for suspended service. Telephone          of the Act, OMB guidance, and subsequent
control officers at all levels are responsible for   related guidance. Specifically, USAAA assessed
continual management and control of cellular         the planning, funding, project execution,
telephone billings. Improved procedures to allow     and tracking and reporting of Recovery Act
these officers to suspend service for minimal        projects to ensure the Army’s efforts facilitated
users could result in savings of about $89,400       accountability, transparency, and the other goals
per year. The savings could be even greater if       of the Act.
similar practices were instituted at all command
activities.                                          USAAA’s Phase II completed efforts include
Report No. A-2010-0130-FFI                           Active Army and National Guard Facilities,
                                                     Sustainment, Restoration and Modernization
Resources for the Global Network Enterprise          projects for barracks, energy, utilities, pavements,
Construct                                            operations, quality of life, military construction
USAAA determined whether the Army                    of a Child Development Center, and a Defense
had enough visibility over common-user               Health FSRM project. Overall, it found that
information technology expenditures to enable        the Army properly planned, funded, executed,
it to fully identify resource requirements for       and tracked and reported the projects reviewed
the 2012 program objective memorandum.               as stipulated in the Act and related guidance.
                                                                                                                 “USAAA continued to
USAAA reported that the Army does not                However, some installations and National Guard              perform Phase II audits
have sufficient visibility over expenditures for     sites did not (1) have properly documented                  in support of the DoD
common-user information technology services          project justification; (2) include some of the              IG mandated require-
to fully identify resource requirements. In          applicable award terms and clauses in contract              ment to provide over-
FYs 2007-2008, the Army executed about 54            documents; and (3) properly post some of the
percent more than was funded for common-             required notices on public Web sites. These
                                                                                                                 sight of DoD Recovery
user IT services. This occurred because alternate    conditions primarily occurred because the sites             Act plans and imple-
funding sources, such as reimbursable orders,        were not maintaining sufficient documentation               mentation.”
funding reassignments, and other funds were          to justify the need for projects, and contracting
used to supplement common-user IT service            personnel used existing contracts that had been
funding. Based on USAAA’s observation of             awarded prior to the Recovery Act without
the FYs 12-17 POM requirements review, this          modifications.
shortfall will continue. This is because funding
reassignments, orders for reimbursable services,     Additionally, USAAA reported that, at National
and IT expenditures by installation tenants          Guard sites, contracts awarded by state
are not considered recurring common-user             contracting personnel through a special military
IT expenses. Recommended funding from the            cooperative agreement were not fully transparent
requirements review was $123 million less than       to the public. This primarily occurred because
what the Army executed, on average, during           the National Guard did not update the special
FYs 2006 to 2008. If network enterprise centers      military cooperative agreement template to
are not funded sufficiently, this will impede the    include some of the necessary terms to ensure
Army’s implementation of the Global Network          that all Recovery Act requirements flowed down
Enterprise Construct. The Army agreed with the       to contracts awarded by the states. USAAA
conclusions and recommendations.                     determined that this would likely be an issue
Report No. A-2010-0128-FFI (FOUO)                    for all National Guard Recovery Act contracts

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 61
Services



                                        awarded by the states because the Headquarters,      services consistently understated forecasts
                                        National Guard provided the template for the         of stockpile additions. As a result, the DoD
                                        special military agreement. The National Guard       stockpile of obsolete, excess, and unserviceable
                                        needs to update the template to include language     conventional        ammunition            awaiting
                                        that ensures that Recovery Act contracts awarded     demilitarization grew to over 557,000 tons as of
                                        by the states meet all of the requirements of the    March 2009, representing a $1 billion liability.
                                        Act. USAAA and DoD IG have discussed the             Based on recent growth rates and current
                                        matter with the National Guard Bureau, and           funding processes, USAAA estimated the
“The Army spends over                   USAAA will issue a summary report related to         stockpile could exceed 1.1 million tons in another
$62 million annually                    the issue.                                           15 years—representing a $2.8 billion liability.
                                                                                             USAAA made several recommendations to the
in operating costs for
                                        USAAA made recommendations that will                 Army to improve the estimate of the funding
water-related services                  increase the accuracy of information reported        requirements needed to perform its conventional
at its activities. Con-                 on the Federal Business Opportunities Web            ammunition demilitarization mission. The
serving water resourc-                  site, the Federal Procurement Data System-           Army agreed with the recommendations and
es, even by a small                     Next Generation, and the Federal Reporting and       took an alternative course of action for another.
                                        Recovery Web sites and ensure that Army actions      Collectively, the Army’s actions should reduce
amount, can translate
                                        are fully transparent to the public. In response     the stockpile over time and reduce costs for
into helping the Army                   to USAAA recommendations, contracting                storage and demilitarization by about $460.7
protect its military                    personnel took immediate corrective action to        million through FY 2025.
activities and soldiers                 add required Federal Acquisition Regulation          Report No. A-2010-0134-FFE
against vulnerability to                clauses to existing contracts that were awarded
                                        prior to the Recovery Act, and to retain all         Water Conservation Resources
this critical resource.”
                                        relevant documentation in contract files for ease    The Army spends over $62 million annually
                                        of tracking.                                         in operating costs for water-related services at
                                        Report Nos. A-2010-0073-ALO; A-2010-0092-            its activities. Conserving water resources, even
                                        ALR; A-2010-0102-ALR; A-2010-0116-ALR;               by a small amount, can translate into helping
                                        A-2010-0123-FFE; A-2010-0127-FFE; and                the Army protect its military activities and
                                        A-2010-0140-ALO                                      soldiers against vulnerability to this critical
                                                                                             resource. USAAA reported that the Army took
                                        Funding Requirements for the Conventional            some sufficient measures to implement low/no-
                                        Ammunition Demilitarization Program                  cost water conservation practices to conserve
                                        In 1975, DoD designated the Army as the single       water resources. However, many activities
                                        manager for conventional ammunition making           did not complete water management plans
                                        the Army responsible for the conventional            and conduct water audits as required because
                                        ammunition demilitarization of all of DoD’s          the activities and their headquarters did not
                                        excess, obsolete, and unserviceable ammunition.      have the necessary resources or emphasize the
                                        USAAA performed this audit to determine              plan’s importance, and the Army’s guidance for
                                        whether the Army reasonably estimated                conducting reviews was not fully effective. Also,
                                        the funding required for demilitarizing and          the Army’s Energy Security Implementation
                                        disposing the Military Services’ excess, obsolete,   Strategy, which is new, needs to ensure that
                                        and unserviceable conventional ammunition            it creates a culture of accountability for water
                                        items.                                               conservation and effectively includes goals to
                                                                                             reduce water consumption.
                                        USAAA reported that since 1994, the Army
                                        significantly underestimated the funding             Additionally, the Army reported in its annual
                                        requirements needed to perform its joint             Energy and Water Management Report to DoD
                                        conventional ammunition demilitarization             and Congress that it met FY 2008’s federally
                                        mission primarily because program officials          mandated goal and reduced water intensity by
                                        generally believed storage was cheaper than          6.2 percent. However, we found the Army’s water
                                        destruction in the near term, and the military       intensity increased by 1.8 percent rather than

 62 SEMIANNUAL REPORT TO THE CONGRESS
decreased by the mandated 2 percent reduction          their infrastructure support budget for facilities
goal established by federal law. USAAA made            in poor or failing condition. USAAA made
several recommendations to improve the Army’s          recommendations to issue clarifying guidance
ability to meet federal laws and goals established     on the definition of sustainment, restoration,
to reduce water consumption. The Army agreed           and modernization and when to execute each;
with the recommendations and stated it took or         to follow a consistent process that emphasizes
would take corrective actions.                         prioritizing and funding infrastructure
Report No. A-2010-0158-FFE                             requirements based on the condition of the
                                                       facilities; and to establish guidance on roles             USAAA conducted an audit of real
Real Property Sustainment, Restoration, and            and responsibilities of garrisons and tenant               property sustainment.

Modernization                                          organizations for infrastructure support of real
The Army’s real property included about 256,000        property. These actions should help lower the risk
buildings and structures (facilities) worth about      of further deterioration of lower-rated facilities
$264 billion, or over 37 percent of the total DoD      that will require significant investment to repair
value. During FYs 2005 to 2008, the Army spent         or replace. In addition, this should enhance the
about $2.5 billion each year to maintain, repair,      Army’s management of available resources, and
and alter its facilities. These improvements           potentially put to better use almost $900 million
are called sustainment, restoration, and               for infrastructure support requirements over the
modernization or, collectively, infrastructure         next six years.
support.                                               Report No.: A-2010-0121-ALO

However, the Army has continually underfunded          Disposal of Army Equipment and Material Into
its sustainment requirement and encountered            Defense Reutilization and Marketing Office
a backlog of restoration and modernization             Sites in Iraq, United States Forces – Iraq
projects. This could have far-reaching impacts         USAAA conducted this audit at the request of the
on mission-critical facilities soldiers need. Due      director, U.S. Forces-Iraq. USAAA reported that
in part to the impact on more critical Army            units generally supported the drawdown mission
programs and the funding challenges the Army           by disposing of unserviceable and non-reparable
faced, the Government Accountability Office            items at DRMO sites. However, two issues needed
has classified DoD infrastructure support as           immediate attention: (1) the Standard Army
a high-risk area since 1997. During FYs 2007           Retail Supply System at supply support activities
to 2008, the Army increased its investment of          in Iraq routed all DRMO-bound shipments to
restoration and modernization as compared to           the Balad DRMO instead of the nearest DRMO;
sustainment. As a result, the Army realized an         and (2) unit personnel sometimes were not aware
overall improvement in its facility conditions.        of disposal requirements or proper disposition
During the audit, USAAA visited four garrisons:        procedures for equipment and materials. In
Forts Campbell, Huachuca, Indiantown Gap,              response to our periodic updates during the
and McCoy. The condition of facilities at these        audit, J4 officials made changes to their disposal
garrisons reflected this improvement.                  processes and corrected the problems identified.
                                                       Moreover, during the audit, USAAA validated
USAAA focused its efforts on evaluating                that corrective actions taken fixed the reported
Army’s management of infrastructure support            conditions.
requirements to determine if there was a               Report No. A-2010-0171-ALL
correlation between funds spent and facility
conditions. USAAA determined that Army                 Contracting Operations, Joint Contracting
garrisons did not manage their Operation and           Command-Iraq/Afghanistan; Kandahar,
Maintenance-funded infrastructure support              Jalalabad, and Salerno Regional Contracting
requirements using facility physical quality           Centers, Afghanistan
ratings or current known status of their facilities.   USAAA performed this series of audits at the
During FYs 2005 to 2008 the four garrisons             request of the commander, JCC-I/A. USAAA
we reviewed spent only about three percent of          reported that, although the regional contracting

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 63
Services



                                        centers were successfully accomplishing their      challenge the claims data the carrier used to
                                        contracting missions by awarding contracts         negotiate higher rates. Also, the Corps was
                                        in a timely manner to meet customer needs,         in a difficult position to negotiate lower rates
                                        some contracts awarded in FY 2008 and the          because only one carrier was willing to provide
                                        first quarter of FY 2009 were not properly         the insurance under a centralized program. As a
                                        justified, awarded, or administered. Issues in     result of the audit, the Corps was able to reduce
                                        these areas occurred because (1) requiring         the rates contractors paid for DBA insurance
                                        activities and the contracting centers were not    when it renegotiated rates for the option periods
                                        sufficiently performing short-, mid-, and long-    under the permanent program contract.
                                        term planning; (2) requiring activities did not    Report No. A-2010-0152-ALL
                                        have sufficient organizational structures and
                                        procedures in place to develop high-quality        Controls Over Vendor Payments - Southwest
                                        contract requirements and properly monitor         Asia (Phase II), Kuwait and Qatar
                                        contractor performance; and (3) the high           USAAA performed this audit at the request of
“...in spite of actions                 operational tempo environment and other            the assistant secretary of the Army (Financial
taken, USAAA found                      challenges led to more emphasis being placed       Management and Comptroller). USAAA
vendor payments did                     on awarding contracts than on developing           reported that finance and storefront offices
not meet the minimum                    sound contract requirements, monitoring            within Kuwait and Qatar took numerous actions
                                        contractor performance, and performing other       to address the Army’s material weakness relating
criteria to determine
                                        administrative functions. These audits assisted    to the lack of a proper audit trail for commercial
if payments were valid                  the Joint Contracting Command in identifying       payments in a contingency environment.
and fully supported.”                   and correcting internal control weaknesses, and    However, in spite of actions taken, USAAA
                                        instituting better contracting practices within    found vendor payments did not meet the
                                        Afghanistan. U.S. Central Command agreed with      minimum criteria to determine if payments were
                                        the audit conclusions and recommendations.         valid and fully supported. Furthermore, USAAA
                                        Report Nos. A 2010-0135-ALL; A-2010-0196-          found additional improvements were needed
                                        ALL; and A-2010-0198-ALL (FOUO)                    to address the integrity of the automated audit
                                                                                           trail because (1) not all units received adequate
                                        Pilot Program for Defense Base Act Insurance,      predeployment and onsite training; (2) working
                                        U.S. Army Corps of Engineers                       relationships and initiatives between activities
                                        The Assistant Secretary of the Army Acquisition,   in the fiscal triad were not fully synchronized;
                                        Logistics and Technology and the U.S. Army         and (3) command sometimes did not enforce
                                        Corps of Engineers requested this audit            regulatory guidance or include processes in the
                                        based on congressional interest over the           internal control program to effectively monitor
                                        Corps’ attempt to implement a centralized          operations. This audit raised awareness of the
                                        program for DBA insurance. USAAA found             lack of sufficient visibility and oversight of
                                        that the centralized concept was conducive         vendor payments to ensure entitlements and
                                        to providing more affordable coverage to and       disbursements were accurate.
                                        increasing participation of smaller contractors    Report No. A-2010-0126-ALL (FOUO)
                                        on Corps projects, and increasing contractor
                                        awareness and compliance with DBA insurance        Commander’s Emergency Response Program,
                                        requirements. The program also initially           Multi-National Force - Iraq, Summary Report
                                        appeared to achieve savings when compared          USAAA conducted this audit at the request
                                        with rates some contractors paid before the        of commander, Multi-National Force-Iraq.
                                        start of the program. However, as the program      USAAA reported, based on reviews of 310
                                        progressed into its final stages and converted     projects valued at $68.2 million, that internal
                                        over to a permanent program, the cost of           controls were in place to ensure commanders
                                        the insurance increased significantly which        in Iraq implemented the program properly,
                                        adversely affected the cost-effectiveness of the   to include CERP guidance contained in the
                                        centralized program. USAAA concluded this          Multi-National Corps-Iraq CJ8 Money As
                                        occurred because the Corps did not sufficiently    A Weapon System set of standard operating

 64 SEMIANNUAL REPORT TO THE CONGRESS
procedures. However, issues existed with the         new investigations. In spite of the demanding
application of CERP guidance to include some         case load, Army CID maintains a solve rate of
instances of incomplete project files, approved      over 98 percent for drug crimes; 95 percent for
projects that may have fallen outside CERP           violent crimes; and 91 percent for economic
criteria, and insufficient statements of work.       crimes, all nearly twice the national average. Its
These issues occurred primarily because of           solve rate of 65 percent for general crimes is over
shortfalls in the training and experience level of   four times the national average.1 As a result of
personnel performing the fund’s management,          the successful resolution of investigations, Army
oversight, and execution actions. This audit         CID has generated more than $50 million in                  Secretary of Defense escorted by
contributed to the success of GWOT relative to       recoveries during this reporting period.                    special agents of Army CID’s Protective
                                                                                                                 Services Battalion.
the audit’s influence over framing and firming
policy over the military’s execution of CERP         The U.S. Army Protective Services Battalion
dollars in Southwest Asia. Specifically, the audit   provides continuous worldwide executive
influenced the development of improvements           protection for designated senior DoD, Joint
to institutional training and pre-deployment         Chiefs of Staff, and Department of the Army
coordination to ensure key CERP personnel            officials and their foreign counterparts on
were trained to Army standards on their              sponsored senior foreign official visits to the
responsibilities before deployment so they could     United States. It also continues to deploy special
efficiently support operational objectives and       agents to Afghanistan, Iraq, and Kuwait to lead
to minimize the risk of fraud, waste, or abuse.      protective services details for senior U.S. combat
In addition, the success of the audit translated     commanders.
into a request to conduct a baseline review of the
execution of the program in Afghanistan, which       The Army CID Computer Crime Investigative
USAAA will report on in FY 2011. The Office          Unit continues its support to the president’s
of the Deputy Chief of Staff, G-3/5/7 and the        comprehensive national cybersecurity initiative
commander, Multi-National Force-Iraq stated          and the emerging U.S. Cyber Command by
actions had been or would be taken to address        aggressively investigating intrusions and related
the recommendations in the report.                   malicious activities targeting Army computer
Report No. A-2010-0097-ALL (FOUO)                    networks. In partnership with the Army chief
                                                     information officer, the CCIU conducts proactive
                                                     vulnerability assessments to identify and
Army Criminal                                        remediate vulnerabilities before cyber criminals
                                                     or other adversaries can access or damage
Investigation Command                                Army systems. During this reporting period,
                                                     CCIU’s vulnerability assessment program
                                                     identified $55 million in cost avoidance to the
Significant Activities                               Army. Following the mandatory remediation
Army CID is a combat-ready organization              of these vulnerabilities, no computer network
dedicated to providing the U.S. Army critical        compromises occurred at assessed installations
investigative support, actionable criminal           for the remainder of this reporting period.
intelligence, logistics security, and protective
services around the globe. It continues to have      The Major Procurement Fraud Unit continues
more than 150 agents and support personnel           to lead Army CID’s fight against fraud and
forward-deployed in support of ongoing               corruption. It is a founding member of the
contingency operations in Kuwait, Iraq, and          International Contract Corruption Task
Afghanistan.                                         Force, and continues working in conjunction
                                                     with member agencies that include DCIS,
Since April 2010, Army CID has generated a           DoS, FBI, SIGIR, and USAID, under the DOJ
report of investigation every hour, on average,      International Contract Corruption Initiative.
in response to reports of violent, general,          With five forward operating investigative offices
economic, and drug crimes, totaling over 3,600
                                                     1 The 2008 Uniform Crime Report

                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 65
Services



                                       in Afghanistan, Kuwait and Iraq, the focus is on    Fiscal year 2010 was a year of major achievements
                                       contingency fund contractual fraud involving        and transitions for the USACIL. Due to massive
                                       overseas contingency operations and in support      increases in requirements to forensically
                                       of military operations under OEF, OIF, and          support warfighter operations overseas in OIF/
                                       Operation New Dawn. MPFU is an active               OEF, USACIL significantly altered its mission
                                       investigative partner assisting contracting and     and organization, and substantially grew in
                                       audit agencies in both the Host Nation Trucking     both personnel and resources. In particular, FY
                                       Task Force and Task Force 2010 in Afghanistan.      2010 saw significant requirements to provide
                                       MPFU accomplishments since April 2010               deployable laboratories and reach-back forensic
                                       include initiating 71 investigations with $37.4     support to warfighter operations, and major
                                       million in total recoveries and an additional       initiatives in specialized forensic training and
                                       $2.5 million identified as cost avoidance. Of       forensic science and technology.
                                       those, specifically attributable to its Overseas
                                       Contingency Operations, MPFU and the ICCTF          USACIL, as executive manager for DoD’s
                                       initiated 16 investigations and realized $32.5      program to upload convicted offender DNA
                                       million in fines and restitutions.                  profiles into the FBI’s Combined DNA Index
                                                                                           System database, recently expanded its
                                       In April 2010, the Secretary of the Army’s          capabilities to include profiles for (1) military
                                       program “I Am Strong,” which is geared towards      arrestees; and (2) non-U.S. person detainees to
                                       eliminating sexual assaults, entered Phase II,      the National DNA Index System. The goal of
An Army CID special agent performing
                                       the Army-wide buy-in. To foster the program’s       the arrestee expansion is to obtain the samples
a computer forensic examination.       success, Army CID trained 27 sexual assault         while the case at hand is still under investigation.
                                       investigation experts and strategically placed      Experience has shown that due to recidivism, a
                                       them around the world. These investigators          database of arrestee profiles will significantly
                                       augment existing Army CID agents and                aid ongoing investigations. This added mission
                                       assumed a leadership role in forming special        is estimated to increase workload from
                                       victim investigative units at each location and     approximately 5,000 samples to 40,000 samples
                                       building Army CID centers of excellence in          per year.
                                       sexual assault investigations. These centers are
                                       becoming the training grounds for all agents        Working with the Army Detainee Operations
                                       to facilitate improved investigations into sexual   Center, USACIL created a new DNA collection
                                       assault and accountability for offenders. To        kit for use in obtaining DNA from all non-U.S.
                                       further increase training and effectiveness,        persons with an Internment Control Number
                                       Army CID hired seven experts in the field of        detained by the U.S. military. These DNA profiles
                                       sexual assault investigations and assigned them     will be added to the newly created Detainee Index
                                       to regional office headquarters, the U.S. Army      in NDIS. Additionally, these samples will allow a
                                       Criminal Investigation Laboratory, and the U.S.     comparison with other DNA samples collected
                                       Army Military Police School (whose mission is       at borders and other locations to help enhance
                                       to train agents). In conjunction with USAMPS,       homeland security. USACIL is prepared for the
                                       Army CID has initiated a new two-week training      dramatic increased workload in DNA processing
                                       course aimed at teaching the best practices in      expected to arise from the implementation of
                                       sexual assault investigations, taught by both in-   DoD Instruction 5505.14. Actions taken in 2010
                                       house and outside experts brought in as guest       to support this increase include:
                                       lecturers. Integrating subject matter experts       • 	 Laboratory automation was increased,
                                       into Army CID sexual assault investigative               quadrupling the throughput capacity of the
                                       operations has contributed to a six percent              genetic analyzers.
                                       increase in solved investigations over the past     • 	 An automated punch system was brought
                                       two fiscal years.                                        online to remove a small portion of each
                                                                                                sample from the paper card that holds the
                                                                                                DNA.
                                                                                           • 	 The extraction process was automated by

66 SEMIANNUAL REPORT TO THE CONGRESS
    implementing a robotic liquid handling           for future items of investigative interest for use
    system, performing a process that was            by case agents, analysts, and attorneys.
    previously labor intensive.
                                                     Army CID continues to manage the ongoing Law
Expeditionary Forensics Division personnel           Enforcement Program which supports both the
concluded a highly successful mission                Army and Marine Corps in Iraq and Afghanistan
supporting the Joint Expeditionary Forensic          by advising, assisting, mentoring, and training
Facility in Afghanistan. Since January 2010, JEFF    in planning and executing law enforcement-
processed more than 11,000 items of forensic         related missions, as well as by supporting those
material collected on the battlefield related to     U.S. Forces responsible for training host nation          “USACIL recently cre-
anti-coalition activity. The examinations resulted   security forces. During this reporting period, on         ated the Training and
in more than 360 positive identifications for use    average, LEP’s monthly support included:                  Technology Division
in intelligence processing and prosecution in        • 	 Initiated 77 IED-related investigations.
host-nation courts.                                  • 	 Referred 9 IED investigations for targeting           to provide specialized
                                                          purposes.                                            forensics training and
USACIL recently created the Training and             • 	 Referred 34 IED investigations for                    forensics science and
Technology Division to provide specialized                prosecution.                                         technology capabilities
forensics training and forensics science and         • 	 Initiated 11 corruption-related                       to the Defense Foren-
technology capabilities to the Defense Forensics          investigations.
Enterprise. Its immediate training focus is on       • 	 Participated in 448 patrols.                          sics Enterprise.”
forensic examiners and technicians deploying         • 	 Seized 25 weapon and munitions caches.
to expeditionary forensic laboratories in support    • 	 Trained 1,140 U.S. forces.
of operations in Afghanistan. Secondarily, it        • 	 Assisted in training and mentoring 444
will train new examiners for the traditional              HNSF.
forensic analysis mission, provide professional
development programs, and educate military           The LEP also supported the surge of forces in
criminal investigative organizations. The            Afghanistan and ongoing efforts to build HNSF
Forensic Science & Technology element,               capability in support of developing the Rule of
established under the direction of the USD           Law. Personnel assigned to Joint Task Force-
(AT&L) is the focal point for coordinating           Paladin Investigative and Surveillance Unit
DoD forensic research and development efforts,       mentored the Wardak Province team on an
representing DoD’s first concerted effort to         internal affairs investigation which resulted in
establish a science and technology capability        the arrest of an Afghan National Police Officer
specifically focused on forensic science. In FY      for conspiring with and facilitating Taliban
2010, this effort generated 14 forensic research     Commanders and fighters in Badam Kalay.
projects and is projected to add another 12          This Rule of Law enabling case was significant
projects in FY 2011.                                 because it demonstrated the competence and
                                                     confidence of HNSF to enforce their own laws
With the DoD Office of Military Commissions,         and institute standards of conduct.
the DoD Criminal Investigation Task Force,
comprised of special agents from Army CID,           Moreover, during the sensitive response and
NCIS, and AFOSI, continues to spearhead the          investigation of two missing U.S. Navy personnel
investigations of detainees slated for prosecution   in Afghanistan, LEP personnel participated in
through military commissions or federal court        the nighttime insertion of forces that discovered
and slated for continued detention under the         the original scene, and collected and evacuated
laws of war. In August 2010, a joint group of        crucial evidence for analysis. Relationships
CITF, OMC, and FBI representatives traveled          developed with HNSF in Logar Province were
to a remote location to assess thousands of          used to obtain information helpful in locating
documents and media seized during Operation          the second missing service member’s remains.
Enduring Freedom to determine their
courtroom relevance and develop search criteria

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 67
Services



                                       Significant Investigative Cases                       scheme; embezzlement and conversion of
                                                                                             government funds; and executing a financial
                                       Sudanese National Pled Guilty to Providing            transaction with criminally-derived funds.
                                       Material Support for Terrorism to Al Qaeda            Result: The employee was sentenced to 46
                                       Overview: Ibrahim Ahmed Mahmoud al Qosi,              months incarceration, 36 months supervised
                                       a Sudanese National, worked for Osama bin             release, and ordered to pay over $2.9 million
                                       Laden and other al Qaeda leaders as a cook,           restitution to the U.S. Military Academy, West
                                       driver, and bodyguard between 1996 and when           Point, N.Y. Both the employee and CWG
                                       he was arrested in 2001, and played a key role        Enterprises were debarred for seven years.
                                       in bin Laden’s escape from Afghanistan in the
                                       aftermath of the 9/11 attacks. In 1996, al Qosi       Conspiracy to Steal U.S. Government Property
                                       followed bin Laden after the al Qaeda leader was      in Iraq
                                       expelled from Sudan. While in charge of the al        Overview: The investigation determined that an
                                       Qaeda compound’s kitchen in Jalalabad, Al Qosi        Egyptian national conspired with an unidentified
                                       also provided logistical support to the terrorist     employee of Kellogg, Brown and Root to steal
                                       group. Al Qosi fled al Qaeda’s hideout at Tora Bora   U.S. government material and equipment. The
                                       in late 2001, crossed the border into Pakistan,       Egyptian national then conspired with Iraqi
                                       and was arrested by local officials who turned        Army Officers to gain installation access for
                                       him over to the DoD Criminal Investigation            trucks to transport the property off-post, where
                                       Task Force. During the trial, witnesses testified     it was sold. Extensive surveillance resulted in
                                       that only the most loyal followers of bin Laden       capturing the Egyptian national as he attempted
                                       would be trusted and allowed close enough to          to steal a U.S. government-owned generator
                                       become a cook or driver for the al Qaeda leader.      valued at $510,000.
                                       Result: In July 2010, Al Qosi pled guilty in a        Result: The Egyptian national was deported from
                                       military commission to providing material             Iraq and was barred from all U.S. installations in
                                       support for terrorism and conspiracy under            theater. Six other personnel identified as being
                                       a plea agreement, and admitted that he was            involved in the conspiracy were also barred from
                                       engaged in hostilities against the United States      U.S. installations in theater. Agents recovered
                                       in violation of the laws of war.                      over $7,000 in U.S. and Iraqi currency.

                                       Former West Point Employee Sentenced for              Army Soldier and Three Co-Conspirators
                                       Involvement in Embezzlement Scheme                    Sentenced to a Total of More Than 50 Years in
                                       Overview: Irregularities found during a routine       Prison for Sex and Drug Trafficking
                                       audit led U.S. Army investigators to determine        Overview: Investigation determined that an
                                       a U.S. Military Academy employee, acting as           Army private first class and three civilians were
                                       the requesting and approving official, used           operating a brothel at the soldier’s off-post
                                       her government purchase card and the cards            apartment in Maryland, soliciting customers
                                       of her unknowing subordinates to authorize            by using the soldier’s computer, and posting ads
                                       approximately $2.9 million in payments to             on the Internet Web site Craig’s List. The soldier
                                       CWG Enterprises. Between 2001 and 2007, the           and his accomplices recruited at least 12 females
                                       employee made fictitious orders from CWG              from Ohio, New York, and Virginia, including a
                                       Enterprises, a non-existent company she created       16-year-old, through Internet social networking
                                       and registered with the State of New York. The        sites such as MySpace, YouTube and Facebook,
                                       payments were electronically deposited into           and enticed or transported them across state
                                       financial accounts established and controlled         lines into Maryland. The conspirators supplied
                                       by the employee, who subsequently withdrew            the females with narcotics, used strong-arm
                                       the funds for her personal gain and benefit. The      tactics to force their continued cooperation,
                                       employee pled guilty in the U.S. District Court       and refused to let them leave. This investigation
                                       in the District of Columbia to devising a scheme      was conducted jointly with ICE and the Anne
                                       to defraud, and transmitting funds in interstate      Arundel police department.
                                       commerce for the purpose of executing the             Result: The defendants pled guilty to sex

68 SEMIANNUAL REPORT TO THE CONGRESS
trafficking by force; sex trafficking of a minor;     Information Assurance,
enticement to travel in interstate commerce
to engage in prostitution and interstate              Security and Privacy
transportation for prostitution; and conspiring
to sell drugs.                                        Protecting Personally Identifiable Information
                                                      at the Office of Civilian Human Resources and
                                                      Human Resources Service Centers
Naval Audit Service
                                  The audit objective was to verify that the
                                                      management        controls    over     personally                            Navy
The NAVAUDSVC’s mission is to provide
independent and objective audit services to assist    identifiable information within the Department
Department of the Navy leadership in assessing        of the Navy Office of Civilian Human Resources
risk to improve efficiency, accountability, and       Headquarters and Human Resources Service
program effectiveness. Senior Navy and Marine         Centers are in place and operating effectively
Corps officials worked with NAVAUDSVC to              to protect the information from unauthorized                “The NAVAUDSVC’s
develop a risk-based annual audit plan that           disclosure. NAVAUDSVC found that OCHR                       mission is to provide
addresses critical areas that officials feel merit    HQ and HRSCs Southwest and Northeast                        independent and ob-
additional oversight. Audits issued, in the           did not have sufficient management controls
                                                      in place to ensure the protection of PII. This
                                                                                                                  jective audit services
past six months, have addressed a number of
                                                      occurred because OCHR HQ and HRSCs SW                       to assist Department
important DoN issues, such as controls over
communications security equipment (used               and NE did not fully execute DoN Management                 of the Navy leader-
to protect government information related to          Control, Privacy Act, and PII requirements;                 ship in assessing risk
national security), anti-submarine warfare,           and management oversight and monitoring of                  to improve efficiency,
environmental safety, and more.                       PII was insufficient. As a result, senior OCHR
                                                      HQ leadership was not aware that PII was
                                                                                                                  accountability, and
                                                      not properly protected from unauthorized                    program effectiveness.”
Numerous acquisition-related audits have
identified the need for improved internal             disclosure.
controls over contract administration at activities   Report No. N2010-0040
in the continental United States and overseas.
NAVAUDSVC also identified an opportunity              Managing Personally Identifiable Information
for the Navy to put approximately $365.2              at Selected Commander, Navy Installations
million to other use by avoiding the purchase         Command Activities
of 54 unneeded training aircraft. Assist reports      The Commander, Navy Installations Command
for the Naval Criminal Investigative Service          did not have effective internal controls to mitigate
have identified approximately $9.6 million in         the risk of unauthorized disclosure and protect
potential fraud to date. Auditors also provided       confidentiality of records containing personally
testimony and/or audit support for court cases,       identifiable information. NAVAUDSVC found
including one that resulted in the conviction of      weaknesses in administering the Privacy Act
a contractor on bribery charges. NAVAUDSVC            Program in the following areas: (1) implementing
continued a series of audits on the protection of     guidance; (2) Privacy Act training; (3) physical
personally identifiable information, identifying      controls; (4) PII disposal methods; (5) PII semi-
additional opportunities to improve controls          annual spot checks and staff assistance visits; (6)
to ensure the personal information of our             Privacy Act statements on forms used to collect
military and civilian personnel is protected          PII; and (7) use of a prohibited electronic storage
from unauthorized disclosure. NAVAUDSVC               device.
will continue to work with senior DoN officials                 These conditions generally occurred
to provide them with an expert and impartial          because the CNIC Privacy Act Program
assessment of critical DoN issues, risks, and         lacked sufficient monitoring and oversight,
opportunities.                                        and DoN guidance was not followed. When
                                                      internal controls are not properly implemented
                                                      and executed, there is an increased risk of
                                                      information compromise and a limited ability

                                                                                                             APRIL 1, 2010 TO SEPTEMBER 30, 2010 69
Services



                                       to plan for and respond to potential unintended        calculating annual aircraft utilization rate. As
                                       releases, breaches, or unauthorized disclosures        a result of using the revised rate, OPNAV N88
                                       of PII. This could result in identity theft or fraud   believes the procurement objective should
                                       and have a negative impact on CNIC and the             remain at 312 T-6 aircraft. The recommendation
                                       reputation of the DoN.                                 has been referred to the naval inspector general
                                       Report No. N2010-0052                                  for resolution.
                                                                                              Report No. N2010-0035
                                       Acquisition Processes and                              Department of the Navy Acquisition Checks
                                       Contract Management                                    and Balances at Fleet and Industrial Supply
                                                                                              Center Sigonella Naval Regional Contracting
                                       Contracting Practices for Strategic Systems            Detachments Bahrain and Dubai
                                       The objectives of this audit were to verify that       The audit objective was to verify that DoN
                                       contracting practices at Strategic Systems             checks and balances for the Fleet and Industrial
                                       Programs were effectively and efficiently              Supply Center Sigonella, Italy Detachments
                                       managed in accordance with laws and                    Bahrain and Dubai acquisition/contracting
                                       regulations, and that internal controls put in         operations were in place to detect, deter, and
                                       place to ensure DoN received services for which        prevent fraud, waste, and abuse in compliance
                                       it paid were effective. NAVAUDSVC found                with federal, DoD, and DoN acquisition
                                       that opportunities existed for SSP to improve          requirements. NAVAUDSVC found that
                                       its contracting practices by reviewing contract        improvements were needed in the areas of
                                       administration as part of its management               contract administration and management
                                       control program; designating contracting officer       oversight, the source selection process, and the
                                       representatives and preparing quality assurance        funding and payment documentation process.
                                       surveillance plans as necessary; reporting             This occurred because acquisition internal
                                       on contractor performance in the Contract              controls needed improvement to provide
                                       Performance Assessment Reporting System; and           reasonable assurance that services or products
                                       using past performance information on future           were acquired efficiently and effectively.
                                       source selections, as required.                        Report No. N2010-0036
                                       Report No. N2010-0025
                                                                                              Service Contracts at Space and Naval Warfare
                                       Aircraft Quantitative Requirements for the             Systems Command and SPAWAR Systems
                                       Acquisition of the Joint Primary Aircraft              Centers
                                       Training System                                        The objectives of this audit were to verify
                                       Using formulas the Navy has used for 14                that service contracts awarded by SPAWAR
                                       years to calculate Joint Primary Aircraft              Headquarters and its Systems Centers were
                                       Training System requirements, and up-to-date           properly awarded and administered for valid
                                       information, NAVAUDSVC calculated that the             needs and DoN received services for which
                                       Navy’s current procurement objective of 315            it paid. NAVAUDSVC found either sufficient
A Navy pilot performs a pre-flight     T-6 Texan II training aircraft is 54 aircraft more     competition or justified noncompetitive contract
check on his T-6 Texan II aircraft.    than is supported by predicted pilot training          awards for these contracts. NAVAUDSVC
                                       rates and historical data. PMA-273 did not use         also concluded they were awarded for valid
                                       the Navy’s established aircraft requirements           needs. However, improvements were needed
                                       calculation formula, and employed atypical and         in providing proper surveillance over service
                                       unsubstantiated attrition aircraft and backup          contracts. This is because contracting officials
                                       aircraft estimating factors to calculate aircraft      did not follow established procedures, did not in
                                       requirements. As a result of this overstatement,       all cases follow Federal Acquisition Regulation
                                       DoN may be spending $365.2 million to                  guidelines, and did not establish standard
                                       purchase 54 unneeded T-6 Texan II training             operating procedures. As a result, SPAWAR HQ
                                       aircraft. OPNAV N88 disagreed with the audit           and its SSCs may not have received services for
                                       results and presented a new methodology for            which they paid, or services may not have been

70 SEMIANNUAL REPORT TO THE CONGRESS
received in a timely manner.                         and provide enough oversight over time and
Report No. N2010-0042                                attendance and EDP processes. Therefore, the
                                                     validity of $21.8 million in EDP payments to
Acquisition Checks and Balances at Selected          NNSY and PNSY employees during CYs 2006,
Navy and Marine Corps Activities in the              2007, and through October 2008 could not
Western Pacific                                      be supported. To strengthen controls over the
The audit objective was to verify that checks        reporting and payment of EDP, NAVAUDSVC
and balances for Yokosuka and Okinawa, Japan;        recommended that the commanders, NNSY
Singapore; and Pearl Harbor, HI acquisitions         and PNSY, establish formal training and provide
were in place to detect, deter, and prevent fraud,   oversight to ensure that control activities
waste, and abuse in compliance with federal,         including attestations, certifications, and EDP
DoD, and DoN acquisition requirements.               supporting documents are performed, verified,
NAVAUDSVC found 32 of 46 contracts audited           and auditable.
were not properly awarded and administered           Report No. N2010-0031
in accordance with the Federal Acquisition
Regulation. Also, contract files were missing
documents needed to support a complete
                                                     Infrastructure and
contract history. These conditions occurred          Environment
because of insufficient staffing and training, and
a lack of attention to detail. NAVAUDSVC also        Prioritization and Selection of Navy Military
found ineffective management and oversight           Construction Projects for Program Objectives
of husbanding contracts. This was due to             Memorandum 2010 Funding
insufficient internal controls and operating         Chief of Naval Operations N46, Ashore                     “Norfolk Naval Ship-
procedures, over-reliance on husbanding agents,      Readiness       Division/Commander,          Navy         yard and Portsmouth
and insufficient staffing.                           Installations Command’s process for scoring               Naval Shipyard per-
Report No. N2010-0044                                and ranking military construction projects                sonnel did not suffi-
                                                     using decision-making software does not
                                                     appear to have been given significant weight
                                                                                                               ciently train individuals
Financial Management                                 as a basis for deciding what projects the DoN             responsible for record-
                                                     submitted to Congress for funding in FY 2010.             ing and approving time
Environmental Differential Pay at Selected           The decision-making software did provide an               and attendance.
Department of the Navy Commands and                  inventory of potential projects and, if additional
Activities                                           MILCON funds become available, could be
The audit objective was to verify that policies,     an important tool for quickly deciding how to
procedures, and practices were in place to           spend the additional funds. However, limited
ensure that Environmental Differential Pay           MILCON funding, and the fact that a large
was provided for only the work performed in          portion of MILCON projects that OPNAV N46/
accordance with applicable laws and regulations      CNIC submitted for funding was directed by
at    selected   DoN       commands/activities.      senior DoN and DoD officials, appears to limit
NAVAUDSVC found opportunities for Norfolk            the value of using decision-making software to
Naval Shipyard and Portsmouth Naval Shipyard         rank MILCON projects for possible placement
to improve management controls over the              on the funding submission list. Although the
reporting of EDP. Specifically, NNSY and PNSY        Navy established an elaborate process using
personnel did not sufficiently train individuals     decision-making software to score and prioritize
responsible for recording and approving time         Navy MILCON projects, the rankings ultimately
and attendance, including EDP, and they did          had little impact on what projects were actually
not maintain adequate supporting evidence in         submitted by the Navy for funding in the 2010
accordance with DoD Financial Management             Program Objectives Memorandum for FY 2010.
Regulations and command policies. These              NAVAUDSVC found that the projects submitted
conditions occurred because NNSY and PNSY            for funding were not always scored or ranked by
personnel did not establish sufficient controls      the Shore Mission Integration Group Working

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 71
Services



                                    Group using decision-making software nor were          consequences of hearing impairment to DoN
                                    the projects submitted for funding consideration       include: lost time and decreased productivity;
                                    always the highest scoring projects as determined      loss of qualified workers through medical
                                    by the group.                                          disqualification; military disability settlements;
                                    Report No. N2010-0047                                  retraining; and expenses related to medical
                                                                                           treatment. Management concurred with 13 of
                                    Department of the Navy Red Hill and Upper              15 recommendations, and corrective actions
                                    Tank Farm Fuel Storage Facilities                      met the intent of the recommendations. The
                                    The audit objective was to verify that Red Hill        remaining two recommendations are considered
                                    bulk fuel storage facilities were: (1) operating       undecided.
                                    within federal environmental standards; (2)            Report No. N2010-0038
                                    had appropriate contingency plans to protect
                                    the environment and groundwater sources; (3)
                                    had effective physical controls and security;
                                                                                           American Recovery and
                                    and (4) ensured that potential responsibility          Reinvestment Act
                                    for catastrophic spills or contamination were
                                    delineated. Red Hill is a bulk fuel facility built     American Recovery and Reinvestment Act of
                                    in the 1940s and located at Naval Station Pearl        2009 – Naval Support Activity, Annapolis, Md.
                                    Harbor, Hawaii, and provides fuel to Pacific           This is the first in a series of reports on
                                    theater federal agencies. The 20-tank fuel farm        NAVAUDSVC audit of selected projects of the
                                    sits over an aquifer system supplying potable          ARRA of 2009. This report presents the results
                                    water to NAVSTA PH and the island of Oahu. Site        of NAVAUDSVC audit of three ARRA projects
                                    investigations showed evidence of fuel releases        at the Naval Support Activity at Annapolis, Md.
                                    which have contaminated the rock bed, soil,            NAVAUDSVC concluded that the three projects
                                    and groundwater. Inspections and maintenance           at NSA Annapolis (whole galley renovation,
                                    of the 20 tanks has been intermittent with as          King Hall, $51 million, facilities sustainment,
                                    many as 46 years between repairs on some tanks.        restoration, and modernization project; facility
                                    In addition, there were fire and safety hazards        energy improvements at various buildings, $1
                                    identified. For example, the Red Hill fuel tunnel      million, FSRM project; and steam generation
                                    complex lacked adequate fire suppression,              plant replacement, $2 million, military
“The NAVAUDSVC                      emergency voice alarm/communication, and               construction project) appeared sufficiently
found that DoN did                  ventilation systems. Eighteen recommendations          planned and the contracts for the projects were
not have a sufficient               were issued from this report.                          properly awarded and written. Only minor
process in place to                 Report No. N2010-0049                                  issues were discovered during NAVAUDSVC
                                                                                           review and none of the issues impacted the need
effectively address
                                    Consideration of Hazardous Noise in the                for the project. During the audit, NAVAUDSVC
mitigation of hazard-               Acquisition of Selected Major Department of            recommended corrective actions to management
ous noise risks posed               Navy Weapon Systems and Platforms                      that addressed these issues. Because the issues
by major weapon                     The NAVAUDSVC found that DoN did not have              were minor, and because management took
systems.”                           a sufficient process in place to effectively address   prompt action and provided documentation
                                    mitigation of hazardous noise risks posed              to show that NAVAUDSVC recommended
                                    by major weapon systems. Also, the weapon              actions had been taken, NAVAUDSVC made no
                                    systems program offices reviewed did not fully         recommendations in this report.
                                    comply with requirements to mitigate identified        Report No. N2010-0022
                                    noise hazards during the acquisition process. If
                                    these conditions are allowed to continue, they         American Recovery and Reinvestment Act of
                                    may contribute to a hazardous environment of           2009 – Naval Station, Norfolk, Va.
                                    high noise exposure that, according to the Naval       This is one of a series of reports on NAVAUDSVC
                                    Safety Center, ensures permanent hearing loss to       audit of selected projects of the ARRA of 2009.
                                    sailors and Marines. In addition to the personal       This report addresses selected projects at Naval
                                    cost to sailors and Marines, the economic              Station Norfolk, Va. NAVAUDSVC concluded

 72 SEMIANNUAL REPORT TO THE CONGRESS
that one project to repair steam lines awarded       Other
for approximately $1.1 million (military
construction, project P-115) at Naval Station        Defense Travel System
Norfolk appeared sufficiently planned and            The audit objective was to verify that internal
was properly awarded and written. The second         controls over the approval of travel authorizations
project, Steam Plant Area Decentralization,          and vouchers in the Defense Travel System were
expected to cost approximately $23.6 million,        effective and in compliance with applicable
MILCON (Project P-116) appeared sufficiently         laws and regulations. Naval activities did not
planned; however, a protest challenging another      have proper separation of duties concerning
potential offeror’s exclusion from competition       DTS-related functions. Specifically, Defense
on the basis of an organizational conflict           Travel Administrator functions, which allow
of interest was filed with the Government            complete access to DTS, including establishing
Accountability Office on December 4, 2009.           or changing routing lists, e-mail addresses,
GAO denied the protest on February 26, 2010.         bank account data and permission levels for
However, the contract for the second project         other individuals, were not separated from
has not been awarded. NAVAUDSVC may issue            travel voucher review and approval functions,
a subsequent report addressing that contract         as required. NAVAUDSVC found that 842
award at a future date. This report does not         Defense Travel Administrators at 525 Naval
include recommendations.                             activities also reviewed and approved 27,672
Report No. N2010-0027                                travel vouchers valued at about $26.6 million
                                                     from March 1, 2008 to February 28, 2009. All of
American Recovery and Reinvestment Act –             these vouchers represent a separation of duties
Marine Corps Air Station, New River, N.C.            internal control weakness that makes the DoN                Marines at the Marine Corps Air Sta-
This report presents the results of NAVAUDSVC        vulnerable to fraud. Further, 168 individuals at
                                                                                                                 tion, New River, N.C.

audit of one ARRA project at Marine Corps            11 activities audited had been given permission
Air Station New River, N.C., to repair heating,      levels that allowed them to review or approve
ventilation, and air conditioning; mechanical and    travel vouchers and perform the functions of a
electrical systems; and roofs and windows at five    Defense Travel Administrator. NAVAUDSVC
buildings. Project NR10ADMM, while shown in          audited five Fleet Forces Command activities
ARRA DoD Expenditure Plans as a single project,      and five U.S. Pacific Fleet activities. Combined,
was awarded as three separate projects at MCAS       these two commands’ transactions represented
New River with unique contracts and different        15,005 vouchers, or about 54 percent of the
contractors, totaling about $14.6 million: Project   27,672 vouchers, and about $18.8 million, or
NR1001M/2M - Interior/Exterior Repairs to            about 71 percent of the $26.6 million total value.
Buildings AS4157 and AS4158, about $4.6              The 10 activities selected for audit represented
million (facilities sustainment, restoration, and    2,623 vouchers or about 17 percent of the 15,005
modernization project); Project NR1009M/11M          FFC/COMPACFLT vouchers and were valued
- Interior/Exterior Repairs to Buildings AS4106      at about $4.4 million, or about 23 percent of
and AS3905, about $4.3 million (FSRM project);       the $18.8 million FFC/COMPACFLT value.
and Project NR1013M - Repairs to Building            NAVAUDSVC also audited Norfolk Naval
AS705 BOQ, about $5.7 million (FSRM project).        Shipyard for the separation of duties issue. NNSY
In NAVAUDSVC judgment, the selected                  was audited for debt management procedures,
projects were sufficiently planned to ensure the     but when asked for the listing of permission
appropriate use of ARRA funds. In addition, the      levels granted to each individual, NAVAUDSVC
contracts for the selected ARRA projects were        found that NNSY had the same separation
properly awarded and funds were distributed in a     of duties internal control problem as the 10
prompt, fair, and reasonable manner. Therefore,      activities selected for FFC and COMPACFLT.
NAVAUDSVC is making no recommendations.              NAVAUDSVC visited all of the 11 activities to
Report No. N2010-0048                                confirm that the separation of duties internal
                                                     controls problem existed. NAVAUDSVC
                                                     interviewed activity personnel to determine how

                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 73
Services



                                    their travel management process was structured        interdicting terrorist activities. In the defensive
                                    in terms of who performed what DTS-related            context, NCIS supports key DoN leaders with
                                    functions.                                            protective services and performs vulnerability
                                    Report No. N2010-0046                                 assessments of military installations and areas to
                                                                                          which naval expeditionary forces deploy.
                                    Management of Hazardous Materials at Fleet            During this reporting period, NCIS personnel
                                    and Industrial Supply Center Norfolk                  deployed around the globe in support of U.S.
                                    The objective was to verify that the Fleet and        Overseas Contingency Operations to combat
                                    Industrial Supply Center Norfolk hazardous            terrorism. NCIS continued support for United
                                    materials center was purchasing and managing          States Africa Command’s counterpiracy
                                    hazardous materials in accordance with federal        operations, and the Afghanistan and Iraq theaters
                                    and DoD laws, regulations, and guidance.              of operations. Significant NCIS operations and
                                    NAVAUDSVC found that FISC-N HAZMAT                    accomplishments include:
                                    centers did not effectively manage hazardous          • 	 An investigation by Major Crimes Task
                                    materials inventory. This occurred because                 Force – Iraq, in coordination with a task
                                    FISC-N did not have sufficient procedures,                 force in Ramadi, Iraq, led to the capture of
                                    oversight, and internal controls for managing              two suspected members of the Islamic State
                                    hazardous materials inventory. As a result,                of Iraq terrorist group, both of whom are
                                    FISC-N could not provide reasonable assurance              implicated in killing 11 Iraqi border guards
                                    that hazardous materials data was accurate,                in 2008.
                                    complete, and reliable, and that the hazardous        • 	 Security Training Assistance and Assessment
                                    materials inventory was sufficiently safeguarded           Teams conducted 295 port, airfield, hotel,
                                    against fraud, waste, and abuse. NAVAUDSVC                 and other physical security assessments in
                                    recommended FISC-N establish procedures                    support of naval expeditionary forces. Its
                                    and controls and provide oversight to ensure               STAAT and special agent teams:
                                    hazardous materials inventory provides reliable,           ■	� Provided training to the Indonesian
                                    accurate, and complete data for decision-making.                National Police assigned to the port of
                                    Also, NAVAUDSVC recommended FISC-N                              Tanjung Priok, Jakarta in Maritime/
                                    include HAZMAT supply chain management,                         Port Threat Awareness Mitigation;
                                    accountability, inventory accuracy, procurement                 Police Officer Field Observation and
                                    integrity, and financial management as an                       Assessment Skills; and IED and Bomb
“NCIS supports efforts              assessable unit within the management control                   Threat Management.
aimed at detecting, de-             plan.                                                      ■	� Generated a formal port security plan
terring, and disrupting             Report No. N2010-0029                                           for U.S. Navy port visits to Timor with
terrorism against DoD                                                                               the U.S. Coast Guard and Timor police

                                    Naval Criminal
                                                                                                    officials.
and DoN personnel
                                                                                               ■	� Provided port security seminars
and assets worldwide.”
                                    Investigative Service
                                                                                                    for Cambodian federal police,
                                                                                                    Gendarmerie, customs, immigration,
                                    The Naval Criminal Investigative Service is the                 and port security officers assigned to
                                    primary law enforcement and counterintelligence                 the port city of Sihanoukville and to
                                    arm of the DoN. NCIS works closely with other                   the capital city of Phnom Penh.
                                    federal, state, local, and international police and
                                    security services on serious crimes including         Significant Investigative Cases
                                    terrorism, espionage, and computer intrusion.
                                    NCIS supports efforts aimed at detecting,             USMC Captain and Wife Bilk $1.75M from
                                    deterring, and disrupting terrorism against DoD       DoD in Contracting Scheme
                                    and DoN personnel and assets worldwide. It            Overview: A joint NCIS, DCIS, Internal
                                    provides offensive and defensive capabilities to      Revenue Service, and Special Inspector General
                                    combat terrorism. In the offensive context, NCIS      for Iraq Reconstruction investigation revealed
                                    conducts investigations and operations aimed at       large sums of money being transferred from

 74 SEMIANNUAL REPORT TO THE CONGRESS
the Middle East into the bank accounts of a U.S.      convicted of first degree murder and sentenced
Marine Corps captain and his wife residing in         to life in prison. The deceased’s wife and the
Southern California. The captain served as a          remaining suspect are awaiting trial on murder
Marine Corps contracting officer’s representative     and conspiracy charges. NCIS conducted this
during a year-long deployment in Iraq, and he         investigation jointly with the North Carolina
used his position to steer “Iraqi First Program”      State Bureau of Investigation and North Carolina
contracts to a favored Iraqi contractor. This Iraqi   Onslow County Sheriff ’s Department.
firm, in turn, conspired with the captain’s wife
to purchase goods – often far fewer than, and of      Cocaine Ring Eliminated
inferior quality to, those required by the contract   Overview: A year-long joint NCIS and Drug
and ship them to Iraq using false invoices to         Enforcement Agency investigation neutralized
cover inflated prices. The investigation revealed     a cocaine distribution organization operating in
the captain and his wife collected approximately      the Hampton Roads, Va. area. Eight individuals,
$1.75 million during the year-long scheme             including an active duty aviation boatswain and
through bribes, the sale of diverted U.S.             machinist mate, both assigned to the USS WASP,
government property, and fraudulent contract          and two former Norfolk-based sailors, were
schemes.                                              arrested as part of the enterprise that transported
Result: In May 2010 the captain pled guilty to        four to five kilograms of cocaine every other
conspiracy to commit wire fraud and filing a          week from New York to Hampton Roads for
false federal tax form. His wife pled guilty to       distribution in the Norfolk/Virginia Beach area.
filing a false federal tax return in March 2010.      Result: All eight suspects were convicted. The
As part of their plea agreements, they will make      enterprise leader, a former USS WASP sailor,
restitution to the Department. Sentencing is          was convicted in August 2010 and sentenced to
scheduled for later this year.                        18 years in federal prison. The active duty sailors
                                                      were each sentenced to seven years in prison
Thirty-Eight Year Old Murder Case Closed              and the remaining suspects received sentences
Overview: In 1996, a cold case homicide               ranging from 10 to 22 years.
investigation was initiated by NCIS and the
North Carolina State Bureau of Investigation          Physician Convicted of Sexual Assault
into the 1972 shooting death of a U.S. Marine         Overview: A NCIS investigation identified 22
Corps sergeant at Camp Lejeune, North                 women who alleged they had been sexually                    NCIS investigated a cold case homicide
                                                                                                                  at Camp Lejeune.
Carolina. The victim returned from a tour in          assaulted by a U.S. Navy Medical Corps
Vietnam to Onslow County and discovered that          lieutenant commander during his service as a
the suspect had moved into his house and was          family practice physician at the Branch Medical
having an affair with his wife. After having the      Clinic, Naval Air Facility, Atsugi, Japan, and
suspect removed from his home, the sergeant           during a deployment to Kuwait. The assaults
was lured to a desolate area by his wife, where       occurred during breast examinations and
he was killed. At the time, insufficient evidence     unnecessary gynecological examinations.
existed to charge the suspect and the deceased’s      Result: The lieutenant commander was found
former wife. The suspect later served as the chief    guilty at a general court-martial at the Yokosuka
of police for two local North Carolina police         Naval Station, Japan, in May 2010, and sentenced
departments. In August 2008, the Jacksonville         to serve 24 months in confinement and pay a fine
Daily News, a local North Carolina newspaper,         of $28,000. He was dismissed from the military
ran an article about the 1972 murder. Shortly         and is required to register as a sex offender.
after, information was developed that led to
the identity of another civilian suspect who
implicated himself, the primary suspect/shooter,
and the deceased’s former wife in the murder.
Result: All three were arrested and extradited
to North Carolina from Oregon and Illinois
for trial. In May 2010, the primary suspect was

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 75
Services



                                   Air Force                                             In this reporting period, audit efforts focused on

Air Force
                         Audit Agency
                                                                                         the following key management challenge areas:
                                                                                         Joint War Fighting and Readiness; Information
                                                                                         Assurance, Security, and Privacy; Acquisition
                                   The Air Force Audit Agency provides all levels        Processes and Contract Management; Financial
                                   of Air Force management with independent,             Management; Health Care; Nuclear Enterprise;
                                   objective, and quality audit services by reviewing    and American Recovery and Reinvestment Act.
                                   and promoting the economy, effectiveness, and         These efforts have resulted in more than $1.6
                                   efficiency of operations; evaluating programs         billion in potential monetary benefits.
                                   and activities and assisting management in
                                   achieving intended results; and assessing and         Following are examples of audit coverage
                                   improving Air Force fiduciary stewardship and         performed by AFAA related to the following
                                   accuracy of financial reporting. Organized into       DoD Management Challenge areas:
                                   three line directorates, the AFAA conducts
                                   centrally directed audits in numerous functional
                                   areas that provide support to Air Force senior        Joint War Fighting and
                                   leaders. The Agency also has audit presence at        Readiness
                                   over 50 locations that provides audit services to
                                   installation commanders.                              United States Air Forces in Europe War Reserve
                                                                                         Materiel Management
                                   The Financial and Systems Audits Directorate,         War reserve materiel are assets acquired,
                                   headquartered at March ARB, CA, directs audits        positioned, and maintained to meet Secretary
                                   related to financial management, financial            of Defense Strategic Planning Guidance
                                   support, information systems development,             objectives. As such, war reserve materiel
                                   communications systems, and system security.          includes equipment, vehicles, supplies, fuel, and
                                   AFAA/FS also manages the Financial and                munitions supporting wartime activities reflected
                                   Systems Audits Region located at March ARB            in the Air Force War and Mobilization Plan for
                                   with five area audit offices at 19 Air Force          requirements over and above primary operating
                                   installations and five additional operating           stocks and peacetime requirements. Although
                                   locations.                                            U.S. Air Forces in Europe properly accounted for,
                                                                                         marked, and maintained on-hand war reserve
                                   The Support and Personnel Audits Directorate,         materiel, they did not accurately determine
                                   headquartered at Brooks City-Base, Texas, directs     requirements or maintain authorizations to meet
                                   audits related to operational support, personnel,     needs. Specifically, without a current war plan,
                                   training, engineering support, support services,      USAFE planners could not justify 41 percent
                                   environmental issues, intelligence operations,        of the war reserve materiel requirements.
                                   and health care. AFAA/SP also manages the             USAFE planners overstated equipment and
                                   Support and Personnel Audits Region located at        vehicle requirements by 4,140 assets totaling
                                   Brooks City-Base with five area audit offices at      $172.1 million. Further, for supported war
                                   14 Air Force installations and seven additional       reserve materiel requirements, USAFE did not
                                   operating locations.                                  accurately translate requirements into Standard
                                                                                         Base Supply System authorizations; misstating
                                   The Acquisition and Logistics Audits Directorate,     authorizations by over 10,200 assets totaling
                                   headquartered at Wright-Patterson AFB,                $131.4 million. Maintaining excess USAFE
                                   Ohio, directs audits related to procurement,          war reserve materiel equipment and vehicle
                                   maintenance, supply, transportation, and weapon       requirements and authorizations generated
                                   systems acquisition. AFAA/QL also manages the         unnecessary buy requirements for almost 5,700
                                   Acquisition and Logistics Audits Region located       assets. Establishing accurate levels would allow
                                   at Wright-Patterson AFB, Ohio with five area          the Air Force to reduce buy requirements and
                                   audit offices at 14 Air Force installations and one   put $44.6 million to better use over the Future
                                   additional operating location.                        Years Defense Program. Further, accurately

76 SEMIANNUAL REPORT TO THE CONGRESS
reconciling authorizations would have identified    efficiently, save fuel, and reduce the amount               “...Air Force and com-
the need for 398 mission-critical equipment and     of pollutants emitted into the atmosphere.                  mercial studies have
vehicle items.                                      This audit identified that Air Force personnel
                                                                                                                shown regular engine
Report No. F-2010-0004-FD3000                       could improve J85 and T56 compressor wash
                                                    operation management. Specifically, J85 and                 compressor washing
United States Air Forces Central Commercial         T56 personnel at nine of 27 locations did not               also improves engine
Tender Program                                      perform over 5,600 compressor washes between                performance allowing
Commercial tenders are agreements made              January 2008 and January 2010. Effectively                  the engine to run more
with commercial airlines to transport cargo for     implementing an engine wash program for J85
                                                                                                                efficiently, save fuel,
DoD on a cost-per-pound basis. United States        and T56 engines will allow the Air Force to save
Air Forces Central Command uses tender, also        over $3.2 million in fuel costs over the Future             and reduce the amount
known as Intra-Theater Express, to move cargo       Years Defense Program and reduce pollutants by              of pollutants emitted
within the United States Central Command            over 5 million pounds annually.                             into the atmosphere.”
theater when that cargo cannot be transported       Report No. F-2010-0004-FC2000
on military aircraft within 24 hours. This audit
determined AFCENT aerial port personnel (1)         Weather Support to the Warfighter
properly awarded tenders and used a viable          The Air Force is responsible for organizing,
cost analysis to determine the best value when      training, and equipping battlefield airmen to
awarding tenders during FY 2009; (2) properly       conduct ground operations in hostile, uncertain
processed 95 percent of tender transactions         environments and under severe environmental
reviewed by maintaining adequate supporting         conditions. Battlefield weather airmen represent
documentation to account for cargo movements;       one of seven battlefield airmen specialties
and (3) effectively managed tender funding          considered “outside the wire” operators often
by properly validating FY 2007 to FY 2009           co-located with the Army to support Army
obligations totaling $874.2 million. However,       missions. To help mission planning and
aerial port personnel did not accurately            execution, battlefield weather airmen deliver
determine tender requirements as aerial port        timely, relevant, and specialized terrestrial,
personnel used tenders to airlift cargo when        space, and climatological global environmental
military aircraft were available. A sample of       intelligence to joint warfighters, DoD decision-
transactions from a 13 month period disclosed       makers, national agencies, and allied nations.
port personnel tendered over 2 million pounds       This audit determined that although Air Force
of cargo ($2.6 million) even though space was       weather officials organized battlefield weather
available on pre-arranged military airlift. By      airmen effectively, strengthened training
projecting the sample results, the auditors         documentation controls during the audit, and
estimated AFCENT could avoid spending $120          initiated efforts to streamline battlefield weather
million over the Future Years Defense Program       training, Air Force weather officials could
with improved scheduling of military airlift.       make further improvements to train and equip
During the audit, management implemented            battlefield weather airmen. Specifically, none of
corrective actions that will enhance organic        the 48 battlefield weather airmen at the seven
airlift visibility and predictability and improve   locations reviewed attended required formal
program performance monitoring.                     training and accomplished required wartime
Report No. F-2010-0005-FD3000                       phase training certification. As a result, Army
                                                    commanders had no assurance battlefield
Engine Compressor Wash Management                   weather airmen were fully prepared to support
The Air Force instituted engine compressor          Army units during battlefield operations. In
wash requirements for the J85 (T 38C aircraft)      addition, Air Force weather officials did not
and T56 (C 130 aircraft) engines primarily as a     always properly equip battlefield weather airmen
corrosion control effort. However, Air Force and    to perform training for and accomplish first-in
commercial studies have shown regular engine        deployments supporting the Army. Battlefield
compressor washing also improves engine             weather airmen did not have on hand nearly
performance allowing the engine to run more         90 percent of equipment items authorized on

                                                                                                          APRIL 1, 2010 TO SEPTEMBER 30, 2010 77
Services



                                   the modification table of organization and          accounting standards improves data reliability
                                   equipment. Additionally, equipment identified       needed to support financial management
                                   on the modification table of organization           decisions.
                                   and equipment exceeded requirements by 34           Report No. F-2010-0006-FB2000
                                   percent. Finally, battlefield weather airmen were
                                   assigned workplace facilities lacking required      Publicly Accessible Air Force Web Sites
                                   space and substandard facilities at one location.   Air Force Web sites accessible to the public are
                                   Inadequate equipment and facilities can result in   part of the Air Force public communication
                                   degraded training, low morale, and ultimately       program. The Air Force limits Web content
                                   less than optimal support from battlefield          to public interest information intended for
                                   weather airmen. Further, redistributing excess      unrestricted distribution that does not require
                                   material and reducing future requisitions of        additional protection and is cleared for public
                                   standard Army supply items issued to soldiers       release. The Air Force uses a Web-based
                                   that airmen do not require would create a one-      application, the Air Force Public Information
                                   time DoD savings of at least $7.87 million in       Management System, to create, publish, and
                                   funds put to better use over the Future Years       manage Web content. Air Force policy requires
                                   Defense Program.                                    all public Web sites be consolidated and
                                   Report No. F-2010-0009-FD3000                       centrally hosted through the Air Force Public
                                                                                       Web program and registered on Air Force Link.
                                                                                       This audit disclosed that Air Force organizations
                                   Information Assurance,                              did not effectively migrate or register Web
                                   Security, and Privacy                               sites, control Web content, or control Air Force
                                                                                       Public Information Management System user
                                   Air National Guard Reserve Order Writing            rights and accounts. Migrating public Web
                                   System Controls                                     sites to the Air Force Public Web program
                                   The Air Reserve Order Writing System is             promotes network security by reducing Web
                                   a mission critical information system that          traffic on the Unclassified but Sensitive Internet
                                   automates the order writing and associated          Protocol Router Network while eliminating
                                   processing tasks and functions throughout           redundant servers and reducing unnecessary
                                   the Air National Guard. The system provides         Web management. Registering public Web
                                   ANG personnel the ability to create orders in       sites promotes site management accountability
                                   an automated, fast, and accurate manner. This       and ensures Air Force organizations properly
                                   audit disclosed that Air Reserve Order Writing      identify, review, and authorize Web sites. In
                                   System program personnel did not fully comply       addition, Air Force organizations did not control
                                   with federal regulatory and legal systems and       Web content. Effectively controlling Web content
                                   accounting mandates. Specifically, program          helps prevent the release of sensitive information
                                   personnel did not effectively implement three       to unintended audiences, thereby protecting Air
                                   of 10 system controls to fully comply with          Force operations and personnel. Finally, limiting
                                   the Federal Financial Management System             user rights and accounts to those authorized and
                                   Requirements or effectively identify, design,       needed ensures that Web content is properly
                                   test, and implement applicable accounting           created, posted, and approved for public release.
                                   conformance requirements. Strengthening             Report No. F-2010-0005-FB4000
                                   controls will enhance data integrity for the
                                   nearly $3 billion ANG Military Personnel            Access Controls for Air and Space Operations
                                   Appropriation and provide more accurate,            Center Networks
                                   complete, and reliable data to support financial    Air and Space Operations Centers are command
                                   management decisions. In addition, complying        centers for planning and executing theater-wide
                                   with accounting conformance requirements            aerospace operations. Air and Space Operations
                                   provides reasonable assurance the system can        Centers use the secret Internet protocol router
                                   accurately process financial data associated with   network to plan and execute operations. Access
                                   all ANG orders, and adhering to established         to the SIPRNET should be restricted to an

78 SEMIANNUAL REPORT TO THE CONGRESS
authorized user. Air and Space Operations             ownership cost metrics during life cycle
Centers personnel use active directory, an            planning, or perform adequate analyses of
automated tool, to track and control access to the    public-private       partnership     arrangements.
approximately 45 different computer network           Specifically, five of six sampled programs did not
information systems. The active directory             accomplish a business case analysis supporting
stores information and data about networks,           the long-term sustainment strategy. As a result,
including registered users and their access level.    program officials do not have reasonable
Auditors concluded personnel did not effectively      assurance the implemented support strategies,
control access to the Air and Space Operation         totaling approximately $7.8 billion annually,
Centers network. While personnel generally            were the most cost-effective sustainment options.
restricted the system administrators group to         In addition, none of the sampled programs
the minimum level necessary to perform their          included three mandatory Performance Based
official duties, they did not effectively implement   Logistics sustainment metrics in the life cycle
other controls to monitor and limit access to         sustainment strategy. Accurate and complete
networks. Specifically, responsible personnel did     metrics provide a baseline comparison of actual
not perform daily log reviews or properly retain      cost and performance outcomes with expected
critical active directory security and firewall       results, thereby allowing managers to determine
logs or properly authorize user accounts and/         if the strategy achieved intended results. Finally,
or delete accounts not accessed within 120 days.      program managers did not always analyze or
Reviewing and retaining computer logs will            conduct periodic reevaluations of contract pass-            “The Secondary Items
allow personnel to detect and perform forensic        through costs on public-private partnership
                                                                                                                  Requirements Sys-
research for security incidents and policy            arrangements. Effective analysis enables
violations. In addition, properly authorizing         program officials to assess and potentially                 tem computes future
user accounts and deleting unused accounts help       eliminate pass-through costs that reduce total              aircraft spare part buy
decrease the risk of inappropriate access to the      system ownership costs.                                     and repair quantities
Air and Space Operations Centers network and          Report No. F-2010-0003-FC3000                               which pass to the Au-
undetected data alteration.
                                                                                                                  tomated Budget Com-
Report No. F-2010-0007-FB4000                         Spare Parts Inductions
                                                      The Secondary Items Requirements System                     pilation System. ”
                                                      computes future aircraft spare part buy and
Acquisition Processes and                             repair quantities which pass to the Automated
Contract Management                                   Budget Compilation System. The ABCS makes
                                                      an automatic adjustment to those requirements
Use of Performance Based Logistics in Air             to reflect the number of reparable items actually
Force Programs                                        inducted or forecasted for induction into the
Performance Based Logistics is a system               repair cycle. When the quantity of items inducted
sustainment strategy that defines requirements        into the current repair cycle exceeds the planned
based on system availability, reliability, or         requirements (over-induction), the system
ownership costs. Performance Based Logistics          reduces future year budgeted repair quantities.
application relies on warfighter operational          Conversely, the ABCS will increase future year
metrics to measure performance, depot                 requirements for under-inducted items to show
maintenance strategy that utilizes the best use       that the repairs will occur in a later cycle. The
of public-private partnership agreements, and         final ABCS then becomes the basis for developing
cost-effectiveness as validated by a business case    the Air Force materiel management budget.
analysis. This audit disclosed that overall, Air      This audit revealed that although personnel
Force officials are implementing Performance          effectively managed the 90 over-inducted items
Based Logistics strategies consistent with Air        reviewed, under-induction adjustments were
Force and DoD policy. However, program                neither supported nor accurate. As a result,
managers did not always use business case             the potential exists that at least 1,806 under-
analysis to support the Performance Based             inducted items (valued at $396.8 million) are
Logistics strategy, address mandatory DoD             not needed. Further, correcting the automatic

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 79
Services



                                    adjustment overstatement would reduce future          Wideband Global SATCOM Program
                                    budget submissions by $857 million over the           Management
                                    Future Years Defense Program.                         The Wideband Global SATCOM Satellite
                                    Report No. F-2010-0007-FC4000                         program, formerly known as the Wideband
                                                                                          Gapfiller Satellite program, was started
                                    Cost Reimbursement Service Contracts                  in 2001 to provide interim high-capacity
                                    Cost reimbursement contracts provide for              satellite communication capabilities in the
“In FY 2008, the Air                payment of allowable incurred costs to the extent     period between the legacy Defense Satellite
Force expended over                 prescribed in the contract. These contracts           Communication System and a future advanced
$7 billion for aviation             are suitable for use only when uncertainties          wideband system. Based on proven satellite
petroleum, oil, and                 involved in contract performance do not permit        performance and flexibility, the Wideband
                                    costs to be estimated with sufficient accuracy to     Global SATCOM program evolved into the
lubricants carrying out
                                    use a fixed-price contract. Cost reimbursement        military’s primary program for tactical wideband
its worldwide flying                contracts increase risk to the government             satellite communications rather than an interim
and airlift missions.               since these contracts provide less incentive          system. However, as the primary tactical
Air Force officials use             for contractors to control costs and perform          wideband satellite communications program,
operations and main-                effectively and also increase the administrative      system endurance and capability requirements
                                    burden on the government. Accordingly, when           increased. Program officials accommodated
tenance funds for its
                                    contracting officers award cost reimbursement         these increased requirements with contract
flying missions and                 contracts, they must increase oversight               modifications and undefinitized contractual
transportation work-                of contractor performance and financial               actions that authorized the contractor to start
ing capital funds when              management to ensure contractors perform              work immediately with price negotiations to
providing DoD airlift               efficiently and control costs. Auditors concluded     follow. This audit determined the Wideband
                                    Air Force personnel did not appropriately             Global SATCOM program office adhered to the
services.”
                                    use cost reimbursement contracts to acquire           approved acquisition strategy and effectively
                                    services. As a result, contracting officers           moved the program forward despite cost,
                                    awarded over $2 billion of cost reimbursement         schedule, and technical challenges. Specifically,
                                    contracts to acquire services that were more          Wideband Global SATCOM achieved initial
                                    appropriate for a fixed-price contract vehicle.       operational capability for Space Vehicles 1 and 2,
                                    Fixed-price contracts shift risk to the contractors   and launched SV 3 in December 2009.
                                    and provide the contractors incentive to perform                 These satellites have greatly enhanced
                                    efficiently and control costs. In addition, fixed-    wideband communications for contingency
                                    price contracts reduce administrative costs and       operations worldwide and are satisfying
                                    require less oversight than cost reimbursement        critical warfighter requirements. Space and
                                    contracts. Further, personnel did not always          Missile Systems Center personnel kept senior
                                    effectively administer cost reimbursement             Air Force and DoD leadership informed on
                                    contracts. Specifically, personnel did not            program challenges and associated corrective
                                    consistently accomplish contract surveillance         action plans. However, program officials did not
                                    and       inspection/acceptance.      Consistently    properly establish accurate production prices
                                    accomplishing contractor surveillance would           or effectively manage undefinitized contractual
                                    provide the Air Force with the assurance that         actions. Specifically, the program office
                                    the contractor met contract requirements for          inappropriately increased the SV 5 production
                                    service contracts valued at $1.62 billion. Finally,   price by $25 million to reallocate Block 2
                                    personnel did not adequately manage contract          systems engineering and program management
                                    funding and timely deobligate $8.1 million of         fixed costs. As a result, the Wideband Global
                                    excess funds on four cost reimbursement service       SATCOM program diverted limited Air Force
                                    contracts. Timely deobligation of these funds         resources from other known requirements. In
                                    would have made them available for other valid        addition, the program office used undefinitized
                                    requirements.                                         contractual actions without defining contract
                                    Report No. F-2010-0005-FC1000                         requirements in a timely manner or limiting
                                                                                          obligation amounts during undefinitized

 80 SEMIANNUAL REPORT TO THE CONGRESS
periods. Delays in defining requirements and          Fiscal Year 2010 Military Construction Planning
obligating excess amounts placed additional cost      The Air Force builds or repairs large-scale
and performance risk on the government.               facility or infrastructure projects such as airfield
Report No. F-2010-0008-FC3000                         pavements and utility systems costing $750,000
                                                      or more under the military construction
                                                      program. Project engineers must prepare and
Financial Management                                  document detailed requirements and cost
                                                      estimates for all MILCON projects. Further,
Aviation Petroleum, Oil, and Lubricant
                                                      engineers prepare supporting economic analyses
Unliquidated Obligation
                                                      or certificates of exception for MILCON projects
In FY 2008, the Air Force expended over $7
                                                      above $2 million. Auditors determined Air
billion for aviation petroleum, oil, and lubricants
                                                      Force civil engineer programmers did not
carrying out its worldwide flying and airlift
                                                      accurately estimate and properly support cost
missions. Air Force officials use operations and
                                                      estimates for 75 percent of projects reviewed,
maintenance funds for its flying missions and
                                                      misstating project costs by approximately $4.1
transportation working capital funds when
                                                      million and inadequately supporting more
providing DoD airlift services. Unliquidated
                                                      than $188.9 million in MILCON requirements.
obligations are the unpaid balances of funds
                                                      By eliminating overstated costs, the Air Force
obligated in Air Force accounting systems.
                                                      could use more than $3 million for other valid
Aviation fuel personnel process Miscellaneous
                                                      MILCON projects. In addition, programmers
Obligation/Reimbursement Documents as
                                                      did not obtain required economic analyses or
temporary obligating documents to obligate
                                                      certificates of exception waivers for 39 percent
AVPOL transactions unbilled at year-end.
                                                      of projects reviewed. Proper cost estimate
Auditors concluded financial managers
                                                      documentation and economic analyses would
and fund holders did not properly support
                                                      help Air Force leadership justify current
recorded AVPOL obligations totaling nearly
                                                      MILCON projects and make informed facility or
$32 million, justify changes to Miscellaneous
                                                      infrastructure requirements decisions. During
Obligation/Reimbursement               Documents
                                                      the audit, Air Force management took corrective
balances with sufficient transaction details, or
                                                      action on project discrepancies identified,
properly support Miscellaneous Obligation/
                                                      solicited contract bids, and realized a bid savings
Reimbursement Documents accounts payable
                                                      of $39 million that could be put to better use.
liabilities. Establishing sound fiscal control
                                                      Report No. F-2010-0020-FD1000
over AVPOL obligations provides assurance
unliquidated balances are still valid and
                                                      Foreign Military Sales Cooperative Training
accounting records are complete, accurate, and
                                                      Program
reliable. In addition, personnel did not timely
                                                      The Euro NATO Joint Jet Pilot Training
deobligate unneeded AVPOL Miscellaneous
                                                      Program is a Foreign Military Sales cooperative
Obligation/Reimbursement               Documents
                                                      program for training pilots from participating
unliquidated obligations totaling $27 million,
                                                      countries. Participating countries share in
including Transportation Working Capital
                                                      both the training costs and the cost of T6
Funds miscellaneous obligation/ reimbursement
                                                      and T38 training aircraft modifications. The
documents totaling $24 million. Timely
                                                      aircraft modification program office allocates               AFAA conducted an audit involving
identifying and deobligating unneeded AVPOL
                                                      the cost share for each country based on the                 costs of T38 Talon aircraft.
balances allows fund managers to put funds to
                                                      number of students participating in the training
better use. As of August 2009, AVPOL managers
                                                      program. The participating countries deposit
took action to deobligate unneeded AVPOL
                                                      cost share funds in a Foreign Military Sales
balances totaling over $27 million.
                                                      trust account, and the modification program
Report No. F-2010-0010-FB1000
                                                      manager then obtains reimbursement for the
                                                      countries’ share of the modification. This audit
                                                      disclosed that although personnel accurately
                                                      allocated modification costs, personnel did

                                                                                                             APRIL 1, 2010 TO SEPTEMBER 30, 2010 81
Services



                                       not effectively identify modification costs. As a   no longer be available.
                                       result, personnel requested more funds from the     Report No. F-2010-0006-FC3000
                                       Foreign Military Sales countries than necessary
                                       to complete their share of the modifications. In
                                       addition, personnel did not properly manage
                                                                                           Health Care
                                       Foreign Military Sales funds during the billing
                                                                                           Service Medical Activity – Air Force Contract
                                       process. As a result, program personnel
                                                                                           Labor Accounts Payable
                                       inaccurately cited Foreign Military Sales funds
                                                                                           The Air Force Medical Service uses contract
                                       in FY 2007 and did not reimburse the Air Force
                                                                                           services to provide clean linen or patient care
                                       $44 million for allocated modification costs.
                                                                                           such as chiropractic treatment. As contractors
                                       Properly reimbursing for modifications allows
                                                                                           perform these services, AFMS personnel
                                       the Air Force to better manage limited funding
                                                                                           record an accounts payable for the labor costs
                                       and makes funds available to support other valid
                                                                                           not yet paid. Auditors determined that AFMS
                                       Air Force requirements.
                                                                                           personnel maintained sufficient documentary
                                       Report No. F2010-0007-FC2000
                                                                                           support for contract labor accounts payable.
                                                                                           However, medical personnel did not deobligate
                                       Aircraft Engine Component Improvement
                                                                                           excess funds when contract fulfillment and
                                       Program
                                                                                           payment documentation no longer supported
                                       The Aircraft Engine Component Improvement
                                                                                           an obligation balance. Deobligating funds
                                       Program develops solutions to increase safety of
                                                                                           no longer needed will provide up to $12.2
                                       flight, correct operational deficiencies, improve
                                                                                           million to use for other valid requirements.
                                       reliability and maintainability, and reduce total
                                                                                           Timely deobligation action maximizes the
                                       ownership costs of aircraft engines. The program
                                                                                           AFMS’s ability to use available funding before
                                       also addresses design issues or maintenance
                                                                                           expiration. In addition, personnel did not
The Aircraft Engine Component Im-      procedures for parts, components, and support
                                                                                           timely process contract labor accounts payable
provement Program develops solutions   equipment that limit engine safety, reliability,
to increase safety of flight.                                                              transactions. Timely processing of accounts
                                       durability, and operational capability and cannot
                                                                                           payable transactions is essential for posting
                                       be corrected under manufacturer warranties
                                                                                           transactions in the correct reporting period,
                                       or other contract provisions. In addition, the
                                                                                           avoiding interest penalties, and verifying fund
                                       program directly supports the development
                                                                                           availability. Although contract labor accounts
                                       and testing of newly fielded engines. This audit
                                                                                           payable transactions properly processed from
                                       revealed that although Air Force personnel
                                                                                           accounting systems to the quarterly financial
                                       adequately      managed       government-owned
                                                                                           statements, Defense Finance and Accounting
                                       equipment in the possession of contractors,
                                                                                           Service financial statement processes allowed
                                       actions taken to clearly define contractor
                                                                                           erroneous transactions to be posted to the
                                       requirements on engineering project descriptions
                                                                                           public accounts payable balance. As a result, the
                                       and manage unliquidated obligations need
                                                                                           accounts payable balance reported in the first
                                       improvement. Specifically, Air Force personnel
                                                                                           quarter service medical activity – Air Force FY
                                       did not always define adequate requirements for
                                                                                           2009 financial statement was understated by $6.5
                                       Component Improvement Program contracts.
                                                                                           million.
                                       As a result, the Air Force could not effectively
                                                                                           Report No. F-2010-0009-FB3000
                                       validate contractor performance and lacked
                                       assurance that the Air Force received all the
                                                                                           United States Air Forces Central Deployed
                                       products or services intended. Further, Air Force
                                                                                           Locations Acquisition and Cross-Servicing
                                       personnel did not adequately manage funds
                                                                                           Agreements
                                       obligated on program contracts. As a result,
                                                                                           The combatant commander, on behalf of the
                                       program managers maintained over $13 million
                                                                                           U.S. government, negotiates Acquisition and
                                       of invalid obligations that could be deobligated
                                                                                           Cross-Servicing Agreements for providing or
                                       and put to better use. Additionally, if program
                                                                                           receiving support to and from coalition forces.
                                       officials do not take immediate actions to
                                                                                           Reimbursement for services and supplies may
                                       deobligate FY 2004 funds, over $2.6 million will

82 SEMIANNUAL REPORT TO THE CONGRESS
be in the form of cash, replacement-in-kind,         items were on accountability records, and
or equal value exchange. As of December              inventory teams could not always verify whether
2009, there were 11 nations in the Central           accountability records were complete. As a
Command area of responsibility with whom             result, at least 932 assets were not on original
the United States had Acquisition and Cross-         Air Force accountable records. Accurate nuclear
Servicing Agreements: Afghanistan, Bahrain,          weapons related materiel inventories help ensure
Jordan, Kazakhstan, Lebanon, Oman, Pakistan,         the integrity and safety of the nuclear mission
Qatar, Tajikistan, United Arab Emirates, and         aiding national security.
Uzbekistan. This audit revealed AFCENT               Report No. F-2010-0005-FC4000
personnel at the four locations reviewed
adequately identified 99 percent of the $7.2         System Controls for the Nuclear Enterprise                    “AFCENT personnel
million of non-medical support provided during       Management Tool                                               at the four locations
FYs 2008 and 2009. However, personnel did not        The Air Force uses the Nuclear Enterprise                     reviewed, adequately
identify medical services provided to coalition      Management Tool, a subset of the Continuous
                                                                                                                   identified 99 percent
forces costing over $1 million during FY 2009.       Process Improvement Management Tool
Charging for medical services will help ensure       information system, to track and manage                       of the $7.2 million of
compliance with legal requirements and provide       projects for correcting deficiencies cited in                 non-medical support
increased coalition reimbursements totaling          nuclear investigative reports. The system                     provided during FYs
$7.3 million over the Future Years Defense           automates data collection, activity management,               2008 and 2009.”
Program. Although Air Force personnel                and status reporting for each project. Auditors
properly managed reimbursements by posting           identified that Nuclear Enterprise Management
all identified collections in the General Finance    Tool compliance with selected controls and
and Accounting System for invoicing and              regulatory requirements could be improved.
collection and received reimbursement for 292        Specifically, Air Force personnel implemented
(96.7 percent) transactions within a reasonable      information classification controls, but not all
period, they did not properly manage past due        applicable information assurance system controls
reimbursements. More effective acquisition           and requirements. Properly implementing
and cross-servicing agreements reimbursement         system controls and requirements significantly
controls would help preclude lost revenue            enhances the security, accuracy, and reliability of
totaling almost $1.4 million over the Future         Air Force nuclear enterprise information in the
Years Defense Program.                               Nuclear Enterprise Management Tool.
Report No. F-2010-0008-FD3000                        Report No. F-2010-0006-FB4000

                                                     Nuclear Certification of Aircraft and Test
Nuclear Enterprise                                   Equipment Software
                                                     The Air Force Nuclear Certification Program
Nuclear Weapons Related Materiel Inventories
                                                     requires certification of all software that
The Air Force manages a worldwide supply
                                                     directly interfaces with a nuclear weapon,
chain supporting diverse nuclear-capable
                                                     critical component, and other certified software
weapons systems and related materiel. The
                                                     prior to conducting nuclear operations. The
secretary of defense directed the secretary of the
                                                     Air Force Materiel Command’s Nuclear
Air Force to undertake a comprehensive review
                                                     Weapons Center grants this certification when
and physical inventory of nuclear weapons and
                                                     procedures, personnel, equipment, facilities,
nuclear weapons related materiel in response to
                                                     and organizations are capable of performing
the misidentification and shipment of nuclear
                                                     assigned nuclear weapon functions within
weapons related materiel to Taiwan. This audit
                                                     the specific safety criteria designed into the
concluded Air Force logistics personnel could
                                                     weapon system or subsystem. Personnel should
improve nuclear weapons related materiel
                                                     review the certification when changes occur
inventory management. Although all items on
                                                     due to modifications, deficiency reports, or
Air Force accountability records were physically
                                                     other software revisions. The Master Nuclear
on hand, not all nuclear weapons related materiel
                                                     Certification List is the sole source for

                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 83
Services



                                       verification of nuclear certification that enables    inspectors general (RAT Board Referrals);
                                       users to identify the status of a weapon system,      and review whether sufficient and qualified
                                       subsystem, component, software, or support            acquisition and grant personnel are overseeing
                                       equipment. This audit revealed Air Force              Recovery Act funds. DoD IG requested the
                                       personnel maintained accurate and complete            AFAA to investigate three RAT Board referrals.
                                       Master Nuclear Certification List information         The audit did not identify any systemic problems.
                                       and properly accounted for and controlled all         Local management clarified and took corrective
                                       70 on hand nuclear certified Operational Flight       action on all individual issues. The AFAA issued
                                       Program and Test Program Set software items.          memorandums on results to the RAT Board
                                       Maintaining accurate and complete Master              through DoD IG.
                                       Nuclear Certification List information provides       Report No. F-2010-0012-FD1000
                                       assurance that single managers appropriately
                                       certified Operational Flight Program and              Fiscal Year 2010 Recovery Accountability and
                                       Test Program Set software which reduces the           Transparency Board Referrals Summary
                                       likelihood of nuclear mishaps or incidents in the     During FY 2010, DoD IG sent five Recovery
                                       operational environment. However, Air Force           Accountability and Transparency Board
                                       personnel did not always properly account for         referrals to the AFAA for review and analysis.
                                       nuclear certified support equipment. Properly         Audit review disclosed the five RAT Board issues
                                       controlling and accounting for nuclear certified      were caused primarily by timing differences
                                       software and hardware provides assurance              and minor administrative errors, and Air Force
                                       that properly certified Operational Flight            personnel properly awarded and managed
                                       Program and Test Program Set software and             Recovery Act contracts.
                                       test equipment is available in the event of a real-   Report No. F-2010-0021-FD1000
                                       world incident or required exercises.
                                       Report No. F-2010-0005-FC2000
                                                                                             Air Force Office of
                                       American Recovery and                                 Special Investigations
                                       Reinvestment Act                                      The Air Force Office of Special Investigations
                                       The American Recovery and Reinvestment Act            is a field operating agency accountable to the
                                       of 2009 was signed into law February 17, 2009.        Secretary of the Air Force, under the direction
                                       The purpose of the law was to create and save         and guidance of the Inspector General of the Air
                                       jobs, jump-start the economy, and create a            Force. It is a combat-ready, military organization
                                       foundation for long-term economic growth. The         that provides the Air Force a wartime capability
                                       Act allowed the Air Force to address unfunded         to conduct counter-threat operations to find, fix,
AFOSI agents engaged in CTO opera-
tions in the Southwest Asia theater.   facility requirements. The AFAA conducted             track, and neutralize enemy threats in hostile
                                       the following two audits evaluating the use of        and uncertain environments. It also serves as
                                       Recovery Act funds.                                   the Air Force’s focal point for working with
                                                                                             U.S. and foreign nation law enforcement and
                                       American Recovery and Reinvestment                    security services to provide timely and accurate
                                       Act of 2009 Recovery Accountability and               threat information in all environments. It
                                       Transparency Board Referrals Summary                  operates as a federal law enforcement agency
                                       The Recovery Accountability and Transparency          with responsibility for conducting criminal
                                       Board was created by the American Recovery            investigations, counterintelligence, specialized
                                       and Reinvestment Act of 2009 with two goals:          investigative activities, protective service
                                       provide transparency on use of recovery-related       operations, and integrated force protection of
                                       funds and prevent and detect fraud, waste,            the Air Force. AFOSI’s continued operations in
                                       and mismanagement. The board can audit and            Afghanistan and Iraq resulted in the following
                                       review stimulus spending either on its own or         accomplishments during this reporting period:
                                       with federal inspectors general; refer instances
                                       of fraud, waste, and mismanagement to federal

84 SEMIANNUAL REPORT TO THE CONGRESS
Bagram Air Base, Afghanistan                              Field. During execution of the operation,
• 	 In May 2010, the Air Base experienced                 items found on one insurgent revealed a
    a complex attack including direct and                 plot to assassinate or intimidate leaders of a
    indirect fire. In the aftermath, members              nearby, coalition-friendly village.
    of AFOSI used their local contacts to
    identify the point of origin of the mortar        Iraq Theater of Operations
    attack. Subsequent operations resulted            • 	 At Kirkuk Regional Air Base, AFOSI
    in five enemy combatants killed and one               members developed information that led
    wounded, plus the seizure of multiple                 directly to the capture of four Jaysh Rijal al-         An airman watches over his sector from
    weapons used during the attack. Through               Tariq al-Naqshabandi fighters responsible               a guard tower at Bagram Air Field.

    information collections near the Air Base,            for emplacing improvised explosive devices
    agents identified a local Taliban supporter           in the local area.
    who housed insurgents involved in attacks         • 	 In May 2010, as part of a multinational
    on the base. Based on this information, U.S.          and multi-service effort, agents located
    forces conducted an operation that led to             at Kirkuk Regional Air Base collected
    the capture of the supporter. During the              counterintelligence information that was
    ensuing search of the compound, 16 hand               used to obtain a warrant in Iraqi court for
    grenades, multiple load bearing vests, U.S./          the apprehension of a known terrorist.
    coalition forces boots, small arms, and three         As a result of the warrant’s execution, two
    anti-personnel land mines were found and              terrorists responsible for producing and
    processed for additional investigative leads.         employing improvised explosive devices
• 	 As a result of counterintelligence threat             and indirect fire against coalition forces
    operations, AFOSI members discovered and              were arrested.
    cultivated information regarding a specific       • 	 During collections operations, AFOSI
    indirect fire threat against the base. After          agents in Baghdad discovered connections
    coordinating with the local task force, forces        between some Iraqi government officials
    were dispatched to the area and eliminated            working at the Baghdad International
    the enemy’s ability to carry out the task.            Airport and known members of foreign
                                                          intelligence collection agencies. Agents
Kandahar Air Field, Afghanistan                           immediately sought and received debarment
• 	 As      a    direct      result    of   AFOSI         actions on the Iraqi government officials,
    counterintelligence operations, U.S. forces,          thus preventing them from entering the
    the British Resident Field Squadron,                  base.
    Canadian forces, and International
    Security Assistance Force Military Police         AFOSI accomplishments include:
    conducted a joint counter-threat operation        • 	 AFOSI’s Deployment Readiness &
    that led to the successful neutralization             Reintegration Program prepares its
    of a known insurgent targeting the Air                personnel for successful deployment
    Field. This particular insurgent was also             experiences.    The    most      significant
    known to procure improvised explosive                 component of DRRP is the Decompression
    devices and related components and to                 & Reintegration Center located at Ramstein
    facilitate the activities of suicide bombers in       Air Base, Germany. Over the past year, this
    attacks against the Air Field and Kandahar            center became the benchmark used by other               Airmen protect service members from
                                                                                                                  IEDs at Kandahar Airfield, Afghanistan.
    City. Materials used to make improvised               DoD agencies for developing their own
    explosive devices were seized during the              programs, including the newly established
    operation.                                            programs for the Air Force’s security forces,
• 	 Informant information led to a joint AFOSI,           explosive ordinance disposal, and combat
    British Resident Field Squadron, and                  transport personnel. Hundreds of personnel
    Afghan National Police operation targeting            have participated in these programs since
    five Taliban insurgents responsible for               February 2010. In July 2010, the Air Force
    recent indirect fire attacks targeting the Air        stood up the Deployment Transition Center

                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 85
Services



                                           at Ramstein AB as a key component of its       the clearance. The company’s contract involves
                                           new Air Force Resiliency program, and          working on classified space integration,
                                           modeled it after AFOSI’s DRC.                  component development, and testing and
                                       • 	 AFOSI’s Cyber Investigations & Operations      validation. The subsequent investigation
                                           program ran eight operations tracking          revealed that, in addition to his unreported
                                           foreign intrusion threats to the Air Force     travel and contacts, the employee used his
                                           mission. These operations provided the Air     position and falsely represented the company to
                                           Force with significant threat information      obtain a tour of a classified facility within the Air
                                           and garnered 159 positive evaluations from     Force Research Laboratory for which he had no
                                           the intelligence community, with one third     need to access. Forensic analyses of his personal
                                           of those reports deemed by the intelligence    laptop recovered sensitive but unclassified
                                           community to be of high value (four were       state-of-the-art satellite information, some of
                                           of major significance). In 2010, AFOSI’s       which was restricted International Traffic in
                                           CI&O program delivered 80 cyber target         Arms Regulations material and other which was
                                           packages for further exploitation by field     restricted FOUO. Together, this material could
                                           units. In 2010, AFOSI’s CI&O program           provide a classified picture of AFRL satellite
                                           was selected as the Department of Defense      work.
                                           Counterintelligence Technologies Team for      Result: This investigation, conducted jointly
                                           calendar year 2009.                            with FBI and ICE, resulted in the revocation of
                                                                                          the contractor employee’s access and clearance
                                                                                          and he was subsequently fired by the defense
                                       Significant Investigative Cases                    contracting company.
                                       B-2 Bomber Developer Selling Defense Secrets
                                                                                          Fuel Theft from Joint Base Balad, Iraq
                                       Overview: In a joint investigation with the FBI
                                                                                          Overview: Two cooperating witnesses reported
                                       and ICE, AFOSI investigated a former Northrop
                                                                                          to the International Contract Corruption Task
                                       Corporation employee for disclosing classified
                                                                                          Force that Turkish companies and their Iraqi
                                       information to foreign governments for financial
                                                                                          subcontractors were stealing U.S. government
                                       gain. While at Northrop, from 1968 through
                                                                                          diesel fuel from Joint Base Balad, Iraq. The
                                       1986, this employee was significantly involved
                                                                                          witnesses alleged the fuel thefts occurred near
                                       in developing the B-2 bomber. In 2005, he was
                                                                                          the “Burn Pit” and the fuel was transported off
The B-2 stealth bomber completed its   indicted on several counts of violating the Arms
                                                                                          base for resale on the black market in modified
first flight on July 17, 1989.         Export Control Act, communicating national
                                                                                          dump trucks with false fuel tanks. Surveillance
                                       defense information to aid a foreign nation
                                                                                          disclosed representatives from four Turkish and
                                       and to persons not entitled to receive it, money
                                                                                          three Iraqi contractors sponsored local Iraqi
                                       laundering, and tax evasion.
                                                                                          subcontractors operating modified trucks on
                                       Result: In August 2010, the former Northrop
                                                                                          base and these trucks were used to steal diesel
                                       Corporation employee was convicted on 14
                                                                                          and jet fuel.
                                       counts, including conspiracy, violating the Arms
                                                                                          Result: One Iraqi subcontractor agreed to settle
                                       Export Control Act, and money laundering.
                                                                                          with the U.S. government for $111,000. The
                                       Sentencing is scheduled for November 2010.
                                                                                          Regional Contracting Center, JBB, declined
                                                                                          to pursue a monetary recovery from one of
                                       Unreported Foreign Travel and Contacts by a
                                                                                          the Turkish prime contractors because their
                                       Defense Contractor
                                                                                          workload increased over the time frame of
                                       Overview: The Defense Security Service
                                                                                          the alleged fuel theft, making it too difficult
                                       forwarded information to AFOSI that a vice
                                                                                          to separate legitimate usage from illegitimate
                                       president of a cleared defense contractor for
                                                                                          usage. Negotiations are still ongoing with four
                                       the Air Force Research Laboratory purposely
                                                                                          other contractors. This was a joint investigation
                                       failed to disclose his frequent foreign travel
                                                                                          with Army CID.
                                       and meetings with foreign nationals to the
                                       company’s security officer as required to retain


86 SEMIANNUAL REPORT TO THE CONGRESS
              5


Appendices

Appendix A




Audit, Inspection, and
Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

           DoD IG                                                                                 Army Audit Agency
           (703) 604-8937                                                                         (703) 693-5679
           http://www.dodig.mil/PUBS                                                              http://www.hqda.army.mil/aaaweb

           Naval Audit Service                                                                    Air Force Audit Agency
           (202) 433-5525                                                                         (703) 696-7904
           http://www.hq.navy.mil/navalaudit                                                      https://www.afaa.af.mil

                                                                                                DoD IG                     Military Depts.                Total
  Joint Warfighting and Readiness                                                                  12                            86                        98
  Information Assurance, Security, and Privacy                                                      7                            39                        46
  Acquisition Processes/Contract Management                                                        27                            46                        73
  Financial Management                                                                             10                            47                        57
  Health Care                                                                                       2                             2                        4
  American Recovery and Reinvestment Act                                                           23                            15                        38

  Nuclear Enterprise                                                                                1                             3                        4
  Other                                                                                             3                            13                        16
   Total                                                                                           85                            251                      336


Joint Warfighting and Readiness
�
 Agency             Report Number          Report Title                                                                                      Date
 DoD IG             D-2010-056             U.S. European Command Civilian Staffing Process                                                   05/04/2010
 DoD IG             D-2010-060             Drawdown and Reset of Equipment in Iraq—Operation Clean Sweep                                     06/11/2010
 DoD IG             D-2010-067             Public-Private Partnerships at Air Force Maintenance Depots                                       06/10/2010
 DoD IG             D-2010-069             Central Issue Facility at Fort Benning and Related Army Policies                                  06/21/2010
 DoD IG             D-2010-084             Military Family Housing on Okinawa, Japan                                                         09/16/2010
 DoD IG             D-2010-088             Accountability and Disposition of Government Furnished Property in Conjunction with the           09/30/2010
                                           Iraq Drawdown – Logistics Civil Augmentation Program
 DoD IG             D-2010-091             DoD Needs to Improve Management and Oversight of Operations at the Theater Retrograde-            09/30/2010
                                           Camp Arifjan, Kuwait
 DoD IG             10-INTEL-04            Review of Joint Task Force Guantanamo’s Inclusion of Mental Health Information in                 05/04/2010
                                           Intelligence Information Reports
 DoD IG             10-INTEL-05            Field Verification-Interrogation and Survival, Evasion, Resistance, and Escape Techniques         04/16/2010
                                           Recommendation




 88 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                      Date
DoD IG   10-INTEL-12       Hotline Allegation of Misconduct at J23, USSOCOM                                                  09/23/2010
DoD IG   10-INTEL-14       Inspection of an Office of the Under Secretary of Defense Program – No. 3                         09/30/2010
DoD IG   SPO-2010-002      Review of Intra-Theater Transportation Planning, Capabilities, and Execution for the Drawdown     04/20/2010
                           in Iraq
USAAA    A-2010-0079-ALM   Maintenance Float Program - U.S. Army National Guard                                              04/14/2010
USAAA    A-2010-0084-ALE   Army Strategy for Establishing, Sustaining, and Transitioning Non-Traditional Installations       05/20/2010
                           (FOUO)
USAAA    A-2010-0086-ALE   Implementation of Standard Garrison Organization in Europe, U.S. Army Installation                04/15/2010
                           Management Command, Europe Region (FOUO)
USAAA    A-2010-0087-ALL   Follow-up Audit of Sensitive Items Accountability and Control, Abu Ghraib Warehouse, Iraq         04/12/2010
USAAA    A-2010-0088-ALL   Agreed-Upon Procedures Attestation to Evaluate Bulk Fuel Requests for Forward Operating           04/14/2010
                           Base Shank, Afghanistan (FOUO)
USAAA    A-2010-0089-ALR   Dormant Stock, U.S. Army TACOM Life Cycle Management Command                                      04/20/2010
USAAA    A-2010-0093-ALR   Army Reserve Maintenance Management Systems, U.S. Army Reserve Command and 63D                    05/20/2010
                           Regional Support Command
USAAA    A-2010-0095-FFF   Controls Over Basic Allowance for Subsistence and Dining Facility Charges                         05/05/2010
USAAA    A-2010-0098-ALL   Retrograde Operations in Southwest Asia, Donation and Transfer of Excess Materiel and             05/07/2010
                           Supplies, Office of the Deputy Chief of Staff, G-4
USAAA    A-2010-0100-FFP   Management of Military Construction Projects, Hawaii (FOUO)                                       05/20/2010
USAAA    A-2010-0101-FFF   Officer Career Incentive Program                                                                  05/28/2010
USAAA    A-2010-0103-ALR   Army Reserve Maintenance Management Systems, U.S. Army Reserve Command and 88th                   05/20/2010
                           Regional Support Command
USAAA    A-2010-0104-FFF   Army Waiver Program - Army National Guard                                                         06/07/2010
USAAA    A-2010-0107-ALR   Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager           06/02/2010
                           Stryker Brigade Combat Team
USAAA    A-2010-0111-ALR   Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,          06/10/2010
                           Electronic Warfare
USAAA    A-2010-0113-ALR    Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,         06/22/2010
                           Joint Lightweight Howitzer
USAAA    A-2010-0114-ALR   Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,          06/10/2010
                           Mine Resistant Ambush Protected
USAAA    A-2010-0118-FFF   Follow-up Audit of the Use of Role-Players for Training at Combat Training Centers                06/21/2010
USAAA    A-2010-0121-ALO   Real Property Sustainment, Restoration, and Modernization                                         06/25/2010
USAAA    A-2010-0124-FFM   Review of Port Congestion and Security Surcharges on Personal Property Shipments (FOUO)           07/02/2010
USAAA    A-2010-0129-ALR   Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,          07/07/2010
                           Cruise Missile Defense System
USAAA    A-2010-0131-FFM   Agreed-Upon Procedures Attestation of Audit Readiness of Source Documentation to Support          07/12/2010
                           Federally Owned Real Property Assets of the Kentucky Army National Guard
USAAA    A-2010-0132-ALR   Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,          07/08/2010
                           Utility Helicopter
USAAA    A-2010-0133-FFE   Time Sensitive Report--Accountability of Contractor-Acquired Property, Audit of Planning for      07/13/2010
                           Disposal of Chemical Demilitarization and Storage Facilities (FOUO)
USAAA    A-2010-0134-FFE   Funding Requirements for the Conventional Ammunition Demilitarization Program                     07/16/2010
USAAA    A-2010-0136-ALR   U.S. Army Reserve Command’s Maintenance Management System, U.S. Army Reserve 99th                 07/12/2010
                           Regional Support Command
USAAA    A-2010-0137-FFE   Time Sensitive Report - Accountability and Disposal of Relocatable Buildings, Facilities, and     07/14/2010
                           Excess Equipment, Audit of Planning for Disposal of Chemical Demilitarization and Storage
                           Facilities (FOUO)
USAAA    A-2010-0138-FFP   Dining Facility Operations -- Korea                                                               07/26/2010
USAAA    A-2010-0143-FFM   Follow-up Audit of FY 05 Subsistence Charges                                                      07/29/2010
USAAA    A-2010-0144-ALR   Follow-up Audit of Property Accountability, Oklahoma Army National Guard                          07/28/2010



                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 89
Appendix A
Agency          Report Number          Report Title                                                                                   Date
USAAA           A-2010-0146-ALR        Follow-up Audit of Inventory Accountability and Stockage Levels, Tobyhanna Army Depot          08/27/2010
USAAA           A-2010-0147-ALM        Army Management of Non-Army Managed Items                                                      08/02/2010
USAAA           A-2010-0148-ALR        Aviation Maintenance Operations, U.S. Army Reserve Command                                     07/29/2010
USAAA           A-2010-0149-FFS        FFS Table of Distribution and Allowances Workforce - Institutional Training                    08/04/2010
USAAA           A-2010-0155-ALI        Excess, Vacant, and Not Utilized Facilities and Land, Army National Guard                      08/05/2010
USAAA           A-2010-0157-FFS        Readiness of Modular Units, U.S. Army Reserve (FOUO)                                           08/06/2010
USAAA           A-2010-0158-FFE        Water Conservation Resources                                                                   08/18/2010
USAAA           A-2010-0160-ALM        Sustainment of Nonstandard Equipment (FOUO)                                                    08/31/2010
USAAA           A-2010-0163-FFE        Army Compatible Use Buffer Program                                                             08/12/2010
USAAA           A-2010-0165-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,       09/01/2010
                                       Heavy Brigade Combat Team
USAAA           A-2010-0166-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,       08/27/2010
                                       Aviation Systems
USAAA           A-2010-0167-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,       08/27/2010
                                       Close Combat Weapon Systems
USAAA           A-2010-0168-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System; PM, Unmanned           08/27/2010
                                       Aircraft Systems
USAAA           A-2010-0169-ALL        Follow-up Audit of Forward Operating Base Closures, United States Forces - Iraq                08/19/2010
USAAA           A-2010-0171-ALL        Disposal of Army Equipment and Material Into Defense Reutilization and Marketing Office        08/24/2010
                                       Sites in Iraq
USAAA           A-2010-0173-ALM        Maintenance Expenditure Limits                                                                 09/01/2010
USAAA           A-2010-0177-FFM        Internal Controls Over Personal Property Shipments -- Army                                     09/16/2010
USAAA           A-2010-0182-FFP        Surveillance of Construction Activities and Contracts, Far East District, U.S. Army Corps of   09/20/2010
                                       Engineers (FOUO)
USAAA           A-2010-0183-ALR        Dormant Stock, U.S. Army Aviation and Missile Life Cycle Management Command                    09/01/2010
USAAA           A-2010-0184-FFF        Directed Civilian Workforce Actions                                                            09/09/2010
USAAA           A-2010-0185-FFS        Post-Mobilization Training Requirements (FOUO)                                                 09/20/2010
USAAA           A-2010-0186-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,       09/08/2010
                                       Tactical Vehicles
USAAA           A-2010-0188-ALM        Depot-Level Maintenance Workload Reporting - FY 09                                             09/27/2010
USAAA           A-2010-0190-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System, Project Manager,       09/21/2010
                                       Command Post
USAAA           A-2010-0191-ALR        Workload Planning on Army’s Life Cycle Management of Conventional Ammunition (FOUO)            09/21/2010
USAAA           A-2010-0193-ALR        Follow-up Audit of Vehicle Registration Business Rules, Sierra Army Depot                      09/21/2010
USAAA           A-2010-0195-ALE        On-Call Compensation for Local National Employees in Germany, U.S. Army Installation           09/23/2010
                                       Management Command, Europe Region (FOUO)
USAAA           A-2010-0199-ALR        Project Managers’ Use of the Property Book Unit Supply Enhanced System; Project Manager,       09/21/2010
                                       Cargo Helicopters
USAAA           A-2010-0202-ALM        Accountability of Small Arms Repair Parts                                                      09/30/2010
USAAA           A-2010-0203-FFF        Follow-up Audit of the Follow-up Audit of Management of the Reserve Component Non-             09/23/2010
                                       Participants
USAAA           A-2010-0205-ALI        Follow-up Audit of Base Realignment and Closure 2005 Construction Requirements, Army           09/27/2010
                                       Reserve Southeast Regional Readiness Sustainment Command, Fort Jackson, South Carolina
USAAA           A-2010-0209-ZBI        Examination of Army Suggestion Program Number SWHU09001C, Fort Huachuca, Arizona               09/27/2010
USAAA           A-2010-0215-ALI        Follow-up Audit of Base Realignment and Closure 2005 Construction Requirements, Army           09/29/2010
                                       Reserve Northwest Regional Readiness Sustainment Command, Fort McCoy, Wisconsin
USAAA           A-2010-0219-FFM        Internal Controls Over Personal Property Shipment Costs--DoD                                   09/30/2010
USAAA           A-2010-0224-FFF        The Army’s Flight School XXI Training Program, Fort Rucker, Alabama                            09/30/2010
USAAA           A-2010-0227-ALI        Follow-up Audit of Base Realignment and Closure 2005 Construction Requirements, Army           09/30/2010
                                       Reserve Northeast Regional Readiness Sustainment Command, Fort Dix, New Jersey



90 SEMIANNUAL REPORT TO THE CONGRESS
Agency      Report Number        Report Title                                                                                      Date
NAVAUDSVC   N2010-0023           Identification and Reporting of Mission Essential Functions at Selected Navy Installations        04/15/2010
NAVAUDSVC   N2010-0028           Marine Corps Equipment Visibility                                                                 05/20/2010
NAVAUDSVC   N2010-0030           Marine Corps Traffic Safety Program at II Marine Expeditionary Force and Marine Corps             06/01/2010
                                 Installations East
NAVAUDSVC   N2010-0032           New Accessions Training Program Analysis                                                          06/08/2010
NAVAUDSVC   N2010-0041           Navy’s Traffic Safety Program for Naval District Washington                                       07/01/2010
NAVAUDSVC   N2010-0054           Marine Corps Traffic Safety Program at I Marine Expeditionary Force and Marine Corps              09/14/2010
                                 Installations West
NAVAUDSVC   N2010-0060           Navy’s Traffic Safety Program for Commander, Navy Region Mid-Atlantic                             09/23/2010
NAVAUDSVC   N2010-0061           Common Access Card Certificate Revocations                                                        09/30/2010
AFAA        F-2010-0012-FB1000   Follow-up Audit, Aviation Fuel Optimization                                                       09/08/2010
AFAA        F-2010-0004-FC2000   Engine Compressor Wash Management                                                                 08/19/2010
AFAA        F-2010-0006-FC2000   Mobile Air Traffic Control and Landing Systems                                                    08/30/2010
AFAA        F-2010-0006-FC4000   Off-Station Aviation Fuel Purchases                                                               06/30/2010
AFAA        F-2010-0009-FC4000   Follow-up Audit, Deployed Assets                                                                  09/13/2010
AFAA        F-2010-0011-FD1000   Construction Storm Water Management                                                               04/02/2010
AFAA        F-2010-0004-FD3000   United States Air Forces in Europe War Reserve Materiel Management                                04/08/2010
AFAA        F-2010-0005-FD3000   United States Air Forces Central Commercial Tender Program                                        04/29/2010
AFAA        F-2010-0007-FD3000   Command Post Equipment and Training                                                               07/30/2010
AFAA        F-2010-0009-FD3000   Weather Support to the Warfighter                                                                 08/30/2010
AFAA        F-2010-0005-FD4000   Technical Training Equipment                                                                      04/01/2010
AFAA        F-2010-0008-FD4000   Air Force Equal Opportunity Program                                                               07/21/2010

Information Assurance, Security, & Privacy
Agency      Report Number        Report Title                                                                                      Date
DoD IG      D-2010-050           Standard Procurement System Synchronization Utility (Classified)                                  04/02/2010
DoD IG      D-2010-058           Selected Controls for Information Assurance at the Defense Threat Reduction Agency                05/14/2010
DoD IG      D-2010-070           Defense Information Systems Agency Controls Placed in Operation and Tests of Operating            06/30/2010
                                 Effectiveness for the Period October 1, 2009 through April 30, 2010
DoD IG      D-2010-071           Defense Civilian Pay System Controls Placed in Operation and Tests of Operating Effectiveness     07/02/2010
                                 for the Period October 1, 2009 through April 30, 2010
DoD IG      D-2010-074           Information Assurance Controls for Defense Civilian Pay System for FY 2009                        08/02/2010
DoD IG      D-2010-090           Summary of Information Assurance Weaknesses Identified in Audit Reports Issued From               09/30/2010
                                 August 1, 2009, Through July 31, 2010
DoD IG      10-INTEL-09          Assessment of Security Within the Department of Defense – Tracking and Measuring Security         08/06/2010
                                 Costs; DoD IG
USAAA       A-2010-0058-FFI      Copier Management, Fort Sam Houston, Texas                                                        04/26/2010
USAAA       A-2010-0085-ZBI      Infrastructure Requirements for Special Operations Forces, U.S. Army Special Operations           04/06/2010
                                 Command (FOUO)
USAAA       A-2010-0090-FFD      Vulnerability Assessments and Risk Mitigation at Off-Installation Facilities, U.S. Army Reserve   04/28/2010
                                 Command (FOUO)
USAAA       A-2010-0091-FFI      Copier Management, Administrative Assistant to the Secretary of the Army                          04/26/2010
USAAA       A-2010-0094-ALA      Foreign Military Sales Process for Iraq and Afghanistan, U.S. Army Security Assistance            05/03/2010
                                 Command
USAAA       A-2010-0105-ALR      Implementation of the Logistics Domain Bridging Systems Initiatives, Office of the Deputy         06/10/2010
                                 Chief of Staff, G-4
USAAA       A-2010-0106-ZBI      Audit of Workload Requirements in U.S. Army Special Operations Command’s Office of the            06/03/2010
                                 Deputy Chief of Staff, G-3




                                                                                                                  APRIL 1, 2010 TO SEPTEMBER 30, 2010 91
Appendix A
Agency           Report Number         Report Title                                                                                     Date
USAAA            A-2010-0109-FFI       Attestation Examination of the Cost Benefit Analysis for the Enterprise Content Management       06/03/2010
                                       System
USAAA            A-2010-0115-FFI       Synchronizing Installation Information Technology Requirements, Office of the Chief              06/28/2010
                                       Information Officer/G-6
USAAA            A-2010-0128-FFI       Resources for the Global Network Enterprise Construct (FOUO)                                     07/14/2010
USAAA            A-2010-0130-FFI       Cellular Telephone Management, U.S. Army Installation Management Command                         07/20/2010
USAAA            A-2010-0139-ALE       Installation Pass Procedures in Europe, U.S. Army Installation Management Command, Europe        07/26/2010
                                       Region (FOUO)
USAAA            A-2010-0141-ZBI       Foreign Language Program - Training and Proficiency, Offices of the Deputy Chief of Staff, G-2   07/22/2010
                                       and the Deputy Chief of Staff, G-1
USAAA            A-2010-0142-ZBI       Management of Communications Security Materials, 66th Military Intelligence Brigade              07/22/2010
                                       (FOUO)
USAAA            A-2010-0153-ALL       Access Control Program, Area Support Group - Kuwait (FOUO)                                       09/03/2010
USAAA            A-2010-0154-ZBI       Management of Funds - Site A                                                                     08/03/2010
USAAA            A-2010-0159-ALE       Process to Acquire Information Technology in Europe                                              08/09/2010
USAAA            A-2010-0162-FFI       Data at Rest, Fort Carson, Colorado                                                              08/11/2010
USAAA            A-2010-0174-FFI       Network Enterprise Center Staffing                                                               09/07/2010
USAAA            A-2010-0192-ZBI       Management of Communications Security Materials, 513th Military Intelligence Brigade             09/13/2010
                                       (FOUO)
USAAA            A-2010-0200-FFD       Automated Installation Entry System, Office of the Provost Marshal General (FOUO)                09/22/2010
USAAA            A-2010-0201-FFI       Collaboration Between Network Enterprise Centers and Signal Soldiers                             09/22/2010
USAAA            A-2010-0206-FFI       Cellular Telephone Management, U.S. Army Training and Doctrine Command                           09/28/2010
USAAA            A-2010-0207-FFI       Audit of Cellular Telephone Management, U.S. Army Accessions Command                             09/28/2010
USAAA            A-2010-0208-FFI       Audit of Army Cellular Telephone Management                                                      09/28/2010
USAAA            A-2010-0211-FFP       Management of Communications Security Materials, 501st Military Intelligence Brigade             09/30/2010
                                       (FOUO)
USAAA            A-2010-0212-FFI       Data at Rest, Chief Information Officer/G-6CIO/G-6                                               09/29/2010
USAAA            A-2010-0213-ZBI       Management of Communications Security Materials, 470th Military Intelligence Brigade             09/28/2010
                                       (FOUO)
USAAA            A-2010-0221-FFD       Vulnerability Assessments and Risk Mitigation at Off-Post Sites, U.S. Army National Guard        09/30/2010
                                       (FOUO)
NAVAUDSVC        N2010-0040            Protecting Personally Identifiable Information at the Office of Civilian Human Resources and     06/30/2010
                                       Human Resources Service Centers
NAVAUDSVC        N2010-0045            Communications Security Equipment Outside of the Continental United States (Classified)          07/27/2010
NAVAUDSVC        N2010-0052            Managing Personally Identifiable Information at Selected Commander, Navy Installations           09/10/2010
                                       Command Activities
NAVAUDSVC        N2010-0057            Navy Marine Corps Intranet Contract Invoice Management at Space and Naval Warfare                09/16/2010
                                       Systems Command and Naval Facilities Engineering Command
AFAA             F-2010-0006-FB2000    Air National Guard Reserve Order Writing System Controls                                         04/30/2010
AFAA             F-2010-0007-FB2000    Expeditionary Combat Support System Controls                                                     05/27/2010
AFAA             F-2010-0008-FB2000    Financial System Access Controls                                                                 06/30/2010
AFAA             F-2010-0004-FB4000    Follow-up Audit, Selected Aspects of Computer Network Intrusion Detection (FOUO)                 04/05/2010
AFAA             F-2010-0005-FB4000    Publicly Accessible Air Force Web Sites                                                          05/14/2010
AFAA             F-2010-0007-FB4000    Access Controls for Air and Space Operations Center Networks                                     08/31/2010

Acquisition Processes/ Contract Management
Agency          Report Number          Report Title                                                                                     Date
DoD IG          D-2010-049             U.S. Army Corps of Engineers’ Use of Award Fees on Contracts in Iraq and Afghanistan             04/01/2010
DoD IG          D-2010-051             Defense Contract Management Agency Acquisition Workforce for Southwest Asia                      04/08/2010



92 SEMIANNUAL REPORT TO THE CONGRESS
Agency   Report Number     Report Title                                                                                     Date
DoD IG   D-2010-052        Efforts to Prevent Sexual Assault/Harassment Involving DoD Contractors During Contingency        04/16/2010
                           Operations
DoD IG   D-2010-054        Advisory and Assistance Services Contracts in Support of the Air Force Combat Search and         05/04/2010
                           Rescue Helicopter
DoD IG   D-2010-055        Medical/Surgical Prime Vendor Contract Supporting Coalition Forces in Iraq and Afghanistan       04/29/2010
DoD IG   D-2010-057        Public Works Operations at U.S. Army Garrison-Yongsan, Korea                                     05/04/2010
DoD IG   D-2010-059        Contingency Contracting: A Framework for Reform                                                  05/14/2010
DoD IG   D-2010-061        Counter Radio-Controlled Improvised Explosive Device Electronic Warfare Program (Classified)     05/21/2010
DoD IG   D-2010-063        Analysis of Air Force Secondary Power Logistics Solution Contract                                05/21/2010
DoD IG   D-2010-064        Army Vessels Maintenance Contracts in Southwest Asia                                             05/21/2010
DoD IG   D-2010-066        Oversight of the U.S. Air Forces Central War Reserve Materiel Contract                           05/28/2010
DoD IG   D-2010-068        Government Oversight of Field Service Representative and Instructor Services in Support of       06/17/2010
                           the Mine Resistant Ambush Protected Vehicle Program
DoD IG   D-2010-078        Air Force Use of Time-and-Materials Contracts in Southwest Asia                                  08/16/2010
DoD IG   D-2010-079        Security Provisions in a U.S. Army Intelligence and Security Command Contract for Linguist       08/13/2010
                           Support
DoD IG   D2010-080         Air Force Electronic Systems Center’s Use of Undefinitized Contractual Actions                   08/18/2010
DoD IG   D-2010-081        Army Use of Time-and-Materials Contracts in Southwest Asia                                       08/27/2010
DoD IG   D-2010-082        Implementation of the Predator/Sky Warrior Acquisition Decision Memorandum Dated May             09/10/2010
                           19, 2008
DoD IG   D-2010-085        Kuwait Contractors Working in Sensitive Positions Without Security Clearances or CACs            09/22/2010
DoD IG   D-2010-083        Construction of the New Kabul Compound Lacked Planning and Coordination (Classified)             09/30/2010
DoD IG   D-2010-087        Weaknesses in Oversight of Naval Sea Systems Command Ship Maintenance Contract in                09/27/2010
                           Southwest Asia
DoD IG   D-2010-6-002      Allegation of Unsatisfactory Conditions Regarding Actions by the Defense Contract                07/28/2010
                           Management Agency, Earned Value Management Center
DoD IG   D-2010-6-003      Actions to Establish Final Indirect Cost Rates on Reportable Contract Audit Reports by the       09/24/2010
                           Supervisor of Shipbuilding, Conversion and Repair, Groton, Connecticut
DoD IG   10-INTEL-06       FY 2009 Summary Report of Inspections on Security, Technology Protection, and                    05/21/2010
                           Counterintelligence Practices at DoD Research, Development, Test and Evaluation Facilities
DoD IG   10-INTEL-07       DoD Efforts to Protect Critical Program Information: The Army’s Warfighter Information           07/21/2010
                           Network – Tactical
DoD IG   10-INTEL-08       Inspection Guidelines for DoD Security, Intelligence, and Counterintelligence Support to         08/06/2010
                           Research, Development, and Acquisition Protection for 2010
DoD IG   10-INTEL-10       Report of the National Security Agency Georgia Cryptologic Center Construction Project           08/06/2010
DoD IG   10-INTEL-11       Audit of the Long Range Advanced Scout Surveillance System                                       09/03/2010
USAAA    A-2010-0096-ALL   Controls Over Vendor Payments - Southwest Asia (Phase II - U.S. Army Contingency Operations,     05/07/2010
                           Southwest Asia, Kuwait, Qatar, Iraq, and Afghanistan) (FOUO)
USAAA    A-2010-0099-ALC   Workload Survey--U.S. Army Contracting Operations (FOUO)                                         05/07/2010
USAAA    A-2010-0110-FFS   Follow-up Audit of the Strategic Management System Contract                                      06/21/2010
USAAA    A-2010-0112-ALA   Managing Modeling and Simulation Capabilities, Office of the Program Executive Officer,          06/07/2010
                           Integration
USAAA    A-2010-0117-ALC   Time Sensitive Issue - Defense Acquisition Workforce Development Fund                            06/22/2010
USAAA    A-2010-0126-ALL   Audit of Controls Over Vendor Payments - Southwest Asia (Phase II) (FOUO)                        07/08/2010
USAAA    A-2010-0135-ALL   Audit of Contracting Operations, Joint Contracting Command - Iraq/Afghanistan, Kandahar          07/12/2010
                           Regional Contracting Center, Afghanistan (FOUO)
USAAA    A-2010-0145-ALC   Army Contracting Performance Metrics                                                             07/28/2010
USAAA    A-2010-0150-ALA   Intelligence, Surveillance, Reconnaissance Aerial Sensor Capabilities (FOUO)                     08/09/2010
USAAA    A-2010-0151-ALA   Follow-up Audit of Army Aviation Capabilities (FOUO)                                             08/18/2010




                                                                                                            APRIL 1, 2010 TO SEPTEMBER 30, 2010 93
Appendix A
Agency          Report Number          Report Title                                                                                    Date
USAAA           A-2010-0152-ALL        Pilot Program for Defense Base Act Insurance, Headquarters, U.S. Army Corps of Engineers        08/31/2010
                                       (FOUO)
USAAA           A-2010-0156-ALC        Compliance With Section 807 of the 2008 National Defense Authorization Act                      08/24/2010
USAAA           A-2010-0161-ALE        Audit of Contract Operations in Europe                                                          08/11/2010
USAAA           A-2010-0170-ALA        Response to Inspector General Action Request DIG-09-90158 (FOUO)                                08/24/2010
USAAA           A-2010-0176-ALC        Audit of Contracting Activities in Iraq During and After Force Drawdown (FOUO)                  09/07/2010
USAAA           A-2010-0179-ZBI        Support Audit Request                                                                           08/31/2010
USAAA           A-2010-0180-ALA        Management and Use of Ground Combat System Training Aids, Devices, Simulators, and              08/31/2010
                                       Simulations
USAAA           A-2010-0181-FFS        Assistant Secretary of the Army (Manpower and Reserve Affairs) Service Contracts                09/20/2010
USAAA           A-2010-0189-FFD        Funding and Acquisition of the Biometrics Vehicle, Biometrics Identity Management Agency        09/20/2010
USAAA           A-2010-0194-ALC        Follow-up Audit on U.S. Army Center of Military History Contract Management, Assistant          09/21/2010
                                       Secretary of the Army (Installations and Environment)
USAAA           A-2010-0196-ALL        Audit of Contracting Operations, Joint Contracting Command - Iraq/Afghanistan, Regional         09/21/2010
                                       Contracting Center - Fenty (Jalalabad), Afghanistan
USAAA           A-2010-0197-ALL        Life Support Contracts for U.S. Forces at Basra, Iraq, Joint Contracting Command, Iraq and      09/23/2010
                                       Regional Contracting Command, Basra, Iraq
USAAA           A-2010-0198-ALL        Audit of Contracting Operations, Joint Contracting Command Iraq/Afghanistan, Salerno            09/21/2010
                                       Regional Contracting Center, Afghanistan
USAAA           A-2010-0204-ALL        Audit of Controls Over Logistics Civil Augmentation Program - White Property Iraq               09/28/2010
USAAA           A-2010-0214-ALA        Aerial Common Sensors, Office of the Program Manager, Aerial Common Sensors (FOUO)              09/29/2010
USAAA           A-2010-0225-ALA        Managing Modeling and Simulation Capabilities, Program Executive Office, Combat Support         09/30/2010
                                       and Combat Service Support
USAAA           A-2010-0226-ALA        Follow-up of Key Recommendations from Future Combat Systems Audits                              09/30/2010
NAVAUDSVC       N2010-0025             Contracting Practices for Strategic Systems Programs                                            04/28/2010
NAVAUDSVC       N2010-0034             Processes and Procedures for Reducing Anti-Submarine Warfare Capability Gap (Classified)        06/11/2010
NAVAUDSVC       N2010-0035             Aircraft Quantitative Requirements for the Acquisition of the Joint Primary Aircraft Training   06/14/2010
                                       System
NAVAUDSVC       N2010-0036             Department of the Navy Acquisition Checks and Balances at Fleet and Industrial Supply Center    06/16/2010
                                       Sigonella Naval Regional Contracting Detachments Bahrain and Dubai
NAVAUDSVC       N2010-0037             Contractor Support Services at the Naval Education and Training Command                         06/18/2010
NAVAUDSVC       N2010-0042             Service Contracts at Space and Naval Warfare Systems Command (SPAWAR) and SPAWAR                07/07/2010
                                       System Centers
NAVAUDSVC       N2010-0043             Use of Established Department of Defense Shipping Agreements/Contracts for Department of        07/22/2010
                                       the Navy Acquisitions on Guam
NAVAUDSVC       N2010-0044             Acquisition Checks and Balances at Selected Navy and Marine Corps Activities in the Western     07/22/2010
                                       Pacific
AFAA            F-2010-0002-FC1000     Follow-up Audit, Contract Field Team Program                                                    04/29/2010
AFAA            F-2010-0003-FC1000     Contracting Management Structure                                                                05/24/2010
AFAA            F-2010-0004-FC1000     Commodity Council Management                                                                    06/29/2010
AFAA            F-2010-0005-FC1000     Cost Reimbursement Service Contracts                                                            07/07/2010
AFAA            F-2010-0002-FC3000     C-130 Center Wing Modification                                                                  07/06/2010
AFAA            F-2010-0003-FC3000     Use of Performance Based Logistics in Air Force Programs                                        07/06/2010
AFAA            F-2010-0004-FC3000     Small Business Innovation Research                                                              07/07/2010
AFAA            F-2010-0005-FC3000     Minuteman III Intercontinental Ballistic Missile Safety Enhanced Reentry Vehicle Program        09/01/2010
                                       Management
AFAA            F-2010-0007-FC3000     Miniature Air Launched Decoy/Miniature Air Launched Decoy-Jammer Program Management             09/10/2010
AFAA            F-2010-0008-FC3000     Wideband Global SATCOM Program Management                                                       09/13/2010
AFAA            F-2010-0007-FC4000     Spare Parts Inductions                                                                          07/06/2010




94 SEMIANNUAL REPORT TO THE CONGRESS
Financial Management
�
Agency         Report Number     Report Title                                                                          Date
DoD IG         D-2010-053        Demographic Data Supporting the DoD Mass Transportation Benefit Program               04/16/2010
                                 Within the National Capital Region
DoD IG         D-2010-062        Controls Over Funds Appropriated for Assistance to Afghanistan and Iraq Processed     05/24/2010
                                 Through the Foreign Military Sales Network
DoD IG         D-2010-065        Validity and Security of Selected DoD Civilian Employee Accounts (Classified)         05/25/2010
DoD IG         D-2010-072        Management of Emergency Supplemental Appropriations at Selected Department            07/12/2010
                                 of the Army Commands in Response to Terrorist Attacks
DoD IG         D-2010-073        Controls Over Unliquidated Obligations for Department of the Army Contracts           07/19/2010
DoD IG         D-2010-075        Foreign Allowances and Differentials Paid to DoD Civilian Employees Supporting        08/17/2010
                                 Overseas Contingency Operations
DoD IG         D-2010-076        Recoupment of Advanced Education Costs from Disenrolled Air Force Academy             08/17/2010
                                 Cadets
DoD IG         D-2010-077        Air Force Military Personnel Entitlement Pay in Support of Contingency Operations     08/23/2010
DoD IG         D-2010-086        Utility Tax Avoidance Program in Germany                                              09/29/2010
DoD IG         D-2010-089        Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing the          09/30/2010
                                 FY 2010 Civilian Payroll Withholding Data and Enrollment Information
USAAA          A-2010-0071-FFP   Follow-up Audit of Controls Over Leave, Overtime, and Compensatory Time by            05/06/2010
                                 Army Commands in Hawaii
USAAA          A-2010-0082-ALL   Audit of Multi-National Security Transition Command - Iraq Security Forces Fund       04/12/2010
                                 (FOUO)
USAAA          A-2010-0097-ALL   Commander’s Emergency Response Program, Multi-National Force - Iraq, Summary          05/04/2010
                                 Report (FOUO)
USAAA          A-2010-0108-FFE   Time-Sensitive Report Potential Antideficiency Act Violation, Expenditure of Funds    06/08/2010
                                 Without a Bona Fide Need, Audit of Army Conservation Reimbursable Programs
                                 (FOUO)
USAAA          A-2010-0125-FFM   Review of the Army’s Compliance With the Federal Managers’ Financial Integrity Act    07/09/2010
USAAA          A-2010-0164-FFM   Gains and Deficiencies on Exchange Transactions Account                               08/18/2010
USAAA          A-2010-0172-FFM   Audit of the Request for Validation of Army Material Weakness Closure--Financial      08/30/2010
                                 Reporting of Equipment in Transit
USAAA          A-2010-0175-FFS   Attestation of FY 08 Lean Six Sigma Benefits                                          09/08/2010
USAAA          A-2010-0178-FFE   Army Conservation Reimbursable Programs, Office of the Assistant Chief of Staff for   09/08/2010
                                 Installation Management
USAAA          A-2010-0187-FFM   General Fund Enterprise Business System--Federal Financial Management                 09/14/2010
                                 Improvement Act Compliance, Examination of Requirements Through Test Event
                                 1.4.0 (FOUO)
USAAA          A-2010-0210-FFF   Compensation Strategies for the National Security Personnel System                    09/29/2010
USAAA          A-2010-0216-FFH   Attestation Examination of External Audit Services: Army Recreation Machine           09/30/2010
                                 Program Financial Statements, U.S. Army Family and Morale, Welfare and Recreation
                                 Command
USAAA          A-2010-0217-FFH   Attestation Examination of External Audit Services: Army Central Insurance            09/30/2010
                                 Fund Financial Statements, U.S. Army Family and Morale, Welfare and Recreation
                                 Command
USAAA          A-2010-0218-FFH   Attestation Examination of External Audit Services: Army Banking and Investment       09/30/2010
                                 Fund Financial Statements, U.S. Army Family and Morale, Welfare and Recreation
                                 Command
USAAA          A-2010-0220-FFM   Examination of Federal Financial Management Improvement Act Compliance--              09/30/2010
                                 Requirements, Logistics Modernization Program System, Third Deployment
USAAA          A-2010-0222-FFM   Non-Defense Travel System Entry Agent Vouchers, Assistant Secretary of the Army       09/30/2010
                                 (Financial Management and Comptroller)
NAVAUDSVC      N2010-0031        Environmental Differential Pay at Selected Department of the Navy Commands and        06/04/2010
                                 Activities



                                                                                                       APRIL 1, 2010 TO SEPTEMBER 30, 2010 95
Appendix A
Agency                   Report Number        Report Title                                                                          Date
NAVAUDSVC                N2010-0056           Use and Control of Military Interdepartmental Purchase Request (Classified)           09/15/2010
NAVAUDSVC                N2010-0059           Budget Execution at Selected Fleet Enterprise Activities                              09/22/2010
AFAA                     F-2010-0008-FB1000   United States Air Forces Central Deployed Locations Confidential Investigative        04/09/2010
                                              Contingency Funds
AFAA                     F-2010-0009-FB1000   Air Force Scientific Advisory Board Financial and Contract Management                 04/09/2010
AFAA                     F-2010-0010-FB1000   Aviation Petroleum, Oil, and Lubricant Unliquidated Obligations                       04/15/2010
AFAA                     F-2010-0011-FB1000   Selected Aspects of the Military Personnel Appropriation Centrally Managed            09/07/2010
                                              Allotment
AFAA                     F-2010-0009-FB2000   Implementation of Chief Financial Officer Compliance Tracking for Financial           07/28/2010
                                              Systems
AFAA                     F-2010-0010-FB2000   Defense Enterprise Accounting and Management System Accounting Conformance            08/23/2010
AFAA                     F-2010-0006-FB3000   General Fund Internal Use Software                                                    04/06/2010
AFAA                     F-2010-0007-FB3000   Air National Guard Tri-Annual Review Process                                          04/06/2010
AFAA                     F-2010-0008-FB3000   Tri-Annual Review Program Implementation                                              06/29/2010
AFAA                     F-2010-0010-FB3000   Military Equipment - Satellites                                                       08/20/2010
AFAA                     F-2010-0007-FC2000   Foreign Military Sales Cooperative Training Program                                   09/08/2010
AFAA                     F-2010-0006-FC3000   Aircraft Engine Component Improvement Program                                         09/09/2010
AFAA                     F-2010-0008-FC4000   Temporary Duty Travel Management                                                      09/13/2010
AFAA                     F-2010-0013-         Air Force Real Property Management - Dormitory Utilization (REVISED)                  04/15/2010
                         FD1000
AFAA                     F-2010-0014-         Interim Report of Audit, Wyoming Air National Guard at Cheyenne Electric Utilities    04/29/2010
                         FD1000               Privatization Economic Analysis
AFAA                     F-2010-0015-         Interim Report of Audit, Ellsworth AFB SD Gas Utilities Privatization Economic        05/03/2010
                         FD1000               Analysis
AFAA                     F-2010-0016-         Interim Report of Audit, Tyndall AFB FL Electronic Utilities Privatization Economic   06/04/2010
                         FD1000               Analysis
AFAA                     F-2010-0017-         Interim Report of Audit, Tyndall AFB FL Utilities Privatization Economic Analysis     06/17/2010
                         FD1000
AFAA                     F-2010-0018-         Interim Report of Audit, Tinker AFB OK Electric Utilities Privatization Economic      06/24/2010
                         FD1000               Analysis
AFAA                     F-2010-0019-         Interim Report of Audit, Tyndall AFB FL Water Utilities Privatization Economic        07/16/2010
                         FD1000               Analysis
AFAA                     F-2010-0020-         Fiscal Year 2010 Military Construction Planning                                       07/20/2010
                         FD1000
AFAA                     F-2010-0022-         Interim Report of Audit, Tyndall AFB FL Wastewater Utilities Privatization Economic   08/24/2010
                         FD1000               Analysis
AFAA                     F-2010-0023-         Interim Report of Audit, Niagara Falls ARS NY Wastewater Utilities Privatization      08/24/2010
                         FD1000               Economic Analysis
AFAA                     F-2010-0006-         Air Force Support to the Missile Defense Agency                                       05/04/2010
                         FD3000
AFAA                     F-2010-0006-         Active Duty Permanent Change of Station Management                                    05/06/2010
                         FD4000
AFAA                     F-2010-0007-         Military Leave Program                                                                07/01/2010
                         FD4000
AFAA                     F-2010-0009-         Military Education Repayment Program                                                  08/09/2010
                         FD4000
AFAA                     F-2010-0010-         Basic Allowance for Subsistence/Essential Station Missing Entitlements                09/01/2010
                         FD4000




96 SEMIANNUAL REPORT TO THE CONGRESS
Health Care
�
Agency      Report Number         Report Title                                                                                   Date
DoD IG      SPO-2010-006          Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel Exposed   09/17/2010
                                  to Sodium Dichromate at Qarmat Ali, Iraq in 2003
DoD IG      SPO-2010-007          Evaluation of DoD Accident Reporting                                                           09/30/2010
AFAA        F-2010-0009-FB3000    Service Medical Activity - Air Force Contract Labor Accounts Payable                           07/06/2010
AFAA        F-2010-0008-FD3000 United States Air Forces Central Deployed Locations Acquisition and Cross-Servicing               08/09/2010
                               Agreements


American Recovery and Reinvestment Act
Agency      Report Number          Report Title                                                                                  Date
DoD IG      D-2010-RAM-005         Construct Child Development Center, Marine Corps Base Camp Pendleton, California              05/26/2010
DoD IG      D-2010-RAM-006         Airfield Repairs, Naval Air Station/Joint Reserve Base, New Orleans                           05/21/2010
DoD IG      D-2010-RAM-007         Child Development Center at Fort Eustis, Virginia Recovery Act Project 7                      05/28/2010
DoD IG      D-2010-RAM-008         American Recovery and Reinvestment Act Project—Repair and Modernization of Littoral           06/11/2010
                                   Combat Ship Squadron Building at Naval Base San Diego, California
DoD IG      D-2010-RAM-009         Recovery Act Projects at Fort Eustis, Virginia- Projects 2146 and 619                         06/07/2010
DoD IG      D-2010-RAM-010         American Recovery and Reinvestment Act Project—Repair and Modernization of                    06/11/2010
                                   Administrative Building 1500 at Naval Air Station Pensacola, Florida
DoD IG      D-2010-RAM-011         American Recovery and Reinvestment Act Projects—Fort Drum, New York                           06/21/2010
DoD IG      D-2010-RAM-012         American Recovery and Reinvestment Act Project—Repairs at Naval Operational Support           07/07/2010
                                   Centers in Charlotte and Greensboro, North Carolina
DoD IG      D-2010-RAM-013         American Recovery and Reinvestment Act Projects-341st Missile Wing, Malmstrom Air             07/02/2010
                                   Force Base
DoD IG      D-2010-RAM-014         American Recovery and Reinvestment Act Projects—21st Space Wing, Peterson Air Force           07/15/2010
                                   Base, Colorado
DoD IG      D-2010-RAM-015         American Recovery and Reinvestment Act Project—Construct a Child Development                  07/15/2010
                                   Center at Marine Corps Base Hawaii
DoD IG      D-2010-RAM-016         American Recovery and Reinvestment Act Funds Properly Used for Aircraft Parking Apron         08/12/2010
                                   Repairs at the Minneapolis—St. Paul Air Reserve Station, Minnesota
DoD IG      D-2010-RAM-017         American Recovery and Reinvestment Act Project—Repair of the Pacific Air Forces               08/13/2010
                                   Headquarters Building at Hickam Air Force Base, Hawaii
DoD IG      D-2010-RAM-018         Naval Medical Center Portsmouth, Building 3                                                   08/13/2010
DoD IG      D-2010-RAM-019         Army Projects in the DoD Near Term Energy-Efficient Technologies Program Funded by the 08/27/2010
                                   American Recovery and Reinvestment Act of 2009
DoD IG      D-2010-RAM-020         ARRA—Repairs to the Reserve Training Center and Construction of a Vehicle Maintenance         09/10/2010
                                   Facility at Wilmington, Delaware, Met Recovery Act Goals
DoD IG      D-2010-RAM-021         American Recovery and Reinvestment Act of 2009—Minot Air Force Base Facility and              09/24/2010
                                   Construction Projects
DoD IG      D-2010-RAM-022         Audit of the U.S. Army Corps of Engineers Civil Works Pittsburgh District Recovery Act        09/30/2010
                                   Implementation
DoD IG      D-2010-RAM-023         U.S. Army Corps of Engineers, Civil Works, Memphis District, Has Improved Its Compliance      09/30/2010
                                   With the American Recovery and Reinvestment Act
DoD IG      D-2010-RAM-024         American Recovery and Reinvestment Act—Project P-236, “Replace Water Distribution             09/24/2010
                                   System,” at Naval Air Station Whidbey Island, Washington, Was Justified
DoD IG      D-2010-RAM-025         U.S. Army Corps of Engineers, Civil Works, New England District, Complied with the            09/30/2010
                                   American Recovery and Reinvestment Act
DoD IG      D-2010-RAM-026         ARRA –Construction of 23 Family Housing Units and 5 Facilities Sustainment, Restoration,      09/30/2010
                                   and Modernization Projects at Fort McCoy, Wisconsin
DoD IG      D-2010-RAM-027         U.S. Army Corps of Engineers, Huntington District Complied With the American Recovery         09/30/2010
                                   and Reinvestment Act
USAAA       A-2010-0073-ALO        American Recovery and Reinvestment Act of 2009, Fort Bragg, North Caroina                     04/05/2010


                                                                                                                 APRIL 1, 2010 TO SEPTEMBER 30, 2010 97
Appendix A
Agency            Report Number        Report Title                                                                                 Date
USAAA             A-2010-0092-ALR      American Recovery and Reinvestment Act of 2009, Idaho Army National Guard                    04/29/2010
USAAA             A-2010-0102-ALR      American Recovery and Reinvestment Act of 2009, Joint Base Lewis-McChord                     05/20/2010
USAAA             A-2010-0116-ALR      American Recovery and Reinvestment Act of 2009, Connecticut Army National Guard              06/17/2010
USAAA             A-2010-0120-ALO      American Recovery and Reinvestment Act of 2009, Fort Stewart and Hunter Army Airfield,       06/23/2010
                                       Georgia (FOUO)
USAAA             A-2010-0123-FFE      American Recovery and Reinvestment Act of 2009, Pine Bluff Arsenal, Arkansas                 06/24/2010
USAAA             A-2010-0127-FFE      American Recovery and Reinvestment Act of 2009, Aberdeen Proving Ground, Maryland            07/01/2010
USAAA             A-2010-0140-ALO      American Recovery and Reinvestment Act of 2009, Dwight D. Eisenhower Army Medical            07/21/2010
                                       Center, Fort Gordon, Georgia
USAAA             A-2010-0223-FFE      American Recovery and Reinvestment Act of 2009, U.S. Army Corps of Engineers Portland        09/30/2010
                                       District
NAVAUDSVC         N2010-0022           American Recovery and Reinvestment Act of 2009 – Naval Support Activity, Annapolis, MD 04/15/2010
NAVAUDSVC         N2010-0027           American Recovery and Reinvestment Act of 2009- Naval Station, Norfolk, VA                   05/14/2010
NAVAUDSVC         N2010-0048           American Recovery and Reinvestment Act of 2009 – Marine Corps Air Station, New River,        08/13/2010
                                       NC
NAVAUDSVC         N2010-0058           American Recovery and Reinvestment Act of 2009- Marine Corps Air Station, Miramar, CA        09/17/2010
AFAA              F-2010-0012-FD1000   American Recovery and Reinvestment Act of 2009 Recovery Accountability and                   04/02/2010
                                       Transparency Board Referrals Summary
AFAA              F-2010-0021-FD1000   Fiscal Year 2010 Recovery Accountability and Transparency Board Referrals Summary            07/20/2010


Nuclear Enterprise
Agency            Report Number        Report Title                                                                                 Date
DoD IG            10-INTEL-13          Sustaining the WS3 Security Storage System                                                   09/30/2010
AFAA              F-2010-0006-FB4000   System Controls for the Nuclear Enterprise Management Tool                                   07/21/2010
AFAA              F-2010-0005-FC2000   Nuclear Certification of Aircraft and Test Equipment Software                                08/23/2010
AFAA              F-2010-0005-FC4000   Nuclear Weapons Related Materiel Inventories                                                 05/03/2010


Other
Agency          Report Number          Report Title                                                                                 Date
DoD IG          SPO-2010-008           Quality Assurance Review of the Defense Education Activity Hotline Program                   09/30/2010
DoD IG          SPO-2010-003           Review of DoD Compliance with Section 847 of the NDAA For FY2008                             06/18/2010
DoD IG          SPO-2010-004           Evaluation of the DoD Federal Voting Assistance Program                                      09/30/2010
NAVAUDSVC       N2010-0024             Providing Navy Guidance on Issuance of Small Arms                                            04/27/2010
NAVAUDSVC       N2010-0026             Pricing and Comparison of Defense Travel System Airfares                                     05/13/2010
NAVAUDSVC       N2010-0029             Management of Hazardous Materials at Fleet and Industrial Supply Center Norfolk              05/26/2010
NAVAUDSVC       N2010-0033             Prioritization of Navy Military Construction Projects for Research, Development, Test and    06/10/2010
                                       Evaluation Facilities
NAVAUDSVC       N2010-0038             Consideration of Hazardous Noise in the Acquisition of Selected Major Department of the      06/22/2010
                                       Navy Weapon Systems and Platforms
NAVAUDSVC       N2010-0039             Follow-up of NAVAUDSVC Recommendations for Management of Special Tooling and                 06/23/2010
                                       Special Test Equipment Audits
NAVAUDSVC       N2010-0046             Defense Travel System                                                                        08/03/2010
NAVAUDSVC       N2010-0047             Prioritization and Selection of Navy Military Construction Projects for Program Objectives   08/12/2010
                                       Memorandum 2010 Funding
NAVAUDSVC       N2010-0049             Department of the Navy Red Hill and Upper Tank Farm Fuel Storage Facilities                  08/16/2010
NAVAUDSVC       N2010-0050             Naval Audit Service Input for the Fiscal Year 2010 Statement of Assurance                    08/20/2010
NAVAUDSVC       N2010-0051             Accountability of Purchases Made Using Military Interdepartmental Purchase Requests at       09/03/2010
                                       Naval Facilities Engineering Command, Southwest



98 SEMIANNUAL REPORT TO THE CONGRESS
 Agency          Report Number        Report Title                                                                     Date
 NAVAUDSVC       N2010-0053           Payment of Basic Allowance for Housing for Navy Region Southwest                 09/13/2010
 NAVAUDSVC       N2010-0055           Department of the Navy Geothermal Energy Program                                 09/15/2010



▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6).




                                                                                                         APRIL 1, 2010 TO SEPTEMBER 30, 2010 99
Appendix B




Reports Containing Potential
Monetary Benefits
                                                                                                         Potential Monetary Benefits
                                 Reports Issued                                                        Disallowed         Funds Put to
                                                                                      Date
                                                                                                          Costs            Better Use


  D-2010-057 Public Works Operations at U.S. Army Garrison-Yongsan, Korea          05/04/2010              N/A             $569,851


  D-2010-063 Analysis of Air Force Secondary Power Logistics Solution Contract     05/21/2010              N/A            $70,100,000

  D-2010-067 Public-Private Partnerships at Air Force Maintenance Depots           06/10/2010              N/A            $3,100,000

  D-2010-069 Central Issue Facility at Fort Benning and Related Army Policies      06/21/2010              N/A            $2,500,000
  D-2010-073 Controls Over Unliquidated Obligations for Department of the
                                                                                   07/19/2010              N/A            $4,400,000
  Army Contracts

                                                                                                       $24,300,000
  D-2010-078 Air Force Use of Time-and-Materials Contracts in Southwest Asia       08/16/2010                                 N/A
                                                                                                      (Questioned)

                                                                                                       $3,688,338
  D-2010-081 Army Use of Time-and-Materials Contracts in Southwest Asia            08/27/2010                                 N/A
                                                                                                      (Questioned)
  D-2010-082 Implementation of the Predator/Sky Warrior Acquisition Decision
                                                                                   09/10/2010              N/A            $60,000,000
  Memorandum Dated May 19, 2008
  D-2010-083 Construction of the New Kabul Compound Lacked Planning and
                                                                                   09/30/2010              N/A              $96,694
  Coordination
  D-2010-086 Utility Tax Avoidance Program in Germany                              09/29/2010              N/A            $2,800,000
  D-2010-087 Weaknesses in Oversight of Naval Sea Systems Command Ship                                 $1,601,028
                                                                                   09/27/2010                             $1,071,134
  Maintenance Contract in Southwest Asia                                                              (Questioned)
  D-2010-6-003 Actions to Establish Final Indirect Cost Rates on Reportable
  Contract Audit Reports by the Supervisor of Shipbuilding, Conversion and         09/24/2010          $1,919,000             N/A
  Repair, Groton, Connecticut
  Totals                                                                                               $31,508,366       $144,637,679

▶ Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6) (See Appendix
A).




100 SEMIANNUAL REPORT TO THE CONGRESS
Appendix C




                                                                                    Follow-up Activities
Decision status of DoD IG issued audit reports and dollar value of recommendations that funds be put to better use.

                                                                                                                  Funds Put
                                      Status                                          Number                   To Better Use 1
                                                                                                              ($ in thousands)
  A.    For which no management decision had been made by the
        beginning of the reporting period.                                              27                                    $4,215,130
  B.    Which were issued during the reporting period.                                  66                                       103,557
        Subtotals (A+B)                                                                 93                                      4,318,687
                                                                                                                                4,222,630

  C.    For which a management decision was made during the reporting period.
  (i)       dollar value of recommendations that were agreed to by management.
  - based on proposed management action
  - based on proposed legislative action                                                                                        3,840,000
  (ii)      dollar value of recommendations that were not agreed to by
            management.
                                                                                        62                                       382,6302

  D.   For which no management decision has been made by the
       end of the reporting period.                                                     31                                       $96,057
        Reports for which no management decision was made within
        six months of issue (as of September 30, 2010).                                  0                                               0

1. 	 DoD IG issued audit reports during the period involving “questioned costs” of $29.6 million.
2. 	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary benefits
     cannot be determined until those actions are completed.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(8),(9), & (10).




                                                                                                      APRIL 1, 2010 TO SEPTEMBER 30, 2010 101
Appendix C




Follow-up Activities
Status of actions on central internal audits period ending September 30, 2010


                                                                                                               Funds Put to
                                                   Status                                      Number           Better Use 1
                                                                                                             ($ in thousands)
           DoD IG
              Action in Progress - Beginning of Period                                           230             $44,654
              Action Initiated - During Period                                                    62            4,222,630
              Action Completed - During Period                                                   207            4,159,105
              Action in Progress - End of Period                                                  85             43,0362
           Military Departments
              Action in Progress - Beginning of Period                                           676            4,767,734
              Action Initiated - During Period                                                   243            1,578,275
              Action Completed - During Period                                                   326             174,041
              Action in Progress - End of Period                                                 593            5,119,253

1.	� There were DoD IG audit reports opened for follow-up during the period involving “questioned costs” of $17 thousand.
2.	� On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,092 million, we agreed that the
    resulting monetary benefits can only be estimated after completion of management action, which is ongoing.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(2) & (3).




102 SEMIANNUAL REPORT TO THE CONGRESS
Appendix D




                                                       Contract Audit Reports Issued
	

                                                                          Dollars
                                                                        Examined              Questioned
  Type of audit1                                 Reports Issued       ($ in millions)           Costs2               Funds Put to Better Use
  Incurred Costs, Ops Audits,
  Special Audits                                      2,495             $28,350.3               $604.8                        $58.83

  Forward Pricing Proposals                           2,896             $66,035.6                  ---                       $5,413.74

  Cost Accounting Standards                            464                $60.8                  $11.9                           ---

  Post-award Audits                                    29                (Note 5)                 $.8                            ---

  Totals                                              5,884             $94,446.7               $617.5                       $5,472.5

This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended September 30,
2010. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agencies, and the associ-
ated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to Better
Use” represent potential cost savings. Because of limited time between availability of management information system data and legisla-
tive reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly, submitted
data is subject to change based on subsequent DCAA authentication. In prior semiannual reporting periods, DCAA reported the total
number of assignments completed. The total number of assignments completed during the six months ended September 30, 2010 was
8,866. Some completed assignments do not result in a report issued because they are part of a larger audit or because the scope of the
work performed does not constitute an audit or attestation engagement under generally accepted government auditing standards, so
the number of audit reports issued is less than the total number of assignments completed.
1. 	 This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
          Incurred Costs – Audits of direct and indirect costs charged to government contracts to determine that the costs are reason-
          able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
          Supplement, and provisions of the contract. Also included under Incurred Cost Audits are Operations Audits, which evaluate
          a contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and Special
          Audits, which include audits of terminations and claims.
          Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
          costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
          Cost Accounting Standards – An audit of a contractor’s cost impact statement required due to changes to disclosed practices,
          failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
          Postaward Audit – An audit to determine whether contracts are based on current, complete, and accurate cost or pricing data
          (the Truth in Negotiations Act).
2. 	 Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or con-
     tractual terms.
3. 	 Represents recommendations associated with operations audits where DCAA has presented to a contractor that funds could be used
     more effectively if management took action to implement cost reduction recommendations.
4. 	 Represents potential cost reductions that may be realized during contract negotiations.
5. 	 Defective pricing dollars examined are not reported because the original value was included in the audits associated with the original
     forward pricing proposals.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 8(f)(1).



                                                                                                         APRIL 1, 2010 TO SEPTEMBER 30, 2010 103
Appendix E




Status of Action on Post-
Award Contracts
                                                                                   Costs Questioned
                                                       Number of Reports             ($ in millions)          Disallowed Costs5
      Open Reports:
        Within Guidelines1                                     242                      $257.3                      N/A6
        Overage, greater than 6 months2                        576                     $1,173.6                      N/A
        Overage, greater than 12 months   3
                                                               478                     $1,235.7                      N/A
        In Litigation   4
                                                               171                     $2,177.7                      N/A
      Total Open Reports                                      1,467                    $4,844.3                      N/A
      Closed Reports                                           375                      $275.5                 $129.1 (46.9%)7
      All Reports                                             1,842                    $5,119.8                 $129.1 (2.5%)

This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable adjust-
ments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards as reported by the
Army, Navy, Air Force, Defense Contract Management Agency, Defense Intelligence Agency, Defense Logistics Agency, National
Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activity. The status of action on significant
post-award contract audits is reported in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports”.
Because of limited time between availability of the data and reporting requirements, there is minimal opportunity to verify the accuracy
of the reported data.
1. 	 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction 7640.02 as
     described in footnotes 3 and 4 below.
2. 	 OMB Circular A-50 requires that audit reports be resolved within six months after report issuance. Generally, an audit is resolved
     when the contracting officer determines a course of action which is documented and approved in accordance with agency policy.
3. 	 DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance. Generally,
     disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a settlement with
     the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
4. 	 Of the 171 reports in litigation, 48 are under criminal investigation.
5. 	 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
6. 	 N/A (not applicable).
7. 	 Contracting officers disallowed $129.1 million (46.9 percent) of the $275.5 million questioned as a result of significant post-award
     contract audits during the period. The contracting officer disallowance rate of 46.9 percent represents a decrease from the disallow-
     ance rate of 48.4 percent for the prior reporting period.

▶ Fulfills requirement of DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” Enclosure 2, Section (1)(d).




104 SEMIANNUAL REPORT TO THE CONGRESS
Appendix F




                                                                              Status of Reports with
                                                                                     Action Pending
In response to Congressional concern with the timeliness of corrective actions taken to implement Office of the Inspector General audit
report findings and recommendations, the Inspector General and senior Departmental management completed a comprehensive review
of the status of agreed-upon implementing actions. As a result of this review, the number of reports over 12 months old with incomplete
management implementing action decreased from 184 in the last reporting period to 51 for the period ending September 30, 2010. The
status of those actions is discussed below.



Report: D-2002-010, Armed Services Blood Program Defense                 Report: D-2006-043, Financial Management: Report on Army
Blood Standard System, 10/22/2001                                        Management of the Army Game Project Funding, 10/06/2006
Description of Action: Commercial-Off-The-Shelf solution to              Description of Action: Establish procedures to ensure the ap-
correct the inventory counting and interface problems has been           propriate funding of the Army Game Project, determine if there
selected. Efforts continue to award contract for development/            have been any Antideficiency Act violations, and report any such
implementation/deployment of Enterprise Blood Management                 violations, as required.
System.                                                                  Reason Action Not Completed: The final report on the ADA
Reason Action Not Completed: Years were spent in obtaining               investigation is in review by Army General Counsel.
funding and reconfiguring DBSS. However, in 3/09 acquisition             Principle Action Office: Army
strategy required replacement of DBSS with COTS product. De-
ployment to begin mid-2011 with completion in mid-2012.                  Report: D-2006-056, Financial Management: Report on Vendor
Principle Action Office: AF, ASD(HA)                                     Pay Disbursement Cycle, Air Force General Fund: Contract For-
                                                                         mation and Funding, 03/06/2006
Report: D-2003-110, Information Technology Management:                   Description of Action: The Air Force will review and revise exist-
Defense Civilian Personnel Data System Functionality and User            ing guidance.
Satisfaction, 07/27/2003                                                 Reason Action Not Completed: Lack of management emphasis
Description of Action: The Civilian Personnel Management Ser-            in developing and implementing new guidance.
vice continues to work on initiatives to achieve goals for system        Principle Action Office: AF
standardization of basic civilian personnel operations.
Reason Action Not Completed: No funding for the electronic-              Report: D-2006-077, DoD Security Clearance Process at Request-
Official Personnel File initiative. Enterprise Staffing Solution pilot   ing Activities, 04/19/2006
program was cancelled. CPMS now partnered with the BTA                   Description of Action: Updating policies for the DoD Person-
and OUSD (P&R) to validate requirements and restart an effort            nel Security Clearance Program to include various information
named the Defense Enterprise Hiring Solution.                            including program management and investigative responsibilities,
Principle Action Office: USD(P&R)                                        security clearance systems, submission processes, types and levels
                                                                         of security clearances, and training requirements for security
Report: D-2005-054, Audit of the DoD Information Technology              personnel.
Security Certification and Accreditation Process, 04/28/2005             Reason Action Not Completed: Despite repeat recommenda-
Description of Action: Report is FOUO.                                   tions to revise personnel security program guidance, the current
Reason Action Not Completed: Actions have been ongoing                   guidance is dated January 1987. Delays continue for revision and
since July 2005. ASD (NII) is still working to revise guidance, but      coordination of DoD Instruction 5200.2 and DoD Manual 5200.2.
anticipates completion in 2nd Quarter FY 2011.                           Army guidance is now in coordination. Air Force guidance is
Principle Action Office: ASD(NII)                                        being revised.
                                                                         Principle Action Office: USD(I), ARMY, AF


                                                                                                         APRIL 1, 2010 TO SEPTEMBER 30, 2010 105
Appendix F
Report: D-2007-043, Controls Over the Army, Navy, and Air            Report: D-2008-079, Management of Incremental Funds on Air
Force Purchase Card Programs, 01/10/2007                             Force Research, Development, Test, and Evaluation Contracts,
Description of Action: The Air Force will revise purchase card       04/08/2008
guidance and improve efforts to disseminate and implement guid-      Description of Action: Conduct preliminary Antideficiency Act
ance.                                                                investigations and clarify the use of Research, Development, Test,
Reason Action Not Completed: Continuous coordination delays          and Evaluation funds.
resulting in extensive time taken to issue policy guidance.          Reason Action Not Completed: The last of four preliminary
Principle Action Office: AF                                          Antideficiency Act cases is under review.
                                                                     Principle Action Office: AF
Report: D-2008-002, DoD Salary Offset Program, 10/09/2007
Description of Action: Make modifications to existing systems        Report: D-2008-082, Summary Report on Potential Antideficien-
to properly compute salary offsets for military members, retirees,   cy Act Violations Resulting From DoD Purchases Made Through
and annuitants.                                                      Non-DoD Agencies (FY 2004 Through FY 2007), 04/25/2008
Reason Action Not Completed: Extensive time required to make         Description of Action: Determine why DoD components did not
modifications to three existing systems.                             complete formal investigations into potential Antideficiency Act
Principle Action Office: DFAS                                        violations within the required timeframes and monitor comple-
                                                                     tion of investigations.
Report: D-2008-042, Reporting of Contract Financing Interim          Reason Action Not Completed: Air Force needs to complete a
Payments on the DoD Financial Statements, 01/31/2008                 second formal investigation.
Description of Action: Include consistent policy for capitalizing    Principle Action Office: USD(C)
Research, Development, Test, and Evaluation expenses in the
DoD Financial Management Regulation.                                 Report: D-2008-089, Planning Armor Requirements for the Fam-
Reason Action Not Completed: Extensive time taken to revise          ily of Medium Tactical Vehicles, 05/09/2008
and coordinate the regulation.                                       Description of Action: Update the capabilities documents for the
Principle Action Office: USD(C)                                      FMTV to include armor kit requirements. Once these require-
                                                                     ments are approved, document plans for distribution and issuance
Report: D-2008-045, Controls Over the TRICARE Overseas               of the armor kits.
Healthcare Program, 02/07/2008                                       Reason Action Not Completed: Although action was initiated in
Description of Action: ASD (HA) is implementing recommen-            late 2008, Army has yet to establish validated armor kit require-
dations to further control health care costs provided to overseas    ments for the FMTV.
DoD beneficiaries.                                                   Principle Action Office: Army
Reason Action Not Completed: TRICARE manual changes
related to beneficiary claims are needed. The use of price caps      Report: D-2008-090, Controls Over Reconciling Army Working
will be implemented in Mexico and Costa Rica and additional          Capital Fund Inventory Records, 05/13/2008
countries are under consideration.                                   Description of Action: AT&L is working to revise the guidance
Principle Action Office: ASD(HA)                                     and criteria for performing the annual and end-of-day inventory
                                                                     reconciliations in DoD 4000.25-2-M, “Military Standard Transac-
Report: D-2008-066, FY 2006 and FY 2007 DoD Purchases Made           tion Reporting and Accounting Procedures.” The Army is also
Through the Department of the Interior, 03/19/2008                   working to update its regulations, policies, and procedures.
Description of Action: Address deficiencies in the development       Reason Action Not Completed: Developing alternative solu-
of independent government cost estimates, price negotiation          tions in lieu of implementing planned actions. Also, see ac-
memorandums, and use of time-and-materials contracts. Imple-         tions pertaining to DoD IG report project number D-2009-
ment an enforcement program.                                         D000FI-0139.000.
Reason Action Not Completed: The Army is not expected to             Principle Action Office: USD(AT&L), Army
publish a Directive addressing problems identified in FYs 2006
and 2007 interagency acquisitions until September 2011.              Report: D-2008-118, Host Nation Support of U.S. Forces in Ko-
Principle Action Office: Army                                        rea, 08/25/2008
                                                                     Description of Action: Conduct joint reviews of accounting and
Report: D-2008-077, United States Army Corps of Engineers            disbursing procedures for Labor Cost Sharing funds. Prepare
Financial Management System, 04/08/2008                              and issue any required updates to current policies and procedures
Description of Action: Report is FOUO.                               based on joint review results.
Reason Action Not Completed: USACE is continuing to try to           Reason Action Not Completed: Extensive time taken to complete
address long-term problems in its basic IT management system.        coordination between DoD components to conduct joint reviews
Principle Action Office: Army                                        of accounting and disbursing policy, and update appropriate
                                                                     policy guidance.
                                                                     Principle Action Office: USD(C)
106 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2008-130, Approval Process, Tracking, and Financial       Report: D-2009-036, Acquisition of the Air Force Second Gen-
Management of DoD Disaster Relief Efforts, 09/17/2008               eration Wireless Local Area Network, 01/16/2009
Description of Action: Clarify the term “appropriateness” and       Description of Action: Obtain OUSD(AT&L) approval for the
reflect the new organizations, roles, and responsibilities in the   acquisition strategy to compete network installation at the re-
DoD 3025 guidance series.                                           maining sites.
Reason Action Not Completed: Continuous coordination delays         Reason Action Not Completed: Air Force needs additional time
resulting in extensive time taken to issue DoD 3025 guidance        to verify whether acquisition strategy, which was approved by Air
series. The delays also affect other DoD components’ implemen-      Force in August 2009, has been approved by OUSD(AT&L).
tation of recommendations.                                          Principle Action Office: AF
Principle Action Office: USD(C), ASD(HD/ASA)
                                                                    Report: D-2009-037, TRICARE Controls Over Claims Prepared
Report: D-2008-134, Acquisition of the B-1 Fully Integrated Data    By Third-Party Billing Agencies, 12/31/2009
Link, 09/22/2008                                                    Description of Action: CFR Change to obtain authority to sanc-
Description of Action: Ensure that the B-1 FIDL, integrated with    tion billing agencies that prepare/submit improper health claims
the Common Link Integration Processing software, demonstrates       to TRICARE contractors initiated. TRICARE to obtain a waiver
acceptable performance prior to the program production deci-        to CFR prohibition to send health care claim payments directly to
sion.                                                               third party billing agencies.
Reason Action Not Completed: After delays in conducting             Reason Action Not Completed: The 32 CFR Section 199.7 clearly
planned testing, Air Force is completing the resulting documenta-   prohibits TRICARE from sending health care claim payments di-
tion of technology readiness required to support the B-1 FIDL       rectly to third party billing agencies. If TRICARE has determined
LRIP decision.                                                      it is too costly to comply with the CFR, TRICARE should take
Principle Action Office: AF                                         action to obtain an exception to the requirement.
                                                                    Principle Action Office: ASD(HA)
Report: D-2009-028, Organizational Structure and Managers
Internal Control Program for the Assistant Secretary of Defense     Report: D-2009-048, DoD Small Business Innovation Research
and American Forces Information Service, 12/10/2008                 Program, 01/30/2009
Description of Action: Expedite the selection of the Defense        Description of Action: The AT&L and Navy will establish new
Media Agency key managers; implement a DMA-wide personal            guidance to improve the SBIR program’s reporting, funding,
property program; investigate potential misuse of funds, improp-    contracting, and monitoring compliance with standards. The
er contracting, and statutory violations.                           guidance will ensure compliance with the Small Business Admin-
Reason Action Not Completed: A formal ADA Violation Investi-        istration’s Policy in regards to award values and period of perfor-
gation has been initiated, case number WHS W-03. Two manage-        mance.
ment positions have yet to be filled.                               Reason Action Not Completed: The development of the new
Principle Action Office: ASD(PA), WHS                               directive for the SBIR program has been placed on hold pending
                                                                    reauthorization of the program by Congress.
Report: D-2009-030, Marine Corps Implementation of the              Principle Action Office: AT&L, Navy
Urgent Universal Needs Process for Mine Resistance Ambush
Protected Vehicles, 12/05/2008                                      Report: D-2009-049, Internal Controls Over the United States
Description of Action: Report is FOUO.                              Marine Corps Military Equipment Baseline Valuation Effort,
Reason Action Not Completed: Lack of Joint Staff responsive-        02/09/2009
ness. Marine Corps action is on hold pending completion of Joint    Description of Action: Establish adequate controls over the valu-
Staff action.                                                       ation of the military equipment baseline.
Principle Action Office: Joint Staff, USMC                          Reason Action Not Completed: Lack of management attention
                                                                    to implementing corrective actions.
Report: D-2009-032, Audit of the Formation and Operation of         Principle Action Office: USMC
the America Supports You Program, 12/12/2008
Description of Action: Take appropriate actions to prevent
unauthorized use of the DoD trademarked America Supports You
Program name and logo.
Reason Action Not Completed: Awaiting ASD(PA) implementa-
tion of a July 12, 2010 OSD General Counsel opinion.
Principle Action Office: ASD(PA)




                                                                                                     APRIL 1, 2010 TO SEPTEMBER 30, 2010 107
Appendix F
Report: D-2009-051, Controls Over Time and Attendance                Report: D-2009-066, Marine Corps’ Management of the Recovery
Reporting at the National Geospatial-Intelligence Agency,            and Reset Programs, 04/01/2009
02/09/2009                                                           Description of Action: USMC efforts are ongoing to improve
Description of Action: Revise guidance to improve internal con-      inventory visibility and validate existing Approved Acquisition
trols over the time and attendance, especially the use of overtime   Objectives. Improvements resulting from that analyses will be
and compensatory time.                                               implemented.
Reason Action Not Completed: Awaiting the issuance of final          Reason Action Not Completed: Time is needed to validate in-
versions of two NGA instructions addressing time and atten-          vestment requirements, ensure accurate and supported unit prices
dance.                                                               are being used, requirements do not exceed approved acquisition
Principle Action Office: NGA                                         objectives and that those requirements are properly prioritized.
                                                                     Principle Action Office: USMC
Report: D-2009-059, Air Force Management of the U.S. Gov-
ernment Aviation Into-Plane Reimbursement Card Program,              Report: D-2009-067, Report on Controls over Air Force Material
03/06/2009                                                           Command Unliquidated Obligations on Department of the Air
Description of Action: Develop Air Force specific guidance           Force Contracts Supporting the Global War on Terror, 04/03/2009
and procedures on the use of the AIR Card. Develop a train-          Description of Action: Clarify Defense Finance and Accounting
ing program to ensure training for all personnel involved in AIR     Service Denver guidance to establish one code for unliquidated
functions.                                                           obligations requiring additional research.
Reason Action Not Completed: Air Force guidance on use of            Reason Action Not Completed: Upon implementation of FM-
AIR Card has been under development since August 2008, and           Suite, DFAS 7220.4-I will be revised to establish one code for
is not expected to be finalized until April 2011. Awaiting docu-     unliquidated obligation requiring additional research.
mentation that Air Force has obtained refunds for overcharges        Principle Action Office: DFAS
incurred from January 2005 through June 2007.
Principle Action Office: AF                                          Report: D-2009-072, Monitoring Power Track Payments for DoD
                                                                     Freight Transportation, 04/09/2009
Report: D-2009-062, Internal Controls Over DoD Cash and              Description of Action: Use data mining to monitor problem-
Other Monetary Assets, 03/25/2009                                    atic payments for duplicate payment indicators and implement
Description of Action: Improve internal controls over cash and       a process to reduce the likelihood of PowerTrack overpayments,
other monetary assets by establishing a special control account,     identify potential fraud indicators, and quickly recover overpay-
developing policies and procedures, and monitoring cash usage.       ments.
Develop non-cash methods of payment for contingency opera-           Reason Action Not Completed: The Third Party Payment System
tions.                                                               Oversight Council is reviewing current pre-payment procedures
Reason Action Not Completed: Corrective actions cannot be            for improving system controls to eliminate duplicate payments,
implemented until coordination with the Office of Management         including data mining capabilities. The TPPS Council will also
and Budget and/or the Department of the Treasury is complete.        address identification of fraud and recovery of overpayments.
Principle Action Office: USD(C) DFAS                                 Principle Action Office: USD(AT&L)

Report: D-2009-064, FY 2007 DoD Purchases Made Through the           Report: D-2009-073, DoD Components’ Use of Global War on
National Institutes of Health, 03/24/2009                            Terror Supplemental Funding Provided for Procurement and
Description of Action: Train contracting personnel, update fi-       Research, Development, Test, and Evaluation, 04/08/2009
nancial records, and improve oversight of potential Antideficiency   Description of Action: Issue standard operating procedures to
violations.                                                          require budget officers to separately identify supplemental, bridge,
Reason Action Not Completed: Developing training, updating fi-       and annual appropriated funds in their accounting systems in ac-
nancial records, and tracking progress of potential Antideficiency   cordance with DODFMR.
investigations takes considerable time to implement.                 Reason Action Not Completed: Lack of management responsive-
Principle Action Office: USD(AT&L), USD(C)                           ness.
                                                                     Principle Action Office: USMC




108 SEMIANNUAL REPORT TO THE CONGRESS
Report: D-2009-078, Health Care Provided by Military Treatment         Report: D-2009-097, Data Migration Strategy and Information 

Facilities to Contractors in Southwest Asia, 05/04/2009                Assurance for the Business Enterprise Information Services, 

Description of Action: OUSD (AT&L), in coordination with               07/30/2009
�
DFAS, is working to ensure that contracts for contractor person-       Description of Action: Improve internal controls over the Busi-
nel deployed outside of the U.S. include terms that adequately         ness Transformation Agency’s data migration strategy, infor-
address health care coverage and reimbursement.                        mation assurance, and compliance with the Federal Financial 

Reason Action Not Completed: The DFAS Accounts Receivables             Management Improvement Act of 1996.
�
Office is gathering data and information to draft a plan for all the   Reason Action Not Completed: Improving internal controls 

Services.                                                              takes time to complete.
�
Principle Action Office: USD(AT&L)                                     Principle Action Office: DCMO
�

Report: D-2009-086, Controls over the Contractor Common Ac-            Report: D-2009-098, Status of the Defense Emergency Response 

cess Card Life Cycle in the Republic of Korea, 06/09/2009              Fund in Support of the Global War on Terror, 07/30/2009
�
Description of Action: USFK will rewrite Regulation 700-19 to          Description of Action: Review Defense Emergency Response 

address the issues stated in the recommendations.                      Fund for the Global War on Terror obligations and deobligate all 

Reason Action Not Completed: USFK corrective action to re-             unliquidated obligations, withdraw all excess funds provided to 

write Regulation 700-19 is ongoing.                                    the DoD components, and transfer the funds to the U.S. Treasury.
�
Principle Action Office: USFK                                          Reason Action Not Completed: Extensive time needed to co-
                                                                       ordinate deobligation of unliquidated obligations, withdrawal of 

Report: D-2009-087, Controls over Contract Obligation Data in          excess funds, and transference of funds to U.S. Treasury.
�
the Logistics Modernization Program (LMP), 06/15/2009                  Principle Action Office: USD(C)
�
Description of Action: Army will implement standard operating
procedures for processing, controlling, and documenting contract       Report: D-2009-101, Information Assurance and Data Reliability 

data.                                                                  of the Automated Disbursing System, 09/22/2009
�
Reason Action Not Completed: Army has not finalized and                Description of Action: Require encryption of data received from 

implemented standard operating procedures for the LMP and has          Navy systems, update agreement with DISA on security controls, 

not yet submitted a change request to the LMP.                         and increase controls over manual payments.
�
Principle Action Office: Army                                          Reason Action Not Completed: Improving controls and updat-
                                                                       ing the security controls agreement takes time to implement.
�
Report: D-2009-089, Internal Controls Over Government Prop-            Principle Action Office: DFAS
�
erty in the Possession of Contractors at Two Army Locations,
06/18/2009                                                             Report: D-2009-104, Sanitization and Disposal of Excess Infor-
Description of Action: Improve internal controls over the exis-        mation Technology Equipment, 09/21/2009
�
tence, completeness, and valuation of government property in the       Description of Action: ASD (NII) is updating DoDI 8500.02. 

possession of contractors.                                             Navy action is FOUO.
�
Reason Action Not Completed: Improving internal controls               Reason Action Not Completed: Extended time is required for 

takes time to complete.                                                revision of DoD Instruction 8500.02.
�
Principle Action Office: Army                                          Principle Action Office: ASD(NII), Navy
�

Report: D-2009-094, Defense Industrial Financial Management            Report: D-2009-106, General and Application Controls for the 

System Controls and Compliance, 08/04/2009                             Distribution Standard System, 09/28/2009
�
Description of Action: Report is FOUO.                                 Description of Action: Report is FOUO.
�
Reason Action Not Completed: Management is continuing with             Reason Action Not Completed: Corrective actions are on sched-
system testing.                                                        ule.
�
Principle Action Office: DFAS                                          Principle Action Office: DLA
�

Report: D-2009-095, Contracting for Transportation Services for        Report: D-2009-107, DoD Enterprise Staffing Solution, 

U.S. Army Corps of Engineers, Gulf Region Division, 07/29/2009         09/28/2009
�
Description of Action: The GRD will issue and enforce guid-            Description of Action: Investigate actions cited in the report to 

ance for inventory and invoice reconciliation, and will establish      determine if there were Antideficiency Act violations and issue 

internal controls that ensure contracting officer’s representatives    specific guidance for the acquisition of software as a service.
�
provide and maintain sufficient applicable documentation.              Reason Action Not Completed: A formal ADA investigation is 

Reason Action Not Completed: USACE GRD has not imple-                  underway, and DoD will address software as a service.
�
mented new guidance and internal controls to improve contract-         Principle Action Office: USD(C), USD(AT&L)
�
ing procedures.
Principle Action Office: Army
                                                                                                        APRIL 1, 2010 TO SEPTEMBER 30, 2010 109
Appendix F
Report: D-2009-108, U.S. Air Forces Central War Reserve Mate-        Report: D-2009-112, Deferred Maintenance on the Air Force
riel Contract, 09/23/2009                                            C-130 Aircraft, 09/25/2009
Description of Action: The Air Force will ensure a qualified         Description of Action: Develop procedures for reporting partial-
contracting officer reviews and closes the old WRM contract, and     ly deferred maintenance for inclusion in the financial statements
reviews award fee determinations and sales of government prop-       and ensure compliance.
erty made under the old WRM contract. The DCAA will audit            Reason Action Not Completed: Developing procedures takes
direct costs under the old WRM contract and perform required         time to complete.
surveillance of DynCorps internal controls.                          Principle Action Office: AF
Reason Action Not Completed: Air Force has not completed
corrective actions on contracting issues or collected potential      Report: D-2009-113, Audit of Medical Equipment Used to Sup-
monetary benefits on the old WRM contract. DCAA has not yet          port Operations in Southwest Asia, 09/30/2009
conducted recommended audits.                                        Description of Action: Ensure timely implementation and an up-
Principle Action Office: AF, DCAA                                    dated milestone and implementation plan for the transition from
                                                                     the Theater Army Medical Management and Information System
Report: D-2009-109, Contracts Supporting the DoD Counter             to Defense Medical Logistics Standard Support System.
Narcoterrorism Technology Program Office, 09/25/2009                 Reason Action Not Completed: Awaiting fielding of new system
Description of Action: Contracting officers will be instructed to    in Southwest Asia. Fielding is expected to begin in fourth quarter
make numerous corrections and improvements. OIG will review          FY 2010.
the USD(C) legal position on a potential Antideficiency Act issue,   Principle Action Office: Army
DCAA will review public vouchers submitted under the CNTPO
contracts. USD(P) will issue policy on the use of Operations and     Report: D-2009-118, Internal Controls Over Naval Special War-
Maintenance appropriations for minor military construction.          fare Command Comptroller Operations in Support of Contin-
Reason Action Not Completed: The case was not decided until          gency Operations, 09/29/2009
September 2010, which resulted in limited follow-up action.          Description of Action: Develop software to allow electronic
DCAA has not completed recommended reviews.                          extraction of data on the cost of the Global War on Terror.
Principle Action Office: Army, USD(C), DCAA, USD(P)                  Reason Action Not Completed: Software development takes
                                                                     considerable time to complete.
                                                                     Principle Action Office: Navy

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(4).




110 SEMIANNUAL REPORT TO THE CONGRESS
Appendix G




                                                                                     Contract Audits with 

                                                                                     Significant Findings
	
DCAA
Audit Report No. 6431-2009I17200001                                     03/31/2010
Subject: Report on Audit of Equitable Adjustment Request
Prepared For: U.S. Army Program Executive Office for Simulation, Training and Instrumentation
Report: $30.5 Million Questioned Cost
The audit of the equitable adjustment proposal resulted in $30.5M of questioned cost, of which $29.1M related to subcontract costs for a sub-
contractor that refused to provide an adequate proposal.


Audit Report No. 4711-2009C17900003                                     05/12/2010
Subject: Report on Audit of Interim Invoices
Prepared For: Defense Contract Management Agency, Virginia
Report: $25.5 Million Questioned Cost
The audit of the subcontractor’s interim invoices resulted in $25.5M of questioned indirect costs and fees. The amounts were questioned due to
noncompliance with the billing instructions in the subcontract.


Audit Report No. 3321-2009K10180030 (Revised)                           05/20/2010
Subject: Audit Report on Costs Incurred
Prepared For: Defense Contract Management Agency, Phoenix - Houston
Report: $65.2 Million Questioned Cost
The audit of the contractor’s incurred costs resulted in $65.2M of questioned subcontract costs which were considered unreasonable because
they were significantly higher than other comparable subcontract prices.


Audit Report No. 4911-2009J10110001                                     07/09/2010
Subject: Report on Compliance with Program Requirements and Internal Control Over Compliance with OMB Circular A-133
Prepared For: National Aeronautics and Space Administration
Report: $30.9 Million Questioned Cost
The audit of the contractor’s submission resulted in $30.9M of questioned costs, including $20.6M of questioned dependent health insurance
expenses.


Audit Report No. 3321-2009K10180047                                     07/14/2010
Subject: Audit Report on Costs Incurred
Prepared For: Defense Contract Management Agency, Phoenix - Houston
Report: $11.1 Million Questioned Costs
The audit of the contractors incurred costs resulted in $11.1M of questioned subcontract costs which were considered unreasonable. The prime
contractor did not award the subcontract to the lowest priced, qualified bidder.




                                                                                                           APRIL 1, 2010 TO SEPTEMBER 30, 2010 111
Appendix G


Audit Report No. 2131-2010F17200003                                      08/15/2010
Subject: Audit of Equitable Adjustment Claim Submitted Pursuant to the Contract Disputes Act
Prepared For: U.S. Army Corps of Engineers
Report: $10.3 Million Questioned Cost
The audit of the contractors equitable adjustment claim resulted in the entire claim being questioned, including $3.5M of claimed material costs
and $2.0M of claimed finance and interest costs. The contractor did not maintain adequate supporting documentation to show that the claimed
costs had been incurred and were allocable to the contract.


Audit Report No. 3141-2010D17100001                                      08/18/2010
Subject: Report on Audit of Termination Settlement Proposal – Total Cost Basis
Prepared For: U.S. Army Joint Munitions and Lethality Life Cycle Management Command
Report: $70.8 Million Questioned Cost
The audit of the contractors proposal resulted in questioned costs of $70.8M, including $39.8M of unallowable material costs that were not
authorized by the contracting officer as required by the contract terms, $19.4M of associated indirect expense, and $8.4M of profit.


Audit Report No. 3161-2007H10100001                                      08/30/2010
Subject: Report on Audit of Incurred Cost and Facilities Capital Cost of Money Submissions for the Year Ended December 31, 2007
Prepared For: Defense Contract Management Agency Aeronautical
Report: $17.5 Million Questioned Cost
The audit of the submissions resulted in $17.5M of questioned costs, of which $14.8M relates to government flexibly priced contracts. Ques-
tioned direct contract costs totaled $10.8M and included unreasonable direct labor costs for contract engineers and unallocable direct material
costs. Questioned indirect costs totaled $6.7M including unallowable consultant costs and costs that should have been included in the capital-
ized cost of self-constructed assets instead of expensed in 2007.


Audit Report No. 3141-2009C17200001                                      09/02/2010
Subject: Report on Audit of Equitable Adjustment Claim for Constructive Changes and Delays
Prepared For: Defense Contract Management Agency, Chicago
Report: $13.4 Million Questioned Cost
The audit of the equitable adjustment claim resulted in $13.4M of questioned costs, including $8.3M of unabsorbed overhead and $4.7M of
labor claimed due to delays.


Audit Report No. 3171-2009U17900001 (Revised)                            09/10/2010
Subject: Report on Audit of Restructuring Costs
Prepared For: Defense Contract Management Agency, Ground Systems & Munitions Division
Report: $19.5 Million Questioned Cost
The audit of the contractor’s internal restructuring cost proposal resulted in $19.5M of questioned cost, including $15.5M related to claimed
losses on the sale of buildings.


Audit Report No. 2241-2009B10503003                                      09/20/2010
Subject: Report on Operations Audit of Subcontract Procurement Efficiency and Effectiveness
Prepared For: Defense Contract Management Agency - Phoenix
Report: $28.7 Million Cost Avoidance
The operations audit of the contractor’s subcontract procurement system resulted in recommended cost avoidance of $28.7M based which
could be realized by increasing the number of subcontracts awarded competitively.




112 SEMIANNUAL REPORT TO THE CONGRESS
DoD IG
	
 Audit Report No. D-2010-063                                                05/21/2010
 Subject: Analysis of Air Force Secondary Power Logistics Solution Contract
 Report: Audit – $70.1 Million Funds Put to Better Use
 DoD IG identified over $70 million of inventory in DLA warehouses that would not be effectively utilized because the Air Force was planning
 on procuring the same items under a performance based logistics contract with the original equipment manufacturer. Informing DLA, the Air
 Force, and the director of Defense Procurement resulted in the Air Force requiring its PBL contractor through contract terms to draw down the
 DLA inventory over a 10-year period.


 Audit Report No. D-2010-078                                                08/16/2010
 Subject: Air Force Use of Time-and-Materials Contracts in Southwest Asia
 Report: Audit – $24.3 Million Questioned Costs
 AFCEE contracting and program officials did not perform adequate contract oversight for work performed on the six task orders we reviewed
 valued at $120.8 million. Officials did not adequately monitor the title II (quality assurance and oversight services) contractors working in South-
 west Asia and did not adequately review invoices because the title II contracting officer’s representatives did not conduct site visits to Southwest
 Asia and, according to the contracting officer, there were not enough personnel to review invoices. As a result, AFCEE has no assurance that the
 contractors were working efficiently and effectively and AFCEE paid for $24.3 million in labor costs that were not part of the contract.


 Audit Report No. D-2010-081                                                08/27/2010
 Subject: Army Use of Time-and-Materials Contracts in Southwest Asia
 Report: Audit – $3.7 Million Questioned Costs
 Army contracting and DoD program officials did not properly award and administer the 18 T&M contracts and task orders for work performed
 in Southwest Asia. Contracting and program officials awarded contracts and task orders with invalid sole-source justifications or unfair competi-
 tion, did not negotiate reasonable prices, and did not justify their use of the T&M contract type. These conditions occurred because contracting
 and program officials ignored acquisition regulations. In addition, contracting and program officials did not perform adequate contractor sur-
 veillance for the 18 contracts and task orders because of inadequate organization and planning by the Army officials responsible for contractor
 oversight. DoD IG identified potential monetary benefits for the government of $3,688,338 related to unauthorized labor rate increases, subcon-
 tractor employees who may not have worked on the contract, and work performed after the period of performance had expired.



▶ Fulfills requirements of the National Defense Authorization Act for FY 2008 Section 845.




                                                                                                                APRIL 1, 2010 TO SEPTEMBER 30, 2010 113
Appendix H




Results of Peer Reviews
	


Federal audit organizations are required to undergo an external quality control assessment every three years. Federal audit organizations
can receive a rating of pass, pass with deficiencies, or fail.


Peer Review of Department of Defense IG by Department of Health
and Human Services OIG
The Department of Health and Human Services Office of Inspector General conducted an external peer review of the DoD IG Office of
Audit and issued a final report on December 2, 2009. DoD IG received a peer review rating of pass. There are no outstanding recommen-
dations. A copy of the external quality control review report can be viewed on the DoD IG Web site at www.dodig.mil/audit.


Peer Review of U.S. Postal Service OIG by Department of Defense IG
DoD IG conducted an external quality control review of the United States Postal Service Office of Inspector General audit organization
and issued a final report on March 31, 2010. USPS OIG received a peer review rating of pass. Below is a listing of the recommendations
made by the DoD IG that have not been fully implemented as of the semiannual period ending September 30, 2010 and the status of
those recommendations:

Recommendation 1: DoD IG recommended that the assistant inspector general for audit update its policies and procedures to ensure
compliance with generally accepted government auditing standards and applicable legal and regulatory requirements.
Status: Not fully implemented. The Office of Audit has updated all policies and procedures as of October 25, 2010. The policies are cur-
rently being reviewed by the Office of General Counsel prior to posting.
Recommendation 4 (a)&(b): DoD IG recommended that the assistant inspector general for audit (a) require a one-time review of the
completed training recorded in employee training logs; and (b) follow up on missing certificates of completion and ensure that evidence
of completed training is included in the employee training logs.
Status: Not fully implemented. As agreed to in the response, USPS OIG initiated a one-time review of the completed training recorded in
employee training logs in April 2010 and this review is ongoing. Completing the review and ensuring that evidence of completed training
is included in employee training logs is anticipated by January 2011.
Recommendation 5.2(d). DoD IG recommended that the assistant inspector general for audit improve reporting in performance reports
by (d) publishing management comments in field financial reports or capping reports.
Status: Not fully implemented. Although USPS OIG disagreed with publishing management comments in field financial reports or cap-
ping reports because these reports are issued in final only, they agreed on a process with the Postal Service whereby they will reissue the
final report with management comments if they disagree with the finding(s) or recommendation(s). Accordingly, to ensure compliance
with government auditing standards, USPS OIG revised the financial installation audit report template on October 22, 2010 to reflect this
process in our scope thereby fully addressing the intent of this recommendation.
A copy of the external quality control review report in its entirety can be viewed on the USPS OIG Web site at www.uspsoig.gov.

▶ Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(14),(15),(16).




114 SEMIANNUAL REPORT TO THE CONGRESS
Appendix I




                                                                              Acronyms
ADM          Acquisition Decision Memorandum          GAO         Government Accountability Office
AFAA/FS      Air Force Audit Agency Financial         GFP         Government-furnished Property
             Systems Audits Directorate               GSA         General Services Administration
AFAA/QL      Air Force Audit Agency Acquisition       HHS         Health and Human Services
             and Logistics Audits Directorate         HMMWV       High Mobility Multi-purpose Wheeled
AFAA/SP      Air Force Audit Agency Support and                   Vehicle
             Personnel Audits Directorate             HQ AMC      Headquarters, U.S. Army Materiel
AFCEE        Air Force Center for Engineering and                 Command
             the Environment                          ICCTF       International Contract Corruption
AFCENT       Air Forces Central Command                           Task Force
AFFSC        Air Force Financial Service              ICG         Interagency Coordination Group
             Center                                   ICE         U.S. Immigration and Customs
AFOSI        Air Force Office of Special                          Enforcement
             Investigations                           IED         Improvised Explosive Device
AFRL         Air Force Research Laboratory            IMCOM       Installation Management Command
AMC          Army Materiel Command                    JTTF        Joint Terrorism Task Force
AMCOM        Aviation and Missile Command             LOGCAP      Logistics Civil Augmentation Program
ANG          Air National Guard                       MHS         Military Health System
ARRA         American Recovery and                    MICC-EU     Mission and Installation Contracting
             Reinvestment Act                                     Command - Fort Eustis
ASG-KU       Area Support Group – Kuwait              MILCON      Military Construction
CID          Criminal Investigation Command           MPFU        Major Procurement Fraud Unit
CITF         Criminal Investigation Task Force        MRAP        Mine Resistant Ambush Protected
CRI          Civilian Reprisal Investigations                     Vehicle Program
CSSC-K       Combat Services Support Contract -       MSPV        Medical/Surgical Prime Vendor
             Kuwait                                   MTBP        Mass Transit Benefit Program
DCAA         Defense Contract Audit Agency            NATO        North Atlantic Treaty Organization
DCIS         Defense Criminal Investigative Service   NAVAUDSVC   Naval Audit Service
DCMA         Defense Contract Management              NCIS        Naval Criminal Investigative Service
             Agency                                   NCOER       Non-Commissioned Officer
DFAS         Defense Finance and Accounting                       Evaluation Report
             Service                                  NJTTFs      National Joint Terrorism Task Force
DISA         Defense Information Systems Agency       NRCC        Naval Regional Contracting
DISN         Defense Information Systems Network                  Command
DLA          Defense Logistics Agency                 NTV         Nontactical Vehicle
DoN          Department of the Navy                   OCCL        Office of Communications and
DPRI         Defense Posture Review Initiative                    Congressional Liaison
DRMO         Defense Reutilization and Marketing      OCIE        Organizational Clothing and
             Office                                               Individual Equipment
DTRA         Defense Threat Reduction Agency          OCO         Overseas Contingency Operations
ESC          Electronic Systems Center                OEF         Operation Enduring Freedom
FAR          Federal Acquisition Regulation           OIF         Operation Iraqi Freedom
FBI          Federal Bureau of Investigations         O&M         Operations and Maintenance
FMS          Foreign Military Sales                   OMB         Office of Management and Budget
FSRM         Facilities, Sustainment, Restoration     OSD         Office of the Secretary of Defense
             and Modernization                        PACAF       Pacific Air Forces


                                                                      APRIL 1, 2010 TO SEPTEMBER 30, 2010 115
Appendix I



PAD                        Public Access Defibrillators             UCA          Undefinitized/Contractual Action
PEO-EIS                    Program Executive Office for             USAAA        U.S. Army Audit Agency
                           Enterprise Information Systems           USACE        U.S. Army Corps of Engineers
PII                        Personally Identifiable Information      USACIL       United States Army Criminal
PWC                        Public Warehousing Company                            Investigation Laboratory
RATB                       Recovery Accountability and              USAF         U.S. Air Force
                           Transparency Board                       USAID        U.S. Agency for International
RC                         Reserve Component                                     Development
SDD                        System Development and                   USAREUR      U.S. European Command
                           Demonstration                            USCENTCOM    U.S. Central Command
SIGIR                      Special Inspector General for Iraq       USD (AT&L)   Under Secretary of Defense for
                           Reconstruction                                        Acquisition, Technology, and Logistics
SIPRNET                    Secret Internet Protocol Router          USDC/CFO     Under Secretary of Defense
                           Network                                               (Comptroller)/Chief Financial Officer)
SPS                        Standard Procurement System              USD (P&R)    Under Secretary of Defense for
STE                        Secure Terminal Equipment                             Personnel and Readiness
TADSS                      Training Aids, Devices, Simulators and   USPS         United States Postal Service
                           Simulations                              USTRANSCOM   U.S. Transportation Command
T&M                        Time and Materials                       WRM          War Reserve Materiel
TRADOC                     Training and Doctrine Command            ZAI          Zerene Aerospace Inventories, Inc.
VA                         Veterans Affairs




116 SEMIANNUAL REPORT TO THE CONGRESS
Department of Defense                   Department of Defense
�
Inspector General                             Inspector General
�
400 Army Navy Drive                        400 Army Navy Drive
�
Arlington, VA 22202-4704              Arlington, VA 22202-4704
�

www.dodig.mil                                   www.dodig.mil

Defense Hotline 1.800.424.9098   Defense Hotline 1.800.424.9098
